NO. __________
IN THE

Supreme Court of the United States
ARLENE’S FLOWERS, INC., D/B/A ARLENE’S FLOWERS AND
GIFTS, AND BARRONELLE STUTZMAN,
Petitioners,
v.
STATE OF WASHINGTON,

Respondent.

_____________________________________

ARLENE’S FLOWERS, INC., D/B/A ARLENE’S FLOWERS AND
GIFTS, AND BARRONELLE STUTZMAN,
Petitioners,
v.
ROBERT INGERSOLL AND CURT FREED,
Respondents.

On Petition for Writ of Certiorari to the
Supreme Court of Washington
PETITION FOR A WRIT OF CERTIORARI
JAMES A. CAMPBELL
RORY T. GRAY
ALLIANCE DEFENDING
FREEDOM
15100 N. 90th Street
Scottsdale, AZ 85260
(480) 444-0020

KRISTEN K. WAGGONER
Counsel of Record
DAVID A. CORTMAN
JOHN J. BURSCH
ALLIANCE DEFENDING FREEDOM
440 First Street, N.W.
Suite 600
Washington, D.C. 20001
(202) 393-8690
kwaggoner@ADFlegal.org

Counsel for Petitioners

JOHN R. CONNELLY
CONNELLY LAW OFFICES
2301 N. 30th Street
Tacoma, WA 98403
(253) 593-5100

GEORGE AHREND
AHREND LAW FIRM PLLC
100 E. Broadway Avenue
Moses Lake, WA 98837
(509) 764-9000

Counsel for Petitioners

i
QUESTIONS PRESENTED
Barronelle Stutzman is a Christian artist who
imagines, designs, and creates floral art. She serves
everyone and sells pre-arranged flowers for use in any
event. But she cannot take part in or create custom
art that celebrates sacred ceremonies that violate her
faith.
After serving Robert Ingersoll, a gay client, for
nearly ten years, Barronelle politely referred him to
three other florists when he asked her to create floral
art celebrating his same-sex wedding. That resulted
in Washington’s unprecedented attack on Barronelle
in both her personal and professional capacities, and
a ruling that she discriminated against Robert
because of his sexual orientation. The ruling threatens to bankrupt her.
After this Court vacated and remanded in light of
Masterpiece Cakeshop, the Washington Supreme
Court doubled-down, reissuing most of its prior
decision word for word and cabining Masterpiece to
prohibit religious hostility only by adjudicators—not
executive-branch officials like the State’s Attorney
General. In so doing, the court decided the following
important federal questions in conflict with decisions
of this Court and multiple Courts of Appeals:
1. Whether the State violates a floral designer’s
First Amendment rights to free exercise and free
speech by forcing her to take part in and create
custom floral art celebrating same-sex weddings or by
acting based on hostility toward her religious beliefs.
2. Whether the Free Exercise Clause’s prohibition
on religious hostility applies to the executive branch.

ii
PARTIES TO THE PROCEEDING AND
CORPORATE DISCLOSURE
Petitioner Arlene’s Flowers, Inc. is a small
Washington for-profit business owned by Petitioner
Barronelle Stutzman, an individual and citizen of
Washington. Arlene’s has no parent companies, and
no entity or other person has any ownership interest
in it.
Respondent State of Washington is a government
entity. Respondents Robert Ingersoll and Curt Freed
are individuals and citizens of Washington.
LIST OF ALL PROCEEDINGS
Supreme Court of Washington, No. 91615-2, State
of Washington v. Arlene’s Flowers, Inc. & Ingersoll v.
Arlene’s Flowers, Inc., judgment entered June 6, 2019.
U.S. Supreme Court, No. 17-108, Arlene’s Flowers,
Inc. v. Washington, judgment issued June 27, 2018.
Supreme Court of Washington, No. 91615-2, State
of Washington v. Arlene’s Flowers, Inc. & Ingersoll v.
Arlene’s Flowers, Inc., judgment entered February 16,
2017.
Superior Court of Benton County, Washington,
Nos. 13-2-00871-5 & 13-2-00953-3, State of Washington v. Arlene’s Flowers, Inc. & Ingersoll v. Arlene’s
Flowers, Inc., judgment entered February 18, 2015.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED ....................................... i
PARTIES TO THE PROCEEDING AND
CORPORATE DISCLOSURE .............................. ii
TABLE OF AUTHORITIES ..................................... ix
DECISIONS BELOW................................................. 1
STATEMENT OF JURISDICTION .......................... 1
PERTINENT CONSTITUTIONAL AND
STATUTORY PROVISIONS ................................ 2
INTRODUCTION ...................................................... 3
STATEMENT OF THE CASE ................................... 8
A. Barronelle’s custom floral designs and
participation in weddings ............................... 8
B. Barronelle’s relationship with Robert and
her decision not to take part in his
wedding .......................................................... 10
C. The Washington Attorney General’s
punishment of Barronelle ............................. 13
D. Washington courts’ rulings ........................... 15
E. This Court’s remand and subsequent
proceedings .................................................... 16

iv
REASONS FOR GRANTING THE WRIT............... 19
I. Requiring Barronelle to participate in sacred
ceremonies that violate her faith conflicts with
this Court’s case law and presents a national
issue of great importance. .................................. 21
II. The Washington Supreme Court’s decision
conflicts with the free-speech precedent of this
Court and multiple circuits. ............................... 26
A. By holding that Barronelle’s custom
wedding arrangements are not protected
expression, the Washington Supreme
Court’s ruling conflicts with decisions of
this Court and multiple circuits. .................. 27
B. By compelling Barronelle to create
objectionable expression, the Washington
Supreme Court’s ruling conflicts with
decisions of this Court and multiple
circuits. .......................................................... 30
C. By upholding a content-based application
of a public-accommodation law, the
Washington Supreme Court’s ruling
conflicts with decisions of this Court and
the Eighth Circuit. ........................................ 32
D. The Washington Supreme Court’s strictscrutiny analysis conflicts with decisions of
this Court and the Eighth Circuit. ............... 33

v
III.By holding that the Free Exercise Clause’s
prohibition on religious hostility does not
reach executive officials, the Washington
Supreme Court excused the State’s hostility
toward Barronelle’s faith. ................................... 34
A. Other courts recognize that the ban on
religious hostility applies to all
governmental branches. ................................ 34
B. Washington’s actions stem from hostility
toward Barronelle’s religious beliefs. ........... 36
IV. The State’s actions violate the hybrid-rights
doctrine................................................................ 39
V. This case is an ideal vehicle to confirm that
governments cannot force creative
professionals to celebrate and take part in
ceremonies that violate their beliefs. ................. 39
CONCLUSION ......................................................... 41

vi
APPENDIX TABLE OF CONTENTS
Washington Supreme Court Opinion
(June 6, 2019) ........................................................... 1a
United States Supreme Court Opinion
(June 25, 2018) ....................................................... 74a
Washington Supreme Court Opinion
(February 16, 2017, including February 21,
2017 court-ordered amendments).......................... 75a
Trial Court Judgment and Injunction in Case
No. 13-2-00871-5 (March 27, 2015) ..................... 132a
Trial Court Judgment and Injunction in Case
No. 13-2-00953-3 (March 27, 2015) ..................... 138a
Trial Court Memorandum Decision and
Order (February 18, 2015) ................................... 143a
Trial Court Memorandum Decision and
Order (January 7, 2015) ...................................... 228a
U.S. Const. amend. I ............................................ 278a
U.S. Const. amend. XIV, § 1 ................................ 278a
Excerpts from RCW 49.60.030 - Freedom from
discrimination—Declaration of civil rights ......... 279a
Excerpts from RCW 49.60.040 - Definitions ....... 280a

vii
Excerpts from RCW 49.60.215 - Unfair
practices of places of public resort,
accommodation, assemblage, amusement—
Trained dog guides and service animals ............. 282a
Excerpts from Brief of Appellants, filed
November 13, 2018 (No. 91615-2) ....................... 284a
Excerpts from Petition for a Writ of
Certiorari, filed July 14, 2017 (No. 17-108) ........ 296a
Excerpts from Brief of Appellants, filed
October 16, 2015 (No. 91615-2) ........................... 298a
Statement of Grounds for Direct Review,
filed June 1, 2015 (No. 91615-2) .......................... 301a
Excerpts from Defendants’ Objections to
Plaintiffs’ Proposed Judgments, filed March 23,
2015 (CP 2390-951) ............................................... 318a
Answer, Affirmative Defenses, and Third-Party
Complaint, filed May 16, 2013 (CP 6-24) ............ 320a
Answer and Affirmative Defenses, filed May
20, 2013 (CP 2533-2539) ...................................... 341a
Complaint for Injunctive and Other Relief
under the Consumer Protection Act by State
of Washington, filed April 9, 2013 (CP 1-5) ........ 350a

CP stands for the Clerk’s Papers transmitted by the trial court
as the record on appeal to the Washington Supreme Court.

1

viii
Complaint by Robert Ingersoll and Curt
Freed, filed April 18, 2013 (CP 2526-2532) ......... 357a
Letter from the Office of the Attorney General
of Washington to Barronelle Stutzman, dated
March 28, 2013 (CP 1325-1329) .......................... 365a
Declaration of Barronelle Stutzman, filed
October 25, 2013 (CP 45-47) ................................ 371a
Declaration of Barronelle Stutzman, filed
December 8, 2014 (CP 534-549)........................... 375a
Expert Declaration of Jennifer Robbins, filed
December 8, 2014 (CP 668-676)........................... 393a
Declaration of David Mulkey, filed December
8, 2014 (CP 662-665) ............................................ 403a
Declaration of Nickole Perry in support of
Motion for Summary Judgment, filed
December 8, 2014 (CP 653-659)........................... 407a

ix
TABLE OF AUTHORITIES
Cases
Anderson v. City of Hermosa Beach,
621 F.3d 1051 (9th Cir. 2010) .............................. 28
Ashcroft v. Free Speech Coalition,
535 U.S. 234 (2002) .............................................. 29
Bery v. City of New York,
97 F.3d 689 (2d Cir. 1996) .................................... 31
Booth v. Maryland,
327 F.3d 377 (4th Cir. 2003) ................................ 35
Brown v. Entertainment Merchants Association,
564 U.S. 786 (2011) .............................................. 28
Buehrle v. City of Key West,
813 F.3d 973 (11th Cir. 2015) ........................ 28, 31
Central Rabbinical Congress of United States &
Canada v. New York City Department
of Health & Mental Hygiene,
763 F.3d 183 (2d Cir. 2014) .................................. 35
Church of the Lukumi Babalu Aye, Inc.
v. Hialeah,
508 U.S. 520 (1993) .................................. 25, 35, 38
City of Boerne v. Flores,
521 U.S. 507 (1997) .............................................. 25
Clark v. Community for Creative Non-Violence,
468 U.S. 288 (1984) .............................................. 30
Colorado Christian University v. Weaver,
534 F.3d 1245 (10th Cir. 2008) ............................ 35

x
Cressman v. Thompson,
798 F.3d 938 (10th Cir. 2015) .............................. 28
Employment Division v. Smith,
494 U.S. 872 (1990) ................................... 23-24, 39
ETW Corp. v. Jireh Publishing, Inc.,
332 F.3d 915 (6th Cir. 2003) .......................... 28, 31
Everson v. Board of Education of Ewing
Township,
330 U.S. 1 (1947) ............................................ 21, 24
Fraternal Order of Police Newark Lodge No. 12
v. City of Newark,
170 F.3d 359 (3d Cir. 1999) .................................. 35
Hosanna-Tabor Evangelical Lutheran Church &
School v. EEOC,
565 U.S. 171 (2012) .............................................. 23
Hurley v. Irish-American Gay, Lesbian & Bisexual
Group of Boston,
515 U.S. 557 (1995) .............................20, 27, 29, 31
Janus v. American Federation of State, County, &
Municipal Employees,
138 S. Ct. 2448 (2018) .................................... 17, 30
Kaplan v. California,
413 U.S. 115 (1973) .............................................. 27
Kennedy v. Bremerton School District,
139 S. Ct. 634 (2019) ............................................ 25
Lee v. Weisman,
505 U.S. 577 (1992) ......................................... 21-23
Masterpiece Cakeshop, Ltd. v. Colorado Civil
Rights Commission,
138 S. Ct. 1719 (2018) ................................... passim

xi
Mastrovincenzo v. City of New York,
435 F.3d 78 (2d Cir. 2006) .................................... 28
Miami Herald Publishing Co. v. Tornillo,
418 U.S. 241 (1974) ........................................ 30, 33
National Institute of Family and Life Advocates
v. Becerra,
138 S. Ct. 2361 (2018) .............................. 17, 27, 30
Obergefell v. Hodges,
135 S. Ct. 2584 (2015) ...........................7, 22, 38, 40
Piarowski v. Illinois Community College
District 515,
759 F.2d 625 (7th Cir. 1985) ................................ 28
Reed v. Town of Gilbert,
135 S. Ct. 2218 (2015) ..................................... 33-34
Riley v. National Federation of the Blind of North
Carolina, Inc.,
487 U.S. 781 (1988) ........................................ 31, 33
Rumsfeld v. Forum for Academic & Institutional
Rights, Inc.,
547 U.S. 47 (2006) ................................................ 32
Shrum v. City of Coweta,
449 F.3d 1132 (10th Cir. 2006) ............................ 35
Stormans, Inc. v. Wiesman,
794 F.3d 1064 (9th Cir. 2015) .............................. 36
Telescope Media Group v. Lucero,
__ F.3d __, 2019 WL 3979621
(8th Cir. Aug. 23, 2019) ................................. passim
Tenafly Eruv Association, Inc. v. Borough
of Tenafly,
309 F.3d 144 (3d Cir. 2002) .................................. 36

xii
Texas v. Johnson,
491 U.S. 397 (1989) .............................................. 34
Trinity Lutheran Church of Columbia, Inc.
v. Comer,
137 S. Ct. 2012 (2017) ..................................... 23-25
Turner v. Safley,
482 U.S. 78 (1987) ................................................ 22
Washington State Grange v. Washington State
Republican Party,
552 U.S. 442 (2008) .............................................. 32
West Virginia State Board of Education
v. Barnette,
319 U.S. 624 (1943) ....................................... passim
White v. City of Sparks,
500 F.3d 953 (9th Cir. 2007) .......................... 28, 31
Wooley v. Maynard,
430 U.S. 705 (1977) ........................................ 19, 30
Statutes
28 U.S.C. 1257(a) ....................................................... 1
Other Authorities
Caleb Parke, Colorado Commission drops case
against Christian baker,
Fox News (Mar. 5, 2019) ........................................ 5
Dori at odds with AG’s explanation of florist-gay
wedding lawsuit,
Kiro Radio (Jan. 9, 2015)...................................... 37

xiii
Michael W. McConnell, Establishment and
Disestablishment at the Founding, Part I:
Establishment of Religion,
44 Wm. & Mary L. Rev. 2105 (2003).................... 24
Michael W. McConnell, The Origins and Historical
Understanding of Free Exercise of Religion,
103 Harv. L. Rev. 1409 (1990).............................. 25
News Release, Washington Attorney General, AG
Ferguson Files Consumer Protection Action
Against Tri-Cities Florist (Apr. 9, 2013) .............. 14

1
DECISIONS BELOW
The Superior Court of Benton County’s judgments
and opinions granting summary judgment in
Respondents’ favor are unreported and reprinted in
the Appendix (“App.”) at App.132a–277a.
The Washington Supreme Court’s first decision
affirming the judgments for Respondents is reported
at 389 P.3d 543 (Wash. 2017), and reprinted at
App.75a–131a.
This Court’s order granting the petition for writ of
certiorari, vacating the Washington Supreme Court’s
judgment, and remanding in light of Masterpiece
Cakeshop is reported at 138 S. Ct. 2671 (2018), and
reprinted at App.74a.
The Washington Supreme Court’s second decision
affirming the judgments for Respondents is reported
at 441 P.3d 1203 (Wash. 2019), and reprinted at
App.1a–73a.
STATEMENT OF JURISDICTION
The Washington Supreme Court issued its
decision on June 6, 2019. Justice Kagan extended the
time to file this petition until September 11, 2019.
This Court has jurisdiction under 28 U.S.C. 1257(a).

2
PERTINENT CONSTITUTIONAL AND
STATUTORY PROVISIONS
Pertinent text from the First and Fourteenth
Amendments to the United States Constitution is
found at App.278a. Relevant portions of the Washington Law Against Discrimination are reproduced at
App.279a–83a.

3
INTRODUCTION
In Masterpiece Cakeshop, Ltd. v. Colorado Civil
Rights Commission, 138 S. Ct. 1719 (2018), this Court
granted review to decide whether the Free Exercise or
Free Speech Clauses barred Colorado from using a
public-accommodation law to compel cake artist Jack
Phillips to participate in and create art celebrating a
marriage that violated his religious beliefs. Because
Colorado’s hostility toward those beliefs so blatantly
violated the Free Exercise Clause, this Court did not
fully address all the issues presented. This case is an
ideal vehicle to resolve the remaining questions.
In Masterpiece, this Court said that religious
beliefs affirming marriage as the union of a man and
a woman “are protected views and in some instances
protected forms of expression,” and that the government must treat those beliefs with “toleran[ce]”
and “respect[ ].” 138 S. Ct. at 1727, 1731. Despite this
call for civility, governments across the country have
continued to slur, shun, punish, and threaten to
imprison those whose faith compels them to honor
their religious beliefs about marriage.
One of those vilified for living according to these
beliefs is Washington’s Barronelle Stutzman, who
owns Arlene’s Flowers and has practiced floral design
for over 40 years. She serves everyone, including
Respondents Robert Ingersoll and his same-sex
partner, Curt Freed. For almost ten years, Barronelle
and Robert built a friendship. During that time, she
designed custom floral arrangements for his anniversaries and other events.

4
Barronelle’s Christian beliefs prevent her from
creating custom floral arrangements that celebrate
same-sex weddings or from attending and participating in those ceremonies. She believes that marriage is
sacred and that all wedding ceremonies hold deep
religious meaning. When Robert asked Barronelle to
create the floral designs for his marriage to Curt, she
took Robert aside and, as she held his hands, shared
how much she cared for him; then she explained her
religious conflict. The two continued to talk, and
Barronelle referred Robert to three nearby florists.
Barronelle’s compassionate response epitomizes
how Americans with differing marriage beliefs can
peacefully coexist. While Robert is free to celebrate
his and Curt’s marriage, Barronelle should be equally
free to practice her art without betraying the faith
that inspires it. Instead, the State brought all its power down on Barronelle, seeking to compel her to create
art against her conscience. The Attorney General
concocted a one-of-a-kind lawsuit, prompting others
to threaten and harass her. Yet the Attorney General
did not investigate, demand assurances, or file suit
when a gay coffee-shop owner berated and booted a
group of Christians from his store based on religious
views they expressed on a public street.
After the Washington Supreme Court ruled
against Barronelle, this Court granted her petition
and vacated and remanded in light of Masterpiece.
138 S. Ct. 2671 (2018). But on remand, the Washington Supreme Court construed Masterpiece’s condemnation of religious hostility as applicable only to
“adjudicatory bodies,” App.19a–21a, ignored all
evidence of the Attorney General’s hostility toward
Barronelle’s faith, App.21a–26a, and issued a decision

5
that restated most of its first opinion verbatim,
App.3a–73a & n.1. The court did not believe it acted
intolerantly, even though it refused to recognize the
obvious distinction between Barronelle’s undisputed
willingness to serve gay customers and her limited
conflict with celebrating a sacred event that violates
her faith. The court branded Barronelle a “discriminator” and ordered her to attend, facilitate, and create
custom floral art celebrating all marriages or none.
And it imposed personal liability on her. Barronelle
now stands to lose nearly everything she owns.
Barronelle is hardly alone in facing harsh punishment for her religious beliefs on marriage:
x Shortly after Jack Phillips prevailed in Masterpiece, Colorado sued him again. One of the
commissioners who launched the new suit called
him a “hater,” and two more expressed support for
the very comments that Masterpiece called
disrespectful and disparaging of religion.1
x East Lansing expelled a family-run apple orchard
located 22 miles outside of town from its farmer’s
market—where the orchard served everyone and
received wide acclaim—after the owner posted his
Catholic marriage beliefs on Facebook. City
officials mocked his beliefs as “ridiculous,

1 Am. Compl. ¶ 259, Masterpiece Cakeshop, Inc. v. Elenis, No. 18cv-02074 (D. Colo. Oct. 23, 2018); Caleb Parke, Colorado
Commission drops case against Christian baker, Fox News (Mar.
5, 2019), https://fxn.ws/2jZEpvA; Audio of Commissioner
Fabrizio, http://bit.ly/2lFKFZZ; Audio of Commissioner Lewis,
http://bit.ly/2m3bHut.

6
horrible, [and] hateful” and considered them “the
same” as views promoting racism.2
x Phoenix insists that if the owners of a calligraphy
and hand-painting studio paint a wedding sign
with scripture declaring that God has joined a
man and a woman as “one flesh,” they must write
the same message—and draw an image of two
grooms or two brides—for a same-sex wedding or
face jail time.3
x Minnesota interprets its public-accommodation
law to require a film studio that tells stories
celebrating weddings uniting a man and a woman
to either communicate equally “positive” messages about same-sex weddings or stop speaking
about marriage at all.4
x And New York State is terminating a faith-based
adoption provider for declining to make placements that violate its religious beliefs about
marriage, even though the organization funds its
own operations and needs only a government
license to operate.5
2 Mem. in Supp. of Pls.’ Mot. for Summ. J. 1, 4, Country Mill
Farms, LLC v. City of East Lansing, No. 1:17-cv-487 (W.D. Mich.
Jan. 24, 2019).

Pet. for Review 4–5, Brush & Nib Studio v. City of Phoenix, No.
CV-18-0176 (Ariz. July 9, 2018); Oral Argument at 35:54–36:48
(Jan. 22, 2019), http://bit.ly/2k4SMyL.

3

Telescope Media Group v. Lucero, __ F.3d __, 2019 WL 3979621,
at *2 (8th Cir. Aug. 23, 2019).

4

Opening Br. of Appellant 3–12, New Hope Family Servs., Inc.
v. Poole, No. 19-1715 (2d Cir. Aug. 15, 2019). See also Compl. 2–
5

7
These First Amendment violations must stop.
Absent this Court’s review, government officials will
keep dragging “reasonable and sincere people” of faith
like Barronelle through the courts, Obergefell v.
Hodges, 135 S. Ct. 2584, 2594 (2015), imposing
ruinous judgments, and barring them from their professions simply because they hold disfavored views
about marriage.
Religious people should be free to live out their
beliefs about marriage. But states like Washington
afford that freedom only to people who support samesex marriage, while stripping it from Barronelle and
others like her. Only this Court can resolve the
numerous First Amendment conflicts these issues
have created, restore the balance that the Constitution requires, and set precedent that will protect
people across the political spectrum in present and
future cultural debates. Certiorari is warranted.

4, Catholic Charities W. Mich. v. Mich. Dep’t of Health & Human
Servs., No. 2:19-cv-11661 (E.D. Mich. Apr. 25, 2019) (same issue
in the context of a government-funded agency).

8
STATEMENT OF THE CASE
A. Barronelle’s custom floral designs and
participation in weddings
Barronelle learned the art of floral design from her
mother, who pioneered the family business.
App.377a. Unchallenged expert evidence establishes
that floral art dates from “ancient times,” App.399a,
and that, like other forms of visual art, it incorporates
artistic principles such as balance and harmony,
App.398a. Barronelle’s floral expert confirmed that
she “approaches wedding arrangements as an artist.”
App.400a–01a.
Like all artists, Barronelle speaks through her
custom creations. Floral designs “celebrate the happy
and joyous occasions of life” and “express emotions
from deep within the soul.” Wash. Sup. Ct. Clerk’s
Papers (“CP”) 692. Unrebutted expert testimony
substantiates that Barronelle’s creations are multimedia works incorporating flowers—together with
“fabrics, pictures, and a variety of other objects,”
App.399a—to convey “expressive message[s],”
App.380a; see also App.377a, 399a–400a; and that
she has her own “recognizable” style, App.400a–01a.
As a Christian, Barronelle sincerely believes she
must use her artistic skills and business to honor God.
App.376a–77a. Her faith teaches that marriage is a
sacred covenant between one man and one woman.
App.381a, 387a. Barronelle’s theological expert confirmed her belief that all weddings are sacred events,
no matter whether the marriage is performed in a
church or if the couple shares her beliefs. CP606–07.

9
Barronelle loves designing custom wedding arrangements because it allows her to celebrate a relationship
created by God with eternal importance. App.380a–
81a.
Much like installation art, Barronelle’s custom
wedding work involves creating individual pieces—
such as bride and bridesmaid bouquets, arches,
boutonnieres, pew markers, and centerpieces—and
then weaving them into a larger artistic whole to
express celebration for the couple’s marriage.
App.382a–83a, 400a. Robert and Curt admit that
wedding flowers convey a “celebratory” message or
atmosphere. CP1752, 1858. And through iconic wedding arrangements like bridal bouquets, Barronelle’s
art announces the event as a wedding and the couple’s
union as a marriage. App.382a–83a.
Barronelle’s creative process begins with getting
to know the couple and their story so she can tailor
her designs to express their “relationship and personalities” and celebrate the two becoming one. App.381a
–82a; see also App.408a–09a (testimony of past
wedding client discussing this process). Every floral
designer who testified in this case agreed that
creating custom wedding designs demands intense
personal investment. App.381a–82a, 385a, 399a–
401a, 405a. That personal tie is heightened by
Barronelle’s “religious beliefs about the importance of
marriage.” App.385a.
Besides design work, Barronelle often provides
“full wedding support” for large weddings or longtime
clients. App.383a–85a. Those paid services include
delivering wedding arrangements in company vans,

10
positioning her floral art at the ceremony venue, making last-minute adjustments, and attending and participating in the ceremony itself by—for instance—
pinning the groomsmen’s boutonnieres and family
members’ corsages and adjusting those pieces before
the bridal party walks down the aisle. App.383a,
410a–11a; CP1589–90. She does “whatever it takes”
to make the wedding a success. App.384a.
Over many decades, Barronelle designed the
arrangements for “a large number of weddings,”
CP1591, approximately two to three per month,
CP1672. Weddings are Barronelle’s favorite work
because designing those custom arrangements is the
highest form of her art and because weddings have
special religious significance for her. App.380a–81a.
Demonstrating her artistic skill and excellent
personal service at weddings also plays a key role in
generating future business. App.381a, 400a, 411a.
B. Barronelle’s relationship with Robert and
her decision not to take part in his
wedding
Barronelle serves and develops friendships with
customers “of all different backgrounds and beliefs.”
App.380a. Her love for people—and desire to treat
them with dignity and respect—is a part of her
Christian faith. App.379a; CP609. Barronelle regularly serves and hires LGBT individuals. A former gay
employee described her as “one of the nicest women
[he’s] ever met” and said she is “very kind” to LGBT
employees and customers alike. App.404a–05a.

11
For nearly ten years, Barronelle was Robert’s
florist. App.372a–73a, 385a. Barronelle still considers
Robert one of her favorite clients. They had a “warm
and friendly” relationship, App.373a; CP1750; and
Robert commissioned 30 or more arrangements from
Barronelle, CP1735.
Robert valued Barronelle for her artistry and
almost always commissioned innovative floral
arrangements. CP1737–38. Very rarely did he purchase premade arrangements, CP1737, and never did
he buy flowers to arrange himself, CP1797. Instead,
Robert would give Barronelle a “message” for her to
communicate with flowers, CP1797, and say “[d]o
your thing,” CP1611.
This creative partnership resulted in Barronelle
designing arrangements for Robert and Curt’s anniversaries and as Valentine’s Day gifts. CP1607, 1735.
Robert and Curt were “always . . . happy,” CP1740–
41, with Barronelle’s “exceptional creativity,”
CP1852, “thoughtful” designs, CP1745, and “amazing
work,” CP1746.
Soon after Washington began recognizing samesex marriage, Robert and Curt decided to marry and
ask Barronelle “do the flowers.” CP350. Robert came
to the shop and asked for Barronelle, but she was not
there, so an employee provided Robert with a copy of
her schedule. CP350. Meanwhile, the employee told
Barronelle about Robert’s visit. App.386a.
Barronelle had never before received a same-sex
wedding request. App.387a; CP1612–14. Because
Robert almost “always requested complex and intricate work,” and because he was a longtime customer,
Barronelle was sure he wanted her “to custom design

12
his floral arrangements” and “provide full wedding
support” at the ceremony. App.386a–87a. She prayed
with her husband, looked to her faith, and “decided
that [she] could not in good conscience participate” in
Robert’s same-sex wedding. App.387a–88a.
When Robert returned to the shop, Barronelle
walked with him to a quiet corner, “gently took his
hand, looked him in the eye, and told him that [she]
could not do his wedding”—or “be a part of his
event”—because of her “relationship with Jesus
Christ.” App.388a; CP1615–16. Robert testified that
she took no “joy or satisfaction” in having to tell him
that. CP1764. Robert said he understood, and they
discussed his engagement and wedding plans.
App.389a; CP1618. Barronelle gave him the names of
three nearby floral artists she knew would do a good
job. App.388a. They hugged, and Barronelle expected
they would remain friends with a disagreement about
marriage. App.389a.
Barronelle’s conversation with Robert became
public after Curt posted on Facebook and media
picked up the story. CP1757, 1860. Curt said that he
understood Barronelle’s position from a “political and
religious” perspective. CP1262. As a result of the
media coverage, Robert and Curt experienced an
“amazing outpouring of support,” CP1757, 1860,
including enough offers of free floral designs that they
“could get married about 20 times,” CP1271.
Robert and Curt were married a few months later
in their home at a small ceremony. CP1798–99. A
minister presided and explained the meaning of their
marriage vows, as well as marriage’s significance.
CP1488, 1803–04. The couple exchanged rings and

13
celebrated with “custom-designed” corsages and
boutonnieres created by a friend and with a “beautiful” floral arrangement created by a designer
Barronelle recommended. CP1747–48, 1801.
As media coverage escalated, Barronelle began
receiving calls and needed to decide how to respond to
future wedding requests. Because Barronelle views
weddings as inherently religious events, and because
she personally participates in them, she established a
policy that Arlene’s Flowers will refer requests to
create custom floral designs and provide full wedding
support for same-sex weddings. App.389a; CP1640.
But Arlene’s Flowers will sell premade arrangements (those already created and offered for sale),
unarranged flowers, and materials for use in samesex weddings. App.389a–90a; CP1642. And
Barronelle continues to offer custom floral art for
same-sex couple’s anniversaries, child adoptions,
Valentine’s Day requests, and other life events.
App.390a; CP1607, 1637.
C. The Washington Attorney
punishment of Barronelle

General’s

News reports brought Barronelle and Robert’s
conversation to the Washington Attorney General’s
attention. CP1296–97. Although Robert and Curt
never filed a complaint, CP1503-04, the Attorney
General personally called Curt three times to offer
support and say that his office was “research[ing] . . .
options . . . to pursue this issue,” CP1476–77, 1886–
88.

14
The Attorney General kept his promise. His office
sent Barronelle a certified letter demanding that she
take part in same-sex wedding ceremonies or give up
her wedding business. App.365a–70a. If she refused
to sign an Assurance of Discontinuance, the office
would take formal action. App.367a. Barronelle
declined the ultimatum, so the Attorney General sued
Arlene’s Flowers and Barronelle personally.
App.350a–56a. Never before in the history of the
State’s Consumer Protection Act (“CPA”) had the
Attorney General pursued a CPA claim based on a
violation of the Washington Law Against Discrimination (“WLAD”). CP1502–03. Even though the
Attorney General’s Office usually refers WLAD
complaints to the Washington State Human Rights
Commission, it bypassed the Commission here.
Working with the Attorney General, Robert and Curt
filed a similar lawsuit, App.357a–64a, and the two
cases were effectively consolidated.
After the Attorney General’s highly publicized
lawsuit,6 Barronelle was inundated with “hate-filled
phone calls, emails, and Facebook messages” that
contained profanity, attacks on her faith, and “explicit
threats against [her] safety, including a threat to
burn down [her] shop.” App.390a. Six years later, she
remains in litigation that could cost her nearly
everything she owns.

News Release, Wash. Attorney General, AG Ferguson Files
Consumer Protection Action Against Tri-Cities Florist (Apr. 9,
2013), https://bit.ly/2jThaDo.
6

15
D. Washington courts’ rulings
Although Barronelle designed custom floral art for
Robert and Curt for nearly ten years knowing they
were in a same-sex relationship, a state trial court
declared her guilty of sexual-orientation discrimination for declining to celebrate their wedding ceremony. App.180a–87a, 190a–95a. It rejected Barronelle’s free-exercise defense by, among other things,
characterizing the WLAD as a neutral and generally
applicable law, App.200a–02a, and it bypassed her
free-speech defense by holding that there can never
be “a free speech exception (be it creative, artistic, or
otherwise) to” public-accommodation laws, App.199a.
The Attorney General then requested—and the
trial court granted—summary judgment and a
permanent injunction prohibiting “any disparate
treatment in the offering or sale of goods, merchandise or services . . . to same-sex couples,” including
those Arlene’s Flowers provides “for weddings.”
App.135a. It did so over Barronelle’s explicit objection
that this would require her to “physically appear at”
and participate in same-sex wedding ceremonies.
App.319a. And the trial court held Barronelle
personally liable for a not-yet-determined amount of
damages and attorney fees. App.141a.
The Washington Supreme Court affirmed, holding
that Barronelle’s “refusal to provide custom floral
arrangements for a same-sex wedding violated the
WLAD’s prohibition on discrimination in public
accommodations,” App.97a, because “[d]iscrimination
based on same-sex marriage constitutes discrimination on the basis of sexual orientation,” App.130a.
The court rejected Barronelle’s free-exercise defense

16
by (1) ignoring her compelled-participation argument
and refusing to address the language in the trial
court’s injunction compelling her to take part in samesex weddings, (2) declaring the WLAD a neutral and
generally applicable law that satisfied even strict
scrutiny under the state constitution, and (3) deeming
the hybrid-rights doctrine inapplicable. App.108a–
25a, 127a–28a. Free-speech protections also did not
apply in the court’s view. App.97a–107a. It upheld the
trial court’s summary-judgment ruling, permanent
injunctions, and final judgments. App.130a–31a.
E. This Court’s remand and subsequent
proceedings
Barronelle sought this Court’s review of her freeexercise and free-speech claims. Pet. for a Writ of
Cert., Arlene’s Flowers, Inc. v. Washington, No. 17108 (July 14, 2017). The Court granted Barronelle’s
petition, vacated the decision below, and remanded
for reconsideration in light of Masterpiece. App.74a.
On remand, Barronelle argued that the State
violated her free-exercise rights. First, the trial
court’s order would require Barronelle to personally
participate in wedding ceremonies—events she considers sacred—that violate her faith.7 App.285a,
288a–95a. Second, the Attorney General was hostile
to Barronelle’s religious beliefs about marriage,
likened them to racist views, and sought to punish
them via an unprecedented lawsuit. App.285a. Yet
Contrary to the Washington Supreme Court’s contention,
App.4a, 12a, Barronelle has maintained at every stage that the
State’s injunctions require her to participate in same-sex weddings. E.g., App.285a, 288a–300a, 311a–13a, 318a–19a, 337a.

7

17
the Attorney General let the gay owner of a coffee
shop off scot-free after he expelled a group of
Christians in October 2017 because they distributed
religious flyers on the street. App.285a. Barronelle
proffered evidence of the incident, but the court
rejected it and related evidence as “irrelevant.”
App.21a–26a.8
Barronelle also maintained that forcing her to
create floral art celebrating same-sex weddings
violated her free-speech rights. App.285a–86a. In
support, she cited principles discussed in Masterpiece
and this Court’s recent decisions in Janus v.
American Federation of State, County, & Municipal
Employees, 138 S. Ct. 2448 (2018), and National
Institute of Family and Life Advocates v. Becerra, 138
S. Ct. 2361 (2018) (“NIFLA”).
But the Washington Supreme Court punished
Barronelle again and reinstated its prior decision—
reciting most of its first ruling verbatim. App.3a–73a
& n.1. The court cabined Masterpiece to forbid
hostility only by “adjudicatory bodies,” App.19a–21a,
holding that the Attorney General’s hostility toward
Barronelle’s faith was irrelevant, App.21a–26a.
The court refused to address the free-exercise
ramifications of compelling Barronelle to participate
in sacred ceremonies because it said she is not paid to
sing or clap at those events. App.12a. But it ignored
that the injunctions require Barronelle to deliver
wedding arrangements to the ceremony venue,
Petitioners presented a declaration authenticating a video of
the coffee-shop incident to the Washington Supreme Court. That
video is publicly available at https://bit.ly/2SNo7m3.

8

18
decorate the location with her art, and attend the
ceremony to assist the wedding party and ensure her
arrangements look beautiful throughout. App.383a,
410a–11a; CP1589–90.
Likewise, the Washington Supreme Court
snubbed this Court’s free-speech discussions in
Masterpiece, Janus, and NIFLA. From its perspective,
Masterpiece was irrelevant because it did not
“reconcile” the conflict between public-accommodation laws and free-speech rights, App.16a; and
Janus and NIFLA were “outside the scope of the
remand” and immaterial because they did not
specifically
address
“public
accommodations
statute[s],” App.21a n.5.

19
REASONS FOR GRANTING THE WRIT
The First Amendment’s free-exercise and freespeech guarantees unite in a common purpose—to
ensure freedom of conscience for all. Wooley v.
Maynard, 430 U.S. 705, 714 (1977); W. Va. State Bd.
of Educ. v. Barnette, 319 U.S. 624, 637 (1943). But the
Washington Supreme Court’s ruling strips that freedom from those who continue to hold the honorable
belief that marriage is a union between one man and
one woman. This Court’s review is needed to ensure
that people of faith have the freedom to live according
to their beliefs about marriage, and to bar governments from mandating which sacred events merit
celebration. Barnette, 319 U.S. at 642.
This Court granted the petition in Masterpiece to
resolve these very questions. But the Court did not
fully answer them. As a result, government officials
and courts have continued to punish people like
Barronelle because of their beliefs about marriage,
almost as if Masterpiece never happened. This case is
a strong vehicle to address those unanswered
questions. And additional percolation of the growing
decisional conflicts is unnecessary. It will serve only
to further erode civility and harm more citizens forced
to speak or act against their conscience.
Here, Washington has violated Barronelle’s First
Amendment rights in three ways. First, the State
requires her to take part in what she believes to be
sacred ceremonies that violate her faith. The Free
Exercise Clause protects against this kind of
compelled participation.

20
Second, the State forces Barronelle to create
custom floral art celebrating same-sex marriage
through a content-based application of its publicaccommodation law. Barronelle’s custom wedding
arrangements communicate celebratory messages
about marriage. As noted below, even the Attorney
General conceded that Barronelle’s wedding designs
are expression. And the State can no more compel
Barronelle to express celebratory messages through
her art than it can force her to say them with her lips.
The Washington Supreme Court’s contrary view
conflicts with this Court’s decisions in Hurley v. IrishAmerican Gay, Lesbian & Bisexual Group of Boston,
515 U.S. 557, 569 (1995), Janus, NIFLA, and many
others, and with the Eighth Circuit’s ruling in
Telescope Media Group v. Lucero, __ F.3d __, 2019 WL
3979621 (8th Cir. Aug. 23, 2019).
Third, the State acted with hostility by targeting
Barronelle’s religious beliefs for punishment. The
Attorney General manufactured a novel lawsuit to
punish Barronelle personally, yet did nothing when a
gay coffee-shop owner expelled Christians for their
religious speech on a public street and yelled: “I’d f—
Christ in the a—, okay. He’s hot.” Bedlam Coffee
Video, https://bit.ly/2SNo7m3. The Washington Supreme Court ignored this hostility by holding that the
requirement of religious neutrality does not apply to
executive officials. And that court exhibited its own
“subtle departures from neutrality” on matters of
religion, Masterpiece, 138 S. Ct. at 1731, by ignoring
Barronelle’s near decade of service to Robert and Curt
and denouncing her decision not to take part in a
single sacred event as invidious status-based discrimination.

21
Each of these First Amendment infringements is
an independent basis for reversal. But the First
Amendment violation becomes more egregious as
each infringement mutually reinforces the others
under the hybrid-rights doctrine.
Because Barronelle declined to join in celebrating
a sacred event that violates her beliefs, her 40 years
of wedding artistry is over, and her life savings is in
jeopardy. This Court should grant the petition and
stop the State from wielding its coercive power to
banish Barronelle from the wedding industry and
ruin her financially simply because she followed the
tenets of her faith.
I.

Requiring Barronelle to participate in
sacred ceremonies that violate her faith
conflicts with this Court’s case law and
presents a national issue of great importance.

The First Amendment prohibits government
action that “force[s] . . . a person to go to” a sacred
event “against [her] will,” Everson v. Bd. of Educ. of
Ewing Twp., 330 U.S. 1, 15 (1947), or that “in effect
require[s] participation in a religious exercise,” Lee v.
Weisman, 505 U.S. 577, 594 (1992). Both the Free
Exercise and Establishment Clauses promise this
basic liberty. Masterpiece, 138 S. Ct. at 1727
(compelling clergy to perform same-sex wedding
ceremony would deny their “right to the free exercise
of religion”); Lee, 505 U.S. at 594 (discussing
corresponding Establishment Clause principles). By
demanding that Barronelle attend the ceremony and
participate in celebrating a view of marriage that

22
violates her faith, Barnette, 319 U.S. at 633,
Washington disavowed its “own duty to guard and
respect that sphere of inviolable conscience and belief
which is the mark of a free people,” Lee, 505 U.S. at
592. This issue of compelled-participation in sacred
ceremonies presents a critical constitutional question
that warrants this Court’s intervention.
“Marriage is sacred to those” like Barronelle “who
live by their religions.” Obergefell, 135 S. Ct. at 2594;
Turner v. Safley, 482 U.S. 78, 96 (1987) (similar).
Barronelle’s faith teaches that all weddings are
innately religious, App.381a; CP606–07; and she cannot participate in celebrating a marriage ceremony
that is not between one man and one woman,
App.387a–88a; CP608-09. These ceremonies often
contain explicit religious components. In fact, a minister presided over Robert and Curt’s ceremony,
explained marriage’s importance, and led the couple
in reciting vows. CP1488, 1803–04.
The State’s injunctions command Barronelle to
perform for same-sex weddings those “services
offered” for weddings between a man and a woman.
App.135a, 140a. Barronelle is an active participant in
her clients’ weddings. She imagines, designs, and
creates floral art that celebrates the wedding; delivers
her creations to the venue; adorns the site—and the
participants—with her art; attends the ceremony;
and does whatever it takes to make the ceremony a
success. App.380a–85a. Because she does all this to
celebrate weddings consistent with her beliefs, the
State insists she must do it for weddings that violate
her faith. Though the First Amendment prohibits
government from forcing Barronelle to attend and
participate in sacred ceremonies, the Washington

23
Supreme Court refused to consider this religiousliberty violation. App.4a, 12a. Such a deep intrusion
into religious exercise justifies this Court’s review.
The Washington Supreme Court’s primary
answer to this free-exercise concern was that Barronelle is not paid to sing or clap at weddings. App.12a.
But she is paid to decorate the venue with her art and
attend the ceremony to assist the wedding party and
ensure her arrangements are beautiful throughout.
App.383a, 410a–11a; CP1589–90. The First Amendment forbids that kind of compelled participation.
That is especially true when a conscientious objector
like Barronelle reasonably believes that partaking in
a “group exercise” like a marriage ceremony “signifie[s] her own participation” in it. Lee, 505 U.S. at 593;
Barnette, 319 U.S. at 631–33 & n.13. The constitutional violation does not hinge on whether the government forces a conscientious objector to sing or clap.
The Washington Supreme Court also suggested
that Barronelle’s compelled-participation claim was
foreclosed by Employment Division v. Smith, 494 U.S.
872 (1990). App.50a–56a. But government practices
clearly at odds with our nation’s history and
traditions are not subject to Smith’s neutrality and
general-applicability rule. Hosanna-Tabor Evangelical Lutheran Church & Sch. v. EEOC, 565 U.S.
171, 190 (2012) (“The contention that Smith forecloses
recognition of” well-established historical precepts
“rooted in the Religion Clauses has no merit”); Trinity
Lutheran Church of Columbia, Inc. v. Comer, 137 S.
Ct. 2012, 2021 n.2 (2017) (refuting the notion “that
any application of a valid and neutral law of general
applicability is necessarily constitutional under the
Free Exercise Clause”); see also Masterpiece, 138 S.

24
Ct. at 1727 (clergy cannot “be compelled to perform [a
same-sex wedding] ceremony” without violating
“right to the free exercise of religion”).
Our nation’s history and traditions have long
outlawed compelled participation in religious events.
Forced attendance at religious services was a hallmark of the Old World and one of the evils the First
Amendment was created to remedy. Everson, 330 U.S.
at 10–11 (outlining this history). Such government
coercion was “well known to the framers of the Bill of
Rights.” Barnette, 319 U.S. at 633. After all, when
many colonists fled for our shores, English law
compelled attendance at religious services. Michael
W. McConnell, Establishment and Disestablishment
at the Founding, Part I: Establishment of Religion, 44
Wm. & Mary L. Rev. 2105, 2144 (2003). But the
Framers repudiated that practice. And Smith cannot
compel a result so obviously in conflict with our
history. Indeed, even the attorney representing the
same-sex couple in Masterpiece admitted that future
cases requiring people like Barronelle to attend or
“physical[ly] participat[e]” in wedding ceremonies
they “deeply oppose[ ]” might not be “governed by
Smith.” Oral Argument Tr. 77–78.
Nor does Smith’s rule control when governments
“impose special disabilities on the basis of religious
views.” Smith, 494 U.S. at 877; accord Trinity Lutheran, 137 S. Ct. at 2021. Yet that is precisely what the
State has done here. It has uniquely disadvantaged
religious creative professionals who work in the
wedding industry, believe that marriage is between
one man and one woman, and are unable to attend
and participate in wedding ceremonies contradicting
that belief. The State has taken away their right to

25
earn a living by celebrating and taking part in
wedding ceremonies that comport with their faith.
Because of this special disability, Smith does not
apply.
If Smith allows the State to compel Barronelle to
attend and participate in sacred events contrary to
her faith, it should be overruled, as many Members of
this Court have suggested. E.g., City of Boerne v.
Flores, 521 U.S. 507, 544–65 (1997) (O’Connor, J.,
dissenting); Church of the Lukumi Babalu Aye, Inc. v.
Hialeah, 508 U.S. 520, 559–77 (1993) (Souter, J.,
concurring in part and concurring in the judgment).
The First Amendment’s text “guarantees the free
exercise of religion, not just the right to inward belief.”
Trinity Lutheran, 137 S. Ct. at 2026 (Gorsuch, J.,
concurring). It is inconceivable that the Constitution’s
protection for religious exercise allows the government to force Barronelle to join in a religious exercise
that violates her faith.
Smith’s decision to “drastically cut back on the
protection provided by the Free Exercise Clause,”
Kennedy v. Bremerton Sch. Dist., 139 S. Ct. 634, 637
(2019) (Alito, J., respecting the denial of certiorari),
has never become ingrained in the law because it was
wrongly decided, ignored the Free Exercise Clause’s
text and history, rewrote precedent, has proven
inadequate and unworkable in practice, and has
“harmed religious liberty.” City of Boerne, 521 U.S. at
547 (O’Connor, J., dissenting); see generally Michael
W. McConnell, The Origins and Historical Understanding of Free Exercise of Religion, 103 Harv. L.
Rev. 1409 (1990).

26
The people that Smith harms the most are those
like Barronelle who hold disfavored religious beliefs
or engage in disfavored religious practices. Barronelle
should not be another one of Smith’s victims.
II. The Washington Supreme Court’s decision
conflicts with the free-speech precedent of
this Court and multiple circuits.
Masterpiece recognized that “objections to gay
marriage” can implicate “protected forms of
expression,” 138 S. Ct. at 1727, and that cases like
Barronelle’s “can deepen our understanding” of the
Free Speech Clause’s meaning, id. at 1723. Tellingly,
the State admitted below that Barronelle’s custom
floral arrangements are “a form of expression.” Oral
Argument Video at 40:49–40:53, https://bit.ly/2SP3
aaj. But the Washington Supreme Court nullified this
concession and held that Barronelle’s floral art “does
not implicate” her expressive freedom. App.41a.
That holding conflicts with this Court’s compelledspeech jurisprudence, including cases like Hurley,
Janus, and NIFLA, and decisions by the Second,
Sixth, Seventh, Eighth, Ninth, Tenth, and Eleventh
Circuits. Those decisions collectively establish that
(1) Barronelle’s custom wedding art is protected
expression, (2) forcing her to create custom floral
designs celebrating same-sex weddings violates the
compelled-speech doctrine, (3) the State applies its
public-accommodation statute to speech based on its
content, and (4) this application of the State’s publicaccommodation statute does not satisfy strict
scrutiny.

27
A. By holding that Barronelle’s custom
wedding arrangements are not protected expression, the Washington Supreme
Court’s ruling conflicts with decisions of
this Court and multiple circuits.
This Court’s definition of “speech” extends to
artistic expression, Hurley, 515 U.S. at 569, such as
“pictures, films, paintings, drawings, and engravings,” Kaplan v. California, 413 U.S. 115, 119–20
(1973), and even abstract art like Pollock’s paint drips
and Schöenberg’s atonal instrumentals, Hurley, 515
U.S. at 569. It also includes expressive conduct as
diverse as “nude dancing, burning the American flag,
flying an upside-down American flag with a taped-on
peace sign, . . . and flying a plain red flag.” Masterpiece, 138 S. Ct. at 1741–42 (Thomas, J., concurring).
Barronelle introduced unopposed expert testimony establishing that her custom wedding designs
are artistic expression akin to other visual art.
App.398a–401a. But the Washington Supreme Court
ruled that her floral art “is not ‘speech’ in a literal
sense,” App.42a, and that judges “cannot be in the
business of deciding which businesses” merit speech
protection, App.49a. Contra NIFLA, 138 S. Ct. at
2373 (“[T]his Court’s precedents have long drawn”
“the line between speech and conduct”). The court also
held that Barronelle’s custom floral arrangements are
not protected as expressive conduct. App.49a.
Neither holding comports with this Court’s or
Courts of Appeals’ precedent. Speech protection
applies to more than “written or spoken words.”
Hurley, 515 U.S. at 569. That is why seven circuits

28
have held that visual art merits full speech protection. Mastrovincenzo v. City of N.Y., 435 F.3d 78, 96
(2d Cir. 2006) (custom-painted clothing); ETW Corp.
v. Jireh Publ’g, Inc., 332 F.3d 915, 924–25 (6th Cir.
2003) (original artwork); Piarowski v. Ill. Cmty. Coll.
Dist. 515, 759 F.2d 625, 628 (7th Cir. 1985) (stainedglass windows); Telescope Media, 2019 WL 3979621,
at *4 (films); Anderson v. City of Hermosa Beach, 621
F.3d 1051, 1061 (9th Cir. 2010) (tattooing); Cressman
v. Thompson, 798 F.3d 938, 952–53 (10th Cir. 2015)
(images); Buehrle v. City of Key West, 813 F.3d 973,
976 (11th Cir. 2015) (tattooing).
The Washington Supreme Court’s ruling also
ignores the factors this Court and the Second,
Seventh, Ninth, and Tenth Circuits use to evaluate
whether an item constitutes speech. Those factors
include that Barronelle intends to, and does in fact,
communicate through her custom wedding arrangements and her participation in the event. Brown v.
Entm’t Merchs. Ass’n, 564 U.S. 786, 790 (2011) (video
games are speech because they “communicate”). See
App.380a. Such considerations also include that
Barronelle’s wedding arrangements have no “nonexpressive purpose or utility,” and that their sole
purpose is to express a message: celebration of a
marriage. Mastrovincenzo, 435 F.3d at 95 (custom
artistic goods with a “dominant expressive purpose”
have a strong claim to speech protection). Accord, e.g.,
White v. City of Sparks, 500 F.3d 953, 956 n.4 (9th Cir.
2007); Cressman, 798 F.3d at 952-54; Piarowski, 759
F.2d at 628.
Given the obviously artistic and expressive nature
of Barronelle’s custom wedding designs, it is no
surprise that the Attorney General admitted they are

29
a form of expression. As multiple Justices observed
about the wedding cake in Masterpiece: “The use of [a
creative professional’s] artistic talents to create a
well-recognized symbol that celebrates the beginning
of a marriage clearly communicates a message—
certainly more so than nude dancing or flying a plain
red flag.” 138 S. Ct. at 1743 (Thomas, J., concurring)
(cleaned up); id. at 1738 (Gorsuch, J., concurring)
(similar).
The Washington Supreme Court’s response was
that “refus[ing] to provide flowers for a wedding does
not inherently express a message about that
wedding.” App.43a. But that is the wrong question.
Barronelle’s claim is that her custom wedding art is
itself expressive, not simply that the act of declining
to create it is expressive. App.42a (recognizing Barronelle argued that “creating floral arrangements for
wedding ceremonies” is expressive).
Masterpiece and Hurley make the error plain. In
Masterpiece, this Court asked whether “a beautiful
wedding cake” is “an exercise of protected speech.”
138 S. Ct. at 1723. And in Hurley, this Court held that
the parade was expressive. 515 U.S. at 568–69. Both
times the Court focused on the alleged expression, not
just the “act” of declining to create or participate in
expression. The opinion below contradicts these cases.
Placing the focus on Barronelle’s wedding art
confirms that free-speech protections apply here. It
simply cannot be that the First Amendment treats
child pornography, Ashcroft v. Free Speech Coal., 535
U.S. 234, 240 (2002), and sleeping in tents, Clark v.
Cmty. for Creative Non-Violence, 468 U.S. 288, 293

30
(1984), as expression while excluding Barronelle’s
original wedding designs from protection.
B. By compelling Barronelle to create
objectionable expression, the Washington Supreme Court’s ruling conflicts
with decisions of this Court and multiple
circuits.
The government may not compel individuals or
businesses to express objectionable messages. E.g.,
NIFLA, 138 S. Ct. at 2371–76 (law demanding that
pro-life pregnancy centers communicate information
about state-subsidized abortions); Wooley, 430 U.S. at
717 (law forcing religious objectors to display the
state motto on their license plates); Miami Herald
Publ’g Co. v. Tornillo, 418 U.S. 241, 258 (1974) (law
ordering newspaper to print politician’s rejoinder to
negative coverage); Telescope Media, 2019 WL
3979621, at *3–10 (law requiring filmmakers who
desire to tell stories about weddings between one man
and one woman to tell stories about same-sex
weddings). “[F]reedom of speech includes . . . the right
to refrain from speaking.” Janus, 138 S. Ct. at 2463.
Forcing Barronelle to create art that celebrates
same-sex marriage violates the “‘cardinal constitutional command’ against compelled speech.” Telescope
Media, 2019 WL 3979621, at *5 (quoting Janus, 138
S. Ct. at 2463). “Compelling speech in this manner . . .
‘is always demeaning.’” Ibid. (quoting Janus, 138 S.
Ct. at 2464).
Spurning this precedent, the Washington
Supreme Court held that the State can apply the
WLAD to require Barronelle to create art celebrating

31
same-sex weddings. App.49a. And the Attorney General insisted that Washington can force poets to write
poems celebrating same-sex marriage, and floral
designers to use flowers to spell phrases like “God
bless this marriage.” Oral Argument Video at 33:40–
34:36, 41:36–42:59, https://bit.ly/2SP3aaj.
The court below gave two flawed justifications for
compelling Barronelle’s artistic expression. First, the
court distinguished compelled speech from commercial activity. App. 45a n.18. But “a speaker is no less
a speaker because he or she is paid to speak.” Riley v.
Nat’l Fed’n of the Blind of N.C., Inc., 487 U.S. 781, 801
(1988). That is why the Second, Sixth, Eighth, Ninth,
and Eleventh Circuits have granted full speech
protection to visual art sold for profit. Bery v. City of
N.Y., 97 F.3d 689, 695, 697 (2d Cir. 1996); ETW Corp.,
332 F.3d at 918, 924; Telescope Media, 2019 WL
3979621, at *4; White, 500 F.3d at 957; Buehrle, 813
F.3d at 978.
Second, the Washington Supreme Court held that
the compelled-speech doctrine does not apply to
“paradigmatic public accommodation[s],” App.45a
n.17, that are “traditionally . . . subject to antidiscrimination laws,” App.45a. Yet Hurley, which held that
Massachusetts cannot use its public-accommodation
law to force parade organizers to express unwanted
messages, was a public-accommodation case. And it
declared that protection against compelled speech
applies to “business corporations generally,” 515 U.S.
at 574, even when those businesses do not originate
the “item[s] featured in the[ir] communication,” id. at
570.

32
In addition, the Eighth Circuit recently held that
Minnesota cannot use a public-accommodation law to
compel a film studio—a for-profit business—to create
films telling stories of same-sex marriages just
because they create films celebrating marriages
between one man and one woman. Telescope Media,
2019 WL 3979621, at *6. By allowing the State to
apply its public-accommodation law to force
Barronelle to celebrate same-sex marriage through
her floral art, the Washington Supreme Court’s ruling
squarely conflicts with both Hurley and Telescope
Media.
The court below erred in relying on Rumsfeld v.
Forum for Academic & Institutional Rights, Inc., 547
U.S. 47 (2006) (“FAIR”). App.42a–43a. Unlike the law
schools in FAIR, Barronelle does not object to letting
others speak; she objects to expressing celebratory
messages through her own art. Wash. State Grange v.
Wash. State Republican Party, 552 U.S. 442, 457 n.10
(2008) (distinguishing FAIR’s compelled “[f]acilitation of speech” for another person from the government’s “co-opt[ing]” a person’s “own . . . speech”). In a
situation like this, FAIR does not control.
C. By upholding a content-based application of a public-accommodation law, the
Washington Supreme Court’s ruling
conflicts with decisions of this Court and
the Eighth Circuit.
A public-accommodation law like the WLAD is
content based when applied to compel speech. By
treating Barronelle’s decision to speak in celebration
of one topic—marriage between one man and one

33
woman—as “a trigger” for compelling her to speak
celebratory messages about a topic she does not want
to address—same-sex marriage—the WLAD “mandates speech that a speaker would not otherwise
make” and “exacts a penalty on the basis of the
content of” speech. Telescope Media, 2019 WL
3979621, at *6 (quoting Riley, 487 U.S. at 795, and
Tornillo, 418 U.S. at 256) (cleaned up).
Laws that regulate speech based on its content are
subject to strict scrutiny. Reed v. Town of Gilbert, 135
S. Ct. 2218, 2226 (2015). But the Washington Supreme Court did not apply strict scrutiny to Barronelle’s compelled-speech claim. App.49a. That decision conflicts with this Court’s compelled-speech
cases and the Eighth Circuit’s ruling in Telescope
Media.
D. The Washington Supreme Court’s strictscrutiny analysis conflicts with decisions of this Court and the Eighth
Circuit.
The Washington Supreme Court concluded that
even if strict scrutiny applied, the State could satisfy
it. App.63a–67a. But this too conflicts with this
Court’s decisions and Telescope Media. Relying on
this Court’s free-speech cases like Hurley, the Eighth
Circuit held that “regulating speech because it is
[allegedly] discriminatory or offensive is not a
compelling state interest, however hurtful the speech
may be.” Telescope Media, 2019 WL 3979621, at *7
(canvassing cases). “It is a ‘bedrock principle . . . that
the government may not prohibit the expression of an
idea simply because society finds the idea itself

34
offensive or disagreeable.’” Ibid. (quoting Texas v.
Johnson, 491 U.S. 397, 414 (1989)).
Besides the absence of a compelling interest, the
State also fails strict scrutiny because it can pursue
its goals by narrower means without infringing
Barronelle’s First Amendment rights. Reed, 135 S. Ct.
at 2231–32 (discussing narrow-tailoring requirement). For example, the State could narrowly define
discrimination to exclude situations where artists like
Barronelle serve gay customers but decline to take
part in celebrating same-sex weddings.
III. By holding that the Free Exercise Clause’s
prohibition on religious hostility does not
reach executive officials, the Washington
Supreme Court excused the State’s hostility
toward Barronelle’s faith.
A. Other courts recognize that the ban on
religious hostility applies to all governmental branches.
The Washington Supreme Court’s decision implausibly cabined Masterpiece’s prohibition on
religious hostility to only “adjudicatory bodies.”
App.19a–21a. No religious-neutrality requirement
applies to officials like “the attorney general of the
State of Washington.” App.23a. Accordingly, the court
refused to consider whether there was even a “slight
suspicion” that the Attorney General acted with
hostility toward Barronelle’s faith. Masterpiece, 138
S. Ct. at 1731. This Court should reaffirm that the
Free Exercise Clause binds all state actors, not only
adjudicators.

35
Masterpiece referenced “adjudicators” because
they were the offending government officials. But
Masterpiece’s holding is not so limited: it applies to
“the government” and proclaims that “even [the]
slight suspicion that proposals for state intervention
stem from animosity to religion or distrust of its
practices” violates the Free Exercise Clause. 138 S.
Ct. at 1731 (quoting Lukumi, 508 U.S. at 547).
Masterpiece relied heavily on Lukumi, which
prohibited legislative—not adjudicatory—hostility
toward religion. Masterpiece, 138 S. Ct. at 1730–31. A
free-exercise principle that bars religious hostility by
the legislative and judicial branches naturally applies
to the executive branch too. Shrum v. City of Coweta,
449 F.3d 1132, 1143 (10th Cir. 2006).
The Washington Supreme Court’s decision
conflicts with rulings by four federal circuits that
have applied Lukumi’s religious-hostility rule to
executive officials. Cent. Rabbinical Congress of U.S.
& Canada v. N.Y.C. Dep’t of Health & Mental
Hygiene, 763 F.3d 183, 194–98 (2d Cir. 2014) (city
health officials); Fraternal Order of Police Newark
Lodge No. 12 v. City of Newark, 170 F.3d 359, 365 (3d
Cir. 1999) (Alito, J.) (city police officials); Booth v.
Maryland, 327 F.3d 377, 381 (4th Cir. 2003) (state
public-safety and correctional officials); Colo.
Christian Univ. v. Weaver, 534 F.3d 1245, 1260 (10th
Cir. 2008) (state higher-education officials).
Instead of following established precedent, the
Washington Supreme Court faulted Barronelle for not
bringing a selective-prosecution claim under the
Equal Protection Clause. App.23a–25a. But federal
courts would have allowed Barronelle to bring a

36
religious-hostility claim on these facts, even though
related to selective enforcement. E.g., Tenafly Eruv
Ass’n, Inc. v. Borough of Tenafly, 309 F.3d 144, 165–
67 (3d Cir. 2002) (selective application of ordinance);
Stormans, Inc. v. Wiesman, 794 F.3d 1064, 1083–84
(9th Cir. 2015) (implicitly recognizing such a claim).
Exempting an entire branch of government from the
constitutional prohibition on religious hostility
threatens significant harm to people of faith. This
Court’s review is needed.
B. Washington’s actions stem from hostility
toward Barronelle’s religious beliefs.
To prevail on a free-exercise hostility claim,
Barronelle need not prove that the Attorney General
acted solely or even predominantly out of animus
toward her religious beliefs. She need only show a
“slight suspicion” that the Attorney General’s actions
stemmed from such animosity, Masterpiece, 138 S. Ct.
at 1731, and she has shown far more here.
Without a complaint from Robert or Curt,
CP1503–04, the Attorney General took the unprecedented step of suing Barronelle in her personal and
business capacities under the CPA and the WLAD.
App.350a–56a; CP1502–03. In stark contrast, after
receiving dozens of complaints about a gay coffee-shop
owner who profanely ejected a group of Christians
with some of the vilest invective imaginable, the
Attorney General did not investigate or file suit.
The Attorney General insists that Barronelle’s
religious objection to celebrating same-sex weddings
is inextricably linked to sexual orientation. But the
Attorney General is playing favorites because he

37
simultaneously says that the coffee-shop owner’s
objection to Christians’ religious speech is not tied to
their creed. Appellants’ Post-GVR Reply Br. 8–10
(Feb. 13, 2019).
Similarly, the Attorney General advanced a strictliability standard in Barronelle’s case that prohibited
any discriminatory impact on same-sex couples and
rendered her long service to Robert and Curt irrelevant. But the Attorney General permitted the coffeeshop owner to expel a group of Christians because the
owner said he would serve Christians in other
contexts. Id. at 10–11.
Moreover, like one of the hostile state officials in
Masterpiece, the Attorney General derided Barronelle’s religion as a “mechanism or a means to discriminate.”9 And he promised that protecting her
First Amendment rights would undo the Civil Rights
Era, arguing that business owners would no longer
have to serve African Americans food. Appellants’
Post-GVR Br. 23–24 (Nov. 13, 2018) (cataloging these
kinds of statements by the Attorney General); e.g.,
Wash. Response Br. 2–3, 38 (Dec. 23, 2015); CP367–
68.
Only one thing explains this blatant difference in
treatment and hostile rhetoric—religious animosity.
The Attorney General has left no doubt that
Barronelle is “less than fully welcome” in the business
community, Masterpiece, 138 S. Ct. at 1729, and that
has resulted in her enduring death threats and public
ridicule, App.390a. Hounding Barronelle based on her
Dori at odds with AG’s explanation of florist-gay wedding
lawsuit, Kiro Radio (Jan. 9, 2015), https://bit.ly/2AM3bVA.

9

38
“decent and honorable” religious beliefs about
marriage, Obergefell, 135 S. Ct. at 2602, is exactly the
sort of hostility Masterpiece forbids.
The court below also “‘subtl[y] depart[ed] from
neutrality’ on matters of religion.” Masterpiece, 138 S.
Ct. at 1731 (quoting Lukumi, 508 U.S. at 534). First,
after considering Masterpiece—which applied a
religious-hostility theory to judicial officers—and
Lukumi—which applied the same theory to the
legislative branch—the court somehow concluded
that executive officials are allowed to act with hostility toward religion. App.24a–26a.
Second, despite Barronelle’s nearly decade-long
relationship with Robert, the court below determined
that her decision not to take part in celebrating his
wedding was based on who he was rather than what
he requested. But if it were true that Barronelle
“discriminated on the basis of [Robert’s] ‘sexual
orientation,’” App.30a, she would not have served him
for nearly a decade since she always knew he was gay,
App.372a–73a. Nor would she offer to sell all her stock
product to LGBT customers for any reason, including
a same-sex wedding, or to create custom designs for
LGBT customers for countless other occasions. The
court’s refusal to distinguish between Barronelle’s
treatment of LGBT customers generally and her
decision not to participate in celebrating a sacred
event manifests the kind of “distrust” of religion that
Masterpiece condemned. 138 S. Ct. at 1731. Like the
Colorado Court of Appeals’ opinion in Masterpiece, the
decision below “itself sends a signal of official
disapproval of [Barronelle’s] religious beliefs.” Ibid.

39
IV. The State’s actions violate the hybrid-rights
doctrine.
Together, the Free Exercise and Free Speech
Clauses guard “the sphere of intellect and spirit . . .
from all official control.” Barnette, 319 U.S. at 642.
Thus, in Smith, this Court identified a “class of
‘hybrid situation[s]’ in which ‘the Free Exercise
Clause in conjunction with other constitutional
protections, such as freedom of speech,’ can ‘bar[ ]
application of a neutral, generally applicable law.’”
Telescope Media, 2019 WL 3979621, at *10 (quoting
Smith, 494 U.S. at 881–82).
The Washington Supreme Court recognized the
validity of such a “hybrid” claim. App.59a. But it
rejected the claim because it concluded that the State
did not burden Barronelle’s free-speech rights.
App.69a. As explained above, that holding conflicts
with numerous precedents of this Court and others.
The hybrid-rights claim requires this Court to
consider the forced participation, compelled speech,
and religious hostility all at once. Taken together,
they establish a stark and egregious First Amendment violation.
V. This case is an ideal vehicle to confirm that
governments cannot force creative professionals to celebrate and take part in ceremonies that violate their beliefs.
Masterpiece already recognized that the questions
raised in this petition are of national importance.
Indeed, the livelihoods of devout Muslims, Jews, and
Christians depend on them. The Court should grant
review here and answer those questions definitively.

40
A number of factors confirm that this case is an
ideal vehicle. First, Barronelle designed custom floral
arrangements for Robert and Curt for nearly a
decade. She gladly serves LGBT customers and
clearly holds no animus against them.
Second, Barronelle does not refuse to sell all her
“goods” for use at “gay weddings.” Masterpiece, 138 S.
Ct. at 1728. She sells pre-made floral arrangements
and other materials for customers to use however
they like, including at same-sex weddings, and she
designs custom floral arrangements celebrating other
events in LGBT persons’ lives, including Valentine’s
Day and adoptions. Her objection is specific to
participating in and creating custom arrangements
that celebrate same-sex weddings.
And finally, the Washington Supreme Court gave
Masterpiece no serious consideration and gutted that
decision by exempting all but adjudicators from its
reach. If the Washington Supreme Court is right,
Colorado could freely crush Jack Phillips using the
same hostility but a different state official. The First
Amendment is not so toothless.
In Obergefell’s wake, government officials continue to disregard civility and punish “reasonable and
sincere” people of faith like Barronelle because of
their beliefs about marriage. 135 S. Ct. at 2594. This
violates the First Amendment’s promise that citizens
are free “to differ as to things” such as marriage and
religion “that touch the heart of the existing order.”
Barnette, 319 U.S. at 642. Unless this Court
intervenes, that freedom will be gone, and people like
Barronelle will be marginalized in their own
communities.

41
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
KRISTEN K. WAGGONER
Counsel of Record
DAVID A. CORTMAN
JOHN J. BURSCH
ALLIANCE DEFENDING
FREEDOM
440 First Street, N.W.
Suite 600
Washington, D.C. 20001
(202) 393-8690
kwaggoner@ADFlegal.org
JAMES A. CAMPBELL
RORY T. GRAY
ALLIANCE DEFENDING
FREEDOM
15100 N. 90th Street
Scottsdale, AZ 85260
(480) 444-0020
JOHN R. CONNELLY
CONNELLY LAW OFFICES
2301 N. 30th Street
Tacoma, WA 98403
(253) 593-5100
GEORGE AHREND
AHREND LAW FIRM PLLC
100 E. Broadway Avenue
Moses Lake, WA 98837
(509) 764-9000

SEPTEMBER 2019

Counsel for Petitioners

APPENDIX

ia
APPENDIX TABLE OF CONTENTS
Washington Supreme Court Opinion
(June 6, 2019) ........................................................... 1a
United States Supreme Court Opinion
(June 25, 2018) ....................................................... 74a
Washington Supreme Court Opinion
(February 16, 2017, including February 21,
2017 court-ordered amendments).......................... 75a
Trial Court Judgment and Injunction in Case
No. 13-2-00871-5 (March 27, 2015) ..................... 132a
Trial Court Judgment and Injunction in Case
No. 13-2-00953-3 (March 27, 2015) ..................... 138a
Trial Court Memorandum Decision and
Order (February 18, 2015) ................................... 143a
Trial Court Memorandum Decision and
Order (January 7, 2015) ...................................... 228a
U.S. Const. amend. I ............................................ 278a
U.S. Const. amend. XIV, § 1 ................................ 278a
Excerpts from RCW 49.60.030 - Freedom from
discrimination—Declaration of civil rights ......... 279a
Excerpts from RCW 49.60.040 - Definitions ....... 280a

iia
Excerpts from RCW 49.60.215 - Unfair
practices of places of public resort,
accommodation, assemblage, amusement—
Trained dog guides and service animals ............. 282a
Excerpts from Brief of Appellants, filed
November 13, 2018 (No. 91615-2) ....................... 284a
Excerpts from Petition for a Writ of
Certiorari, filed July 14, 2017 (No. 17-108) ........ 296a
Excerpts from Brief of Appellants, filed
October 16, 2015 (No. 91615-2) ........................... 298a
Statement of Grounds for Direct Review,
filed June 1, 2015 (No. 91615-2) .......................... 301a
Excerpts from Defendants’ Objections to
Plaintiffs’ Proposed Judgments, filed March 23,
2015 (CP 2390-951) ............................................... 318a
Answer, Affirmative Defenses, and Third-Party
Complaint, filed May 16, 2013 (CP 6-24) ............ 320a
Answer and Affirmative Defenses, filed May
20, 2013 (CP 2533-2539) ...................................... 341a
Complaint for Injunctive and Other Relief
under the Consumer Protection Act by State
of Washington, filed April 9, 2013 (CP 1-5) ........ 350a

CP stands for the Clerk’s Papers transmitted by the trial
court as the record on appeal to the Washington Supreme Court.
1

iiia
Complaint by Robert Ingersoll and Curt
Freed, filed April 18, 2013) (CP 2526-2532)........ 357a
Letter from the Office of the Attorney General
of Washington to Barronelle Stutzman, dated
March 28, 2013 (CP 1325-1329) .......................... 365a
Declaration of Barronelle Stutzman, filed
October 25, 2013 (CP 45-47) ................................ 371a
Declaration of Barronelle Stutzman, filed
December 8, 2014 (CP 534-549)........................... 375a
Expert Declaration of Jennifer Robbins, filed
December 8, 2014 (CP 668-676)........................... 393a
Declaration of David Mulkey, filed December
8, 2014 (CP 662-665) ............................................ 403a
Declaration of Nickole Perry in support of
Motion for Summary Judgment, filed
December 8, 2014 (CP 653-659)........................... 407a

1a

IN THE SUPREME COURT OF THE STATE
OF WASHINGTON
STATE OF WASHINGTON,
Respondent,
v.
ARLENE’S FLOWERS,
INC, d/b/a ARLENE’S
FLOWERS AND GIFTS,
and BARRONELLE
STUTZMAN,
Appellants.
ROBERT INGERSOLL and
CURT FREED,
Respondents,
v.
ARLENE’S FLOWERS,
INC., d/b/a ARLENE’S
FLOWERS AND GIFTS,
and BARRONELLE
STUTZMAN,
Appellants.

NO. 91615-2
EN BANC
Filed JUN 06
2019

2a
GORDON McCLOUD, J.—The United States
Supreme Court has tasked us with deciding whether
the Washington courts violated the United States
Constitution’s guaranty of religious neutrality in our
prior adjudication of this case. We have fully reviewed
the record with this issue in mind, and we have
considered substantial new briefing devoted to this
topic. We now hold that the answer to the Supreme
Court’s question is no: the adjudicatory bodies that
considered this case did not act with religious animus
when they ruled that the florist and her corporation
violated the Washington Law Against Discrimination
(WLAD), chapter 49.60 RCW, by declining to sell
wedding flowers to a gay couple, and they did not act
with religious animus when they ruled that such
discrimination is not privileged or excused by the
United States Constitution or the Washington
Constitution.
OVERVIEW
This case is back before our court on remand
from the United States Supreme Court. The Supreme
Court vacated our original judgment and remanded
“for further consideration in light of Masterpiece
Cakeshop, Ltd. v. Colorado Civil Rights Comm’n.”
Arlene’s Flowers, Inc. v. Washington, 138 S. Ct. 2671
(2018) (mem.). In Masterpiece Cakeshop, the Supreme
Court held that the adjudicatory body tasked with
deciding a particular case must remain neutral; that
is, the adjudicatory body must “give full and fair
consideration” to the dispute before it and avoid
animus toward religion. 584 U.S. ___, 138 S. Ct. 1719,
1732, 201 L. Ed. 2d 35 (2018). Disputes like those
presented in Masterpiece Cakeshop and Arlene’s
Flowers “must be resolved with tolerance, without

3a
undue disrespect to sincere religious beliefs, and
without subjecting gay persons to indignities when
they seek goods and services in an open market.” Id.
We recognize the profound importance of a fair
and neutral adjudicator. Although settled law
compelled us to reject Arlene’s Flowers and
Barronelle Stutzman’s claims the first time around,
we recognized Stutzman’s “sincerely held religious
beliefs” and “analyze[d] each of [her] constitutional
defenses carefully.” State v. Arlene's Flowers, Inc., 187
Wn.2d 804, 815-16, 830, 389 P.3d 543 (2017). And on
remand, we have painstakingly reviewed the record
for any sign of intolerance on behalf of this court or
the Benton County Superior Court, the two
adjudicatory bodies to consider this case. After this
review, we are confident that the two courts gave full
and fair consideration to this dispute and avoided
animus toward religion. We therefore find no reason
to change our original decision in light of Masterpiece
Cakeshop.
The dispute we resolve today is the same as the
dispute that formed the basis for our original
opinion.1
The
State
of
Washington
bars
discrimination in “public . . . accommodation[s]” on
the basis of “sexual orientation.” RCW 49.60.215(1).
Barronelle Stutzman owns and operates a place of
public accommodation in our state: Arlene’s Flowers
Inc. Stutzman and her public business, Arlene’s
Flowers and Gifts, refused to sell wedding flowers to
Robert Ingersoll because his betrothed, Curt Freed, is
The careful reader will notice that starting here, major
portions of our original (now vacated) opinion. State v. Arlene’s
Flowers, Inc., 187 Wn.2d 804, are reproduced verbatim.
1

4a
a man. The State and the couple sued, each alleging
violations of the WLAD and the Consumer Protection
Act (CPA), chapter 19.86 RCW. Stutzman defended
on the grounds that the WLAD and CPA do not apply
to her conduct and that if they do, those statutes
violate her state and federal constitutional rights to
free speech, free exercise of religion, and free
association.
The Benton County Superior Court granted
summary judgment to the State and the couple,
rejecting all of Arlene’s Flowers and Stutzman’s
claims. We granted review, and in our earlier opinion,
we affirmed. The United States Supreme Court then
granted appellants’ petition for a writ of certiorari,
vacated, and remanded, as discussed in the
Procedural History section below.
On remand, we once again affirm. In doing so,
we reject appellants’ expansive reading of Masterpiece
Cakeshop. We reject appellants’ attempt to relitigate
issues resolved in our first opinion and outside the
scope of this remand. And we reject appellants’
suggestion that the permanent injunction requires
them to “personally attend and participate in samesex weddings.” Br. of Appellants (Nov. 13, 2018) at 25.
As the superior court carefully noted, “The degree to
which [Stutzman] voluntarily involves herself in an
event ... is not before the Court” and therefore would
not “be covered by an injunction.” Clerk’s Papers (CP)
at 2347 n.23.
FACTS
In 2004, Ingersoll and Freed began a
committed, romantic relationship. In 2012, the people
of our state voted to recognize equal civil marriage

5a
rights for same-sex couples. Laws of 2012, ch. 3, § 1
(Referendum Measure 74, approved Nov. 6, 2012).
Freed proposed marriage to Ingersoll that same year.
The two intended to marry on their ninth
anniversary, in September 2013, and were “excited
about organizing [their] wedding.” Clerk’s Papers
(CP) at 350. Their plans included inviting “[a]
hundred plus” guests to celebrate with them at Bella
Fiori Gardens, complete with a dinner or reception, a
photographer, a caterer, a wedding cake, and flowers.
Id. at 1775-77.
By the time he and Freed became engaged,
Ingersoll had been a customer at Arlene’s Flowers for
at least nine years, purchasing numerous floral
arrangements from Stutzman and spending an
estimated several thousand dollars at her shop.
Stutzman is the owner and president of Arlene’s
Flowers. She employs approximately 10 people,
depending on the season, including three floral
designers, one of whom is herself. Stutzman knew
that Ingersoll is gay and that he had been in a
relationship with Freed for several years. The two
men considered Arlene’s Flowers to be “[their] florist.”
Id. at 350.
Stutzman is an active member of the Southern
Baptist church. It is uncontested that her sincerely
held religious beliefs include a belief that marriage
can exist only between one man and one woman.
On February 28, 2013, Ingersoll went to
Arlene’s Flowers on his way home from work, hoping
to talk to Stutzman about purchasing flowers for his
upcoming wedding. Ingersoll told an Arlene’s Flowers
employee that he was engaged to marry Freed and

6a
that they wanted Arlene’s Flowers to provide the
flowers for their wedding. The employee informed
Ingersoll that Stutzman was not at the shop and that
he would need to speak directly with her. The next
day, Ingersoll returned to speak with Ms. Stutzman.
At that time, Stutzman told Ingersoll that she would
be unable to do the flowers for his wedding because of
her religious beliefs, specifically because of “her
relationship with Jesus Christ.” Id. at 155, 351, 174142, 1744-45, 1763. Ingersoll did not have a chance to
specify what kind of flowers or floral arrangements he
was seeking before Stutzman told him that she would
not serve him. They also did not discuss whether
Stutzman would be asked to bring the arrangements
to the wedding location or whether the flowers would
be picked up from her shop.
Stutzman asserts that she gave Ingersoll the
names of other florists who might be willing to serve
him, and that the two hugged before Ingersoll left her
store. Ingersoll maintains that he walked away from
that conversation “feeling very hurt and upset
emotionally.” Id. at 1743.
Early the next morning, after a sleepless night,
Freed posted a status update on his personal
Facebook feed regarding Stutzman’s refusal to sell
him wedding flowers. The update observed, without
specifically naming Arlene’s Flowers, that the
couple’s “favorite Richland Lee Boulevard flower
shop” had declined to provide flowers for their
wedding on religious grounds, and noted that Freed
felt “so deeply offended that apparently our business
is no longer good business” because “[his] loved one
[did not fit] within their personal beliefs.” Id. at 1262.
This message was apparently widely circulated,

7a
though Ingersoll testified that their Facebook settings
were such that the message was “only intended for
our friends and family.” Id. at 1760, 1785. Eventually,
the story drew the attention of numerous media
outlets.
As a result of the “emotional toll” Stutzman’s
refusal took on Freed and Ingersoll, they “lost
enthusiasm for a large ceremony” as initially
imagined. Id. at 1490. In fact, the two “stopped
planning for a wedding in September 2013 because
[they] feared being denied service by other wedding
vendors.” Id. at 351. The couple also feared that in
light of increasing public attention—some of which
caused them to be concerned for their own safety—as
well as then-ongoing litigation, a larger wedding
might require a security presence or attract
protesters, such as the Westboro Baptist group. So
they were married on July 21, 2013, in a modest
ceremony at their home. There were 11 people in
attendance. For the occasion, Freed and Ingersoll
purchased one bouquet of flowers from a different
florist and boutonnieres from their friend. When word
of this story got out in the media, a handful of florists
offered to provide them wedding flowers free of
charge.
Stutzman also received a great deal of
attention from the publicity surrounding this case,
including threats to her business and other unkind
messages.
Prior to Ingersoll’s request, Arlene’s Flowers
had never had a request to provide flowers for a samesex wedding, and the only time Stutzman has ever
refused to serve a customer is when Ingersoll and

8a
Freed asked her to provide flowers for their wedding.
The decision not to serve Ingersoll was made strictly
by Stutzman and her husband. After Ingersoll and
Freed’s request, Stutzman developed an “unwritten
policy” for Arlene’s Flowers that they “don’t take same
sex marriages.” Id. at 120. Stutzman states that the
only reason for this policy is her conviction that
“biblically[,] marriage is between a man and a
woman.” Id. at 120-21. Aside from Ingersoll and
Freed, she has served gay and lesbian customers in
the past for other, non-wedding-related flower orders.
Stutzman maintains that she would not sell
Ingersoll any arranged flowers for his wedding, even
if he were asking her only to replicate a prearranged
bouquet from a picture book of sample arrangements.
She believes that participating, or allowing any
employee of her store to participate, in a same-sex
wedding by providing custom floral arrangements
and related customer service is tantamount to
endorsing marriage equality for same-sex couples.
She draws a distinction between creating floral
arrangements—even those designed by someone
else—and selling bulk flowers and “raw materials,”
which she would be happy to do for Ingersoll and
Freed. Id. at 546-47. Stutzman believes that to create
floral arrangements is to use her “imagination and
artistic skill to intimately participate in a same-sex
wedding ceremony.” Id. at 547. However, Stutzman
acknowledged that selling flowers for an atheistic or
Muslim wedding would not be tantamount to
endorsing those systems of belief.
By Stutzman’s best estimate, approximately
three percent of her business comes from weddings.
Stutzman is not currently providing any wedding

9a
floral services (other than for members of her
immediate family) during the pendency of this case.
PROCEDURAL HISTORY
After the State became aware of Stutzman’s
refusal to sell flowers to Ingersoll and Freed, the
Attorney General’s Office sent Stutzman a letter. It
sought her agreement to stop discriminating against
customers on the basis of their sexual orientation and
noted that doing so would prevent further formal
action or costs against her. The letter asked her to
sign an “Assurance of Discontinuance,” which stated
that she would no longer discriminate in the provision
of wedding floral services. Stutzman refused to sign
the letter.
As a result, the State filed a complaint for
injunctive and other relief under the CPA and the
WLAD against both Stutzman and Arlene’s Flowers,
in Benton County Superior Court on April 9, 2013.
Stutzman filed an answer on May 16, 2013, asserting,
among other defenses, that her refusal to furnish
Ingersoll with wedding services was protected by the
state and federal constitutions’ free exercise of
religion, free speech, and freedom of association
guaranties. Ingersoll and Freed filed a private lawsuit
against Arlene’s Flowers and Stutzman on April 18,
2013, which the trial court consolidated with the
State’s case on July 24, 2013. The parties filed various
cross motions for summary judgment. The trial court
ultimately entered judgment for the plaintiffs in both
cases, awarding permanent injunctive relief, as well
as monetary damages for Ingersoll and Freed to cover
actual damages, attorney fees, and costs, and finding
Stutzman personally liable.

10a
When it granted the plaintiffs’ motions for
summary judgment, the trial court made seven
rulings that are at issue in this appeal. First, it issued
two purely statutory rulings: (1) that Stutzman
violated the WLAD’s public accommodations
provision (RCW 49.60.215(1)) and the CPA (see RCW
19.86.020; RCW 49.60.030) by refusing to sell floral
services for same-sex weddings and (2) that both
Stutzman (personally) and Arlene’s Flowers (the
corporate defendant) were liable for these violations.
CP at 2566-600. Next, the court made five
constitutional rulings. It concluded that the
application of the WLAD’s public accommodations
provision to Stutzman in this case (1) did not violate
Stutzman’s right to free speech under the First
Amendment to the United States Constitution or
article I, section 5 of the Washington Constitution, (2)
did not violate Stutzman’s right to religious free
exercise under the First Amendment, (3) did not
violate her right to free association under the First
Amendment, (4) did not violate First Amendment
protections under the hybrid rights doctrine, and (5)
did not violate Stutzman’s right to religious free
exercise under article I, section 11 of the Washington
Constitution. Id. at 2601-60.
Stutzman appealed directly to this court,
assigning error to all seven of those rulings. We
granted direct review. Order, Ingersoll v. Arlene’s
Flowers, Inc., No. 91615-2 (Wash. Mar. 2, 2016). With
respect to most of the claims, Stutzman and Arlene’s
Flowers make identical arguments—in other words,
Stutzman asserts that both she and her corporation
enjoy identical rights of free speech, free exercise, and

11a
free association.2 It is only with respect to the CPA
claim that Stutzman asserts a separate defense: she
argues that even if Arlene’s Flowers is liable for the
CPA violation, she cannot be personally liable for a
violation of that statute.
In our original opinion, we affirmed the trial
court’s rulings. Arlene’s Flowers, 187 Wn.2d at 856.
Appellants then petitioned the United States
Supreme Court for a writ of certiorari, seeking review
of their federal free speech and free exercise claims.
Pet. for Writ of Cert., Arlene’s Flowers, No. 17-108
(U.S. July 14, 2017). Before ruling on the petition, the
United States Supreme Court issued its decision in
Masterpiece Cakeshop, 138 S. Ct. 1719, a case
involving similar issues to those in the case before us
now. The Supreme Court then granted appellants’
petition, vacated our original judgment, and
remanded “for further consideration in light of
Masterpiece Cakeshop.” Arlene’s Flowers, 138 S. Ct.
2671.

In their brief on remand, appellants again claim that the
corporation’s “free-exercise rights are synonymous with Mrs.
Stutzman’s.” Br. of Appellants (Nov. 13, 2018) at 18 n.3. But the
general rule is that “‘[a] corporation exists as an organization
distinct from the personality of its shareholders.’” Br. for
Professor Kent Greenfield as Amicus Curiae in Supp. of Resp’ts
at 8 (alteration in original) (quoting Grayson v. Nordic Constr.
Co., Inc., 92 Wn.2d 548, 552, 599 P.2d 1271 (1979)). In this case,
however, we need not resolve whether some exception to that
rule allows Arlene’s Flowers to share the free exercise rights of
its shareholders, officers, and employees. Even assuming the
rights are synonymous, we found no violation of any
constitutional right in our first opinion, and today we hold that
that opinion is unaffected by Masterpiece Cakeshop.
2

12a
The parties, as well as several other interested
organizations and individuals (amici curiae), have
fully briefed what they see as the issues on remand.3
Appellants now claim that the permanent injunction
issued by the superior court requires them to
“personally attend and participate in same-sex
weddings.” Br. of Appellants (Nov. 13, 2018) at 25.
Stutzman made a similar argument before the
superior court, claiming “that other aspects of her
involvement in weddings are speech, including
singing, standing for the bride, clapping to celebrate
the marriage, and in one instance counseling the
bride.” CP at 2347 n.23. But as the superior court
explained,
Tellingly, Stutzman does not claim that she
was being paid to do any of these things. Said
another way, she does not claim that these are
services that she is providing for a fee to her
customers such that they would be covered by
an injunction. The degree to which she
voluntarily involves herself in an event
outside the scope of services she must provide
to all customers on a non-discriminatory basis
(if she provides the service in the first
instance) is not before the Court.
Id. The issue was not before the superior court then,
and it is not before this court now.
In addition, Arlene’s Flowers and Stutzman
filed a motion to supplement the record or for judicial
notice, as did the State of Washington. We passed the
The parties have not moved for oral argument, and we find
the briefing sufficient for our consideration of this case on
remand.
3

13a
motions to supplement or for judicial notice to the
merits, and we now deny both motions and adhere to
our original decision for the reasons explained below.
ANALYSIS
A grant, vacate, remand (GVR) order “is
neither an outright reversal nor an invitation to
reverse; it is merely a device that allows a lower court
that had rendered its decision without the benefit of
an intervening clarification to have an opportunity to
reconsider that decision and, if warranted, to revise
or correct it.” Gonzalez v. Justices of Mun. Court, 420
F.3d 5, 7 (1st Cir. 2005). “Consequently, we do not
treat the Court’s GVR order as a thinly-veiled
direction to alter course . . . .” Id.; see also Wright v.
Florida, 256 So. 3d 766, 770 (Fla. 2018) (“[W]e will not
guess at the implied intentions of the Supreme
Court’s GVR order.”), cert. denied (U.S. June 3, 2019)
(No. 18-8653). Instead, we follow the Supreme Court’s
clear instruction to “further consider[]” this case “in
light of Masterpiece Cakeshop.” Arlene’s Flowers, 138
S. Ct. 2671; see also Gonzalez, 420 F.3d at 8 (“As a
general rule, ‘when the Supreme Court remands in a
civil case, the [court on remand] should confine its
ensuing inquiry to matters coming within the
specified scope of the remand.’” (quoting Kotler v. Am.
Tobacco Co., 981 F.2d 7, 13 (1st Cir. 1992))).
I.

In Masterpiece Cakeshop, the Supreme Court
held that the adjudicatory body tasked with
deciding a particular case must remain
neutral

In Masterpiece Cakeshop, Jack Phillips, the
shop’s owner, told a same-sex couple “that he would
not create a cake for their wedding because of his

14a
religious opposition to same-sex marriages—
marriages the State of Colorado itself did not
recognize at that time.” 138 S. Ct. at 1723. After being
turned away, the couple filed a charge with the
Colorado Civil Rights Commission (Commission), id.,
a state adjudicatory body “charged with the solemn
responsibility of fair and neutral enforcement of
Colorado’s antidiscrimination law,” id. at 1729. The
couple alleged that the shop owner had illegally
discriminated against them “on the basis of sexual
orientation.” Id. at 1723. The Commission ruled in the
couple’s favor, and the Colorado courts affirmed. Id.
At the Supreme Court, Phillips argued that
Colorado violated his First Amendment rights by
requiring him “to use his artistic skills to make an
expressive statement, a wedding endorsement in his
own voice and of his own creation.” Id. at 1728; U.S.
CONST. amend. I. The Supreme Court explained that
“the baker likely found it difficult to find a line where
the customers’ rights to goods and services became a
demand for him to exercise the right of his own
personal expression for their message, a message he
could not express in a way consistent with his
religious beliefs.” Id. The Court found the baker’s
“dilemma . . . particularly understandable” given that
Colorado did not yet “recognize the validity of gay
marriages performed in its own State.” Id.
At the same time, the Court reaffirmed that
“while . . . religious and philosophical objections [to
gay marriage] are protected, it is a general rule that
such objections do not allow business owners and
other actors in the economy and in society to deny
protected persons equal access to goods and services
under a neutral and generally applicable public

15a
accommodations law.” Id. at 1727 (citing Hurley v.
Irish-Am. Gay, Lesbian & Bisexual Grp. of Boston,
Inc., 515 U.S. 557, 572, 115 S. Ct. 2338, 132 L. Ed. 2d
487 (1995); Newman v. Piggie Park Enters., Inc., 390
U.S. 400, 402, 402 n.5, 88 S. Ct. 964, 19 L. Ed. 2d 1263
(1968) (per curiam)). In fact, the Piggie Park footnote
to which the United States Supreme Court cites
explicitly states that the shop owners’ defense in that
case—that the Civil Rights Act of 1964, 42 U.S.C. §
2000e, “‘constitutes an interference with the free
exercise of the Defendant’s religion’”—was “patently
frivolous.” Piggie Park, 390 U.S. at 402 n.5 (internal
quotation marks omitted) (quoting Newman v. Piggie
Park Enters., Inc., 377 F.2d 433, 438 (4th Cir. 1967)
(Winter, J., concurring specially)). Indeed, in
Masterpiece Cakeshop, “Petitioners conceded . . . that
if a baker refused to sell any goods or any cakes for
gay weddings, . . . the State would have a strong case
under [the Supreme] Court’s precedents that this
would be a denial of goods and services that went
beyond any protected rights of a baker who offers
goods and services to the general public and is subject
to a neutrally applied and generally applicable public
accommodations law.” 138 S. Ct. at 1728.
As to weddings, the Supreme Court noted that
“it can be assumed that a member of the clergy who
objects to gay marriage on moral and religious
grounds could not be compelled to perform the
ceremony without denial of his or her right to the free
exercise of religion.” Id. at 1727. But the Court
observed the narrowness of such an exception:
Yet if that exception were not confined, then
a long list of persons who provide goods and
services for marriages and weddings might

16a
refuse to do so for gay persons, thus resulting
in a community-wide stigma inconsistent
with the history and dynamics of civil rights
laws that ensure equal access to goods,
services, and public accommodations.
Id. Thus,
any decision in favor of the baker would have
to be sufficiently constrained, lest all
purveyors of goods and services who object to
gay marriages for moral and religious reasons
in effect be allowed to put up signs saying “no
goods or services will be sold if they will be
used for gay marriages,” something that
would impose a serious stigma on gay
persons.
Id. at 1728-29.
In sum, the issue before the Supreme Court
was one of the “proper reconciliation of at least two
principles.” Id. at 1723. “The first is the authority of a
State and its governmental entities to protect the
rights and dignity of gay persons who are, or wish to
be, married but who face discrimination when they
seek goods or services.” Id. “The second is the right of
all persons to exercise fundamental freedoms under
the First Amendment, as applied to the States
through the Fourteenth Amendment.” Id.
But the Supreme Court did not reconcile those
two principles. Instead, the Court explained that the
Commission failed to adjudicate “with the religious
neutrality that the Constitution requires” and held
that “whatever the outcome of some future
controversy involving facts similar to these, the

17a
Commission’s actions here violated the Free Exercise
Clause [of the First Amendment].” Id. at 1724.
“Phillips was entitled to a neutral decisionmaker who
would give full and fair consideration to his religious
objection as he sought to assert it in all of the
circumstances in which this case was presented,
considered, and decided.” Id. at 1732. Disputes like
Phillips’ “must be resolved with tolerance, without
undue disrespect to sincere religious beliefs, and
without subjecting gay persons to indignities when
they seek goods and services in an open market.” Id.
The Supreme Court therefore ruled that the
Commission violated the free exercise clause of the
First Amendment in two respects: two of its members
made disparaging comments about religion and it
treated similarly situated parties differently. We
address each of those holdings below.
A. Members of an Adjudicatory Body May Not
Disparage the Religion of a Party Before It
The Supreme Court observed that two of the
seven commissioners on the Commission “endorsed
the view that religious beliefs cannot legitimately be
carried into the public sphere or commercial domain,
implying that religious beliefs and persons are less
than fully welcome in Colorado’s business
community.” Id. at 1729. The Court took particular
issue with the following statement made by a
commissioner:
“Freedom of religion and religion has been
used to justify all kinds of discrimination
throughout history, whether it be slavery,
whether it be the Holocaust, whether it be—I
mean, we—we can list hundreds of situations

18a
where freedom of religion has been used to
justify discrimination. And to me it is one of
the most despicable pieces of rhetoric that
people can use to—to use their religion to hurt
others.”
Id. That statement, the Court reasoned, characterized
the baker’s religion as “something insubstantial and
even insincere,” which “is inappropriate for a
Commission charged with the solemn responsibility of
fair and neutral enforcement of Colorado’s
antidiscrimination law—a law that protects against
discrimination on the basis of religion as well as
sexual orientation.” Id. The other commissioners did
not object to this statement, nor did they object to two
related statements made by another commissioner.
Id. “And the later state-court ruling reviewing the
Commission’s decision did not mention those
comments, much less express concern with their
content.” Id. at 1729-30.
The Supreme Court, emphasizing that the
statements were made “by an adjudicatory body
deciding a particular case”—not “by lawmakers” or
members of the executive branch—concluded that the
“statements cast doubt on the fairness and
impartiality of the Commission’s adjudication of
Phillips’ case.” Id. at 1730.
B. An Adjudicatory Body Must
Similarly Situated Parties Equally

Treat

The Court also discussed “the difference in
treatment” between Phillips’ case and the cases of
three other bakers who refused, on the basis of
conscience, “to create cakes with images that
conveyed disapproval of same-sex marriage, along

19a
with religious text.” Id. at 1730. In those three cases,
all of which occurred “while enforcement proceedings
against Phillips were ongoing,” id. at 1728, the
Colorado Civil Rights Division4 “found that the baker
acted lawfully in refusing service,” id. at 1730. The
Supreme Court held that “the Commission’s
consideration of Phillips’ religious objection did not
accord with its treatment of these other objections.”
Id.
II. Masterpiece Cakeshop does not affect our
original decision because the adjudicatory
bodies tasked with deciding this case
remained neutral
Throughout the course of this litigation,
appellants have never alleged that the adjudicatory
bodies tasked with deciding this case failed to remain
neutral. Since the argument has never been made, we
had no reason to discuss in our first opinion the
importance of a neutral adjudicatory body or to comb
the record for signs of bias from the courts.
Even on remand, appellants still do not claim
that our court or the Benton County Superior Court
failed to adjudicate “with the religious neutrality that
the Constitution requires.” Masterpiece Cakeshop,
138 S. Ct. at 1724. Presumably, appellants do not
make such a claim because the record would not
support it. Indeed, the record reveals that the courts
remained neutral “in all of the circumstances in which
this case was presented, considered, and decided.” Id.
at 1732. In its decision, the Benton County Superior
The Colorado Civil Rights Division is tasked with
investigating claims and referring those with potential merit to
the Commission. Masterpiece Cakeshop, 138 S. Ct. at 1725.
4

20a
Court acknowledged that “Stutzman has a sincerelyheld religious belief” that is “entirely consistent” with
her church’s “doctrinal statement,” and the superior
court refused to “inquire further in the matter.” CP
2355. In fact, the superior court went out of its way to
note that it
intend[ed] no disrespect and d[id] not mean to
imply either that Stutzman possesses any
racial animus, or that she has conducted
herself in any way inconsistently with
Resolutions of the [Southern Baptist
Church]’s direction to condemn “any form of
gay-bashing, disrespectful attitudes, hateful
rhetoric, or hate-incited actions” toward gay
men or women.
CP at 2360 n.31. Our court also recognized
Stutzman’s “sincerely held religious beliefs,” Arlene’s
Flowers, 187 Wn.2d at 815-16, and “analyze[d] each of
[her] constitutional defenses carefully,” id. at 830.
After carefully reviewing the record, including
transcripts of hearings and written orders, and after
carefully reviewing our prior opinion, we are
confident that the courts resolved this dispute “with
tolerance, without undue disrespect to sincere
religious beliefs, and without subjecting gay persons
to indignities when they seek goods and services in an
open market.” Id. at 1732.
Apparently realizing the limits of Masterpiece
Cakeshop, appellants attempt to stretch its holding
beyond recognition and to relitigate issues resolved in
our first opinion and outside the scope of Masterpiece
Cakeshop. We reject this attempt and instead comply
with the Supreme Court’s explicit mandate to

21a
“further consider[]” our original judgment “in light of
Masterpiece Cakeshop.” Arlene’s Flowers, 138 S. Ct.
2671; see also Gonzalez, 420 F.3d at 7-8.5
III. We deny the motions to supplement the
record or to take judicial notice
This court will grant a motion to supplement
the record or to take judicial notice only if the
proposed supplemental materials are relevant to the
outcome of the proceeding. For example, we “may
direct that additional evidence on the merits of the
case be taken before the decision of a case on review
if” “additional proof of facts is needed to fairly resolve
the issues on review,” “the additional evidence would
probably change the decision being reviewed,” and “it
would be inequitable to decide the case solely on the
evidence already taken in the trial court.” RAP 9.11(a)
(emphasis added). If the additional evidence is
irrelevant, it is not needed to resolve the issues on
review, it would not change the decision being
reviewed, and it would therefore be equitable to
decide the case without the irrelevant evidence.
Additionally, in some situations we may take judicial
For this reason, we also reject appellants’ attempt to rely on
Janus v. American Federation of State, County, & Municipal
Employees, Council 31, ___ U.S. ___, 138 S. Ct. 2448, 201 L. Ed.
2d 924 (2018), and National Institute of Family & Life Advocates
v. Becerra, ___ U.S. ___, 138 S. Ct. 2361, 201 L. Ed. 2d 835 (2018).
Both of those opinions were issued after the Supreme Court
remanded this case, and therefore both are outside the scope of
the remand. Even if we were to consider those cases, neither
involves the type of public accommodations statute at issue here
or in Masterpiece Cakeshop. As Masterpiece Cakeshop observes,
“The outcome of cases like this in other circumstances must
await further elaboration in the courts.” 138 S. Ct. at 1732.
Neither Janus nor Becerra provides further elaboration.
5

22a
notice of adjudicative facts under our Evidence
Rules—but only if those facts are relevant. ER 201;
ER 402 (“Evidence which is not relevant is not
admissible.”).
Appellants Arlene’s Flowers and Stutzman
filed a motion to supplement the record or for this
court to take judicial notice of supplemental
materials. The proposed supplemental materials
concern a single unrelated incident that occurred
after we issued our first opinion in this case but before
the Supreme Court ruled on appellants’ petition for
writ of certiorari. In that unrelated incident,
appellants claim that “the owner of Bedlam Coffee in
Seattle expelled a group of Christian customers
visiting his shop.” Appellants’ Mot. to Suppl. R. or for
Judicial Notice at 2. The crux of appellants’ argument
is that the attorney general sought to enforce the
WLAD in the case before us but not in the incident at
the coffee shop, revealing “hostility toward Mrs.
Stutzman’s beliefs.” Id. at 7.
Respondent State also filed a motion to
supplement the record or for this court to take judicial
notice of supplemental materials. Although the State
argues that the incident in the coffee shop is
irrelevant, it requests that if we grant appellants’
motion, then we should also grant its motion “to give
a more complete picture of the incident described.”
Resp’t State of Wash.’s Mot. to Suppl. R. or for
Judicial Notice at 3-4. For their part, respondents
Ingersoll and Freed argue that “the other parties’
proposed supplemental materials are irrelevant.” Br.
of Resp’ts Ingersoll & Freed on Remand from the U.S.
Supreme Ct. (Jan. 14, 2019) at 13 n.3.

23a
We agree with respondents Ingersoll and Freed
and hold that the attorney general’s response to the
incident at the coffee shop is irrelevant to this case.
As discussed above, the Supreme Court in
Masterpiece Cakeshop held that the adjudicatory body
tasked with deciding a particular case must remain
neutral. That Court was explicitly sensitive to the
context in which the lack of neutrality occurred:
during adjudication by the adjudicatory body deciding
the case. Masterpiece Cakeshop, 138 S. Ct. at 1729-30
(describing statements made by lawmakers during
lawmaking as “a very different context”); see also Br.
of Church-State Scholars as Amici Curiae in Supp. of
Pls.-Resp’ts (Mar. 13, 2019) at 9 (noting
“Masterpiece’s clear sensitivity to the institutional
context in which the government allegedly engaged in
religious targeting”). The holding of Masterpiece
Cakeshop might make additional evidence about a
lack of neutrality on behalf of the adjudicatory bodies
that heard this case relevant. But that is not what the
proposed evidence is about; the parties instead seek
to introduce evidence about a lack of neutrality on
behalf of the attorney for one of the parties, the
attorney general of the State of Washington.
It would take a broad expansion of Masterpiece
Cakeshop to apply its holding—that the adjudicatory
body hearing a case must show religious neutrality—
to a party. That is especially true here, where the
party supposedly exhibiting antireligious bias is
Washington’s attorney general. By arguing that
Masterpiece Cakeshop’s holding about adjudicatory
bodies applies to the attorney general’s enforcement
decisions, appellants essentially seek to revive their
selective-enforcement claim, a claim that was rejected

24a
by the superior court, CP at 2361-64, and abandoned
on appeal, see Statement of Grounds for Direct
Review at 6.
Appellants’ decision to abandon that claim on
appeal was sound. Controlling precedent shows that
claims of selective enforcement arise in “a very
different context” than claims of biased adjudication.
Masterpiece Cakeshop, 138 S. Ct. at 1729-30. In the
criminal arena, the United States Supreme Court has
noted that selective-enforcement claims “invade a
special province of the Executive—its prosecutorial
discretion.” Reno v. Am.-Arab Anti-Discrimination
Comm., 525 U.S. 471, 489, 119 S. Ct. 936, 142 L. Ed.
2d 940 (1999). Courts are wary to question a
prosecutor’s decision of which claims to pursue and
thus generally “‘presume that [prosecutors] have
properly discharged their official duties.’” United
States v. Armstrong, 517 U.S. 456, 464, 116 S. Ct.
1480, 134 L. Ed. 2d 687 (1996) (quoting United States
v. Chem. Found., Inc., 272 U.S. 1, 14-15, 47 S. Ct. 1,
71 L. Ed. 131 (1926)). To overcome this presumption
of regularity, the Court has “emphasized that the
standard for proving [selective-enforcement claims] is
particularly
demanding.”
Am.-Arab
AntiDiscrimination Comm., 525 U.S. at 489. A defendant
must “introduce ‘clear evidence’ displacing the
presumption that a prosecutor has acted lawfully.” Id.
(citing Armstrong, 517 U.S. at 463-65).
Rather than grapple with this precedent,
appellants seem to argue that selective-enforcement
claims premised on the free exercise clause should not
be subject to the same demanding standard to which
all other selective-enforcement claims are subject.
Appellants’ Resp. to Amici Curiae (Mar. 22, 2019) at

25a
6-7. In making this argument, appellants rely on two
cases controlling in our court: Church of Lukumi
Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520, 113
S. Ct. 2217, 124 L. Ed. 2d 472 (1993), and Masterpiece
Cakeshop. But the issue in Lukumi Babalu Aye was
not whether the executive branch selectively enforced
a law in an unconstitutional manner; it was whether
the law itself was neutral and generally applicable.
508 U.S. at 531-32. And as appellants recognize,
Masterpiece Cakeshop—the case with which we are
most concerned on remand—says nothing about
selective-enforcement claims. Appellants’ Resp. to
Amici Curiae (Mar. 22, 2019) at 5-6. Against this
backdrop, we decline to recognize the carve-out
requested by appellants but missing from any
controlling precedent.
Even if appellants were correct, they fail to
recognize that only one of the two consolidated cases
before us would be affected. The attorney general was
not a party to or a lawyer in Ingersoll and Freed’s
separate, private lawsuit, and the alleged selectiveenforcement claim would therefore not extend to it.6
Appellants argue that New York Times Co. v. Sullivan, 376
U.S. 254, 84 S. Ct. 710, 718, 11 L. Ed. 2d 686 (1964), suggests
otherwise. Reply Br. of Appellants (Feb. 13, 2019) at 13. Sullivan
involved the constitutionality of a state law, the enforcement of
which supplied the necessary state action. 376 U.S. at 265. At
this stage of this case, we are no longer concerned with the
constitutionality of any state law; we held that the state laws
relevant here were constitutional in our first opinion, and
Masterpiece Cakeshop does not affect that analysis. Instead, we
are concerned solely with Masterpiece Cakeshop’s mandate that
state adjudicatory bodies must exhibit religious neutrality.
Appellants argue that Masterpiece Cakeshop’s holding extends
to the executive branch and that the attorney general failed to
6

26a
In any event, we decline to expansively read
Masterpiece Cakeshop to encompass the “very
different context” of executive branch discretion. We
do not believe that the Supreme Court intended to
silently overturn any of its selective-enforcement
precedents or to create a carve-out within that
precedent for claims based on the free exercise clause.
That is not to say that the Washington attorney
general is free to enforce the WLAD in a manner that
offends the state or federal constitution. We simply
recognize our mandate on remand to further consider
this case in light of Masterpiece Cakeshop, a case that
requires neutrality from the adjudicatory bodies
hearing a particular case and says nothing about
claims of selective enforcement by the executive
branch. The remand is not an invitation to the parties
to litigate new issues outside the scope of both our
initial ruling and Masterpiece Cakeshop. Because the
proposed supplemental evidence has nothing to do
with the neutrality of either our court or the Benton
County Superior Court, it is irrelevant, and the
motions are therefore denied.
IV. Because the Washington courts resolved this
dispute with tolerance, we find no reason to
alter our original opinion
As noted above, this case presents both
statutory and constitutional questions. Both are
reviewed de novo. Williams v. Tilaye, 174 Wn.2d 57,
61, 272 P.3d 235 (2012) (“[s]tatutory interpretation is
act with the required neutrality. Even if that interpretation were
correct, it would have no bearing on the individual plaintiffs’
lawsuit because the attorney general was not a party to or a
lawyer in that case.

27a
a question of law reviewed de novo” (citing State v.
Wentz, 149 Wn.2d 342, 346, 68 P.3d 282 (2003))); Hale
v. Wellpinit Sch. Dist. No. 49, 165 Wn.2d 494, 503, 198
P.3d 1021 (2009) (appellate court “review[s] all
constitutional challenges de novo” (citing State v.
Jones, 159 Wn.2d 231, 237, 149 P.3d 636 (2006))).
A. Stutzman’s Refusal To Provide Custom
Floral Arrangements for a Same-Sex
Wedding Violated the WLAD’s Prohibition
on
Discrimination
in
Public
Accommodations, RCW 49.60.215
Stutzman’s first statutory argument implicates
the WLAD, chapter 49.60 RCW. The trial court ruled
that Stutzman violated RCW 49.60.215, which
prohibits discrimination in the realm of public
accommodations. That statute provides:
(1) It shall be an unfair practice for any
person or the person’s agent or employee to
commit an act which directly or indirectly
results in any distinction, restriction, or
discrimination, or the requiring of any person
to pay a larger sum than the uniform rates
charged other persons, or the refusing or
withholding from any person the admission,
patronage, custom, presence, frequenting,
dwelling, staying, or lodging in any place of
public resort, accommodation, assemblage, or
amusement, except for conditions and
limitations established by law and applicable
to all persons, regardless of . . . sexual
orientation . . . .

28a
RCW 49.60.215. The protected class status of “sexual
orientation” was added to this provision in 2006.
LAWS OF 2006, ch. 4, § 13.
The WLAD defines places of public
accommodation to include places maintained “for the
sale of goods, merchandise, services, or personal
property, or for the rendering of personal services
. . . .” RCW 49.60.040(2). Protected individuals are
guaranteed “[t]he right to the full enjoyment of any of
the accommodations, advantages, facilities, or
privileges” of such places. RCW 49.60.030(1)(b).
Additionally, the WLAD states that “[t]he right to be
free from discrimination because of . . . sexual
orientation . . . is recognized as and declared to be a
civil right,” RCW 49.60.030(1) (emphasis added). The
WLAD prohibits discrimination on the different basis
of “marital status” in the employment context, but not
in the context of public accommodations. Compare
RCW 49.60.180 (listing “marital status” as a
protected class in section governing unfair practices
of employers), with RCW 49.60.215 (omitting marital
status from analogous public accommodations
statute).
RCW 49.60.030(2) authorizes private plaintiffs
to bring suit for violations of the WLAD. To make out
a prima facie case under the WLAD for discrimination
in the public accommodations context, the plaintiff
must establish four elements: (1) that the plaintiff is
a member of a protected class, RCW 49.60.030(1); (2)
that the defendant is a place of public accommodation,
RCW 49.60.215; (3) that the defendant discriminated
against the plaintiff, whether directly or indirectly,
id.; and (4) that the discrimination occurred “because
of” the plaintiff’s status or, in other words, that the

29a
protected status was a substantial factor causing the
discrimination, RCW 49.60.030. See also Fell v.
Spokane Transit Auth., 128 Wn.2d 618, 637, 911 P.2d
1319 (1996) (setting forth elements of prima facie case
for disability discrimination under RCW 49.60.215).
Stutzman contests only the last element: she
contends that she did not discriminate against
Ingersoll “because of” his protected class status under
the WLAD. See Br. of Appellants at 19-21.7 She offers
three arguments in support of this interpretation of
the statute.
First, Stutzman argues that if she
discriminated against Ingersoll, it was on the basis of
his “marital status,” not his “sexual orientation.” Br.
of Appellants at 19-21. Second, she argues that the
legislature could not have intended the 2006
amendments to protect people seeking same-sex
wedding services since same-sex marriages were
“illegal” in Washington in 2006. Id. at 15-17. She
points out that when the legislature amended the
public accommodations provisions of the WLAD in
2006, it also added language stating that the chapter
“shall not be construed to endorse any specific belief,
practice, behavior, or orientation” and affirming that
the addition “shall not be construed to modify or
No one disputes that Ingersoll and Freed are gay men who
sought to marry in recognition of their nearly nine-year
committed relationship. And Stutzman admits that she is the
“sole owner and operator of Arlene’s Flowers, Inc.,” CP at 535,
which is “a Washington for-profit corporation engaged in the sale
of goods and services, including flowers for weddings,” to the
public. Id. at 2, 7-8. Furthermore, Stutzman confirms that she
declined to do the flowers for Ingersoll’s wedding because of her
religious convictions.
7

30a
supersede state law relating to marriage.” Id. at 1718, 15 (quoting LAWS OF 2006, ch. 4, § 2 (codified at
RCW 49.60.020)). Third, Stutzman argues that
because the WLAD protects both sexual orientation
and religion, it requires that courts balance those
rights when they conflict.8 These arguments fail.
i.

By refusing to provide services for a
same-sex
wedding,
Stutzman
discriminated on the basis of “sexual
orientation” under the WLAD

Stutzman argues that the WLAD distinguishes
between discrimination on the basis of “sexual
orientation”—which the statute prohibits—and
discrimination against those who marry members of
the same sex. But numerous courts—including our
own—have rejected this kind of status/conduct
distinction in cases involving statutory and
constitutional claims of discrimination. E.g., Hegwine
v. Longview Fibre Co., 162 Wn.2d 340, 349, 172 P.3d
688 (2007) (“under the plain language of the WLAD
and its interpretative regulations, pregnancy related
employment discrimination claims are matters of sex
discrimination”); Elane Photography, LLC v. Willock,
2013-NMSC-040, 309 P.3d 53 (rejecting argument
identical to Stutzman’s, in context of New Mexico’s
Human Rights Act (NMHRA), N.M. STAT. ANN. §§
Stutzman also argues that by compelling her to furnish
flowers for a same-sex marriage ceremony, the State “endorses”
same-sex marriages and also requires her to “endorse” them. Br.
of Appellants at 18. She claims that this conflicts with the WLAD
provision stating that “[t]his chapter shall not be construed to
endorse any specific belief, practice, behavior, or orientation.”
RCW 49.60.020. But Stutzman cites no legal authority for this
interpretation of the term “endorse” in the WLAD.
8

31a
28-1-1 to 28-1-13);9 Christian Legal Soc’y Chapter of
Univ. of Cal. v. Martinez, 561 U.S. 661, 672, 688, 130
S. Ct. 2971, 177 L.Ed. 2d 838 (2010) (student
organization was discriminating based on sexual
orientation, not belief or conduct, when it excluded
from membership any person who engaged in
“‘unrepentant
homosexual
conduct’”;
thus,
University’s antidiscrimination policy did not violate
First Amendment protections); see also Lawrence v.
Texas, 539 U.S. 558, 575, 123 S. Ct. 2472, 156 L. Ed.
2d 508 (2003) (by criminalizing conduct typically
undertaken by gay people, a state discriminates
against gay people in violation of protections under
the Fourteenth Amendment to the federal
constitution); Romer v. Evans, 517 U.S. 620, 641, 116
S. Ct. 1620, 134 L. Ed. 2d 855 (1996) (Scalia, J.,
dissenting) (“‘After all, there can hardly be more
palpable discrimination against a class than making
the conduct that defines the class criminal.’” (quoting
9 In Elane Photography, the New Mexico Supreme Court
addressed the question of whether a wedding photographer
discriminated against a lesbian couple on the basis of their
sexual orientation by refusing to photograph their wedding
under a state public accommodations law similar to the WLAD.
309 P.3d 53. The proprietor of Elane Photography argued, much
like Stutzman here, that she was not discriminating against
Willock and her fiancée based on their sexual orientation, but
rather was choosing not to “endorse” same-sex marriage by
photographing one in conflict with her religious beliefs. Id. at 61.
The court rejected Elane Photography’s attempt to distinguish
status from conduct, finding that “[t]o allow discrimination
based on conduct so closely correlated with sexual orientation
would severely undermine the purpose of the NMHRA.” Id.
Elane Photography was represented on appeal by the same
organization—Alliance Defending Freedom—that represents
Stutzman before this court. Id. at 58.

32a
Padula v. Webster, 261 U.S. App. D.C. 365, 371, 822
F.2d 97 (1987))); Bray v. Alexandria Women’s Health
Clinic, 506 U.S. 263, 270, 113 S. Ct. 753, 122 L. Ed.
2d 34 (1993) (summarizing that some conduct is so
linked to a particular group of people that targeting it
can readily be interpreted as an attempt to disfavor
that group by stating that “[a] tax on wearing
yarmulkes is a tax on Jews”);10 Bob Jones Univ. v.
United States, 461 U.S. 574, 605, 103 S. Ct. 2017, 76
L. Ed. 2d 157 (1983) (“discrimination on the basis of
racial affiliation and association is a form of racial
discrimination”).11 Finally, in 2015, the Supreme

Stutzman argues that Bray actually supports her position
because the Bray Court rejected the argument that a group’s
antiabortion protests outside clinics reflected an “‘invidiously
discriminatory animus’” toward women in general. 506 U.S. at
269 (quoting Griffin v. Breckenridge, 403 U.S. 88, 102, 91 S. Ct.
1790, 29 L. Ed. 2d 338 (1971)); Reply Br. of Appellants at 39.
This is related to her argument in the opening brief on appeal
that because she generally lacks animus toward gay people, and
because her refusal to provide service to Mr. Ingersoll was
motivated by religious beliefs, she cannot be said to have
discriminated “because of” sexual orientation as required by the
WLAD. See Br. of Appellants at 19-21. From Bray, Stutzman
concludes that her decision to decline Mr. Ingersoll’s “artistic
commission” was acceptable because it was “reasonable”and she
bore “no underlying animus” toward gay people in general. Reply
Br. of Appellants at 40. However, Bray dealt with a question of
statutory interpretation of 42 U.S.C. § 1985(3), which has been
interpreted to require a showing of animus. See Bray, 506 U.S.
at 267-68; Griffin, 403 U.S. at 102. In contrast, we have already
addressed this question of an animus requirement with regard
to the WLAD and have held that it contains no such requirement
(see discussion below).
10

See also Blackburn v. Dep’t of Soc. & Health Servs., 186
Wn.2d 250, 258-59, 375 P.3d 1076 (2016) (discrimination on
11

33a
Court likened the denial of marriage equality to samesex couples itself to discrimination, noting that such
denial “works a grave and continuing harm,” and is a
“disability on gays and lesbians [that] serves to
disrespect and subordinate them.” Obergefell v.
Hodges, ___ U.S. ___, 135 S. Ct. 2584, 2604, 2607-08,
192 L. Ed. 2d 609 (2015) (fundamental right to marry
includes same-sex couples and is protected by due
process and equal protection clauses of Fourteenth
Amendment; abrogating the equal protection and due
process holdings in Andersen v. King County, 158
Wn.2d 1, 30, 138 P.3d 963 (2006) (plurality opinion)
to the contrary).12
In accordance with this precedent, we reject
Stutzman’s proposed distinction between status and
conduct fundamentally linked to that status. This is
consistent with the language of the WLAD itself,
which, as respondents observe, states that it is to be
construed liberally, RCW 49.60.020; that all people,
regardless of sexual orientation are to have “full
enjoyment of any of the accommodations, advantages,
facilities, or privileges” of any place of public
accommodation, RCW 49.60.030(1)(b) (emphasis
added); and that all discriminatory acts, including
any act “which directly or indirectly results in any
distinction, restriction, or discrimination” based on a
person’s sexual orientation is an unfair practice in
basis of race occurs even where racially motivated staffing
decision might have been based on benign reason).
In response to the authority cited here, Stutzman cites two
cases for the proposition that other courts have drawn a
distinction between conduct and status. See Reply Br. of
Appellants at 36-37. She draws our attention to two trial court
decisions from Kentucky and Virginia. Id.
12

34a
violation of the WLAD, RCW 49.60.215(1) (emphasis
added).
ii. There is no same-sex wedding exception
to the WLAD’s public accommodation
provision, RCW 49.60.215
For the reasons given in Section IV.A.i above,
the plain language of RCW 49.60.215 prohibits
Stutzman’s refusal to provide same-sex wedding
services to Ingersoll; such refusal constitutes
discrimination on the basis of “sexual orientation,” in
violation of RCW 49.60.215. The same analysis
applies to her corporation.
Stutzman asks us to read an implied same-sex
wedding exception into this statute. She argues that
the legislature could not have intended to require
equal access to public accommodations for same-sex
wedding services because when it amended RCW
49.60.215
to
prohibit
sexual
orientation
discrimination, same-sex marriage was “illegal” in
Washington.
We reject this argument for two reasons. First,
the WLAD already contains an express exemption to
RCW 49.60.215 for “religious organization[s]” 13 that
object to providing public accommodations for samesex weddings. LAWS OF 2012, ch. 3, § 1(5) (“[n]o
religious organization is required to provide
accommodations, facilities, advantages, privileges,
This exemption does not extend to Arlene’s Flowers, which
does not meet the WLAD’s definition of a “religious
organization.” RCW 26.04.010(7)(b) (defining “religious
organization” to include “entities whose principal purpose is the
study, practice, or advancement of religion,” such as “churches,
mosques, synagogues, temples,” etc.).
13

35a
services, or goods related to the solemnization or
celebration of a marriage” (formatting omitted)). If
the WLAD already excluded same-sex wedding
services from the public accommodations covered
under RCW 49.60.215, this exemption would be
superfluous. We interpret statutes to avoid such
superfluity whenever possible. Rivard v. State, 168
Wn.2d 775, 783, 231 P.3d 186 (2010) (in giving
meaning to ambiguous statutory provisions, “we
interpret a statute to give effect to all language, so as
to render no portion meaningless or superfluous”).
Second, for purposes of the analysis Stutzman
would like us to adopt, same-sex marriage has never
been “illegal” in Washington. Stutzman cites our
decision in Waggoner v. Ace Hardware Corp., 134
Wn.2d 748, 750, 953 P.2d 88 (1998), which rejected a
claim of marital status discrimination by two people
terminated from their jobs for cohabiting in
contravention of their workplace antinepotism policy.
Waggoner argued that “cohabitation” fit within the
meaning of the term “marital status.” In examining
this question of statutory interpretation, we
determined that the plain meaning of the word
“marital”—that is, pertaining to “the status of being
married, separated, divorced, or widowed”—was
sufficient to resolve the question against petitioners.
Id. at 753. We thus rejected Waggoner’s argument
because “[w]e presume legislative consistency when
called upon to construe statutory enactments or new
amendments to old ones” and our legislature had
criminalized cohabitation prior to protecting marital
status under the WLAD. Id. at 754. Of significance
here, we noted that cohabitation remained a crime for
a full three years after marital status was included as

36a
a protected status, and observed that “[i]t would be
most anomalous for the Legislature to criminalize
and protect the same conduct at the same time.” Id.
(emphasis added). Stutzman argues that we should
treat same-sex marriage the same way and hold that
the legislature could not possibly have intended to
protect that practice when it protected sexual
orientation as a status.
But Stutzman’s reliance on Waggoner is
misplaced. Washington’s Defense of Marriage Act did
not criminalize same-sex marriage. Former RCW
9.79.120 (1973), repealed by LAWS OF 1975, 1st Ex.
Sess., ch. 260, § 9A.92.010(211). Rather, it codified, as
a matter of state law, that the only legally recognized
marriages in the state of Washington were those
between a man and a woman. See LAWS OF 1998, ch.
1, § 2 (“It is the intent of the legislature . . . to
establish public policy against same-sex marriage in
statutory law that clearly and definitively declares
same-sex marriages will not be recognized in
Washington”). Former RCW 26.04.010 (1998) enacted
no criminal penalties for attempts by two individuals
of the same sex to wed; those individuals would
simply not have had a valid “marriage” under
Washington law. See LAWS OF 1998, ch. 1, § 3.
Former RCW 9.79.120, on the other hand, specified
that cohabitation was “a gross misdemeanor.”
Waggoner, 134 Wn.2d at 754 n.4. Our reasoning in
Waggoner turned on the presence of a criminal statute
targeting the conduct at issue, which is absent here.
We hold that there is no same-sex wedding
exception to the WLAD’s public accommodations
provisions.

37a
iii. The WLAD contains no mandate to
balance religious rights against the
rights of protected class members
In her final statutory argument regarding the
WLAD, Stutzman contends that the superior court
erred by failing to balance her right to religious free
exercise against Ingersoll’s right to equal service.
Stutzman argues that because the WLAD also
protects patrons of public accommodations from
discrimination based on “creed,” RCW 49.60.030(1),
and because this court has recognized that the WLAD
“sets forth a nonexclusive list of rights,” Marquis v.
City of Spokane, 130 Wn.2d 97, 107, 922 P.2d 43
(1996), the statute actually grants conflicting rights.
As a consequence, she argues, courts should conduct
a balancing inquiry “on a case-by-case basis,” Reply
Br. of Appellants at 43. She cites Seattle Times Co. v.
Ishikawa, 97 Wn.2d 30, 37-39, 640 P.2d 716 (1982),
for the rule that this court uses balancing tests to
resolve claims of competing rights in other contexts.14
14 Although Stutzman refers to the balancing test set forth in
Ishikawa, that is not the test that she applies in her briefing.
Instead, Stutzman articulates a three-part balancing inquiry
that (1) prioritizes “[r]ights of express constitutional magnitude
. . . over other rights when they conflict,” (2) evaluates whether
infringement on the rights of the opposing party are narrowly
tailored to protect the rights of the claimant, and (3) weighs the
benefits and burdens on each party. Br. of Appellants at 23-24.
In conducting this inquiry, Stutzman concludes that her rights
“should take precedence” here because they are of constitutional
magnitude, rather than derived from police power as are
Ingersoll’s; the exception for weddings only (as opposed to
refusal to serve the gay community for any purpose) is narrowly
tailored to protect her religious rights; and she is more
significantly burdened in that she is forced to choose between

38a
But Stutzman cites no authority for her
contention that the WLAD protects proprietors of
public accommodations to the same extent as it
protects their patrons, nor for her contention that a
balancing test should be adopted for the WLAD. And,
to the extent that Stutzman relies on Ishikawa, that
case is inapposite: it dealt with two competing
rights—the right to a fair trial and the right to open
courts—both of which are constitutional, not
statutory. Id. at 37.
When faced with a question of statutory
interpretation, we “‘must not add words where the
legislature has chosen not to include them.’” Lake v.
Woodcreek Homeowners Ass’n, 169 Wn.2d 516, 526,
243 P.3d 1283 (2010) (quoting Rest. Dev., Inc. v.
Cananwill, Inc., 150 Wn.2d 674, 682, 80 P.3d 598
(2003)). Here, the legislature has provided no
indication in the text of the WLAD that it intended to
import a fact-specific, case-by-case, constitutional
balancing test into the statute. Moreover, the plain
terms of the WLAD’s public accommodations
provision—the statute at issue here—protect patrons,
not business owners. In other regulatory contexts,
this court and the United States Supreme Court have
held that individuals who engage in commerce
necessarily accept some limitations on their conduct
as a result. See United States v. Lee, 455 U.S. 252,
261, 102 S. Ct. 1051, 71 L. Ed. 2d 127 (1982) (Stevens,
J., concurring in judgment) (declining to extend Social
Security exemption to Amish employers on religious
losing business or violating her religious beliefs, whereas “Mr.
Ingersoll and Mr. Freed are able to obtain custom floral designs
for their same-sex wedding from nearby florists.” Id.

39a
grounds because “[w]hen followers of a particular sect
enter into commercial activity as a matter of choice,
the limits they accept on their own conduct as a
matter of conscience and faith are not to be
superimposed on the statutory schemes which are
binding on others in that activity”); Backlund v. Bd.
of Comm’rs of King County Hosp. Dist. No. 2, 106
Wn.2d 632, 648, 724 P.2d 981 (1986) (rejecting
religious grounds as valid basis for physician to
decline liability insurance because “[t]hose who enter
into a profession as a matter of choice, necessarily face
regulation as to their own conduct”); In re Marriage of
Didier, 134 Wn. App. 490, 499, 140 P.3d 607 (2006).
Because it is inconsistent with the WLAD’s
plain terms and unsupported by any precedent, we
decline to adopt Stutzman’s proposed balancing test.
In sum, Stutzman’s refusal to provide custom floral
arrangements for a same-sex wedding violated the
WLAD’s prohibition on discrimination in public
accommodations.15
B. Stutzman Fails To Show That the WLAD,
as Applied in This Case, Violates Her State
or Federal Constitutional Right to Free
Speech
As noted above, Stutzman raises five
constitutional challenges to the WLAD as applied to
her. She is correct that if the State statute violated a
constitutional right, the constitutional right would
certainly prevail. U.S. CONST. art. VI, cl. 2 (federal
To the extent Stutzman argues that her religious free
exercise rights supersede Ingersoll’s and Freed’s statutory
protections, we address that argument in the constitutional
analyses below.
15

40a
constitutional supremacy); Davis v. Cox, 183 Wn.2d
269, 294-95, 351 P.3d 862 (2015) (state constitutional
provision prevails over state statute to the contrary).
We therefore analyze each of Stutzman’s
constitutional defenses carefully.
The first of these defenses is a free speech
challenge: Stutzman contends that her floral
arrangements are artistic expressions protected by
the state and federal constitutions and that the
WLAD impermissibly compels her to speak in favor of
same-sex marriage.
i.

As applied to Stutzman in this case, the
WLAD
does
not
violate
First
Amendment speech protections

“Free speech is revered as the ‘Constitution’s
most majestic guarantee,’ central to the preservation
of all other rights.” State ex rel. Pub. Disclosure
Comm’n v. 119 Vote No! Comm., 135 Wn.2d 618, 624,
957 P.2d 691 (1998) (plurality opinion) (quoting
Nelson v. McClatchy Newspapers, Inc., 131 Wn.2d
523, 536, 936 P.2d 1123 (1997)). “The government
may not prohibit the dissemination of ideas that it
disfavors, nor compel the endorsement of ideas that it
approves.” Knox v. Serv. Emps. Int’l Union, Local
1000, 567 U.S. 298, 309, 132 S. Ct. 2277, 183 L. Ed.
2d 281 (2012). Indeed, the First Amendment protects
even hate speech, provided it is not “fighting words”
or a “‘true threat.’” Virginia v. Black, 538 U.S. 343,
359, 123 S. Ct. 1536, 155 L. Ed. 2d 535 (2003) (quoting
Watts v. United States, 394 U.S. 705, 708, 89 S. Ct.
1399, 22 L. Ed. 2d 664 (1969) (per curiam)).
her

Stutzman argues that the WLAD, as applied to
in this case, violates First Amendment

41a
protections against “compelled speech” because it
forces her to endorse same-sex marriage. Br. of
Appellants at 24-31. To succeed in this argument, she
must first demonstrate that the conduct at issue
here—her commercial sale of floral wedding
arrangements—amounts to “expression” protected by
the First Amendment. Clark v. Cmty. for Creative
Non-Violence, 468 U.S. 288, 293 n.5, 104 S. Ct. 3065,
82 L. Ed. 2d 221 (1984) (“[I]t is the obligation of the
person desiring to engage in assertedly expressive
conduct to demonstrate that the First Amendment
even applies. To hold otherwise would be to create a
rule that all conduct is presumptively expressive.”).
She fails to meet this burden. The First
Amendment’s plain terms protect “speech,” not
conduct. U.S. CONST. amend. I (“Congress shall
make no law . . . abridging the freedom of speech.”).
But the line between speech and conduct in this
context is not always clear. Stutzman contends that
her floral arrangements are “speech” for purposes of
First Amendment protections because they involve
her artistic decisions. Br. of Appellants at 24. Relying
on the dictionary definition of “art,” as well as expert
testimony regarding her creativity and expressive
style, she argues for a broad reading of protected
speech that encompasses her “unique expression,”
crafted in “petal, leaf, and loam.” Id. at 25-26.
Ingersoll and the State counter that Stutzman’s
arrangements are simply one facet of conduct—
selling goods and services for weddings in the
commercial marketplace—that does not implicate
First Amendment protections at all.
this

We agree that the regulated activity at issue in
case—Stutzman’s sale of wedding floral

42a
arrangements—is not “speech” in a literal sense and
is thus properly characterized as conduct. But that
does not end our inquiry. The Supreme Court has
protected conduct as speech if two conditions are met:
“[(1)] [a]n intent to convey a particularized message
was present, and [(2)] in the surrounding
circumstances the likelihood was great that the
message would be understood by those who viewed it.”
Spence v. Washington, 418 U.S. 405, 410-11, 94 S. Ct.
2727, 41 L. Ed. 2d 842 (1974) (per curiam). Recent
cases have characterized this as an inquiry into
whether the conduct at issue was “inherently
expressive.” Rumsfeld v. Forum for Acad. & Inst.
Rights, Inc. (FAIR), 547 U.S. 47, 64, 126 S. Ct. 1297,
164 L. Ed. 2d 156 (2006).
Stutzman’s floral arrangements do not meet
this definition. Certainly, she argues that she intends
to communicate a message through her floral
arrangements. But the major contest is over whether
Stutzman’s intended communications actually
communicated something to the public at large—
whether her conduct was “inherently expressive.”
Spence, 418 U.S. at 410-11; FAIR, 547 U.S. at 64. And
her actions in creating floral arrangements for
wedding ceremonies do not satisfy this standard.
The leading case on the “inherently expressive”
standard is FAIR. The plaintiffs in FAIR—an
association of law schools and faculty members—
challenged the constitutionality of a law that required
higher education institutions to provide military
recruiters on campus with access to facilities and
students that was at least equivalent to that of the
most favorably treated nonmilitary recruiter. 547
U.S. at 52, 55. The FAIR Court ruled that the law

43a
schools’ conduct in denying military recruiters mostfavorable-recruiter access to students was not
protected by the First Amendment because it was not
“inherently expressive.” Id. at 66. It explained that
additional speech would be required for an outside
observer to understand that the schools’ reason for
denying military recruiters favorable access was to
protest the military’s “Don’t Ask, Don’t Tell” policy.
Id.
Stutzman’s refusal is analogous. The decision
to either provide or refuse to provide flowers for a
wedding does not inherently express a message about
that wedding. As Stutzman acknowledged at
deposition, providing flowers for a wedding between
Muslims would not necessarily constitute an
endorsement of Islam, nor would providing flowers for
an atheist couple endorse atheism. Stutzman also
testified that she has previously declined wedding
business on “[m]ajor holidays, when we don’t have the
staff or if they want particular flowers that we can’t
get in the time frame they need.” CP at 120.
Accordingly, an outside observer may be left to
wonder whether a wedding was declined for one of at
least three reasons: a religious objection, insufficient
staff, or insufficient stock.
Stutzman argues that FAIR is inapposite and
that we should instead apply Hurley. Hurley held that
a state antidiscrimination law could not be applied so
as to require a private parade to include marchers
displaying a gay pride message. 515 U.S. at 568.
Stutzman claims Hurley recognizes her First
Amendment right “to exclude a message [she] did not
like from the communication [she] chose to make.”

44a
Reply Br. of Appellants at 11 (citing Hurley, 515 U.S.
at 574).16
Hurley is similar to this case in one respect: it
involved a public accommodations law like the
WLAD.17 But the Massachusetts trial court had ruled
16 Stutzman relies on Redgrave v. Boston Symphony
Orchestra, Inc., 855 F.2d 888 (1st Cir. 1988), in which the Boston
Symphony (BSO) refused to perform with Vanessa Redgrave in
light of her support of the Palestine Liberation Organization.
Redgrave sued the BSO for breach of contract and consequential
damages in federal court. Redgrave v. Boston Symphony
Orchestra, Inc., 602 F. Supp. 1189 (D. Mass. 1985), aff’d in part,
vacated in part, 855 F.2d 888. The First Amendment issue in
that case arose from the district court’s concern that Redgrave’s
novel theory of consequential damages was sufficiently related
to defamation cases so as to implicate First Amendment
concerns. Id. at 1201.

However, as the attorney general here notes, the First Circuit
resolved that case on statutory interpretation of the
Massachusetts Civil Rights Act, MASS. GEN. LAWS ch. 12, §§
11H-11J, not on First Amendment grounds. Att’y Gen.’s Resp.
Br. at 26. In fact, the court ultimately chose to “decline to reach
the federal constitutional issues,” given the complex interaction
between First Amendment doctrine and state law, and saw “no
need to discuss the existence or content of a First Amendment
right not to perform an artistic endeavor.” Redgrave, 855 F.2d at
911. Accordingly, Stutzman’s references are, at best, out-ofcircuit dicta.
Stutzman cites both Hurley and Boy Scouts of America v.
Dale, 530 U.S. 640, 657, 120 S. Ct. 2446, 147 L. Ed. 2d 554 (2000),
as examples of cases in which the Supreme Court vindicated
First Amendment rights over state antidiscrimination public
accommodations laws. In fact, both cases involved state courts
applying public accommodations laws in unusually expansive
ways, such that an individual, private, expressive association of
people fell under the law. Dale, 530 U.S. at 657 (New Jersey
Court “went a step further” from an already “extremely broad”
public accommodations law in applying it “to a private entity
17

45a
that the parade itself was a place of public
accommodation under state antidiscrimination law—
a ruling that the Supreme Court called “peculiar.” 515
U.S. at 561-62, 572. The Court noted that the parade’s
“inherent expressiveness” distinguished it from the
places traditionally subject to public accommodations
laws—places that provide “publicly available goods,
privileges, and services.” Id. at 568-72. Hurley is
therefore unavailing to Stutzman: her store is the
kind of public accommodation that has traditionally
been subject to antidiscrimination laws. See Elane
Photography, 309 P.3d at 68 (rejecting photographer’s
reliance on Hurley because state antidiscrimination
law applies not to defendant’s photographs but to “its
business decision not to offer its services to protected
classes of people”; concluding that “[w]hile
photography may be expressive, the operation of a
photography business is not”).18
without even attempting to tie the term ‘place’ to a physical
location”); Hurley, 515 U.S. at 572 (noting that Massachusetts
trial court applied a public accommodations law “in a peculiar
way” to encompass a privately sponsored parade). This case is
distinguishable because Arlene’s Flowers is a paradigmatic
public accommodation.
The Supreme Court has drawn this distinction between
expressive conduct and commercial activity in the context of
First Amendment freedom of association claims, and likewise
rejected the notion that the First Amendment precludes
enforcement of antidiscrimination public accommodations laws
in that context as well. E.g., Dale, 530 U.S. at 657 (distinguishing
between “clearly commercial entities” and “membership
organizations” in cases involving the intersection between state
public accommodations laws and First Amendment rights);
Roberts v. U.S. Jaycees, 468 U.S. 609, 627, 104 S. Ct. 3244, 82 L.
Ed. 2d 462 (1984) (finding that even private membership
organizations may be regulated by public accommodations laws
18

46a
United States Supreme Court decisions that
accord free speech protections to conduct under the
First Amendment have all dealt with conduct that is
clearly expressive, in and of itself, without further
explanation. See Hurley, 515 U.S. at 568 (parades);
United States v. Eichman, 496 U.S. 310, 110 S. Ct.
2404, 110 L. Ed. 2d 287 (1990) (burning the American
flag); Texas v. Johnson, 491 U.S. 397, 109 S. Ct. 2533,
105 L. Ed. 2d 342 (1989) (burning the American flag);
United States v. Grace, 461 U.S. 171, 103 S. Ct. 1702,
75 L. Ed. 2d 736 (1983) (distributing leaflets outside
Supreme Court building in violation of federal
statute); Nat’l Socialist Party of Am. v. Village of
Skokie, 432 U.S. 43, 43, 97 S. Ct. 2205, 53 L. Ed. 2d
96 (1977) (per curiam) (“‘[m]arching, walking or
parading’” while wearing Nazi uniforms (alteration in
original)); Smith v. Goguen, 415 U.S. 566, 588, 94 S.
Ct. 1242, 39 L. Ed. 2d 605 (1974) (White, J.,
concurring
in
judgment)
(treating
flag
“‘contemptuously’” by wearing a small American flag
sewn into the seat of one’s pants); Wooley v. Maynard,
430 U.S. 705, 97 S. Ct. 1428, 51 L. Ed. 2d 752 (1977)
(state motto on license plates); Spence, 418 U.S. 405,
94 S. Ct. 2727, 41 L. Ed. 2d 842 (displaying American
flag upside down on private property with peace sign
superimposed on it to express feelings about
Cambodian invasion and Kent State University
shootings); Cohen v. California, 403 U.S. 15, 16, 91 S.
Ct. 1780, 29 L. Ed. 2d 284 (1971) (wearing jacket
emblazoned with the words “‘F**k the Draft’”);
where such regulations will not impair its ability “to disseminate
its preferred views” and holding that there was no such
impairment where young men’s social organization was required
to accept women members).

47a
Schacht v. United States, 398 U.S. 58, 90 S. Ct. 1555,
26 L. Ed. 2d 44 (1970) (wearing army uniform in short
play criticizing United States involvement in
Vietnam, inasmuch as it does not tend to discredit the
armed forces); Tinker v. Des Moines Indep. Cmty. Sch.
Dist., 393 U.S. 503, 505, 89 S. Ct. 733, 21 L. Ed. 2d
731 (1969) (wearing black armbands to protest
Vietnam conflict); Brown v. Louisiana, 383 U.S. 131,
141-42, 86 S. Ct. 719, 15 L. Ed. 2d 637 (1966) (sit-in
to protest “whites only” area in public library during
civil rights struggle); Cox v. Louisiana, 379 U.S. 536,
552, 85 S. Ct. 453, 13 L. Ed. 2d 471 (1965) (giving
speech and leading group of protesters in song and
prayer in opposition to segregation); Edwards v.
South Carolina, 372 U.S. 229, 83 S. Ct. 680, 9 L. Ed.
2d 697 (1963) (peaceful march on sidewalk around
State House grounds in protest of discrimination); W.
Va. State Bd. of Educ. v. Barnette, 319 U.S. 624, 63 S.
Ct. 1178, 87 L. Ed. 1628 (1943) (refusing to salute the
American flag while saying pledge of allegiance);
Stromberg v. California, 283 U.S. 359, 51 S. Ct. 532,
75 L. Ed. 1117 (1931) (peaceful display of red flag as
a sign of opposition to organized government).
Stutzman’s conduct—whether it is characterized as
creating floral arrangements, providing floral
arrangement services for opposite-sex weddings, or
denying those services for same-sex weddings—is not
like the inherently expressive activities at issue in
these cases. Instead, it is like the unprotected conduct
in FAIR, 547 U.S. at 66.19
Stutzman and amici point to a handful of cases protecting
various forms of art—and some of them do seem to provide
surface support for their argument. See Br. of Appellants at 6-7;
Mot. for Leave to File Br. & Br. for Cato Inst, as Amicus Curiae
19

48a
Finally, Stutzman asserts that even if her case
doesn’t fall neatly within the contours of these prior
holdings, we should nevertheless place her floral
artistry within a new, narrow protection. The
“narrow” exception she requests would apply to
“businesses, such as newspapers, publicists,
speechwriters, photographers, and other artists, that
create expression as opposed to gift items, raw
products, or prearranged [items].” Reply Br. of
Appellants at 45. In her case, she proposes that she
would be willing to sell Mr. Ingersoll “uncut flowers
and premade arrangements.” Id. at 46. But, as amicus
Americans United for Separation of Church and State
points out, Stutzman’s rule would create a “two-tiered
system” that carves out an enormous hole from public
in Supp. of Appellants (Cato) at 7 (citing Ward v. Rock Against
Racism, 491 U.S. 781, 790-91, 109 S. Ct. 2746, 105 L. Ed. 2d 661
(1989) (music without words); Se. Promotions, Ltd. v. Conrad,
420 U.S. 546, 557-58, 95 S. Ct. 1239, 43 L. Ed. 2d 448 (1975)
(theater); Anderson v. City of Hermosa Beach, 621 F.3d 1051,
1060 (9th Cir. 2010) (tattooing); Piarowski v. Ill. Cmty. Coll. Dist.
515, 759 F.2d 625, 627-28 (7th Cir. 1985) (stained glass windows
on display in an art gallery at a junior college)).
But, on closer examination, those cases do not expand the
definition of “expressive conduct.” For example, Piarowski held
that stained glass windows were protected in the context of a
college’s demands that the artist move some of his pieces from a
gallery to an alternate location on campus because they were
objected to as “sexually explicit and racially offensive.” 759 F.2d
at 632. And the Anderson court reached its finding that tattoos
receive First Amendment protections by pointing out that they
“are generally composed of words, realistic or abstract images,
symbols, or a combination of these, all of which are forms of pure
expression that are entitled to full First Amendment protection.”
621 F.3d at 1061. Stutzman’s floral arrangements do not
implicate any similar concerns.

49a
accommodations laws: under such a system, a “dimestore lunch counter would be required to serve
interracial couples but an upscale bistro could turn
them away.” Br. of Amicus Curiae Ams. United in
Supp. of Resp’ts at 13. Indeed, the New Mexico
Supreme Court also grappled with this question,
ultimately finding that “[c]ourts cannot be in the
business of deciding which businesses are sufficiently
artistic
to
warrant
exemptions
from
antidiscrimination laws,” and noting that this
concern was hardly hypothetical in light of the
proliferation of cases requesting exceptions for
“florists, bakeries, and other wedding vendors” who
refused to serve gay couples. Elane Photography, 309
P.3d at 71.
Because
Stutzman’s
sale
of
floral
arrangements is not expressive conduct protected by
the First Amendment, we affirm the trial court and
hold that the WLAD does not violate free speech
protections as applied to Stutzman in this case.
ii. Stutzman does not argue that article I,
section 5 of the Washington Constitution
provides any greater protection than the
First Amendment in this context; we
therefore affirm the trial court’s ruling
that no article I, section 5 violation
occurred in this case
Stutzman asserts violations of both state and
federal free speech constitutional provisions, though
she does not distinguish between them.
As the superior court correctly points out, we
interpret article I, section 5 independently from the
First Amendment. Bradburn v. N. Cent. Reg’l Library

50a
Dist., 168 Wn.2d 789, 800, 231 P.3d 166 (2010). In
some cases, we have found article I, section 5 to be
more protective than its federal counterpart, and in
some cases, we have held the two to contain
equivalent protections. Id. In this case, however,
Stutzman has not assigned error to the superior
court’s use of a First Amendment analysis rather than
a separate state constitutional analysis. We therefore
decline to reach the issue of whether article I, section
5 rights in this context are coextensive with First
Amendment rights.
C. As Applied in This Case, the WLAD Does
Not Violate Stutzman’s Right to Religious
Free Exercise under the First Amendment
to the United States Constitution
In her second constitutional claim, Stutzman
argues that the WLAD, as applied to her in this case,
violated her First Amendment right to religious free
exercise. We disagree.
The free exercise clause of the First
Amendment, which applies to the States through the
Fourteenth Amendment, Cantwell v. Connecticut, 310
U.S. 296, 303, 60 S. Ct. 900, 84 L. Ed. 1213 (1940),
provides that “Congress shall make no law respecting
an establishment of religion or prohibiting the free
exercise thereof.” Laws that burden religion are
subject to two different levels of scrutiny under the
free exercise clause. Neutral, generally applicable
laws burdening religion are subject to rational basis
review,20 while laws that discriminate against some
Emp’t Div., Dep’t of Human Res. v. Smith, 494 U.S. 872,
110 S. Ct. 1595, 108 L. Ed. 2d 876 (1990).
20

51a
or all religions (or regulate conduct because it is
undertaken for religious reasons) are subject to strict
scrutiny.21
Stutzman argues that the WLAD is subject to
strict scrutiny under a First Amendment free exercise
analysis because it is neither neutral nor generally
applicable. She is incorrect.
A law is not neutral for purposes of a First
Amendment free exercise challenge if “the object of
[the] law is to infringe upon or restrict practices
because of their religious motivation.” Lukumi Babalu
Aye, 508 U.S. at 533 (emphasis added). Stutzman does
not argue that our legislature passed the WLAD in
order to target religious people or people whose
religions dictate opposition to gay marriage. Instead,
she argues that the WLAD is unfair because it grants
exemptions
for
“religious
organizations”22—
permitting these organizations to refuse marriage
services—but does not extend those same exemptions
to her. Br. of Appellants at 37.

21

Lukumi Babalu Aye, 508 U.S. at 532.

See RCW 26.04.010(6) (“A religious organization shall be
immune from any civil claim or cause of action, including a claim
pursuant to chapter 49.60 RCW, based on its refusal to provide
accommodations, facilities, advantages, privileges, services, or
goods related to the solemnization or celebration of a
marriage.”). “Religious organization” is defined as including,
“but . . . not limited to, churches, mosques, synagogues, temples,
nondenominational ministries, interdenominational and
ecumenical organizations, mission organizations, faith-based
social agencies, and other entities whose principal purpose is the
study, practice, or advancement of religion.” RCW
26.04.010(7)(b).
22

52a
We disagree. The cases on which Stutzman
relies all address laws that single out for onerous
regulation either religious conduct in general or
conduct linked to a particular religion, while
exempting secular conduct or conduct associated with
other, nontargeted religions. E.g., Lukumi Babalu
Aye, 508 U.S. at 532-42 (law was not neutral where
legislative history, including enactment of numerous
exemptions for members of other religions, evidenced
a clear intent to target practitioners of Santeria faith).
They recognize that the “[t]he Free Exercise Clause
forbids any regulation of beliefs as such,” and that
this unconstitutional regulation may sometimes be
accomplished through a law that appears facially
neutral. Blackhawk v. Pennsylvania, 381 F.3d 202,
208-09 (3d Cir. 2004). But blanket exemptions for
religious organizations do not evidence an intent to
target religion. Instead, they indicate the opposite.
Corp. of Presiding Bishop of Church of Jesus Christ of
Latter-Day Saints v. Amos, 483 U.S. 327, 335-38, 107
S. Ct. 2862, 97 L. Ed. 2d 273 (1987) (exemption in
Civil Rights Act of 1964, 42 U.S.C. § 2000e, for
religious organizations does not violate the
establishment clause because it serves a secular
purpose—to minimize governmental interference
with religion—and neither advances nor inhibits
religion); Elane Photography, 309 P.3d at 74-75
(“Exemptions for religious organizations are common
in a wide variety of laws, and they reflect the attempts
of the Legislature to respect free exercise rights by
reducing legal burdens on religion.”).
Stutzman also argues that the WLAD is not
“generally applicable” because it does not apply to
businesses that employ fewer than eight persons,

53a
employees working for a close family member or in
domestic service, people renting out certain
multifamily dwellings, and distinctly private
organizations.
Again, the authority Stutzman cites is
inapposite. That authority stands for two principles,
neither of which is implicated here.
First, a law may fail the “general applicability”
test, and thus trigger strict scrutiny, if it adopts a
patchwork of specific exemptions that conspicuously
omits certain religiously motivated conduct. As with
nonneutral laws, such an omission is evidence that
the government has deliberately targeted religious
conduct for onerous regulation, or at the very least
devalued religion as a ground for exemption. Lukumi
Babalu Aye, 508 U.S. at 544-46 (holding that
ordinance was not generally applicable because it
“pursues the city’s governmental interests only
against conduct motivated by religious belief”
(emphasis added)); Fraternal Order of Police Newark
Lodge No. 12 v. City of Newark, 170 F.3d 359, 365-66
(3d Cir. 1999) (police department policy prohibiting
officers from wearing beards triggered strict scrutiny
because it allowed individual exemptions for medical
but not religious reasons; because the medical
exemption undermined the policy’s purpose—to
create uniformity of appearance among its officers—
just as much as a religious exemption would, the
disparity evidenced the department’s preference for
medical (secular) objections over religious ones).
Second, a law is not “generally applicable” if it
permits individual exemptions but is then applied in
a manner that is needlessly prejudicial to religion.

54a
Lighthouse Inst. for Evangelism, Inc. v. City of Long
Branch, 510 F.3d 253, 276 (3d Cir. 2007) (“What
makes a system of individualized exemptions
suspicious is the possibility that certain violations
may be condoned when they occur for secular reasons
but not when they occur for religious reasons. In
Blackhawk, it was not the mere existence of an
exemption procedure that gave us pause but rather
the fact that the Commonwealth could not coherently
explain what, other than the religious motivation of
Blackhawk’s conduct, justified the unavailability of
an exemption.” (citing Blackhawk, 381 F.3d at 211)).
In this case, Stutzman seeks an exemption that
would allow her to refuse certain customer services to
members of a WLAD-protected class on religious
grounds. Under a First Amendment free exercise
analysis, the WLAD would trigger strict scrutiny if it
permitted that sort of discrimination only for
nonreligious reasons, and thus indicated the
government’s preference for secular discrimination.
But the WLAD does not do this.
Three of the alleged “exemptions” Stutzman
cites have nothing at all to do with the exemption she
seeks (an exemption permitting discrimination in
public accommodations). The exemption for “[people]
renting [out] certain multifamily dwellings,” Br. of
Appellants at 38 (citing RCW 49.60.040(5)), is not
really an exemption from the WLAD at all. RCW
49.60.040(5) defines a “covered multifamily dwelling”
to exclude all buildings with fewer than four units and
certain buildings with no elevators. In conjunction
with RCW 49.60.222(2)(c), this provision requires
that “covered multifamily dwellings” be designed and
constructed in compliance with state and federal

55a
disability access laws. This is not a license for certain
landlords to discriminate. With respect to public
accommodations, the same is true of the WLAD’s
“exemptions” for individuals employed in domestic
service or by family members and for “employers”
with fewer than eight employees. See Br. of
Appellants at 38 (citing RCW 49.60.040(10), (11)).
These exemptions protect employers from WLAD
liability as employers—that is, liability to their
employees—in the context of family relationships,
domestic service, and very small businesses; they
have nothing to do with Stutzman’s liability as the
proprietor of a public accommodation. Compare RCW
49.60.180 (listing prohibited “[u]nfair practices of
employers,” all of which discriminate against
employees or potential employees—not customers),
with RCW 49.60.215 (listing prohibited “[u]nfair
practices of places of public resort, accommodation,
assemblage, amusement”; completely omitting any
reference to “employers”). Thus, these exemptions are
distinguishable from the exemptions at issue in
Lukumi Babalu Aye, Blackhawk, or Fraternal Order
of Police because none is an exemption that Stutzman
would actually like to invoke.
And the other “exemption” Stutzman
identifies—for distinctly private organizations, Br. of
Appellants at 38 (citing RCW 49.60.040(2))—does not
undermine the purposes of the WLAD’s public
accommodations provision: to prevent discrimination
in public accommodations. Thus, it does not trigger
strict scrutiny under a First Amendment free exercise
analysis either. Fraternal Order of Police, 170 F.3d at
366 (contrasting exemptions that undermine a law’s
purpose—and thus trigger strict scrutiny—with

56a
exemptions for “activities that [the government] does
not have an interest in preventing”; holding that
police department’s exemption permitting undercover
officers to wear beards did not trigger strict scrutiny
because the governmental interest served by the
shaving requirement—making officers readily
recognizable as officers—did not apply to undercover
officers).
For these reasons, we reject Stutzman’s claim
that the WLAD, as applied to her, triggers strict
scrutiny under the free exercise clause of the First
Amendment. The WLAD is a neutral, generally
applicable law subject to rational basis review. Emp’t
Div., Dep’t of Human Res. v. Smith, 494 U.S. 872, 110
S. Ct. 1595, 108 L. Ed. 2d 876 (1990). And the WLAD
clearly meets that standard: it is rationally related to
the government’s legitimate interest in ensuring
equal access to public accommodations. See
Lighthouse, 510 F.3d at 277 (to withstand free
exercise challenge, neutral, generally applicable law
“must be reasonable and not arbitrary and it must
bear ‘a rational relationship to a [permissible] state
objective’” (alteration in original) (quoting Belle Terre
v. Boraas, 416 U.S. 1, 8, 94 S. Ct. 1536, 39 L. Ed. 2d
797 (1974))).
D. As Applied in This Case, the WLAD Did
Not Violate Stutzman’s Right to Religious
Free Exercise under Article I, Section 11 of
the Washington Constitution
i.

This court has applied strict judicial
scrutiny to certain article I, section 11
claims

57a
Stutzman also raises a state constitutional
challenge to the WLAD as applied to her religiously
motivated conduct in this case. Article I, section 11 of
the Washington Constitution provides, in relevant
part:
Absolute freedom of conscience in all matters
of religious sentiment, belief and worship,
shall be guaranteed to every individual, and
no one shall be molested or disturbed in
person or property on account of religion; but
the liberty of conscience hereby secured shall
not be so construed as to excuse acts of
licentiousness or justify practices inconsistent
with the peace and safety of the state.
Obviously, this language differs from the language of
the First Amendment’s free exercise clause.
In the past, however, we interpreted article I,
section 11 to provide the same protection as the First
Amendment’s free exercise clause. See First Covenant
Church of Seattle v. City of Seattle, 114 Wn.2d
392,402, 787 P.2d 1352 (1990) (First Covenant I),
vacated and remanded, 499 U.S. 901, 111 S. Ct. 1097,
113 L. Ed. 2d 208 (1991). Thus, for many years this
court relied on First Amendment free exercise case
law in article I, section 11 challenges and applied
strict scrutiny to laws burdening religion. Id. (law
burdening religion must serve “compelling state
interest” and “constitute[ ] the least restrictive means
to achieve the government’s objective” (citing
Sherbert v. Verner, 374 U.S. 398, 83 S. Ct. 1790, 10 L.
Ed. 2d 965 (1963); Wisconsin v. Yoder, 406 U.S. 205,
92 S. Ct. 1526, 32 L. Ed. 2d 15 (1972); Hobbie v.

58a
Unemployment Appeals Comm’n, 480 U.S. 136, 107 S.
Ct. 1046, 94 L. Ed. 2d 190 (1987))).23
In 1990, however, things changed. That was
the year that the United States Supreme Court
adopted rational basis review for claims that neutral,
generally applicable laws (like the WLAD)
incidentally burden religion in Smith, 494 U.S. at
878-90. Smith definitively repudiated strict scrutiny
for neutral, generally applicable laws prohibiting
“socially harmful conduct.” Id. at 884-85. It reasoned
that applying heightened scrutiny—which requires a
balancing of governmental against personal
interests—would pose two problems. Id. First, it
would vitiate the state’s ability to regulate, allowing
every individual “‘to become a law unto himself.’” Id.
at 885 (quoting Reynolds v. United States, 98 U.S. (8
Otto) 145, 167, 25 L. Ed. 244 1878)). Second, it would
entangle civil courts in religion by requiring them to
evaluate the significance of a particular practice to a
faith. Id. at 887 (“[r]epeatedly and in many different
23 Some scholarship distinguishes between the “compelling
interest” test and “strict scrutiny.” E.g., Stephen A. Siegel, The
Origin of the Compelling State Interest Test and Strict Scrutiny,
48 AM. J. LEGAL HIST. 355, 359-60 (2008) (describing the
“compelling interest” standard as one of three barriers that
legislation must overcome under strict scrutiny). But this court
has always treated them as synonymous in religious free
exercise cases. E.g., Backlund, 106 Wn.2d at 641 (“Since [the
plaintiff’s] beliefs are protected by the free exercise clause of the
First Amendment, the burden of proof shifts to the Board to
prove that (1) a compelling governmental interest justifies the
regulation in question and (2) the regulation is the least
restrictive imposition on the practice of his belief to satisfy that
interest.” (citing United States v. Lee, 455 U.S. 252, 257, 102 S.
Ct. 1051, 71 L. Ed. 2d 127 (1982); State v. Meacham, 93 Wn.2d
735, 740, 612 P.2d 795 (1980))).

59a
contexts, we have warned that courts must not
presume to determine the place of a particular belief
in a religion or the plausibility of a religious claim”).
The Smith Court reasoned that such a balancing test
would be incompatible with the religious pluralism
that is fundamental to our national identity. Id. at
888.
Smith’s holding is limited in two ways. First, it
left in place prior First Amendment case law applying
the “compelling interest” balancing test where the
statute in question “lent itself to individualized . . .
assessment”—e.g., an unemployment benefits statute
under which an administrative court determines, on
a case-by-case basis, whether a person was fired for
good cause. Id. at 884. In such cases, the Court
explained that “the State [already] has in place a
system of individual exemptions”—thus, the
challenged law is not “generally applicable” for
purposes of First Amendment free exercise analysis.
Id. Where an individual requests a religious
exemption from such a law, the government must
have a compelling reason for denying it. Id. Second,
the Smith Court distinguished cases involving
“hybrid” claims—e.g., challenges to laws that
burdened both religious freedom and another right
such as free speech. Id. at 881 (collecting cases).
We revisited our article I, section 11 test
following Smith in First Covenant Church of Seattle
v. City of Seattle, 120 Wn.2d 203, 840 P.2d 174 (1992)
(First Covenant II). In that case, the plaintiff church
argued that its designation as a historical landmark
(subject to “controls” limiting alterations to its
building) violated both First Amendment and article
I, section 11 protections. Id. at 208-09. In First

60a
Covenant I, we applied strict scrutiny to both
constitutional challenges and held that the zoning
law was unconstitutional. 114 Wn.2d at 401-02, 410.
On remand from the United States Supreme Court
following Smith, we addressed the state and federal
free exercise claims again. Regarding the First
Amendment claim, the First Covenant II court held
that the challenged statute fell within both of the
exceptions to rational basis review recognized in
Smith: it created a system of “individualized
assessments” and it raised “hybrid” constitutional
concerns (by restricting speech as well as religious
free exercise). 120 Wn.2d at 214-17. The court
therefore held that the historical landmark statute
was subject to strict scrutiny under the First
Amendment. Id. at 217-18.
But after determining that the statute failed
strict scrutiny as applied to the plaintiff church—
because a city’s purely aesthetic or cultural interest
in preserving historical landmarks is not
compelling—the First Covenant II court went on to
separately analyze the church’s article I, section 11
claim. Id. at 223 (“The possible loss of significant
architectural elements is a price we must accept to
guarantee the paramount right of religious freedom
. . . [and] [a]lthough we might . . . base our decision
solely on federal grounds, we decline to do so.”). It
performed a Gunwall24 analysis and concluded that
State v. Gunwall, 106 Wn.2d 54, 720 P.2d 808 (1986). A
Gunwall analysis determines whether a state constitutional
provision is more protective than its federal counterpart by
considering six nonexclusive factors: (1) the text of the state
constitutional provision at issue, (2) significant differences
between the text of parallel state and federal constitutional
24

61a
article I, section 11 “extends broader protection than
the [F]irst [A]mendment . . . and precludes the City
from
imposing
[the
disputed]
Landmarks
Preservation Ordinance on First Covenant’s church.”
Id. at 229-30.
Since that time, our court has addressed four
article I, section 11 claims—all by churches
challenging land use regulations25—and has
subjected the challenged law to strict scrutiny in each
case. Thus, both before and after Smith and First
Covenant II, we have applied the same four-pronged
analysis in an article I, section 11 challenge: where a
party has (1) a sincere religious belief and (2) the
exercise of that belief is substantially burdened by the
challenged law, the law is enforceable against that
party only if it (3) serves a compelling government
interest and (4) is the least restrictive means of
achieving that interest. City of Woodinville v.
Northshore United Church of Christ, 166 Wn.2d 633,
642, 211 P.3d 406 (2009); Backlund, 106 Wn.2d at
641. And we have specifically held—in the context of
a church’s challenge to a zoning law—that article I,
section 11 is more protective of religious free exercise
provisions, (3) state constitutional and common law history, (4)
state law predating the state constitution, (5) structural
differences between the state and federal constitutions, and (6)
matters of particular state or local concern. Id. at 61-62.
City of Woodinville v. Northshore United Church of Christ,
166 Wn.2d 633, 644-45, 211 P.3d 406 (2009); Open Door Baptist
Church v. Clark County, 140 Wn.2d 143, 156-60, 995 P.2d 33
(2000); Munns v. Martin, 131 Wn.2d 192, 195, 930 P.2d 318
(1997); First United Methodist Church of Seattle v. Hr’g Exam’r
for Seattle Landmarks Pres. Bd., 129 Wn.2d 238, 249-50, 252-53,
916 P.2d 374 (1996).
25

62a
than the First Amendment is. E.g., First Covenant II,
120 Wn.2d at 224 (applying strict scrutiny to zoning
ordinance as a matter of state constitutional law
because “[o]ur state constitutional and common law
history support a broader reading of article [I], section
11 than of the First Amendment”).26
The parties dispute the significance of these
post-Smith holdings to this case. Ingersoll and the
attorney general argue that they are limited to zoning
laws, as applied to churches, and thus make no
difference to the outcome under our long-standing,
four-pronged test. They maintain that a neutral
health and safety regulation like the WLAD creates
no substantial burden on the free exercise of
religion—and thus does not trigger strict scrutiny—
when it operates in the commercial marketplace.
26 The attorney general correctly notes that this court has
never held that a corporate defendant such as Arlene’s Flowers
has a “conscience” or “sentiment” subject to article I, section 11
protections. See Att’y Gen. Resp. Br. at 31 (“Indeed the plain
language of article I, section 11 guarantees its protections to
‘every individual,’ making no mention of protection for
businesses.”); Att’y Gen.’s Answer to Brs. of Amici Curiae at 19
(“Neither Defendants nor their amici point to any Washington
authority to support the notion that for-profit corporations are
protected by article I, section 11.”). But Stutzman argues only
that she may assert her own free exercise rights on behalf of her
corporation. Br. of Appellants at 32 n.24 (“‘protecting the freeexercise rights of [closely held] corporations . . . protects the
religious liberty of the humans who own and control those
companies’” (emphasis added) (quoting Burwell v. Hobby Lobby
Stores, Inc., 573 U.S. 682, 707, 134 S. Ct. 2751, 189 L. Ed. 2d 675
(2014))). Thus, we address only Stutzman’s individual claim that
her article I, section 11 rights have been violated. We do not
address whether Arlene’s Flowers (the corporation) has any such
rights.

63a
Stutzman contends that under First Covenant II and
its progeny, “strict scrutiny applies even if the
regulation ‘indirectly burdens the exercise of
religion.’” Br. of Appellants at 33 (quoting First
Covenant II, 120 Wn.2d at 226).
We decline to resolve that dispute here because
we conclude that Stutzman’s free exercise claim fails
even under the test she advances. Even if article I,
section 11 provides Stutzman with the strongest
possible protections, subjecting the WLAD to strict
scrutiny in this case, her state constitutional
challenge must still fail.
ii. The WLAD survives strict scrutiny
In the decades before First Covenant II, this
court upheld numerous health and safety regulations
under strict scrutiny—the test that we then assumed
was required under the First Amendment. E.g.,
Backlund, 106 Wn.2d at 641 (requirement that
physician purchase professional liability insurance
did not violate First Amendment; State had a
compelling interest in licensure requirement and the
requirement was “the least restrictive imposition on
the practice of [the plaintiffs] belief to satisfy that
interest”); State v. Meacham, 93 Wn.2d 735, 740-41,
612 P.2d 795 (1980) (court-ordered blood test for
putative fathers did not violate First Amendment;
State had a compelling interest in securing child
support and that interest could not “be achieved by
measures less drastic”); State ex rel. Holcomb v.
Armstrong, 39 Wn.2d 860, 861, 863-64, 239 P.2d 545
(1952) (neither First Amendment nor prior version of
article I, section 11 barred mandatory tuberculosis
testing as condition of admission to University of

64a
Washington; “the public interest [served] is the health
of all of the students and employees of the
university[;] . . . [t]he danger to this interest is clear
and present, grave and immediate[, and] . . .
[i]nfringement of appellant’s rights is a necessary
consequence of a practical attempt to avoid the
danger”); see also State v. Clifford, 57 Wn. App. 127,
132-34, 787 P.2d 571 (1990) (law mandating that
drivers be licensed does not violate First Amendment;
“[t]here is no less restrictive means available to
satisfy the State’s compelling interest in regulating
the driving of motor vehicles”). Like all of the laws at
issue in those cases, the WLAD’s public
accommodations provision is a neutral health and
safety regulation. Under our long-standing precedent,
such laws satisfy strict scrutiny in an article I, section
11 challenge.
To be sure, none of our previous article I,
section 11 cases addressed an antidiscrimination law.
But numerous other courts have heard religious free
exercise challenges to such laws and upheld them
under strict scrutiny. E.g., Swanner v. Anchorage
Equal Rights Comm’n, 874 P.2d 274, 281-83 (Alaska
1994)
(in
rental
housing
context,
state
antidiscrimination law passed strict scrutiny—
meaning that defendants were not entitled to a
religious exemption—because “[t]he government
views acts of discrimination as independent social
evils even if the prospective tenants ultimately find
housing”; moreover, “[v]oluntary commercial activity
does not receive the same status accorded to directly
religious activity”); State v. Sports & Health Club,
Inc., 370 N.W.2d 844, 852-54 (Minn. 1985) (in
employment context, state antidiscrimination law

65a
passed strict scrutiny in religious free exercise
challenge because “[t]he state’s overriding compelling
interest of eliminating discrimination based upon sex,
race, marital status, or religion could be substantially
frustrated if employers, professing as deep and
sincere religious beliefs as those held by appellants,
could discriminate against the protected classes”); N.
Coast Women’s Care Med. Grp., Inc. v. Superior Court,
44 Cal. 4th 1145, 1158-59, 189 P.3d 959, 81 Cal. Rptr.
3d 708 (2008) (assuming that strict scrutiny applied
as a matter of state constitutional law, it would not
invalidate statute barring discrimination on the basis
of sexual orientation as applied to fertility clinic with
religious objections to helping gay patients conceive;
“[t]he Act furthers California’s compelling interest in
ensuring full and equal access to medical treatment
irrespective of sexual orientation, and there are no
less restrictive means for the state to achieve that
goal” (citing CAL. CIV. CODE § 51)); Gay Rights Coal,
of Georgetown Univ. Law Ctr. v. Georgetown Univ.,
536 A.2d 1, 31-39 (D.C. 1987) (District of Columbia’s
Human Rights Act, former D.C. CODE § 1-2520
(1981), recodified as D.C. CODE § 2-1402.41, as
applied to prohibit defendant university from denying
equal recognition and support to gay student groups,
survived strict scrutiny in university’s pre-Smith free
exercise challenge; “[t]o tailor the Human Rights Act
to require less of the University than equal access to
its ‘facilities and services,’ without regard to sexual
orientation, would be to defeat its compelling
purpose[:] [t]he District of Columbia’s overriding
interest
in
eradicating
sexual
orientation
discrimination, if it is ever to be converted from
aspiration to reality, requires that Georgetown

66a
equally distribute tangible benefits to the student
groups”); see also Bob Jones Univ., 461 U.S. at 602-04
(federal government’s denial of tax exempt status to
schools that enforced religiously motivated racially
discriminatory policies survived strict scrutiny; “the
Government has a fundamental, overriding interest
in eradicating racial discrimination in education . . .
[, and] [t]hat . . . interest substantially outweighs
whatever burden denial of tax benefits places on
petitioners’ exercise of their religious beliefs”).
Indeed, we are not aware of any case invalidating an
antidiscrimination law under a free exercise strict
scrutiny analysis.
Nevertheless, Stutzman argues that strict
scrutiny is not satisfied in this case. She reasons that
since other florists were willing to serve Ingersoll, no
real harm will come from her refusal. And she
maintains that the government therefore can’t have
any compelling interest in applying the WLAD to her
shop. In other words, Stutzman contends that there is
no reason to enforce the WLAD when, as she puts it,
“[N]o access problem exists.” Br. of Appellants at 46.
We emphatically reject this argument. We
agree with Ingersoll and Freed that “[t]his case is no
more about access to flowers than civil rights cases in
the 1960s were about access to sandwiches.” Br. of
Resp’ts Ingersoll & Freed at 32. As every other court
to address the question has concluded, public
accommodations laws do not simply guarantee access
to goods or services. Instead, they serve a broader
societal purpose: eradicating barriers to the equal
treatment of all citizens in the commercial
marketplace. Were we to carve out a patchwork of

67a
exceptions for ostensibly justified discrimination,27
that purpose would be fatally undermined.
In conclusion, we assume without deciding that
strict scrutiny applies to the WLAD in this article I,
section 11 challenge, and we hold that the law
satisfies that standard.
E. As Applied in This Case, the WLAD Does
Not Violate Stutzman’s Right to Free
Association under the First Amendment to
the United States Constitution
Stutzman argues that the WLAD, as applied by
the trial court in her case, violates her First
Amendment right to freedom of association. But to
support that argument, she relies exclusively on cases
addressing membership in private clubs: Boy Scouts
of America v. Dale, 530 U.S. 640, 653, 120 S. Ct. 2446,
147 L. Ed. 2d 554 (2000); Hurley, 515 U.S. at 574; and
Roberts, 468 U.S. at 618.28 These cases expressly
distinguish a business’ customer service (subject to
Stutzman argues that discrimination cannot be
“invidious”—and thus subject to governmental prohibition—if it
is based on religious beliefs. Br. of Appellants at 40-43. But she
cites no relevant legal authority for this novel theory. In fact, the
relevant legal history is to the contrary. E.g., Piggie Park, 390
U.S. at 402 n.5. She also argues that the government has no
compelling interest in forcing her to speak or associate with
Ingersoll or any other customer. But, as explained elsewhere in
this opinion, the WLAD does not implicate Stutzman’s rights of
speech or association.
27

Stutzman also cites one case addressing speech: United
States v. Playboy Entertainment Group, Inc., 529 U.S. 803, 818,
120 S. Ct. 1878, 146 L. Ed. 2d 865 (2000). Reply Br. of Appellants
at 28. This opinion addresses Stutzman’s free expression claim
elsewhere.
28

68a
generally applicable antidiscrimination laws) from
expressive conduct (protected from such laws by the
First Amendment). Dale, 530 U.S. at 648, 656-57 (“To
determine whether a group is protected by the First
Amendment’s expressive associational right, we must
determine whether the group engages in ‘expressive
association’”; antidiscrimination law violated the Boy
Scouts’ First Amendment freedom of association in
part because the Boy Scouts was a membership
organization instead of a “clearly commercial
entit[y].”); Hurley, 515 U.S. at 572, 571 (state
antidiscrimination law at issue traditionally applied
to “the provision of publicly available goods,
privileges, and services” by, “[a]t common law,
innkeepers, smiths, and others who ‘made profession
of a public employment’”; but it would be “peculiar” to
extend that law beyond the customer service context
so that it applied to the inherently expressive conduct
of marching in a parade).
In fact, the United States Supreme Court has
even held that states may enforce antidiscrimination
laws against certain private organizations, defined by
particular goals and ideologies, if the enforcement
will not impair the group’s ability to pursue those
goals and espouse those ideologies. Roberts, 468 U.S.
at 628 (even though First Amendment protects
private groups, those groups are subject to
antidiscrimination laws to the extent that
enforcement “will [not] change the content or impact
of the organization’s speech”).
But the Supreme Court has never held that a
commercial enterprise, open to the general public, is
an “‘expressive association’” for purposes of First

69a
Amendment protections, Dale, 530 U.S. at 648. We
therefore reject Stutzman’s free association claim.
F. As Applied in This Case, the WLAD Does
Not Violate Stutzman’s Constitutional
Protections under the “Hybrid Rights”
Doctrine
Stutzman also argues that the WLAD, as
applied to her in this case, triggers strict scrutiny
because it implicates “hybrid rights.” Br. of
Appellants at 40. As noted above, a law triggers strict
scrutiny if it burdens both religious free exercise and
another fundamental right such as speech or
association. First Covenant II, 120 Wn.2d at 217-18
(“[t]he less protective free exercise standard set forth
in Smith . . . does not apply because the case presents
a ‘hybrid situation’: First Covenant’s claim involves
the free exercise clause in conjunction with free
speech” (citing Smith, 494 U.S. at 904 (O’Connor, J.,
concurring in judgment))). But Stutzman’s claim fails
for two reasons. First, the only fundamental right
implicated in this case is the right to religious free
exercise. Stutzman’s rights to speech and association
are not burdened. See supra Sections IV.B, E. Second,
even if the WLAD does trigger strict scrutiny in this
case, it satisfies that standard. See supra Section
IV.D.ii.
G. The Trial Court Did Not Err by Imposing
Personal Liability on Stutzman Instead of
Solely on Her Corporation, Arlene’s
Flowers Inc.
In addition to finding that Stutzman violated
the WLAD, the trial court also found that Stutzman
violated the CPA. This is because the WLAD provides

70a
that an act of public accommodation discrimination is
an “unfair practice” and a per se violation of the CPA.
RCW 49.60.030(3).29 Stutzman concedes that if she
violated the WLAD, then Arlene’s Flowers is liable for
a CPA violation.
But Stutzman argues that she cannot be
personally liable for violating the CPA because (1) she
kept her affairs separate from Arlene’s Flowers’ and
(2) no Washington court has ever applied the
“responsible-corporate-officer doctrine” outside the
fraud context. Br. of Appellants at 49 (citing Grayson
v. Nordic Constr. Co., 92 Wn.2d 548, 552-53, 599 P.2d
1271 (1979); One Pac. Towers Homeowners’ Ass’n v.
HAL Real Estate Invs., Inc., 108 Wn. App. 330, 34748, 30 P.3d 504 (2001), aff’d in part and rev’d in part,
148 Wn.2d 319, 61 P.3d 1094 (2002)).
The authority Stutzman cites does not support
this argument. In Grayson, this court held that the
defendant could be personally liable for his company’s
CPA violation even though there were no grounds for
piercing the corporate veil. 92 Wn.2d at 553-54. This
directly contradicts Stutzman’s theory that she
cannot be personally liable under the CPA unless she
commingled her finances with Arlene’s Flowers’. And

The trial court also found that Stutzman’s actions violated
the CPA—because they were an “‘unfair or deceptive act or
practice . . . occurring in trade or commerce, and [impacting the]
public interest’”—even if she did not also violate the WLAD.
CP at 2634-37 (quoting State v. Kaiser, 161 Wn. App. 705, 719,
254 P.3d 850 (2011)). This ruling is questionable, but because we
conclude that Stutzman did violate the WLAD, and because
Stutzman did not assign error to this ruling in her opening brief,
we do not address it.
29

71a
the other case, One Pac. Towers, 108 Wn. App. 330,
does not address a CPA claim.
On the other hand, there is long-standing
precedent in Washington holding that individuals
may be personally liable for a CPA violation if they
“participate[ ] in the wrongful conduct, or with
knowledge approve[ ] of the conduct.” State v. Ralph
Williams’ N.W. Chrysler Plymouth, Inc., 87 Wn.2d
298, 322, 553 P.2d 423 (1976). Liability for such
participation or approval does not depend on piercing
the corporate veil. Id. This is consistent with the
CPA’s plain language, which authorizes the attorney
general to bring an action “against any person to
restrain and prevent the doing of any act herein
prohibited or declared to be unlawful,” RCW
19.86.080(1) (emphasis added), and which defines
“person” to include, “where applicable, natural
persons,” as well as corporate entities, RCW
19.86.010(1).
Such individual liability does not constitute an
application of, or expansion of, the responsible
corporate officer doctrine. That doctrine expands
liability from a corporation to an individual officer
who would not otherwise be liable “where the officer
stands ‘in responsible relation to a public danger.’”
Dep’t of Ecology v. Lundgren, 94 Wn. App. 236, 243,
971 P.2d 948 (1999) (quoting United States v.
Dotterweich, 320 U.S. 277, 281, 64 S. Ct. 134, 88 L.
Ed. 48 (1943)). Here, the trial court did not find
Stutzman (the individual) vicariously or secondarily
liable based on conduct of Arlene’s Flowers (the
corporation). It found her liable because of acts that
she herself committed.

72a
V. We previously ordered that any award of
attorney fees and costs shall include attorney
fees and costs on appeal, and that order
remains in effect
Respondents Freed and Ingersoll request an
award of attorney fees and costs on remand. After we
issued our first opinion in this case, we ordered the
trial court to include attorney fees and costs on appeal
in its award of attorney fees and costs to Freed and
Ingersoll. This order remains in effect; the trial court
shall determine the amount of attorney fees and costs
on appeal.
CONCLUSION
The State of Washington bars discrimination in
public accommodations on the basis of sexual
orientation. Discrimination based on same-sex
marriage constitutes discrimination on the basis of
sexual orientation. We therefore hold that the conduct
for which Stutzman was cited and fined in this case—
refusing her commercially marketed wedding floral
services to Ingersoll and Freed because theirs would
be a same-sex wedding—constitutes sexual
orientation discrimination under the WLAD. We also
hold that the WLAD may be enforced against
Stutzman because it does not infringe any
constitutional protection. As applied in this case, the
WLAD does not compel speech or association. And
assuming that it substantially burdens Stutzman’s
religious free exercise, the WLAD does not violate her
right to religious free exercise under either the First
Amendment or article I, section 11 because it is a
neutral, generally applicable law that serves our state

73a
government’s compelling interest in eradicating
discrimination in public accommodations.
After careful review on remand, we are
confident that the courts resolved this dispute with
tolerance, and we therefore find no reason to change
our original judgment in light of Masterpiece
Cakeshop. We again affirm the trial court’s rulings.

WE CONCUR:

74a
138 S. Ct. 2671
Supreme Court of the United States
ARLENE’S FLOWERS, INC., dba Arlene’s Flowers
and Gifts, et al., petitioners,
v.
WASHINGTON, et al.
No. 17–108.
|
June 25, 2018.
Opinion
On petition for writ of certiorari to the Supreme Court
of Washington. Petition for writ of certiorari granted.
Judgment vacated, and case remanded to the
Supreme Court of Washington for further
consideration in light of Masterpiece Cakeshop, Ltd. v.
Colorado Civil Rights Comm’n, 584 U.S. ––––, 138
S.Ct. 1719, ––– L.Ed.2d–––– (2018).

75a

IN THE SUPREME COURT OF THE STATE OF
WASHINGTON
STATE OF WASHINGTON,
Respondent,
v.
ARLENE’S FLOWERS, INC.,
d/b/a ARLENE’S FLOWERS
AND GIFTS, AND GIFTS,
and BARRONELLE
STUTZMAN,
Appellants.
ROBERT INGERSOLL and
CURT FREED,
Respondents,
v.
ARLENE’S FLOWERS, INC.,
d/b/a ARLENE’S FLOWERS
AND GIFTS, and
BARRONELLE STUTZMAN,
Appellants.

NO. 91615-2
EN BANC

Filed Feb. 16, 2017

76a
GORDON McCLOUD, J.––The State of
Washington bars discrimination in “public . . .
accommodation[s]” on the basis of “sexual
orientation.” RCW 49.60.215 (Washington Law
Against
Discrimination
(WLAD)).
Barronelle
Stutzman owns and operates a place of public
accommodation in our state: Arlene’s Flowers Inc.
Stutzman and her public business, Arlene’s Flowers
and Gifts, refused to sell wedding flowers to Robert
Ingersoll because his betrothed, Curt Freed, is a man.
The State and the couple sued, each alleging
violations of the WLAD and the Consumer Protection
Act (CPA), ch. 19.86 RCW. Stutzman defended on the
grounds that the WLAD and CPA do not apply to her
conduct and that, if they do, those statutes violate her
state and federal constitutional rights to free speech,
free exercise, and free association.
The Benton County Superior Court granted
summary judgment to the State and the couple,
rejecting all of Stutzman’s claims. We granted review
and now affirm.

77a
FACTS
In 2004, Ingersoll and Freed began a committed,
romantic relationship. In 2012, the people of our state
voted to recognize equal civil marriage rights for
same-sex couples. LAWS OF 2012, ch. 3, § 1. Freed
proposed marriage to Ingersoll that same year. The
two intended to marry on their ninth anniversary, in
September 2013, and were “excited about organizing
[their] wedding.” Clerk’s Papers (CP) at 350. Their
plans included inviting “[a] hundred plus” guests to
celebrate with them at Bella Fiori Gardens, complete
with a dinner or reception, a photographer, a caterer,
a wedding cake, and flowers. Id. at 1775-77.
By the time he and Freed became engaged,
Ingersoll had been a customer at Arlene’s Flowers for
at least nine years, purchasing numerous floral
arrangements from Stutzman and spending an
estimated several thousand dollars at her shop.
Stutzman is the owner and president of Arlene’s
Flowers. She employs approximately 10 people,
depending on the season, including three floral
designers, one of whom is herself. Stutzman knew
that Ingersoll is gay and that he had been in a
relationship with Freed for several years. The two
men considered Arlene’s Flowers to be “[their] florist.”
Id. at 350.
Stutzman is an active member of the Southern
Baptist church. It is uncontested that her sincerely
held religious beliefs include a belief that marriage
can exist only between one man and one woman.

78a
On February 28, 2013, Ingersoll went to Arlene’s
Flowers on his way home from work, hoping to talk to
Stutzman about purchasing flowers for his upcoming
wedding. Ingersoll told an Arlene’s Flowers employee
that he was engaged to marry Freed and that they
wanted Arlene’s Flowers to provide the flowers for
their wedding. The employee informed Ingersoll that
Stutzman was not at the shop and that he would need
to speak directly with her. The next day, Ingersoll
returned to speak with Ms. Stutzman. At that time,
Stutzman told Ingersoll that she would be unable to
do the flowers for his wedding because of her religious
beliefs, specifically, because of “her relationship with
Jesus Christ.” Id. at 155, 351, 1741-42, 1744-45, 1763.
Ingersoll did not have a chance to specify what kind
of flowers or floral arrangements he was seeking
before Stutzman told him that she would not serve
him. They also did not discuss whether Stutzman
would be asked to bring the arrangements to the
wedding location or whether the flowers would be
picked up from her shop.
Stutzman asserts that she gave Ingersoll the
name of other florists who might be willing to serve
him, and that the two hugged before Ingersoll left her
store. Ingersoll maintains that he walked away from
that conversation “feeling very hurt and upset
emotionally.” Id. at 1743.
Early the next morning, after a sleepless night,
Freed posted a status update on his personal
Facebook feed regarding Stutzman’s refusal to sell
him wedding flowers. The update observed, without
specifically naming Arlene’s Flowers, that the
couple’s “favorite Richland Lee Boulevard flower

79a
shop” had declined to provide flowers for their
wedding on religious grounds, and noted that Freed
felt “so deeply offended that apparently our business
is no longer good business,” because “[his] loved one
[did not fit] within their personal beliefs.” Id. at 1262.
This message was apparently widely circulated,
though Ingersoll testified that their Facebook settings
were such that the message was “only intended for
our friends and family.” Id. at 1760, 1785. Eventually,
the story drew the attention of numerous media
outlets.
As a result of the “emotional toll” Stutzman’s
refusal took on Freed and Ingersoll, they “lost
enthusiasm for a large ceremony” as initially
imagined. Id. at 1490. In fact, the two “stopped
planning for a wedding in September 2013 because
[they] feared being denied service by other wedding
vendors.” Id. at 351. The couple also feared that in
light of increasing public attention—some of which
caused them to be concerned for their own safety—as
well as then-ongoing litigation, a larger wedding
might require a security presence or attract
protesters, such as the Westboro Baptist group. So
they were married on July 21, 2013, in a modest
ceremony at their home. There were 11 people in
attendance. For the occasion, Freed and Ingersoll
purchased one bouquet of flowers from a different
florist and boutonnieres from their friend. When word
of this story got out in the media, a handful of florists
offered to provide their wedding flowers free of
charge.

80a
Stutzman also received a great deal of attention
from the publicity surrounding this case, including
threats to her business and other unkind messages.
Prior to Ingersoll’s request, Arlene’s Flowers had
never had a request to provide flowers for a same-sex
wedding, and the only time Stutzman has ever
refused to serve a customer is when Ingersoll and
Freed asked her to provide flowers for their wedding.
The decision not to serve Ingersoll was made strictly
by Stutzman and her husband. After Ingersoll’s and
Freed’s request, Stutzman developed an “unwritten
policy” for Arlene’s Flowers that they “don’t take same
sex marriages.” Id. at 120. Stutzman states that the
only reason for this policy is her conviction that
“biblically marriage is between a man and a woman.”
Id. at 120-21. Aside from Ingersoll and Freed, she has
served gay and lesbian customers in the past for
other, non-wedding-related flower orders.
Stutzman maintains that she would not sell
Ingersoll any arranged flowers for his wedding, even
if he were asking her only to replicate a prearranged
bouquet from a picture book of sample arrangements.
She believes that participating, or allowing any
employee of her store to participate, in a same-sex
wedding by providing custom floral arrangements
and related customer service is tantamount to
endorsing marriage equality for same-sex couples.
She draws a distinction between creating floral
arrangements—even those designed by someone
else—and selling bulk flowers and “raw materials,”
which she would be happy to do for Ingersoll and
Freed. Id. at 546-47. Stutzman believes that to create
floral arrangements is to use her “imagination and

81a
artistic skill to intimately participate in a same-sex
wedding ceremony.” Id. at 547. However, Stutzman
acknowledged that selling flowers for an atheistic or
Muslim wedding would not be tantamount to
endorsing those systems of belief.
By Stutzman’s best estimate, approximately
three percent of her business comes from weddings.
Stutzman is not currently providing any wedding
floral services (other than for members of her
immediate family) during the pendency of this case.
PROCEDURAL HISTORY
After the State became aware of Stutzman’s
refusal to sell flowers to Ingersoll and Freed, the
Attorney General’s Office sent Stutzman a letter. It
sought her agreement to stop discriminating against
customers on the basis of their sexual orientation and
noted that doing so would prevent further formal
action or costs against her. The letter asked her to
sign an “Assurance of Discontinuance,” which stated
that she would no longer discriminate in the provision
of wedding floral services. Stutzman refused to sign
the letter.
As a result, the State filed a complaint for
injunctive and other relief under the CPA and WLAD
against both Stutzman and Arlene’s Flowers, in
Benton County Superior Court on April 9, 2013.
Stutzman filed an answer on May 16, 2013, asserting,
among other defenses, that her refusal to furnish
Ingersoll with wedding services was protected by the
state and federal constitutions’ free exercise, free
speech, and freedom of association guaranties.

82a
Ingersoll and Freed filed a private lawsuit against
Arlene’s Flowers and Stutzman on April 18, 2013,
which the trial court consolidated with the State’s
case on July 24, 2013. The parties filed various cross
motions for summary judgment. The trial court
ultimately entered judgment for the plaintiffs in both
cases, awarding permanent injunctive relief, as well
as monetary damages for Ingersoll and Freed to cover
actual damages, attorneys’ fees, and costs, and
finding Stutzman personally liable.
When it granted the plaintiffs’ motions for
summary judgment, the trial court made seven
rulings that are at issue in this appeal. First, it issued
two purely statutory rulings: (1) that Stutzman
violated the WLAD’s public accommodations
provision (RCW 49.60.215(1)) and the CPA (see RCW
19.86.020 and RCW 49.60.030) by refusing to sell
floral services for same-sex weddings and (2) that
both Stutzman (personally) and Arlene’s Flowers (the
corporate defendant) were liable for these violations.
CP at 2566-600. Next, the court made five
constitutional rulings. It concluded that the
application of the WLAD’s public accommodations
provision to Stutzman in this case (1) did not violate
Stutzman’s right to free speech under the First
Amendment to the United States Constitution or
article I, section 5 of the Washington Constitution, (2)
did not violate Stutzman’s right to religious free
exercise under the First Amendment, (3) did not
violate her right to free association under the First
Amendment, (4) did not violate First Amendment
protections under the hybrid rights doctrine, and (5)
did not violate Stutzman’s right to religious free

83a
exercise under article I, section 11 of the Washington
Constitution. Id. at 2601-60.
Stutzman appealed directly to this court,
assigning error to all seven of those rulings. We
granted direct review. Order, Ingersoll v. Arlene’s
Flowers, No. 91615-2 (Wash. Mar. 2, 2016). With
respect to most of the claims, Stutzman and Arlene’s
Flowers make identical arguments—in other words,
Stutzman asserts that both she and her corporation
enjoy identical rights of free speech, free exercise, and
free association. It is only with respect to the CPA
claim that Stutzman asserts a separate defense: she
argues that even if Arlene’s Flowers is liable for the
CPA violation, she cannot be personally liable for a
violation of that statute.
ANALYSIS
As noted above, this case presents both statutory
and constitutional questions. Both are reviewed de
novo. Williams v. Tilaye, 174 Wn.2d 57, 61, 272 P.3d
235 (2012) (“[s]tatutory interpretation is a question of
law reviewed de novo” (citing State v. Wentz, 149
Wn.2d 342, 346, 68 P.3d 282 (2003))); Hale v.
Wellpinit Sch. Dist. No. 49, 165 Wn.2d 494, 503, 198
P.3d 1021 (2009) (appellate court “review[s] all
constitutional challenges de novo” (citing State v.
Jones, 159 Wn.2d 231, 237, 149 P.3d 636 (2006))).

84a
I.

Stutzman’s Refusal To Provide Custom
Floral Arrangements for a Same-Sex
Wedding Violated the WLAD’s Prohibition
on
Discrimination
in
Public
Accommodations, RCW 49.60.215

Stutzman’s first statutory argument implicates
the WLAD, chapter 49.60 RCW. The trial court ruled
that Stutzman violated RCW 49.60.215, which
prohibits discrimination in the realm of public
accommodations. That statute provides:
(1) It shall be an unfair practice for any
person or the person’s agent or employee
to commit an act which directly or
indirectly results in any distinction,
restriction, or discrimination, or the
requiring of any person to pay a larger
sum than the uniform rates charged
other persons, or the refusing or
withholding from any person the
admission, patronage, custom, presence,
frequenting, dwelling, staying, or
lodging in any place of public resort,
accommodation,
assemblage,
or
amusement, except for conditions and
limitations established by law and
applicable to all persons, regardless of
. . . sexual orientation . . . .
RCW 49.60.215. The protected class status of “sexual
orientation” was added to this provision in 2006.
LAWS OF 2006, ch. 4, § 13.

85a
The
WLAD
defines
places
of
public
accommodation to include places maintained “for the
sale of goods, merchandise, services, or personal
property, or for the rendering of personal services
. . . .” RCW 49.60.040(2). Protected individuals are
guaranteed “[t]he right to the full enjoyment of any of
the accommodations, advantages, facilities, or
privileges” of such places. RCW 49.60.030(1)(b).
Additionally, the WLAD states that “[t]he right to be
free from discrimination because of . . . sexual
orientation . . . is recognized as and declared to be a
civil right,” RCW 49.60.030(1) (emphasis added). The
WLAD prohibits discrimination on the different basis
of “marital status” in the employment context, but not
in the context of public accommodations. Compare
RCW 49.60.180 (listing “marital status” as a
protected class in section governing unfair practices
of employers) with RCW 49.60.215 (omitting marital
status from analogous public accommodations
statute).
RCW 49.60.030(2) authorizes private plaintiffs to
bring suit for violations of the WLAD. To make out a
prima facie case under the WLAD for discrimination
in the public accommodations context, the plaintiff
must establish four elements: (1) that the plaintiff is
a member of a protected class, RCW 49.60.030(1); (2)
that the defendant is a place of public accommodation,
RCW 49.60.215; (3) that the defendant discriminated
against the plaintiff, whether directly or indirectly,
id.; and (4) that the discrimination occurred “because
of” the plaintiff’s status or, in other words, that the
protected status was a substantial factor causing the
discrimination, RCW 49.60.030. See also Fell v.
Spokane Transit Auth., 128 Wn.2d 618, 637, 911 P.2d

86a
1319 (1996) (setting forth elements of prima facie case
for disability discrimination under RCW 49.60.215).
Stutzman contests only the last element: she
contends that she did not discriminate against
Ingersoll “because of” his protected class status under
the WLAD. See Br. of Appellants at 19-21.1 She offers
three arguments in support of this interpretation of
the statute.
First, Stutzman argues that if she discriminated
against Ingersoll, it was on the basis of his “marital
status,” not his “sexual orientation.” Br. of Appellants
at 19-21. Second, she argues that the legislature could
not have intended the 2006 amendments to protect
people seeking same-sex wedding services since
same-sex marriages were “illegal” in Washington in
2006. Id. at 15-17. She points out that when the
legislature amended the public accommodations
provisions of the WLAD in 2006, it also added
language stating that the chapter “shall not be
construed to endorse any specific belief, practice,
behavior, or orientation,” and affirming that the
addition “shall not be construed to modify or
supersede state law relating to marriage.” Id. at 1718, 15 (quoting LAWS OF 2006, ch. 4, § 2 (codified at
No one disputes that Ingersoll and Freed are gay men who
sought to marry in recognition of their nearly nine-year
committed relationship. And Stutzman admits that she is the
“sole owner and operator of Arlene’s Flowers, Inc.,” CP at 535,
which is “a Washington for-profit corporation engaged in the sale
of goods and services, including flowers for weddings,” to the
public. Id. at 2, 7-8. Furthermore, Stutzman confirms that she
declined to do the flowers for Ingersoll’s wedding because of her
religious convictions.
1

87a
RCW 49.60.020)). Third, Stutzman argues that
because the WLAD protects both sexual orientation
and religion, it requires that courts balance those
rights when they conflict.2 These arguments fail.
A.

By refusing to provide services for a
same-sex
wedding,
Stutzman
discriminated on the basis of “sexual
orientation” under the WLAD

Stutzman argues that the WLAD distinguishes
between discrimination on the basis of “sexual
orientation”—which the statute prohibits—and
discrimination against those who marry members of
the same sex. But numerous courts—including our
own—have rejected this kind of status/conduct
distinction in cases involving statutory and
constitutional claims of discrimination. E.g., Hegwine
v. Longview Fibre Co., Inc., 162 Wn.2d 340, 349, 172
P.3d 688 (2007) (“under the plain language of the
WLAD and its interpretative regulations, pregnancy
related employment discrimination claims are
matters of sex discrimination”); Elane Photography,
LLC v. Willock, 2013-NMSC-040, 309 P.3d 53 (2013)
(rejecting argument identical to Stutzman’s, in
Stutzman also argues that by compelling her to furnish
flowers for a same-sex marriage ceremony, the State “endorses”
same-sex marriages and also requires her to “endorse” them. Br.
of Appellants at 18. She claims that this conflicts with the WLAD
provision stating that “[t]his chapter shall not be construed to
endorse any specific belief, practice, behavior, or orientation.”
RCW 49.60.020. But Stutzman cites no legal authority for this
interpretation of the term “endorse” in the WLAD.
2

88a
context of New Mexico’s Human Rights Act
(NMHRA), N.M. STAT. ANN. §§ 28-1-1 to 28-1-13)3;
Christian Legal Soc’y Chapter of Univ. of Cal. v.
Martinez, 561 U.S. 661, 672, 688, 130 S. Ct. 2971, 177
L. Ed. 2d 838 (2010) (student organization was
discriminating based on sexual orientation, not belief
or conduct, when it excluded from membership any
person who engaged in “‘unrepentant homosexual
conduct’”; thus, University’s antidiscrimination policy
did not violate First Amendment protections); see also
Lawrence v. Texas, 539 U.S. 558, 575, 123 S. Ct. 2472,
156 L. Ed. 2d 508 (2003) (by criminalizing conduct
typically undertaken by gay people, a state
3 In Elane Photography, the New Mexico Supreme Court
addressed the question of whether a wedding photographer
discriminated against a lesbian couple on the basis of their
sexual orientation by refusing to photograph their wedding
under a state public accommodations law similar to
Washington’s WLAD. 309 P.3d 53. The proprietor of Elane
Photography argued, much like Stutzman here, that she was not
discriminating against Willock and her fiancée based on their
sexual orientation, but rather was choosing not to “endorse”
same-sex marriage by photographing one in conflict with her
religious beliefs. Id. at 61. The court rejected Elane
Photography’s attempt to distinguish status from conduct,
finding that “[t]o allow discrimination based on conduct so
closely correlated with sexual orientation would severely
undermine the purpose of the NMHRA.” Id. Elane Photography
was represented on appeal by the same organization—Alliance
Defending Freedom—that represents Stutzman before this
court. Id. at 58; see also Mullins v. Masterpiece Cakeshop, Inc.,
2015 COA 115, ¶¶ 1-2, 370 P.3d 272 (2015) (holding that baker’s
refusal to make wedding cake for same-sex marriage violated
public accommodations provision of state Anti-Discrimination
Act (CO. REV. STAT. §§ 24-34-401 to 24-34-406) and rejecting free
speech and free exercise defenses), cert. denied, No. 15SC738
(Colo. Apr. 25, 2016).

89a
discriminates against gay people in violation of
protections under the Fourteenth Amendment to the
federal constitution); Romer v. Evans, 517 U.S. 620,
641, 116 S. Ct. 1620, 134 L. Ed. 2d 855 (1996) (Scalia,
J., dissenting) (“‘After all, there can hardly be more
palpable discrimination against a class than making
the conduct that defines the class criminal.’” (quoting
Padula v. Webster, 261 U.S. App. D.C. 365, 371, 822
F.2d 97 (1987))); Bray v. Alexandria Women’s Health
Clinic, 506 U.S. 263, 270, 113 S. Ct. 753, 122 L. Ed.
2d 34 (1993) (summarizing that some conduct is so
linked to a particular group of people that targeting it
can readily be interpreted as an attempt to disfavor
that group by stating that “[a] tax on wearing
yarmulkes is a tax on Jews”);4 Bob Jones Univ. v.

4 Stutzman argues that Bray actually supports her position
because the Bray Court rejected the argument that a group’s
antiabortion protests outside clinics reflected an “‘invidiously
discriminatory animus’” towards women in general. 506 U.S. at
269 (quoting Griffin v. Breckenridge, 403 U.S. 88, 102, 91 S. Ct.
1790, 29 L.Ed.2d 338 (1971)); Reply Br. of Appellants at 39. This
is related to her argument in the opening brief that because she
generally lacks animus towards gay people, and because her
refusal to provide service to Mr. Ingersoll was motivated by
religious beliefs, she cannot be said to have discriminated
“because of” sexual orientation as required by the WLAD. See Br.
of Appellants at 19-21. From Bray, Stutzman concludes that her
decision to decline Mr. Ingersoll’s “artistic commission” was
acceptable because it was “reasonable” and she bore “no
underlying animus” towards gay people in general. Reply Br. of
Appellants at 40. However, Bray dealt with a question of
statutory interpretation of 42 U.S.C. § 1985(3), which has been
interpreted to require a showing of animus. See Bray, 506 U.S.
at 267-68; Griffin, 403 U.S. at 102. In contrast, we have already
addressed this question of an animus requirement with regards

90a
United States, 461 U.S. 574, 605, 103 S. Ct. 2017, 76
L. Ed. 2d 157 (1983) (“discrimination on the basis of
racial affiliation and association is a form of racial
discrimination”).5 Finally, last year, the Supreme
Court likened the denial of marriage equality to samesex couples itself to discrimination, noting that such
denial “works a grave and continuing harm,” and is a
“disability on gays and lesbians [that] serves to
disrespect and subordinate them.” Obergefell v.
Hodges, __ U.S. __, 135 S. Ct. 2584, 2604, 2607-08, 192
L. Ed. 2d 609 (2015) (fundamental right to marry
includes same-sex couples and is protected by due
process and equal protection clauses of Fourteenth
Amendment; abrogating the equal protection and due
process holdings in Andersen v. King County, 158
Wn.2d 1, 30, 138 P.3d 963 (2006) (plurality opinion)
to the contrary).6
In accordance with this precedent, we reject
Stutzman’s proposed distinction between status and
conduct fundamentally linked to that status. This is
consistent with the language of the WLAD itself,
to the WLAD and have held that it contains no such requirement
(see discussion below).
See also Blackburn v. Dep’t of Social & Health Servs., 186
Wn.2d 250, 258-59, 375 P.3d 1076 (2016) (discrimination on
basis of race occurs even where racially motivated staffing
decision might have been based on benign reason).
5

In response to the authority cited here, Stutzman cites two
cases for the proposition that other courts have drawn a
distinction between conduct and status. See Reply Br. of
Appellants at 36-37. She draws our attention to two trial court
decisions from Kentucky and Virginia. Id.
6

91a
which, as respondents observe, states that it is to be
construed liberally, RCW 49.60.020; that all people,
regardless of sexual orientation are to have “full
enjoyment of any of the accommodations, advantages,
facilities, or privileges” of any place of public
accommodation, RCW 49.60.030 (emphasis added);
and that all discriminatory acts, including any act
“which directly or indirectly results in any distinction,
restriction, or discrimination” based on a person’s
sexual orientation is an unfair practice in violation of
the WLAD, RCW 49.60.215 (emphasis added).
B.

There is no same-sex wedding
exception to the WLAD’s public
accommodation
provision,
RCW
49.60.215

For the reasons given in Section I.A above, the
plain language of RCW 49.60.215 prohibits
Stutzman’s refusal to provide same-sex wedding
services to Ingersoll; such refusal constitutes
discrimination on the basis of “sexual orientation,” in
violation of RCW 49.60.215. The same analysis
applies to her corporation.
Stutzman asks us to read an implied same-sex
wedding exception into this statute. She argues that
the legislature could not have intended to require
equal access to public accommodations for same-sex
wedding services because when it amended RCW
49.60.215
to
prohibit
sexual
orientation
discrimination, same-sex marriage was “illegal” in
Washington.

92a
We reject this argument for two reasons. First,
the WLAD already contains an express exemption to
RCW 49.60.215 for “religious organization[s]7 that
object to providing public accommodations for samesex weddings. LAWS OF 2012, ch. 3, § 1(5) (“[n]o
religious organization is required to provide
accommodations, facilities, advantages, privileges,
services, or goods related to the solemnization or
celebration of a marriage”). If the WLAD already
excluded same-sex wedding services from the public
accommodations covered under RCW 49.60.215, this
exemption would be superfluous. We interpret
statutes to avoid such superfluity whenever possible.
Rivard v. State, 168 Wn.2d 775, 783, 231 P.3d 186
(2010) (in giving meaning to ambiguous statutory
provisions, “we interpret a statute to give effect to all
language, so as to render no portion meaningless or
superfluous”).
Second, for purposes of the analysis Stutzman
would like us to adopt, same-sex marriage has never
been “illegal” in Washington. Stutzman cites our
decision in Waggoner v. Ace Hardware Corp., 134
Wn.2d 748, 750, 953 P.2d 88 (1998), which rejected a
claim of marital status discrimination by two people
terminated from their jobs for cohabiting in
contravention of their workplace antinepotism policy.
Waggoner argued that “cohabitation” fit within the
meaning of the term “marital status.” In examining
This exemption does not extend to Arlene’s Flowers,
which does not meet the WLAD’s definition of a “religious
organization.” Id. at § 1(7)(b) (defining “religious organization”
to include “entities whose principal purpose is the study,
practice, or advancement of religion,” such as “churches,
mosques, synagogues, temples,” etc.).
7

93a
this question of statutory interpretation, we
determined that the plain meaning of the word
“marital”—that is, pertaining to “the status of being
married, separated, divorced, or widowed”—was
sufficient to resolve the question against petitioners.
Id. at 753. We thus rejected Waggoner’s argument
because “[w]e presume legislative consistency when
called upon to construe statutory enactments or new
amendments to old ones” and our legislature had
criminalized cohabitation prior to protecting marital
status under the WLAD. Id. at 754. Of significance
here, we noted that cohabitation remained a crime for
a full three years after marital status was included as
a protected status, and observed that “[i]t would be
most anomalous for the Legislature to criminalize
and protect the same conduct at the same time.” Id.
(emphasis added). Stutzman argues that we should
treat same-sex marriage the same way and hold that
the legislature could not possibly have intended to
protect that practice when it protected sexual
orientation as a status.
But Stutzman’s reliance on Waggoner is
misplaced. Washington’s Defense of Marriage Act did
not criminalize same-sex marriage. Former RCW
9.79.120 (1973), repealed by LAWS OF 1975, 1st Ex.
Sess., ch. 260, § 9A.92.010(211). Rather, it codified, as
a matter of state law, that the only legally recognized
marriages in the State of Washington were those
between a man and a woman. See LAWS OF 1998, ch.
1, § 2 (“It is the intent of the legislature . . . to establish
public policy against same-sex marriage in statutory
law that clearly and definitively declares same-sex
marriages will not be recognized in Washington”).
Former RCW 26.04.010 (1998) enacted no criminal

94a
penalties for attempts by two individuals of the same
sex to wed; those individuals would simply not have
had a valid “marriage” under Washington law. See
LAWS OF 1998, ch. 1, § 3. Former RCW 9.79.120, on
the other hand, specified that cohabitation was “a
gross misdemeanor.” Waggoner, 134 Wn.2d at 754
n.4. Our reasoning in Waggoner turned on the
presence of a criminal statute targeting the conduct
at issue, which is absent here.
We hold that there is no same-sex wedding
exception to the WLAD’s public accommodations
provisions.
C.

The WLAD contains no mandate to
balance religious rights against the
rights of protected class members

In her final statutory argument regarding the
WLAD, Stutzman contends that the superior court
erred by failing to balance her right to religious free
exercise against Ingersoll’s right to equal service.
Stutzman argues that because the WLAD also
protects patrons of public accommodations from
discrimination based on “creed,” RCW 49.60.030(1),
and because this court has recognized that the WLAD
“sets forth a nonexclusive list of rights,” Marquis v.
City of Spokane, 130 Wn.2d 97, 107, 922 P.2d 43
(1996), the statute actually grants conflicting rights.
As a consequence, she argues, courts should conduct
a balancing inquiry “on a case-by-case basis,” Reply
Br. of Appellants at 43. She cites Seattle Times Co. v.
Ishikawa, 97 Wn.2d 30, 37-39, 640 P.2d 716 (1982),

95a
for the rule that this court uses balancing tests to
resolve claims of competing rights in other contexts.8
But Stutzman cites no authority for her
contention that the WLAD protects proprietors of
public accommodations to the same extent as it
protects their patrons, nor for her contention that a
balancing test should be adopted for the WLAD. And,
to the extent that Stutzman relies on Ishikawa, that
case is inapposite: it dealt with two competing
rights—the right to a fair trial and the right to open
courts—both of which are constitutional, not
statutory. 97 Wn.2d at 37.
When faced with a question of statutory
interpretation, we “‘must not add words where the
legislature has chosen not to include them.’” Lake v.
Woodcreek Homeowners Ass’n, 169 Wash.2d 516, 526,
Although Stutzman refers to the balancing test set forth
in Ishikawa, that is not the test that she applies in her briefing.
Instead, Stutzman articulates a three-part balancing inquiry
that (1) prioritizes “[r]ights of express constitutional magnitude
. . . over other rights when they conflict,” (2) evaluates whether
infringement on the rights of the opposing party are narrowly
tailored to protect the rights of the claimant, and (3) weighs the
benefits and burdens on each party. Br. of Appellants at 23-24.
In conducting this inquiry, Stutzman concludes that her rights
“should take precedence” here because they are of constitutional
magnitude, rather than derived from police power as are
Ingersoll’s; the exception for weddings only (as opposed to
refusal to serve the gay community for any purpose) is narrowly
tailored to protect her religious rights; and she is more
significantly burdened in that she is forced to choose between
losing business or violating her religious beliefs, whereas “Mr.
Ingersoll and Mr. Freed are able to obtain custom floral designs
for their same-sex wedding from nearby florists.” Id.
8

96a
243 P.3d 1283 (2010) (quoting Rest. Dev., Inc. v.
Cananwill, Inc., 150 Wn.2d 674, 682, 80 P.3d 598
(2003)). Here, the legislature has provided no
indication in the text of the WLAD that it intended to
import a fact-specific, case-by-case, constitutional
balancing test into the statute. Moreover, the plain
terms of the WLAD’s public accommodations
provision—the statute at issue here—protect patrons,
not business owners. In other regulatory contexts,
this court and the United States Supreme Court have
held that individuals who engage in commerce
necessarily accept some limitations on their conduct
as a result. See United States v. Lee, 455 U.S. 252,
261, 102 S. Ct. 1051, 71 L. Ed. 2d 127 (1982) (Stevens,
J., concurring in judgment) (declining to extend Social
Security exemption to Amish employers on religious
grounds because “[w]hen followers of a particular sect
enter into commercial activity as a matter of choice,
the limits they accept on their own conduct as a
matter of conscience and faith are not to be
superimposed on the statutory schemes which are
binding on others in that activity”); Backlund v. Bd.
of Comm’rs of King County Hosp. Dist. No. 2, 106
Wn.2d 632, 648, 724 P.2d 981 (1986) (rejecting
religious grounds as valid basis for physician to
decline liability insurance because “[t]hose who enter
into a profession as a matter of choice, necessarily face
regulation as to their own conduct”); In re Marriage of
Didier, 134 Wn. App. 490, 499, 140 P.3d 607 (2006).
Because it is inconsistent with the WLAD’s plain
terms and unsupported by any precedent, we decline
to adopt Stutzman’s proposed balancing test. In sum,

97a
Stutzman’s refusal to provide custom floral
arrangements for a same-sex wedding violated the
WLAD’s prohibition on discrimination in public
accommodations.9
II.

Stutzman Fails To Show That the WLAD,
as Applied in This Case, Violates Her State
or Federal Constitutional Right to Free
Speech

As noted above, Stutzman raises five
constitutional challenges to the WLAD as applied to
her. She is correct that if the State statute violated a
constitutional right, the constitutional right would
certainly prevail. U.S. CONST. art. VI, cl. 2 (federal
constitutional supremacy); Davis v. Cox, 183 Wn.2d
269, 294-95, 351 P.3d 862 (2015) (state constitutional
provision prevails over state statute to the contrary).
We therefore analyze each of Stutzman’s
constitutional defenses carefully.
The first of these defenses is a free speech
challenge: Stutzman contends that her floral
arrangements are artistic expressions protected by
the state and federal constitutions and that the
WLAD impermissibly compels her to speak in favor of
same-sex marriage.

To the extent Stutzman argues that her religious free
exercise rights supersede Ingersoll’s and Freed’s statutory
protections, we address that argument in the constitutional
analyses below.
9

98a
A.

As applied to Stutzman in this case,
the WLAD does not violate First
Amendment speech protections

“Free speech is revered as the ‘Constitution’s
most majestic guarantee,’ central to the preservation
of all other rights.” Pub. Disclosure Comm’n v. 119
Vote No! Comm., 135 Wn.2d 618, 624, 957 P.2d 691
(1998) (plurality opinion) (quoting Nelson v.
McClatchy Newspapers, Inc., 131 Wn.2d 523, 536, 936
P.2d 1123 (1997)). “The government may not prohibit
the dissemination of ideas that it disfavors, nor
compel the endorsement of ideas that it approves.”
Knox v. Serv. Emps. Int’l Union, Local 1000, __ U.S.
__, 132 S. Ct. 2277, 2288, 183 L. Ed. 2d 281 (2012).
Indeed, the First Amendment protects even hate
speech, provided it is not “fighting words” or a “‘true
threat.’” Virginia v. Black, 538 U.S. 343, 359, 123 S.
Ct. 1536, 155 L. Ed. 2d 535 (2003) (quoting Watts v.
United States, 394 U.S. 705,708, 89 S. Ct. 1399, 22 L.
Ed. 2d 664 (1969) (per curiam)).
Stutzman argues that the WLAD, as applied to
her in this case, violates First Amendment
protections against “compelled speech” because it
forces her to endorse same-sex marriage. Br. of
Appellants at 24-31. To succeed in this argument, she
must first demonstrate that the conduct at issue
here—her commercial sale of floral wedding
arrangements—amounts to “expression” protected by
the First Amendment. Clark v. Cmty. for Creative
Non-Violence, 468 U.S. 288, 293 n.5, 104 S. Ct. 3065,
82 L. Ed. 2d 221 (1984) (“[I]t is the obligation of the
person desiring to engage in assertedly expressive
conduct to demonstrate that the First Amendment

99a
even applies. To hold otherwise would be to create a
rule that all conduct is presumptively expressive.”).
She fails to meet this burden. The First
Amendment’s plain terms protect “speech,” not
conduct. U.S. CONST. amend. I (“Congress shall make
no law . . . abridging the freedom of speech.”). But the
line between speech and conduct in this context is not
always clear. Stutzman contends that her floral
arrangements are “speech” for purposes of First
Amendment protections because they involve her
artistic decisions. Br. of Appellants at 24. Relying on
the dictionary definition of “art,” as well as expert
testimony regarding her creativity and expressive
style, she argues for a broad reading of protected
speech that encompasses her “unique expression,”
crafted in “petal, leaf, and loam.” Id. at 25-26.
Ingersoll and the State counter that Stutzman’s
arrangements are simply one facet of conduct—
selling goods and services for weddings in the
commercial marketplace—that does not implicate
First Amendment protections at all.
We agree that the regulated activity at issue in
this case—Stutzman’s sale of wedding floral
arrangements—is not “speech” in a literal sense and
is thus properly characterized as conduct. But that
does not end our inquiry. The Supreme Court has
protected conduct as speech if two conditions are met:
“[(1)] [a]n intent to convey a particularized message
was present, and [(2)] in the surrounding
circumstances the likelihood was great that the
message would be understood by those who viewed it.”
Spence v. Washington, 418 U.S. 405, 410-11, 94 S. Ct.
2727, 41 L. Ed. 2d 842 (1974) (per curiam). Recent

100a
cases have characterized this as an inquiry into
whether the conduct at issue was “inherently
expressive.” Rumsfeld v. Forum for Acad. &
Institutional Rights, Inc. (FAIR), 547 U.S. 47, 64, 126
S. Ct. 1297, 164 L. Ed. 2d 156 (2006).
Stutzman’s floral arrangements do not meet this
definition. Certainly, she argues that she intends to
communicate a message through her floral
arrangements. But the major contest is over whether
Stutzman’s intended communications actually
communicated something to the public at large—
whether her conduct was “inherently expressive.”
Spence, 418 U.S. at 410-11; FAIR, 547 U.S. at 64. And
her actions in creating floral arrangements for
wedding ceremonies do not satisfy this standard.
The leading case on the “inherently expressive”
standard is FAIR. The plaintiffs in FAIR—an
association of law schools and faculty members—
challenged the constitutionality of a law that required
higher education institutions to provide military
recruiters on campus with access to facilities and
students that was at least equivalent to that of the
most favorably treated nonmilitary recruiter. 547
U.S. at 52, 55. The FAIR Court ruled that the law
schools’ conduct in denying military recruiters mostfavorable-recruiter access to students was not
protected by the First Amendment because it was not
“inherently expressive.” Id. at 66. It explained that
additional speech would be required for an outside
observer to understand that the schools’ reason for
denying military recruiters favorable access was to
protest the military’s “Don’t Ask, Don’t Tell” policy.
Id.

101a
Stutzman’s refusal is analogous. The decision to
either provide or refuse to provide flowers for a
wedding does not inherently express a message about
that wedding. As Stutzman acknowledged at
deposition, providing flowers for a wedding between
Muslims would not necessarily constitute an
endorsement of Islam, nor would providing flowers for
an atheist couple endorse atheism. Stutzman also
testified that she has previously declined wedding
business on “[m]ajor holidays, when we don’t have the
staff or if they want particular flowers that we can’t
get in the time frame they need.” CP at 120.
Accordingly, an outside observer may be left to
wonder whether a wedding was declined for one of at
least three reasons: a religious objection, insufficient
staff, or insufficient stock.
Stutzman argues that FAIR is inapposite and
that we should instead apply Hurley v. IrishAmerican Gay, Lesbian & Bisexual Group of Boston,
515 U.S. 557, 115 S. Ct. 2338, 132 L. Ed. 2d 487
(1995). Hurley held that a state antidiscrimination
law could not be applied so as to require a private
parade to include marchers displaying a gay pride
message. Id. at 568. Stutzman claims Hurley
recognizes her First Amendment right “to exclude a
message [she] did not like from the communication
[she] chose to make.” Reply Br. of Appellants at 11
(citing Hurley, 515 U.S. at 574).10
Stutzman relies on Redgrave v. Boston Symphony
Orchestra, 855 F.2d 888 (1st Cir. 1988), in which the Boston
Symphony (BSO) refused to perform with Vanessa Redgrave in
light of her support of the Palestine Liberation Organization.
Redgrave sued the BSO for breach of contract and consequential
10

102a
Hurley is similar to this case in one respect: it
involved a public accommodations law like the
WLAD.11 But the Massachusetts trial court had ruled
damages in federal court. Redgrave v. Boston Symphony
Orchestra, Inc., 602 F. Supp. 1189 (D. Mass. 1985), affirming
judgment in part, vacated in part, 855 F.2d 888 (1st Cir. 1988).
The First Amendment issue in that case arose from the district
court’s concern that Redgrave’s novel theory of consequential
damages was sufficiently related to defamation cases so as to
implicate First Amendment concerns. Id. at 1201.
However, as the attorney general here notes, the First
Circuit resolved that case on statutory interpretation of the
Massachusetts Civil Rights Act, MASS. GEN. LAWS, ch. 12, §§
11H-11J, not on First Amendment grounds. Att’y Gen.’s Resp.
Br. at 26. In fact, the court ultimately chose to “decline to reach
the federal constitutional issues,” given the complex interaction
between First Amendment doctrine and state law, and saw “no
need to discuss the existence or content of a First Amendment
right not to perform an artistic endeavor.” 855 F.2d at 911.
Accordingly, Stutzman’s references are, at best, out-of-circuit
dicta.
Stutzman cites both Hurley and Boy Scouts of America v.
Dale, 530 U.S. 640, 657, 120 S. Ct. 2446, 147 L. Ed. 2d 554 (2000),
as examples of cases in which the Supreme Court vindicated
First Amendment rights over state antidiscrimination public
accommodations laws. In fact, both cases involved state courts
applying public accommodations laws in unusually expansive
ways, such that an individual, private, expressive association of
people fell under the law. Dale, 530 U.S. at 657, (New Jersey
Court “went a step further” from an already “extremely broad”
public accommodations law in applying it “to a private entity
without even attempting to tie the term ‘place’ to a physical
location”); Hurley, 515 U.S. at 572, (noting that Massachusetts
trial court applied a public accommodations law “in a peculiar
way” to encompass a privately sponsored parade). This case is
distinguishable because Arlene’s Flowers is a paradigmatic
public accommodation.
11

103a
that the parade itself was a place of public
accommodation under state antidiscrimination law—
a ruling that the Supreme Court called “peculiar.” 515
U.S. at 561-62, 573. The Court noted that the parade’s
“inherent expressiveness” distinguished it from the
places traditionally subject to public accommodations
laws—places that provide “publicly available goods,
privileges, and services.” Id. at 568-72. Hurley is
therefore unavailing to Stutzman: her store is the
kind of public accommodation that has traditionally
been subject to antidiscrimination laws. See Elane
Photography, 309 P.3d at 68 (rejecting photographer’s
reliance on Hurley because state antidiscrimination
law applies not to defendant’s photographs but to “its
business decision not to offer its services to protected
classes of people”; concluding that “[w]hile
photography may be expressive, the operation of a
photography business is not”).12

12 The Supreme Court has drawn this distinction between
expressive conduct and commercial activity in the context of
First Amendment freedom of association claims, and likewise
rejected the notion that the First Amendment precludes
enforcement of antidiscrimination public accommodations laws
in that context as well. E.g., Dale, 530 U.S. at 657 (distinguishing
between “clearly commercial entities” and “membership
organizations” in cases involving the intersection between state
public accommodations laws and First Amendment rights);
Roberts v. U.S. Jaycees, 468 U.S. 609, 627, 104 S. Ct. 3244, 82 L.
Ed. 2d 462 (1984) (finding that even private membership
organizations may be regulated by public accommodations laws
where such regulations will not impair its ability “to disseminate
its preferred views” and holding that there was no such
impairment where young men’s social organization was required
to accept women members).

104a
United States Supreme Court decisions that
accord free speech protections to conduct under the
First Amendment have all dealt with conduct that is
clearly expressive, in and of itself, without further
explanation. See Hurley, 515 U.S. at 568 (parades);
United States v. Eichman, 496 U.S. 310, 110 S. Ct.
2404, 110 L. Ed. 2d 287 (1990) (burning the American
flag); Texas v. Johnson, 491 U.S. 397, 109 S. Ct. 2533,
105 L. Ed. 2d 342 (1989) (burning the American flag);
United States v. Grace, 461 U.S. 171, 103 S. Ct. 1702,
75 L. Ed. 2d 736 (1983) (distributing leaflets outside
Supreme Court building in violation of federal
statute); Nat’l Socialist Party of Am. v. Vill. of Skokie,
432 U.S. 43, 43, 97 S. Ct. 2205, 53 L. Ed. 2d 96 (1977)
(per curiam) (“[m]arching, walking, or parading”
while wearing Nazi uniforms); Smith v. Goguen, 415
U.S. 566, 588, 94 S. Ct. 1242, 39 L. Ed. 2d 605 (1974)
(White, J., concurring in judgment) (treating flag
“‘contemptuously’” by wearing a small American flag
sewn into the seat of one’s pants); Wooley v. Maynard,
430 U.S. 705, 97 S. Ct. 1428, 51 L. Ed. 2d 752 (1977)
(state motto on license plates); Spence, 418 U.S. 405
(displaying American flag upside down on private
property with peace sign superimposed on it to
express feelings about Cambodian invasion and Kent
State University shootings); Cohen v. California, 403
U.S. 15, 26, 91 S. Ct. 1780, 29 L. Ed. 2d 284 (1971)
(wearing jacket emblazoned with the words “‘F—k the
Draft’”); Schacht v. United States, 398 U.S. 58, 90 S.
Ct. 1555, 26 L. Ed. 2d 44 (1970) (wearing army
uniform in short play criticizing United States
involvement in Vietnam, inasmuch as it does not tend
to discredit the armed forces); Tinker v. Des Moines
Indep. Cmty. Sch. Dist., 393 U.S. 503, 505, 89 S. Ct.

105a
733, 21 L. Ed. 2d 731 (1969) (wearing black armbands
to protest Vietnam conflict); Brown v. Louisiana, 383
U.S. 131, 141-42, 86 S. Ct. 719, 15 L. Ed. 2d 637 (1966)
(sit-in to protest “whites only” area in public library
during civil rights struggle); Cox v. Louisiana, 379
U.S. 536, 552, 85 S. Ct. 453, 13 L. Ed. 2d 471 (1965)
(giving speech and leading group of protesters in song
and prayer in opposition to segregation); Edwards v.
South Carolina, 372 U.S. 229, 83 S. Ct. 680, 9 L. Ed.
2d 697 (1963) (peaceful march on sidewalk around
State House grounds in protest of discrimination); W.
Va. State Bd. of Educ. v. Barnette, 319 U.S. 624, 63 S.
Ct. 1178, 87 L. Ed. 1628 (1943) (refusing to salute the
American flag while saying pledge of allegiance);
Stromberg v. California, 283 U.S. 359, 51 S. Ct. 532,
75 L. Ed. 1117 (1931) (peaceful display of red flag as
a sign of opposition to organized government).
Stutzman’s conduct—whether it is characterized as
creating floral arrangements, providing floral
arrangement services for opposite-sex weddings, or
denying those services for same-sex weddings—is not
like the inherently expressive activities at issue in
these cases. Instead, it is like the unprotected conduct
in FAIR, 547 U.S. at 66.13

Stutzman and amici point to a handful of cases
protecting various forms of art—and some of them do seem to
provide surface support for their argument. See Br. of Appellants
at 6-7; Mot. for Leave to File Br. & Br. for Cato Inst. as Amicus
Curiae in Supp. of Appellants (Cato) at 7 (citing Ward v. Rock
Against Racism, 491 U.S. 781, 790-91, 109 S. Ct. 2746, 105 L.
Ed. 2d 661 (1989) (music without words); Se. Promotions, Ltd. v.
Conrad, 420 U.S. 546, 557-58, 95 S. Ct. 1239, 43 L. Ed. 2d 448
(1975) (theater); Anderson v. City of Hermosa Beach, 621 F.3d
1051, 1060 (9th Cir. 2010) (tattooing); Piarowski v. Ill. Cmty.
13

106a
Finally, Stutzman asserts that even if her case
doesn’t fall neatly within the contours of these prior
holdings, we should nevertheless place her floral
artistry within a new, narrow protection. The
“narrow” exception she requests would apply to
“businesses, such as newspapers, publicists,
speechwriters, photographers, and other artists, that
create expression” as opposed to gift items, raw
products, or prearranged [items]. Reply Br. of
Appellants at 45. In her case, she proposes that she
would be willing to sell Mr. Ingersoll “uncut flowers
and premade arrangements.” Id. at 46. But, as amicus
Americans United for Separation of Church and State
(Americans United) points out, Stutzman’s rule would
create a “two-tiered system” that carves out an
enormous hole from public accommodations laws:
under such a system, a “dime-store lunch counter
would be required to serve interracial couples but an
upscale bistro could turn them away.” Br. of Amicus
Coll. Dist. 515, 759 F.2d 625, 627-28 (7th Cir. 1985) (stained
glass windows on display in an art gallery at a junior college)).
But, on closer examination, those cases do not expand the
definition of “expressive conduct.” For example, Piarowski held
that stained glass windows were protected in the context of a
college’s demands that the artist move some of his pieces from a
gallery to an alternate location on campus because they were
objected to as “sexually explicit and racially offensive.” 759 F.2d
at 632. And the Anderson court reached its finding that tattoos
receive First Amendment protections by pointing out that they
“are generally composed of words, realistic or abstract images,
symbols, or a combination of these, all of which are forms of pure
expression that are entitled to full First Amendment protection.”
621 F.3d at 1061. Stutzman’s floral arrangements do not
implicate any similar concerns.

107a
Curiae Ams. United in Supp. of Resp’ts at 13. Indeed,
the New Mexico Supreme Court also grappled with
this question, ultimately finding that “[c]ourts cannot
be in the business of deciding which businesses are
sufficiently artistic to warrant exemptions from
antidiscrimination laws,” and noting that this
concern was hardly hypothetical in light of the
proliferation of cases requesting exceptions for
“florists, bakeries, and other wedding vendors” who
refused to serve gay couples. Elane Photography, 309
P.3d at 71.
Because Stutzman’s sale of floral arrangements is
not expressive conduct protected by the First
Amendment, we affirm the trial court and hold that
the WLAD does not violate free speech protections as
applied to Stutzman in this case.
B.

Stutzman does not argue that article I,
section 5 of the Washington Constitution provides any greater protection
than the First Amendment in this
context; we therefore affirm the trial
court’s ruling that no article I, section
5 violation occurred in this case

Stutzman asserts violations of both state and
federal free speech constitutional provisions, though
she does not distinguish between them.
As the Superior Court correctly points out, we
interpret article I, section 5 independently from the
First Amendment. Bradburn v. N. Cent. Reg’l Library
Dist., 168 Wn.2d 789, 800, 231 P.3d 166 (2010). In
some cases, we have found article I, section 5 to be

108a
more protective than its federal counterpart, and in
some cases, we have held the two to contain
equivalent protections. Id. In this case, however,
Stutzman has not assigned error to the Superior
Court’s use of a First Amendment analysis rather
than a separate state constitutional analysis. We
therefore decline to reach the issue of whether article
I, section 5 rights in this context are coextensive with
First Amendment rights.
III.

As Applied in This Case, the WLAD Does
Not Violate Stutzman’s Right to Religious
Free Exercise under the First Amendment
to the United States Constitution

In her second constitutional claim, Stutzman
argues that the WLAD, as applied to her in this case,
violated her First Amendment right to religious free
exercise. We disagree.
The free exercise clause of the First Amendment,
which applies to the States through the Fourteenth
Amendment, Cantwell v. Connecticut, 310 U.S. 296,
303, 60 S. Ct. 900, 84 L. Ed. 1213 (1940), provides that
“Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof.” Laws that burden religion are
subject to two different levels of scrutiny under the
free exercise clause. U.S. CONST. amend I. Neutral,
generally applicable laws burdening religion are
subject to rational basis review,14 while laws that
discriminate against some or all religions (or regulate
Emp’t Div., Dep’t of Human Res. of Or. v. Smith, 494 U.S.
872, 110 S. Ct. 1595, 108 L. Ed. 2d 876 (1990).
14

109a
conduct because it is undertaken for religious reasons)
are subject to strict scrutiny.15
Stutzman argues that the WLAD is subject to
strict scrutiny under a First Amendment free exercise
analysis because it is neither neutral nor generally
applicable. She is incorrect.
A law is not neutral, for purposes of a First
Amendment free exercise challenge if “the object of
[the] law is to infringe upon or restrict practices
because of their religious motivation.” Church of the
Lukumi Babalu Aye, Inc. v. City of Hialeah, 508 U.S.
520, 533, 113 S. Ct. 2217, 124 L. Ed. 2d 472 (1993)
(emphasis added). Stutzman does not argue that our
legislature passed the WLAD in order to target
religious people or people whose religions dictate
opposition to gay marriage. Instead, she argues that
the WLAD is unfair because it grants exemptions for
“religious
organizations”16—permitting
these
organizations to refuse marriage services—but does
Church of the Lukumi Babalu Aye, Inc. v. City of Hialeah,
508 U.S. 520, 532, 113 S. Ct. 2217, 124 L. Ed. 2d 472 (1993).
15

See RCW 26.04.010(6) (“A religious organization shall be
immune from any civil claim or cause of action, including a claim
pursuant to chapter 49.60 RCW, based on its refusal to provide
accommodations, facilities, advantages, privileges, services, or
goods related to the solemnization or celebration of a
marriage.”). “Religious organization” is defined as including,
“but . . . not limited to, churches, mosques, synagogues, temples,
nondenominational ministries, interdenominational and
ecumenical organizations, mission organizations, faith-based
social agencies, and other entities whose principal purpose is the
study, practice, or advancement of religion.” RCW
26.04.010(7)(b).
16

110a
not extend those same exemptions to her. Br. of
Appellants at 37.
We disagree. The cases on which Stutzman relies
all address laws that single out for onerous regulation
either religious conduct in general or conduct linked
to a particular religion, while exempting secular
conduct or conduct associated with other, nontargeted
religions. E.g., Lukumi Babalu Aye, 508 U.S. at 53242 (law was not neutral where legislative history,
including enactment of numerous exemptions for
members of other religions, evidenced a clear intent
to target practitioners of Santeria faith). They
recognize that the “[t]he Free Exercise Clause forbids
any regulation of beliefs as such,” and that this
unconstitutional regulation may sometimes be
accomplished through a law that appears facially
neutral. Blackhawk v. Pennsylvania, 381 F.3d 202,
208-09 (3d Cir. 2004). But blanket exemptions for
religious organizations do not evidence an intent to
target religion. Instead, they indicate the opposite.
Corp. of Presiding Bishop of Church of Jesus Christ of
Latter-Day Saints v. Amos, 483 U.S. 327, 335-38, 107
S. Ct. 2862, 97 L. Ed. 2d 273 (1987) (exemption in
Civil Rights Act for religious organizations does not
violate the establishment clause because it serves a
secular
purpose—to
minimize
governmental
interference with religion—and neither advances nor
inhibits religion); Elane Photography, 309 P.3d at 7475 (“Exemptions for religious organizations are
common in a wide variety of laws, and they reflect the
attempts of the Legislature to respect free exercise
rights by reducing legal burdens on religion.”).

111a
Stutzman also argues that the WLAD is not
“generally applicable” because it does not apply to
businesses that employ fewer than eight persons,
employees working for a close family member or in
domestic service, people renting out certain
multifamily dwellings, and distinctly private
organizations.
Again, the authority Stutzman cites is inapposite.
That authority stands for two principles, neither of
which is implicated here.
First, a law may fail the “general applicability”
test, and thus trigger strict scrutiny, if it adopts a
patchwork of specific exemptions that conspicuously
omits certain religiously motivated conduct. As with
nonneutral laws, such an omission is evidence that
the government has deliberately targeted religious
conduct for onerous regulation, or at the very least
devalued religion as a ground for exemption. Lukumi
Babalu Aye, 508 U.S. at 544-46 (holding that
ordinance was not generally applicable because it
“pursues the city’s governmental interests only
against conduct motivated by religious belief”
(emphasis added)); Fraternal Order of Police Newark
Lodge No. 12 v. City of Newark, 170 F.3d 359, 365-66
(3d Cir. 1999) (police department policy prohibiting
officers from wearing beards triggered strict scrutiny
because it allowed individual exemptions for medical
but not religious reasons; because the medical
exemption undermined the policy’s purpose—to
create uniformity of appearance among its officers—
just as much as a religious exemption would, the
disparity evidenced the department’s preference for
medical (secular) objections over religious ones).

112a
Second, a law is not “generally applicable” if it
permits individual exemptions but is then applied in
a manner that is needlessly prejudicial to religion.
Lighthouse Inst. for Evangelism, Inc. v. City of Long
Branch, 510 F.3d 253, 276 (3d. Cir. 2007) (“What
makes a system of individualized exemptions
suspicious is the possibility that certain violations
may be condoned when they occur for secular reasons
but not when they occur for religious reasons. In
Blackhawk, it was not the mere existence of an
exemption procedure that gave us pause but rather
the fact that the Commonwealth could not coherently
explain what, other than the religious motivation of
Blackhawk’s conduct, justified the unavailability of
an exemption.” (citing Blackhawk, 381 F.3d at 211)).
In this case, Stutzman seeks an exemption that
would allow her to refuse certain customer services to
members of a WLAD-protected class on religious
grounds. Under a First Amendment free exercise
analysis, the WLAD would trigger strict scrutiny if it
permitted that sort of discrimination only for
nonreligious reasons, and thus indicated the
government’s preference for secular discrimination.
But the WLAD does not do this.
Three of the alleged “exemptions” Stutzman cites
have nothing at all to do with the exemption she seeks
(an exemption permitting discrimination in public
accommodations). The exemption for “[people] renting
[out] certain multifamily dwellings,” Br. of Appellants
at 38 (citing RCW 49.60.040(5))—is not really an
exemption from the WLAD at all. RCW 49.60.040(5)
defines a “‘[c]overed multifamily dwelling’” to exclude
all buildings with fewer than four units and certain

113a
buildings with no elevators. In conjunction with RCW
49.60.222(2)(c), this provision requires that “covered
multifamily dwellings” be designed and constructed
in compliance with state and federal disability access
laws. This is not a license for certain landlords to
discriminate. With respect to public accommodations,
the same is true of the WLAD’s “exemptions” for
individuals employed in domestic service or by family
members and for “employers” with fewer than eight
employees. See Br. of Appellants at 38 (citing RCW
49.60.040(10), (11)). These exemptions protect
employers from WLAD liability as employers—that is,
liability to their employees—in the context of family
relationships, domestic service, and very small
businesses; they have nothing to do with Stutzman’s
liability as the proprietor of a public accommodation.
Compare RCW 49.60.180 (listing prohibited “[u]nfair
practices of employers,” all of which discriminate
against employees or potential employees—not
customers), with RCW 49.60.215 (listing prohibited
“[u]nfair practices of places of public resort,
accommodation,
assemblage,
amusement”;
completely omitting any reference to “employers”).
Thus, these exemptions are distinguishable from the
exemptions at issue in Lukumi Babalu Aye,
Blackhawk, or Fraternal Order of Police because none
is an exemption that Stutzman would actually like to
invoke.
And the other “exemption” Stutzman identifies—
for distinctly private organizations, Br. of Appellants
at 38 (citing RCW 49.60.040(2))—does not undermine
the purposes of the WLAD’s public accommodations
provision: to prevent discrimination in public
accommodations. Thus, it does not trigger strict

114a
scrutiny under a First Amendment free exercise
analysis, either. Fraternal Order of Police, 170 F.3d at
366 (contrasting exemptions that undermine a law’s
purpose—and thus trigger strict scrutiny—with
exemptions for “activities that [the government] does
not have an interest in preventing”; holding that
police department’s exemption permitting undercover
officers to wear beards did not trigger strict scrutiny
because the governmental interest served by the
shaving requirement—making officers readily
recognizable as officers—did not apply to undercover
officers).
For these reasons, we reject Stutzman’s claim
that the WLAD, as applied to her, triggers strict
scrutiny under the free exercise clause of the First
Amendment. The WLAD is a neutral, generally
applicable law subject to rational basis review. Emp’t
Div., Dep’t of Human Res. of Or. v. Smith, 494 U.S.
872, 110 S. Ct. 1595, 108 L. Ed. 2d 876 (1990). And
the WLAD clearly meets that standard: it is rationally
related to the government’s legitimate interest in
ensuring equal access to public accommodations. See
Lighthouse, 510 F.3d at 277 (to withstand free
exercise challenge, neutral, generally applicable law
“must be reasonable and not arbitrary and it must
bear ‘a rational relationship to a [permissible] state
objective’” (alteration in original) (quoting Belle Terre
v. Boraas, 416 U.S. 1, 8, 94 S. Ct. 1536, 39 L. Ed. 2d
797 (1974))).

115a
IV.

As Applied in This Case, the WLAD Did Not
Violate Stutzman’s Right to Religious Free
Exercise under Article I, Section 11 of the
Washington Constitution
A.

This court has applied strict judicial
scrutiny to certain article I, section 11
claims

Stutzman also raises a state constitutional
challenge to the WLAD as applied to her religiously
motivated conduct in this case. Article I, section 11 of
the Washington Constitution provides, in relevant
part:
Absolute freedom of conscience in all
matters of religious sentiment, belief
and worship, shall be guaranteed to
every individual, and no one shall be
molested or disturbed in person or
property on account of religion; but the
liberty of conscience hereby secured
shall not be so construed as to excuse
acts of licentiousness or justify practices
inconsistent with the peace and safety of
the state.
Obviously, this language differs from the
language of the First Amendment’s free exercise
clause.
In the past, however, we interpreted article I,
section 11 to provide the same protection as the First
Amendment’s free exercise clause. See First Covenant
Church of Seattle v. City of Seattle, 114 Wn.2d 392,

116a
402, 787 P.2d 1352 (1990) (First Covenant I), vacated
and remanded, 499 U.S. 901, 111 S. Ct. 1097, 113 L.
Ed. 2d 208 (1991). Thus, for many years this court
relied on First Amendment free exercise case law in
article I, section 11 challenges and applied strict
scrutiny to laws burdening religion. Id. (citing
Sherbert v. Verner, 374 U.S. 398, 83 S. Ct. 1790, 10 L.
Ed. 2d 965 (1963); Wisconsin v. Yoder, 406 U.S. 205,
92 S. Ct. 1526, 32 L. Ed. 2d 15 (1972); Hobbie v.
Unemployment Appeals Comm’n, 480 U.S. 136, 107 S.
Ct. 1046, 94 L. Ed. 2d 190 (1987) (law burdening
religion must serve “compelling state interest” and
“constitute[ ] the least restrictive means to achieve
the government’s objective”)).17
In 1990, however, things changed. That was the
year that the United States Supreme Court adopted
rational basis review for claims that neutral,
generally applicable laws (like the WLAD)
incidentally burden religion, in Smith, 494 U.S. at
17 Some scholarship distinguishes between the “compelling
interest” test and “strict scrutiny.” E.g., Stephen A. Siegel, The
Origin of the Compelling State Interest Test and Strict Scrutiny,
48 AM. J. LEGAL HIST. 355, 359-60 (2008) (describing the
“compelling interest” standard as one of three barriers that
legislation must overcome under strict scrutiny). But this court
has always treated them as synonymous in religious free
exercise cases. E.g., Backlund, 106 Wn.2d at 641 (“Since [the
plaintiff’s] beliefs are protected by the free exercise clause of the
First Amendment, the burden of proof shifts to the Board to
prove that (1) a compelling governmental interest justifies the
regulation in question and (2) the regulation is the least
restrictive imposition on the practice of his belief to satisfy that
interest.” (citing United States v. Lee, 455 U.S. 252, 257, 102 S.
Ct. 1051, 71 L. Ed. 2d 127 (1982); State v. Meacham, 93 Wn.2d
735, 740, 612 P.2d 795 (1980))).

117a
878-90. Smith definitively repudiated strict scrutiny
for neutral, generally applicable laws prohibiting
“socially harmful conduct.” Id. at 884-85. It reasoned
that applying heightened scrutiny—which requires a
balancing of governmental against personal
interests—would pose two problems. Id. First, it
would vitiate the state’s ability to regulate, allowing
every individual “‘to become a law unto himself.’” Id.
at 885 (quoting Reynolds v. United States, 98 U.S. (8
Otto) 145, 167, 25 L. Ed. 244 (1878)). Second, it would
entangle civil courts in religion by requiring them to
evaluate the significance of a particular practice to a
faith. Smith, 494 U.S. at 887 (“[r]epeatedly and in
many different contexts, we have warned that courts
must not presume to determine the place of a
particular belief in a religion or the plausibility of a
religious claim”). The Smith Court reasoned that such
a balancing test would be incompatible with the
religious pluralism that is fundamental to our
national identity. 494 U.S. at 888.
Smith’s holding is limited in two ways. First, it
left in place prior First Amendment case law applying
the “compelling interest” balancing test where the
statute in question “lent itself to individualized . . .
assessment”—e.g., an unemployment benefits statute
under which an administrative court determines, on
a case-by-case basis, whether a person was fired for
good cause. Id. at 884. In such cases, the Court
explained that “the State [already] has in place a
system of individual exemptions”—thus, the
challenged law is not “generally applicable” for
purposes of First Amendment free exercise analysis.
Id. Where an individual requests a religious
exemption from such a law, the government must

118a
have a compelling reason for denying it. Id. Second,
the Smith Court distinguished cases involving
“hybrid” claims—e.g., challenges to laws that
burdened both religious freedom and another right
such as free speech. Id. at 881 (collecting cases).
We revisited our article I, section 11 test following
Smith in First Covenant Church of Seattle v. City of
Seattle, 120 Wn.2d 203, 840 P.2d 174 (1992) (First
Covenant II). In that case, the plaintiff church argued
that its designation as a historical landmark (subject
to “controls” limiting alterations to its building)
violated both First Amendment and article I, section
11 protections. Id. at 208-09. In First Covenant I, we
applied strict scrutiny to both constitutional
challenges and held that the zoning law was
unconstitutional. 114 Wn.2d at 401-02, 410. On
remand from the United States Supreme Court
following Smith, we addressed the state and federal
free exercise claims again. Regarding the First
Amendment claim, the First Covenant II court held
that the challenged statute fell within both of the
exceptions to rational basis review recognized in
Smith: it created a system of “individualized
assessments” and it raised “hybrid” constitutional
concerns (by restricting speech as well as religious
free exercise). 120 Wn.2d at 214-17. The court
therefore held that the historical landmark statute
was subject to strict scrutiny under the First
Amendment. Id. at 217-18.
But after determining that the statute failed
strict scrutiny as applied to the plaintiff church—
because a city’s purely aesthetic or cultural interest
in preserving historical landmarks is not

119a
compelling—the First Covenant II court went on to
separately analyze the church’s article I, section 11
claim. Id. at 223 (“The possible loss of significant
architectural elements is a price we must accept to
guarantee the paramount right of religious freedom
. . . [and] [a]lthough we might . . . base our decision
solely on federal grounds, we decline to do so.”). It
performed a Gunwall18 analysis and concluded that
article I, section 11 “extends broader protection than
the [F]irst [A]mendment . . . and precludes the City
from imposing [the disputed] Landmarks Preservation Ordinance on First Covenant’s church.” Id. at
229-30.
Since that time, our court has addressed four
article I, section 11 claims—all by churches
challenging land use regulations19—and has
subjected the challenged law to strict scrutiny in each
State v. Gunwall, 106 Wn.2d 54, 720 P.2d 808 (1986). A
Gunwall analysis determines whether a state constitutional
provision is more protective than its federal counterpart by
considering six nonexclusive factors: (1) the text of the state
constitutional provision at issue, (2) significant differences
between the text of parallel state and federal constitutional
provisions, (3) state constitutional and common law history,
(4) state law predating the state constitution, (5) structural
differences between the state and federal constitutions, and
(6) matters of particular state or local concern. Id. at 61-62.
18

City of Woodinville v. Northshore United Church of
Christ, 166 Wn.2d 633, 644-45, 211 P.3d 406 (2009); Open Door
Baptist Church v. Clark County, 140 Wn.2d 143, 156-60, 995
P.2d 33 (2000); Munns v. Martin, 131 Wn.2d 192, 195, 930 P.2d
318 (1997); First United Methodist Church of Seattle v. Hr’g
Exam’r for Seattle Landmarks Pres. Bd., 129 Wn.2d 238, 249-50,
252-53, 916 P.2d 374 (1996).
19

120a
case. Thus, both before and after Smith and First
Covenant II, we have applied the same four-prong
analysis in an article I, section 11 challenge: where a
party has (1) a sincere religious belief and (2) the
exercise of that belief is substantially burdened by the
challenged law, the law is enforceable against that
party only if it (3) serves a compelling government
interest and (4) is the least restrictive means of
achieving that interest. City of Woodinville v.
Northshore United Church of Christ, 166 Wn.2d 633,
642, 211 P.3d 406 (2009); Backlund, 106 Wn.2d at
641. And we have specifically held—in the context of
a church’s challenge to a zoning law—that article I,
section 11 is more protective of religious free exercise
than the First Amendment is. E.g., First Covenant II,
120 Wn.2d at 224 (applying strict scrutiny to zoning
ordinance as a matter of state constitutional law
because “[o]ur state constitutional and common law
history support a broader reading of article [I], section
11, than of the First Amendment”).20

20 The attorney general correctly notes that this court has
never held that a corporate defendant such as Arlene’s Flowers
has a “conscience” or “sentiment” subject to article I, section 11
protections. See Att’y Gen. Resp. Br. at 31 (“Indeed the plain
language of article I, section 11 guarantees its protections to
‘every individual,’ making no mention of protection for
businesses.”); Att’y Gen.’s Ans. to Brs. of Amici Curiae at 19
(“Neither Defendants nor their amici point to any Washington
authority to support the notion that for-profit corporations are
protected by article I, section 11.”). But Stutzman argues only
that she may assert her own free exercise rights on behalf of her
corporation. Br. of Appellants at 32 n.24 (‘protecting the freeexercise rights of [closely held] corporations . . . protects the
religious liberty of the humans who own and control those
companies’” (emphasis added) (quoting Burwell v. Hobby Lobby

121a
The parties dispute the significance of these postSmith holdings to this case. Ingersoll and the
attorney general argue that they are limited to zoning
laws, as applied to churches, and thus make no
difference to the outcome under our longstanding
four-prong test. They maintain that a neutral health
and safety regulation like the WLAD creates no
substantial burden on free exercise—and thus does
not trigger strict scrutiny—when it operates in the
commercial marketplace. Stutzman contends that
under First Covenant II and its progeny, “strict
scrutiny applies even if the regulation ‘indirectly
burdens the exercise of religion.’” Br. of Appellants at
33 (quoting First Covenant II, 120 Wn.2d at 226).
We decline to resolve that dispute here because
we conclude that Stutzman’s free exercise claim fails
even under the test she advances. Even if article I,
section 11 provides Stutzman with the strongest
possible protections, subjecting the WLAD to strict
scrutiny in this case, her state constitutional
challenge must still fail.
B.

The WLAD survives strict scrutiny

In the decades before First Covenant II, this court
upheld numerous health and safety regulations under
strict scrutiny—the test that we then assumed was
required under the First Amendment. E.g., Backlund,
106 Wn.2d at 641 (requirement that physician
Stores, Inc., __ U.S. __, 134 S. Ct. 2751, 2768, 189 L. Ed. 2d 675
(2014))). Thus, we address only Stutzman’s individual claim that
her article I, section 11 rights have been violated. We do not
address whether Arlene’s Flowers (the corporation) has any such
rights.

122a
purchase professional liability insurance did not
violate First Amendment; State had a compelling
interest in licensure requirement and the
requirement was “the least restrictive imposition on
the practice of [the plaintiff’s] belief to satisfy that
interest”); State v. Meacham, 93 Wn.2d 735, 740-41,
612 P.2d 795 (1980) (court-ordered blood test for
putative fathers did not violate First Amendment;
State had a compelling interest in securing child
support and that interest could not “be achieved by
measures less drastic”); State ex rel. Holcomb v.
Armstrong, 39 Wn.2d 860, 861, 863-64, 239 P.2d 545
(1952) (neither First Amendment nor prior version of
article I, section 11 barred mandatory tuberculosis
testing as condition of admission to University of
Washington; “the public interest [served] is the health
of all of the students and employees of the
university[;] . . . [t]he danger to this interest is clear
and present, grave and immediate [and] . . .
[i]nfringement of appellant’s rights is a necessary
consequence of a practical attempt to avoid the
danger”); see also State v. Clifford, 57 Wn. App. 127,
132-34, 787 P.2d 571 (1990) (law mandating that
drivers be licensed does not violate First Amendment;
“[t]here is no less restrictive means available to
satisfy the State’s compelling interest in regulating
the driving of motor vehicles”). Like all of the laws at
issue in those cases, the WLAD’s public
accommodations provision is a neutral health and
safety regulation. Under our long-standing precedent,
such laws satisfy strict scrutiny in an article I, section
11 challenge.

123a
To be sure, none of our previous article I, section
11 cases addressed an antidiscrimination law. But
numerous other courts have heard religious free
exercise challenges to such laws and upheld them
under strict scrutiny. E.g., Swanner v. Anchorage
Equal Rights Comm’n, 874 P.2d 274, 281-83 (Alaska
1994)
(in
rental
housing
context,
state
antidiscrimination law passed strict scrutiny—
meaning that defendants were not entitled to a
religious exemption—because “[t]he government
views acts of discrimination as independent social
evils even if the prospective tenants ultimately find
housing”; moreover, “[v]oluntary commercial activity
does not receive the same status accorded to directly
religious activity”); State v. Sports & Health Club,
Inc., 370 N.W.2d 844, 852-54 (Minn. 1985) (in
employment context, state antidiscrimination law
passed strict scrutiny in religious free exercise
challenge because “[t]he state’s overriding compelling
interest of eliminating discrimination based upon sex,
race, marital status, or religion could be substantially
frustrated if employers, professing as deep and
sincere religious beliefs as those held by appellants,
could discriminate against the protected classes”); N.
Coast Women’s Care Med. Grp., Inc. v. Superior Court,
44 Cal. 4th 1145, 1158-59, 81 Cal. Rptr. 3d 708, 189
P.3d 959 (2008) (assuming that strict scrutiny applied
as a matter of state constitutional law, it would not
invalidate statute barring discrimination on the basis
of sexual orientation as applied to fertility clinic with
religious objections to helping gay patients conceive:
“[t]he Act furthers California’s compelling interest in
ensuring full and equal access to medical treatment
irrespective of sexual orientation, and there are no

124a
less restrictive means for the state to achieve that
goal”); Gay Rights Coal. of Georgetown Univ. Law Ctr.
v. Georgetown Univ., 536 A.2d 1, 31-39 (D.C. Ct. App.
1987) (District of Columbia’s Human Rights Act,
former D.C. CODE § 1-2520 (1981), recodified as D.C.
CODE § 2-1402.41, as applied to prohibit defendant
university from denying equal recognition and
support to gay student groups, survived strict
scrutiny in university’s pre-Smith free exercise
challenge: “[t]o tailor the Human Rights Act to
require less of the University than equal access to its
‘facilities and services,’ without regard to sexual
orientation, would be to defeat its compelling
purpose[:] [t]he District of Columbia’s overriding
interest
in
eradicating
sexual
orientation
discrimination, if it is ever to be converted from
aspiration to reality, requires that Georgetown
equally distribute tangible benefits to the student
groups”); see also Bob Jones Univ., 461 U.S. at 602-04
(federal government’s denial of tax exempt status to
schools that enforced religiously motivated racially
discriminatory policies survived strict scrutiny: “the
Government has a fundamental, overriding interest
in eradicating racial discrimination in education . . .
[and] that . . . interest substantially outweighs
whatever burden denial of tax benefits places on
petitioners’ exercise of their religious beliefs”).
Indeed, we are not aware of any case invalidating an
antidiscrimination law under a free exercise strict
scrutiny analysis.
Nevertheless, Stutzman argues that strict
scrutiny is not satisfied in this case. She reasons that
since other florists were willing to serve Ingersoll, no
real harm will come from her refusal. And she

125a
maintains that the government therefore can’t have
any compelling interest in applying the WLAD to her
shop. In other words, Stutzman contends that there is
no reason to enforce the WLAD when, as she puts it,
“[N]o access problem exists.” Br. of Appellants at 46.
We emphatically reject this argument. We agree
with Ingersoll and Freed that “[t]his case is no more
about access to flowers than civil rights cases in the
1960s were about access to sandwiches.” Br. of Resp’ts
Ingersoll and Freed at 32. As every other court to
address the question has concluded, public
accommodations laws do not simply guarantee access
to goods or services. Instead, they serve a broader
societal purpose: eradicating barriers to the equal
treatment of all citizens in the commercial
marketplace. Were we to carve out a patchwork of
exceptions for ostensibly justified discrimination21
that purpose would be fatally undermined.
In conclusion, we assume without deciding that
strict scrutiny applies to the WLAD in this article I,
section 11 challenge, and we hold that the law
satisfies that standard.

Stutzman argues that discrimination cannot be
“invidious”—and thus subject to governmental prohibition—if it
is based on religious beliefs. Br. of Appellants at 40-43. But she
cites no relevant legal authority for this novel theory. She also
argues that the government has no compelling interest in forcing
her to speak or associate with Ingersoll or any other customer.
But, as explained elsewhere in this opinion, the WLAD does not
implicate Stutzman’s rights of speech or association.
21

126a
V.

As Applied in This Case, the WLAD Does
Not Violate Stutzman’s Right to Free
Association under the First Amendment to
the United States Constitution

Stutzman argues that the WLAD, as applied by
the trial court in her case, violates her First
Amendment right to freedom of association. But to
support that argument, she relies exclusively on cases
addressing membership in private clubs: Boy Scouts
of America v. Dale, 530 U.S. 640, 653, 120 S. Ct. 2446,
147 L. Ed. 2d 554 (2000); Hurley, 515 U.S. at 574; and
Roberts, 468 U.S. at 618.22 These cases expressly
distinguish a business’ customer service (subject to
generally applicable antidiscrimination laws) from
expressive conduct (protected from such laws by the
First Amendment). Dale, 530 U.S. at 648, 656-57 (“To
determine whether a group is protected by the First
Amendment’s expressive associational right, we must
determine whether the group engages in ‘expressive
association’”; antidiscrimination law violated the Boy
Scouts’ First Amendment freedom of association in
part because the Boy Scouts was a membership
organization instead of a “clearly commercial
entit[y].”); Hurley, 515 U.S. at 572, 571 (state
antidiscrimination law at issue traditionally applied
to “the provision of publicly available goods,
privileges, and services” by, “[a]t common law,
innkeepers, smiths, and others who ‘made profession
Stutzman also cites one case addressing speech: United
States v. Playboy Entertainment Group, Inc., 529 U.S. 803, 818,
120 S. Ct. 1878, 146 L. Ed. 2d 865 (2000). Reply Br. of Appellants
at 28. This opinion addresses Stutzman’s free expression claim
elsewhere.
22

127a
of a public employment’”; but it would be “peculiar” to
extend that law beyond the customer service context
so that it applied to the inherently expressive conduct
of marching in a parade).
In fact, the United States Supreme Court has
even held that states may enforce antidiscrimination
laws against certain private organizations, defined by
particular goals and ideologies, if the enforcement
will not impair the group’s ability to pursue those
goals and espouse those ideologies. Roberts, 468 U.S.
at 628 (even though First Amendment protects
private groups, those groups are subject to
antidiscrimination laws to the extent that
enforcement “will [not] change the content or impact
of the organization’s speech”).
But the Supreme Court has never held that a
commercial enterprise, open to the general public, is
an “‘expressive association’” for purposes of First
Amendment protections, Dale, 530 U.S. at 648. We
therefore reject Stutzman’s free association claim.
VI.

As Applied in This Case, the WLAD Does
Not Violate Stutzman’s Constitutional
Protections under the “Hybrid Rights”
Doctrine

Stutzman also argues that the WLAD, as applied
to her in this case, triggers strict scrutiny because it
implicates “hybrid rights.” Br. of Appellants at 40. As
noted above, a law triggers strict scrutiny if it burdens
both religious free exercise and another fundamental
right such as speech or association. First Covenant II,
120 Wn.2d at 217-18 (“[t]he less protective free

128a
exercise standard set forth in Smith . . . does not apply
because the case presents a ‘hybrid situation’: First
Covenant’s claim involves the free exercise clause in
conjunction with free speech” (citing Smith, 494 U.S.
at 904 (O’Connor, J., concurring in judgment))). But
Stutzman’s claim fails for two reasons. First, the only
fundamental right implicated in this case is the right
to religious free exercise. Stutzman’s rights to speech
and association are not burdened. See supra Parts II,
V. Second, even if the WLAD does trigger strict
scrutiny in this case, it satisfies that standard. See
supra Section IV.B.
VII. The Trial Court Did Not Err by Imposing
Personal Liability on Stutzman Instead of
Solely on Her Corporation, Arlene’s Flowers
Inc.
In addition to finding that Stutzman violated the
WLAD, the trial court also found that Stutzman
violated the CPA. This is because the WLAD provides
that an act of public accommodation discrimination is
an “unfair practice” and a per se violation of the CPA.
RCW 49.60.030(3).23 Stutzman concedes that if she
violated the WLAD, then Arlene’s Flowers is liable for
a CPA violation.
The trial court also found that Stutzman’s actions
violated the CPA—because they were an “‘unfair or deceptive act
or practice . . . occurring in trade or commerce, and [impacting
the] public interest’”—even if she did not also violate the WLAD.
CP at 2634-37 (quoting State v. Kaiser, 161 Wn. App. 705, 719,
254 P.3d 850 (2011)). This ruling is questionable, but because we
conclude that Stutzman did violate the WLAD, and because
Stutzman did not assign error to this ruling in her opening brief,
we do not address it.
23

129a
But Stutzman argues that she cannot be
personally liable for violating the CPA because (1) she
kept her affairs separate from Arlene’s Flowers’ and
(2) no Washington court has ever applied the
“responsible-corporate-officer doctrine” outside the
fraud context. Br. of Appellants at 49 (citing Grayson
v. Nordic Constr. Co., 92 Wn.2d 548, 552-53, 599 P.2d
1271 (1979); One Pac. Towers Homeowners’ Ass’n v.
HAL Real Estate Invs., Inc., 108 Wn. App. 330, 34748, 30 P.3d 504 (2001), aff’d in part and rev’d in part,
148 Wn.2d 319, 61 P.3d 1094 (2002)).
The authority Stutzman cites does not support
this argument. In Grayson, this court held that the
defendant could be personally liable for his company’s
CPA violation even though there were no grounds for
piercing the corporate veil. 92 Wn.2d at 553-54. This
directly contradicts Stutzman’s theory that she
cannot be personally liable under the CPA unless she
commingled her finances with Arlene’s Flowers’. And
the other case, One Pac. Towers, 108 Wn. App. 330,
does not address a CPA claim.
On the other hand, there is long-standing
precedent in Washington holding that individuals
may be personally liable for a CPA violation if they
“participate[] in the wrongful conduct, or with
knowledge approve[] of the conduct.” State v. Ralph
Williams’ N.W. Chrysler Plymouth, Inc., 87 Wn.2d
298, 322, 553 P.2d 423 (1976). Liability for such
participation or approval does not depend on piercing
the corporate veil. Id. This is consistent with the
CPA’s plain language, which authorizes the attorney
general to bring an action “against any person to
restrain and prevent the doing of any act herein

130a
prohibited or declared to be unlawful,” RCW
19.86.080(1) (emphasis added), and which defines
“person” to include “where applicable, natural
persons,” as well as corporate entities, RCW
19.86.010(1).
Such individual liability does not constitute an
application of, or expansion of, the responsible
corporate officer doctrine. That doctrine expands
liability from a corporation to an individual officer
who would not otherwise be liable “where the officer
stands ‘in responsible relation to a public danger.’”
Dep’t of Ecology v. Lundgren, 94 Wn. App. 236, 243,
971 P.2d 948 (1999) (quoting United States v.
Dotterweich, 320 U.S. 277, 281, 64 S. Ct. 134, 88 L.
Ed. 48 (1943)). Here, the trial court did not find
Stutzman (the individual) vicariously or secondarily
liable based on conduct of Arlene’s Flowers (the
corporation). It found her liable because of acts that
she herself committed.
CONCLUSION
The State of Washington bars discrimination in
public accommodations on the basis of sexual
orientation. Discrimination based on same-sex
marriage constitutes discrimination on the basis of
sexual orientation. We therefore hold that the conduct
for which Stutzman was cited and fined in this case—
refusing her commercially marketed wedding floral
services to Ingersoll and Freed because theirs would
be a same-sex wedding—constitutes sexual
orientation discrimination under the WLAD. We also
hold that the WLAD may be enforced against
Stutzman because it does not infringe any

131a
constitutional protection. As applied in this case, the
WLAD does not compel speech or association. And
assuming that it substantially burdens Stutzman’s
religious free exercise, the WLAD does not violate her
right to religious free exercise under either the First
Amendment or article I, section 11 because it is a
neutral, generally applicable law that serves our state
government’s compelling interest in eradicating
discrimination in public accommodations. We affirm
the trial court’s rulings.

WE CONCUR:

132a

THE HONORABLE JUDGE ALEX EKSTROM

STATE OF WASHINGTON
BENTON COUNTY SUPERIOR COURT
STATE OF
WASHINGTON,
Plaintiff
v.
ARLENE’S FLOWERS,
INC., d/b/a ARLENE’S
FLOWERS AND GIFTS;
and BARRONELLE
STUTZMAN,

No. 13-2-00871-5
JUDGMENT FOR
PLAINTIFF STATE
OF WASHINGTON
ON PLAINTIFF’S
MOTIONS FOR
PARTIAL SUMMARY
JUDGMENT
(CLERK’S ACTION
REQUIRED)

Defendants. [PROPOSED]

133a
JUDGMENT SUMMARY
Pursuant to RCW 4.64.030, the following
information shall be entered in the Clerk’s Execution
Docket:
1. Judgment
Creditor:

State of
Washington

2. Attorneys for
Judgment
Creditor:

Todd Bowers,
Senior Counsel;
Kimberlee
Gunning, Assistant
Attorney General;
Noah Purcell,
Solicitor General

3. Judgment Debtors:

Arlene’s Flowers
d/b/a Arlene’s
Flowers and Gifts;
Barronelle
Stutzman

4. Attorneys for
Judgment Debtors:

Kristen K.
Waggoner;
Jonathan Scruggs,
pro hac vice; Austin
Nimocks, pro hac
vice; Kellie
Fiedorek, pro hac
vice; Alicia M.
Berry

134a
5. Principal
Judgment Amount
(Penalties):
Attorneys’ Fees
and Costs:
Total Judgment
Amount:

$1,001.00

6. Amount of Interest
Owed to Date on
Judgment:

$0.00

7. Total of Taxable
Costs and
Attorneys Fees:

$1.00

$1,000.00

$1.00

This matter came before the Court on Plaintiff
State of Washington’s presentation of a judgment on
the Court’s orders of January 7, 2015 (Memorandum
Decision and Order Granting Plaintiff State of
Washington’s Motion for Partial Summary Judgment
on Defendants’ Non-Constitutional Defenses) [Dkt.
205], and February 18, 2015 (Memorandum Decision
and Order Denying Defendants’ Motion for Summary
Judgment Based on Plaintiffs’ Lack of Standing,
Granting Plaintiff State of Washington’s Motion for
Partial Summary Judgment on Liability and
Constitutional Defenses) [Dkt. 218]. These orders
granted summary judgment to the Plaintiff State of
Washington on its Consumer Protection Act (CPA)
claim against Defendants and denied Defendants’
motions for summary judgment.

135a
The Court heard the argument of counsel for the
Plaintiff State of Washington, Todd Bowers, and
Kristen K. Waggoner, counsel for Defendants. The
Court considered its aforementioned orders on the
Plaintiff’s motions for summary judgment, the
parties’ memoranda regarding the imposition of
penalties, as well as the pleadings and other papers
filed in this matter. Based on all of this and the
argument of counsel, the Court hereby enters
judgment as follows:
JUDGMENT
1.
Pursuant to RCW 19.86.080(1) and CR 65,
Defendants and their officers, agents, servants,
employees, and attorneys, and those persons in active
concert or participation with them who receive actual
notice of the order by personal service or otherwise,
are permanently enjoined and restrained from
violating RCW 19.86, the Consumer Protection Act,
by discriminating against any person because of their
sexual orientation. The terms of this permanent
injunction include a prohibition against any disparate
treatment in the offering or sale of goods,
merchandise, or services to any person because of
their sexual orientation, including but not limited to
the offering or sale of goods, merchandise, or services
to same-sex couples. All goods, merchandise, and
services offered or sold by Defendants shall be offered
or sold on the same terms to all customers without
regard to sexual orientation. All goods, merchandise
and services offered or sold to opposite sex couples
shall be offered or sold on the same terms to same-sex
couples, including but not limited to ·goods,
merchandise and services for weddings and

136a
commitment
ceremonies.
Defendants
shall
immediately inform all of their officers, agents,
servants, employees, and attorneys, and those
persons in active concert or participation with them
of the terms and conditions of this judgment and
permanent injunction.
2.
Defendants shall pay $1,000.00 to the
Plaintiff State of Washington. Defendants are jointly
and severally liable for this amount, which is imposed
as a civil penalty pursuant to RCW 19.86.140. The
parties agree and the Court orders that Defendants’
payment is due 60 days after any appeal in this cause
becomes final. Payment shall be made via a valid
check paid to the order of the “Attorney General—
State of Washington” and shall be due and owing
upon entry of this judgment and shall be sent to the
Office of the Attorney General, Attention: Cynthia
Lockridge, Administrative Office Manager, 800 Fifth
Avenue, Suite 2000, Seattle, Washington, 981043188.
3.
Plaintiff State of Washington is awarded
costs and reasonable attorneys’ fees of $1.00.
4.
The Court retains continuing jurisdiction of
this action to enforce the terms of the permanent
injunction.
//
//
//
//

137a
DONE IN OPEN COURT this

HONORABLE JUDGE ALEXANDER EKSTROM
Judge of the Superior Court
Presented by:

Approved to Form:
Notice of
Presentation Waived:

ROBERT W. FERGUSON
Attorney General

ALLIANCE
DEFENDING
FREEDOM

s/Todd Bowers
TODD BOWERS,
WSBA #25274
Senior Counsel
KIMBERLEE GUNNING,
WSBA #35366
Assistant Attorney
General
Attorneys for Plaintiff
State of Washington

KRISTEN K.
WAGGONER,
WSBA #27790
Attorney for
Defendants

138a

THE HONORABLE ALEXANDER C. EKSTROM

IN THE SUPERIOR COURT OF WASHINGTON
FOR BENTON COUNTY
ROBERT INGERSOLL AND No. 13-2-00953-3
CURT FREED,
Plaintiffs,

JUDGMENT AND
V.
ORDER OF
PERMANENT
ARLENE’S FLOWERS, INC., INJUNCTION
D/B/A ARLENE’S FLOWERS
AND
GIFTS;
AND
BARRONELLE STUTZMAN,
Defendants.

139a
THIS MATTER comes before the Court on
Plaintiffs’ Motion for Partial Summary Judgment and
other motions for summary judgment as fully
described in this Court’s Memorandum Decision and
Order Granting Plaintiff State of Washington’s
Motion for Partial Summary Judgment on
Defendants’ Non-Constitutional Defenses; Denying
Defendants’ First Motion for Summary Judgment
Against Plaintiff State of Washington, and Denying
in Part and Granting in Part Defendants’ Motion for
Partial Summary Judgment on Plaintiffs’ Claims
Against Barronelle Stutzman in Her Personal
Capacity, entered on January 7, 2015 (Dkt. 205), and
its Memorandum Decision and Order Denying
Defendants’ Motion for Summary Judgment Based on
Plaintiffs’ Lack of Standing, Granting Plaintiff State
of Washington’s Motion for Partial Summary
Judgment on Liability and Constitutional Defenses,
and Granting Plaintiffs Ingersoll and Freed’s Motion
for Partial Summary Judgment, entered on February
18, 2015 (Dkt. 220).
As explained in detail in the Memorandum
Decisions and Orders described above, the Court finds
and concludes that, by refusing to “do the flowers” for
Ingersoll’s and Freed’s wedding, Defendants
Barronelle Stutzman and Arlene’s Flowers, Inc.
violated
the
Washington
Law
Against
Discrimination, RCW 49.60.010, et seq., and the
Washington Consumer Protection Act, RCW
19.86.010, et seq.

140a
Accordingly, IT IS ORDERED, ADJUDGED,
AND DECREED as follows:
1.
Defendants and their officers, agents,
servants, employees, and attorneys, and those
persons in active concert or participation with them
who receive actual notice of the order by personal
service or otherwise, are permanently enjoined and
restrained from violating the Washington Law
Against Discrimination, RCW ch. 49.60, and the
Consumer Protection Act, RCW ch. 19.86, by
discriminating against any person because of their
sexual orientation. The terms of this permanent
injunction include a prohibition against any disparate
treatment in the offering or sale of goods,
merchandise, or services to any person because of
their sexual orientation, including but not limited to
the offering or sale of goods, merchandise, or services
to same-sex couples. All goods, merchandise, and
services offered or sold by Defendants shall be offered
and sold on the same terms to all customers without
regard to sexual orientation. All goods, merchandise,
and services offered and or sold to opposite sex
couples shall be offered and or sold on the same terms
to same-sex couples, including but not limited to
goods, merchandise and services for weddings &
commitment
ceremonies.
Defendants
shall
immediately inform all of their officers, agents,
servants, employees, and attorneys, and those
persons in active concert or participation with them,
of the terms and conditions of this Judgment and
Permanent Injunction.

141a
2.
Plaintiffs Robert Ingersoll and Curt Freed
are entitled to an award of actual damages from
Defendants, jointly and severally, under RCW
49.60.030 and RCW 19.86.090. The Court reserves
determination of the amount of actual damages until
after any appeal of this Judgment and Permanent
Injunction has been exhausted.
3.
Plaintiffs are entitled to an award of costs of
suit, including reasonable attorneys’ fees, pursuant to
RCW 49.030 and RCW 19.86.090. The Court reserves
determination of the amount of costs and fees to be
awarded until after any appeal of this Judgment and
Permanent Injunction has been exhausted.
4.
The Court finds that there is no just reason
for delay, and directs the entry of this Judgment and
Permanent Injunction as a final judgment pursuant
to Civil Rule 54(b).
5.
The Court retains continuing jurisdiction of
this action to enforce the terms of the Permanent
Injunction.

THE HONORABLE ALEXANDER C. EKSTROM
BENTON COUNTY SUPERIOR COURT JUDGE

142a
Presented by:
HILLIS CLARK MARTIN & PETERSON P.S.

By
Michael R. Scott, WSBA #12822
Amit D. Ranade, WSBA #34878
Jack Ewart, WSBA #38655
AMERICAN CIVIL LIBERTIES UNION OF
WASHINGTON FOUNDATION
Margaret Chen, WSBA #46156
AMERICAN CIVIL LIBERTIES UNION FOUNDATION
Elizabeth Gill (Admitted pro hac vice)
ACLU Foundation
LGBT & AIDS Project
Attorneys for Plaintiffs
Robert Ingersoll and Curt Freed

143a

IN THE SUPERIOR COURT OF WASHINGTON IN
AND FOR THE COUNTY OF BENTON
STATE OF
WASHINGTON,
Plaintiff,
vs.
ARLENE’S FLOWERS,
INC., d/b/a ARLENE’S
FLOWERS AND GIFTS,
and BARRONELLE
STUTZMAN,
Defendants.
ROBERT INGERSOLL
and CURT FREED,
Plaintiffs,
vs.
ARLENE’S FLOWERS,
INC., d/b/a ARLENE’S
FLOWERS AND GIFTS,
and BARRONELLE
STUTZMAN,
Defendants.

No. 13-2-00871-5
(Consolidated with
13-2-00953-3)
MEMORANDUM
DECISION AND ORDER
DENYING
DEFENDANTS’
MOTION FOR
SUMMARY JUDGMENT
BASED ON
PLAINTIFFS’ LACK OF
STANDING, GRANTING
PLAINTIFF STATE OF
WASHINGTON’S
MOTION FOR PARTIAL
SUMMARY JUDGMENT
ON LIABILITY AND
CONSTITUTIONAL
DEFENSES, AND
GRANTING
PLAINTIFFS
INGERSOLL AND
FREED’S MOTION FOR
PARTIAL SUMMARY
JUDGMENT

144a
A motion hearing occurred in the above-captioned
matter on December 19, 2014, in Kennewick,
Washington. The Plaintiff, State of Washington, by
and through the Attorney General, was represented
through argument1 by Todd Bowers, Senior Counsel
and Noah Purcell, Solicitor General. The Plaintiffs
Robert Ingersoll and Curt Freed were present, and
were represented through argument by Jake Ewart
and Michael R. Scott, both of Hillis Clark Martin &
Peterson, P.S. The Defendants, Arlene’s Flowers, Inc.,
d/b/a/ Arlene’s Flowers and Gifts, and Barronelle
Stutzman, were present, represented by Alicia Berry,
Liebler, Connor, Berry & St. Hilaire, PS, through
argument of Kellie Fiedorek and Kristen Waggoner,
of Alliance Defending Freedom, appearing pro hac
vice.
Before the court were three motions:
1) Defendants’ Motion For Summary Judgment Based
On Plaintiffs’ Lack Of Standing, 2) Plaintiff State Of
Washington’s Motion For Partial Summary
Judgment On Liability And Constitutional Defenses,
and 3) Plaintiffs Ingersoll And Freed’s Motion For
Partial Summary Judgment. At the motions hearing,
the Court heard argument from all parties and took
the motions under advisement. After further
consideration, the Court now denies and grants these
motions, respectively.

Additional counsel assisted in preparation of the briefing
and declarations for both the Plaintiffs and Defendants.
1

145a
I. INTRODUCTION
A. Defendants’ Motion For Summary
Judgment Based On Plaintiffs’ Lack Of
Standing
In both Benton County Cause Numbers 13-200871-5 and 13-2-00953-3, Defendants moved for
summary judgment, asking this Court to dismiss all
claims brought against them by both the Attorney
General (hereinafter AG) and the Individual
Plaintiffs. Defendants assert that despite the actual
interaction that occurred on March 1, 2013 between
Stutzman and Ingersoll, further discovery has shown
that Ingersoll and Freed only wanted to purchase raw
materials for their ceremony, which Stutzman was an
is willing to provide. As such, they argue that there is
in fact no concrete dispute between the parties,
Ingersoll and Freed are now married, and thus the
claims are moot and there is nothing for this Court to
decide. Further, Defendants argue that what other
individuals may want from Defendants in the future
is speculative. Thus Defendants assert that the
matter should be dismissed on summary judgment.
Both the AG and Individual Plaintiffs respond
that Defendants ignore what did happen, a refusal to
sell arranged flowers to Ingersoll, and the
Defendants’ post hoc understanding of what Ingersoll
may have wanted cannot undo the refusal. Further,
they point out the Defendants’ unwritten policy to
engage in the same practice in the future also
supports a finding that the cases are not moot. For the

146a
reasons set out below, the Court concludes2 that the
material facts of this case are what actually happened
on March 1, 2013, not what might have happened.
Given these facts and the Defendants’ unwritten
policy to engage in the same conduct in the future, the
cases are not moot. The Court therefore denies the
Defendants’ motion.

In reaching this conclusion, the Court reviewed and
considered the Defendants’ Motion For Summary Judgment
Based On Plaintiffs’ Lack of Standing, filed October 6, 2014
(along with the Declaration of Kristen Waggoner and
attachments thereto), Plaintiffs Robert Ingersoll and Kurt
Freed’s Opposition To Defendants’ Motion For Summary
Judgment Based On Plaintiffs’ Lack Of Standing, filed
December 8, 2014 (along with the Declaration of Jake Ewart and
attachments thereto), the State’s Response To Defendants’
Motion For Summary Judgment On Standing, filed December 8,
2014 (along with the Declaration of Todd Bowers and
attachments thereto), as well as Defendants’ Reply Supporting
Their Motion For Summary Judgment On Plaintiffs’ Lack Of
Standing, filed December 15, 2014. As to all pending motions,
the Court has also reviewed and considered Defendants’
Supplemental Summary Judgment Briefing On Four NonConstitutional Affirmative Defenses, filed on February 13, 2015,
Plaintiffs’ Notice Of Supplemental Authority, filed February 12,
2015 (along with the attachment thereto) and Plaintiff Robert
Ingersoll And Curt Freed’s Brief Regarding Procedural Posture
Of Four Remaining Non-Constitutional Affirmative Defenses In
Individual Actions, filed February 13, 2015.
2

147a
B. Plaintiff’s Motion For Partial Summary
Judgment On Liability And Constitutional Defenses (Considered With
Plaintiffs Ingersoll And Freed’s Motion
For Partial Summary Judgment And
Memorandum Of Authorities)
In Benton County Cause Number 13-2-00871-5,
the AG has moved for partial summary judgment,
arguing that Defendants have admitted acts that
constitute a violation of the Washington Law Against
Discrimination (hereinafter WLAD) in trade or
commerce, and thus constitute a per se violation of the
Consumer Protection Act (hereinafter CPA) as a
matter of law. Further, the AG argues that the
Defendants’ four remaining constitutional affirmative
defenses in their Answer3 fail as a matter of law, and
must therefore be dismissed. Those affirmative
defenses are as follows: 1) this action, as applied to
the Defendants’ conduct, is preempted by the First
Amendment to the United States Constitution; 2) this
action, as applied to the Defendants’ conduct, violates
Article 1, Section 11 of the Washington State
Constitution (and as to the Individual Plaintiff’s
Action it violates Article 1, Section 5); 3) the AG’s
decision to bring this action constitutes selective
The AG’s Complaint in Benton County Cause Number 132-00871-5 was filed on April 9, 2013. The Defendants’ Answer,
containing the affirmative defenses reference above, was filed on
May 16, 2013. A Complaint by the Individual Plaintiffs, Robert
Ingersoll and Curt Freed, in Benton County Cause Number 132-00953-3 was filed on April 18, 2013, to which the Defendants’
answered on May 20, 2013. These matters were previously
consolidated for consideration of these motions.
3

148a
enforcement in violation of the Fourteenth
Amendment to the United States Constitution; and 4)
justification. Specifically, the AG alleges that
Stutzman’s conceded statement to Ingersoll that she
couldn’t do the flowers for his wedding on March 1,
2013 on the premises of Arlene’s Flowers constitutes
an admission to committing a violation of the WLAD
in trade or commerce, and as such is a per se violation
of the CPA as a matter of law. Further, the AG argues
that the courts have routinely rejected Defendants’
affirmative defenses for the following reasons: one
cannot escape a claim of discrimination by seeking to
distinguish between status and conduct of the
protected party; entry into the state-licensed
commercial arena imposes limits on religiously
motivated conduct (as opposed to belief); and defining
one’s commercial activity as expressive does not
change the propriety of that regulation.
The Individual Plaintiffs, in Benton County
Cause Number 13-2-00953-3, have also moved for
partial summary judgment, also arguing that
Defendants have admitted acts that constitute a
violation of the WLAD in trade or commerce, and thus
constitute a per se violation of the CPA as a matter of
law, with the exception of the issue of damages.4
Further, the Individual Plaintiffs join in the AG’s
arguments with respect to the aforementioned
constitutional affirmative defenses.
As indicated below and in this Court’s prior Order, unlike
the AG, the Individual Plaintiffs must satisfy additional
elements of damage (injury) and causation to sustain their CPA
claim. Panag v. Farmers Ins. Co. of Wash., 166 Wn.2d 27, 37, 204
P.3d 885 (2009) (further citation omitted).
4

149a
The Defendants respond and allege material
factual disputes about what Stutzman did on March
1, 2013, and the motivation behind her actions. The
Defendants argue Stutzman simply declined to
participate in a gay wedding, and that compelling her
participation in this event violates her rights of free
speech and free exercise of religion under both the
First Amendment to the United States Constitution
as well as Article 1, Section 11 and Section 5 of the
Washington State Constitution. For the reasons set
out below, the Court concludes that to accept any [of]
the Defendants’ arguments would be to disregard
well-settled law and therefore grants the AG’s and
Individual Plaintiffs’ motion.5

5 In reaching this conclusion, the Court reviewed and
considered the Plaintiff State of Washington’s Motion For
Partial Summary Judgment On Liability And Constitutional
Defenses, filed November 21, 2014 (along with the Declaration
of Kimberlee Gunning and attachments thereto), Plaintiffs
Ingersoll And Freed’s Motion For Partial Summary Judgment
And Memorandum Of Authorities, filed November 21, 2014
(along with the Declaration of Jake Ewart and attachments
thereto), the Defendants’ Response To Plaintiffs’ Two Motions
For Partial Summary Judgment On Liability, filed December 8,
2014 (along with the Declarations of Kristen K. Waggoner,
Nickole Perry, Barronelle Stutzman, David Mulkey, Dr. Mark
David Hall, Professor Dennis Burk and Jennifer Robbins and
any attachments thereto), as well as Plaintiff State of
Washington’s Reply (along with the Declaration of Michael R.
Scott and attachments thereto) and the Reply In Support of
Plaintiffs Ingersoll and Freed’s Motion (along with the
Declaration of Todd Bowers and attachments thereto), both filed
December 15, 2014. As to all pending motions, the Court has also
reviewed and considered Defendants’ Supplemental Summary
Judgment Briefing On Four Non-Constitutional Affirmative
Defenses, filed on February 13, 2015, Plaintiffs’ Notice Of

150a
II. FACTUAL BACKGROUND6
Defendant Barronelle Stutzman is the president,
owner and operator of Defendant Arlene’s Flowers,
Inc. d/b/a Arlene’s Flowers and Gifts. This closelyheld Washington for-profit corporation has Stutzman
and her husband as the sole corporate officers. From
its retail store in Richland, Washington, it advertises
and sells flowers and other goods to the public. The
corporation sells flowers for events including, among
others, weddings. For the five-year period before
March of 2013, weddings constituted approximately
three percent of the corporation’s business. The
corporation, originally incorporated in 1989, was
previously owned and operated by Stutzman’s
mother, from whom she purchased the corporation
almost 13 years ago. The corporation was and is
licensed to do business in the State of Washington.
Stutzman has a firmly held religious belief, based
on her adherence to the principals of her Christian
faith, that marriage can only be between a man and a
woman. Specifically, as part of the Southern Baptist
tradition, Stutzman asserts that she is compelled to
follow Resolutions of the Southern Baptist
Supplemental Authority, filed February 12, 2015 (along with the
attachment thereto), and Plaintiff Robert Ingersoll And Curt
Freed’s Brief Regarding Procedural Posture Of Four Remaining
Non- Constitutional Affirmative Defenses In Individual Actions,
filed February 13, 2015.
In a stipulation between the parties on October 18, 2013,
the parties agreed, pursuant to the order consolidating the cases
for pre-trial purposes, that the record of the AG’s case should be
made part of the Individual Defendant’s case.
6

151a
Convention Resolutions [sic] (hereinafter Resolutions
of SBC). Those resolutions include both a definition of
marriage that excludes same-sex marriage, and an
explicit rejection of same-sex marriage as a civil
right.7 As a result, Stutzman asserts that she cannot
participate in a same-sex wedding.
Stutzman draws a distinction between the
provision of raw materials for such an event (or even
flower arrangements that she receives pre-made from
wholesalers)
and
the
provision
of
flower
arrangements that she has herself arranged for the
same event. Said more precisely, Stutzman does not
believe that she can, consistent with tenets of her
faith (as expressed in the Resolutions of the SBC), use
her professional skill to make an arrangement of
flowers and other materials for use at a same-sex
wedding. That which she believes she cannot do
directly she also believes she cannot allow to occur on
the premises of her company with her knowledge.
Therefore she believes she cannot allow others in her
employ to prepare such arrangements in her
company’s name. Stutzman believes that such
participation would constitute a demonstration of
approval for the wedding itself.

The relevant Resolution of the SBC, “On ‘Same-Sex
Marriage’ And Civil Rights Rhetoric” New Orleans – 2012,
resolves that Southern Baptists express “love of those who
struggle with same-sex attraction” and condemns “any form of
gay-bashing, disrespectful attitudes, hateful rhetoric, or hateincited actions” toward gay men or women.
7

152a
Plaintiff Robert Ingersoll is a gay man who was
an established customer of Arlene’s Flowers. During
the approximately nine years leading up to the
present action, Stutzman, on behalf of Arlene’s
Flowers, regularly designed and created flower
arrangements for Ingersoll. Ingersoll estimated that,
with respect to the purchase of flowers only,
Stutzman had served him approximately 20 times or
more and that he had spent in the range of $4,500 at
Arlene’s Flowers. Stutzman prepared these
arrangements knowing both that Ingersoll was gay
and that the arrangements were for Ingersoll’s samesex partner, Curt Freed for occasions such as
birthdays, anniversaries and Valentine’s Day.
On November 6, 2012, the voters confirmed,
through Referendum 74, the Legislature’s earlier
enactment of same-sex marriage. See Revised Code of
Washington (hereinafter RCW) 26.04.010(1) (as
amended by Laws of Washington 2012, Ch. 3, § 1(1));
see also, Referendum Measure 74, approved Nov. 6,
2012. Shortly thereafter, Ingersoll and Freed were
engaged to be married. Ingersoll and Freed had
selected a date in September of 2013 for the wedding
and anticipated inviting approximately 100 people to
the ceremony and reception to be held at an
established wedding venue. Ingersoll and Freed
anticipated a wedding with all of the customary
trappings thereof: invitations, guestbook, a
photographer, a licensed or ordained officiant, a
catered dinner at the reception, and a cake. Ingersoll
and Freed planned to buy flowers for the wedding,
including boutonnieres, from Stutzman and Arlene’s
Flowers.

153a
On February 28, 2013, Ingersoll drove to Arlene’s
Flowers to inquire about having Stutzman do the
flowers for his and Freed’s wedding. Stutzman was
not present. An employee who spoke with Ingersoll
communicated the request to Stutzman, and stated he
would return the next day. That employee advised
Stutzman that Ingersoll “would be in to talk about
wedding flowers.”
After speaking with her husband, Stutzman
decided that she could not create arrangements for
Ingersoll and Freed’s wedding without violating her
beliefs. On March 1, 2013, Ingersoll left from his place
of employment during his lunch hour and drove to
Arlene’s Flowers, where Stutzman informed Ingersoll
that because of her beliefs, she could not do the
flowers for his wedding. In deposition testimony
Stutzman described the encounter as follows:
Q:

Tell me what you remember about your
conversation with [Ingersoll].

A:

He came in and we were just
chitchatting and he said that he was
going
to
get
married.
Wanted
something really simple, khaki I believe
he said. And I just put my hands on his
and told him because of my relationship
with Jesus Christ I couldn’t do that,
couldn’t do his wedding.

Q:

Did you tell him that before he finished
telling you what he wanted?

A:

He said it was going to be very simple.

154a
Q:

Did he tell you what types of flowers he
would want?

A:

We didn’t get into that.

There was no discussion between the parties
about any particulars regarding whether Defendants
were being asked to deliver flowers to the wedding (as
opposed to picking them up from the store) or whether
Stutzman was being asked to attend the wedding.
Stutzman’s position was that she “chose not to be a
part of his event,” because she believed that Ingersoll
“wanted me to do his wedding flowers which would
have been part of the event.” Stutzman did state in
her deposition testimony that had Ingersoll
communicated to her that he wanted to purchase raw
materials (variously described as “stems” and
“branches” throughout the depositions and
declarations), she would have provided those items.
Ingersoll’s recollection of the interaction is not
materially different. In deposition testimony, when
asked what he had contemplated having Stutzman
provide for his wedding, he indicated:
A:

Just some sticks or twigs in a vase and
then we were going to do candles. We
wanted to be very simple and
understated.

Q:

Did you tell Barronelle that you wanted to do
sticks or twigs?

155a
A:

Barronelle
never
gave
me
the
opportunity to discuss the flower
arrangements.

Ingersoll left Arlene’s Flowers shortly thereafter,
upset because he had thought Stutzman would “do my
flowers.” This interaction effectively severed the
relationship between the parties and ultimately gave
rise to the present actions. Ingersoll and Freed were
married during the pendency of this action in a much
smaller ceremony in their home, with 11 attendees,
friends taking pictures, and a flower arrangement
from another florist. The Ingersoll and Freed alleged
$7.91 in out-of-pocket expenses (mileage at the U.S.
Internal Revenue Service rate) relating to finding an
alternative source of flowers for their wedding.
Prior to March 1, 2013, and presumably
continuing up to this day, Arlene’s Flowers has had a
written nondiscrimination policy that prohibits
discrimination or harassment “based on race, color,
religion, creed, sex, national origin, age, disability,
marital status, veteran status or any other status
protected by applicable law.” Stutzman was aware of
the voter’s passage of Referendum Measure 74 in the
fall of 2012, approving same sex marriage as the law
in Washington. That said, following the events of
March 1, 2013, Stutzman instituted an unwritten
policy at Arlene’s Flowers that “we don’t take same
sex marriages.”
Efforts toward a negotiated resolution between
the AG and Defendants proved fruitless in March and
April of 2013. The AG sought to have Defendants sign
an Assurance of Discontinuance (hereinafter AOD),

156a
stipulating that the conduct at issue here occurred
and would not be repeated. While the AOD indicated
it did not constitute an admission of a violation, it did
not limit the rights or remedies of other persons, i.e.,
the Individual Plaintiffs, against Defendants.
Defendants refused to sign the AOD, taking a position
consistent with their past and present arguments in
this action.
The AG then commenced its action in Benton
County Cause Number 13-2-00871-5 by the filing of a
Complaint on April 9, 2013. Therein, the AG alleged
a violation of the CPA, both under the Act itself, and
pursuant to the WLAD, a violation of which is a per
se violation of the CPA. Defendants’ Answer,
containing the affirmative defenses that are the
subject of one of these pending motions, was filed on
May 16, 2013.
A Complaint by the Individual Plaintiffs, Robert
Ingersoll and Curt Freed, in Benton County Cause
Number 13-2-00953-3 was filed nine days later, on
April 18, 2013. The Individual Plaintiffs alleged three
causes of action, two of which survived a prior motion
for summary judgment: 1) Violation of the WLAD;
and 2) Violation of the CPA. Defendants answered on
May 20, 2013, also asserting affirmative defenses at
issue here. The cases were consolidated for
consideration of these motions by the previously
assigned judicial officer.

157a
III. LEGAL BACKGROUND
A. The Consumer Protection Act (CPA)
The CPA provides:
[u]nfair methods of competition and unfair or
deceptive acts or practices in the conduct of
any trade or commerce are hereby declared
unlawful.
RCW 19.86.020. The CPA, “on its face, shows a
carefully drafted attempt to bring within its reaches
every person who conducts unfair or deceptive acts or
practices in any trade or commerce.” Short v.
Demopolis, 103 Wn.2d 52, 61, 691 P.2d 163 (1984)
(italics in original).
In enacting the CPA, the Legislature sought “to
protect the public and foster fair and honest
competition.” RCW 19.86.920. Consistent with its
purpose, the Legislature has directed that the CPA
“shall be liberally construed that its beneficial
purposes may be served.” Id. This statement from the
Legislature “is a command that the coverage of [the
CPA’s] provision in fact be liberally construed and
that its exceptions be narrowly confined.” Vogt v.
Seattle-First National Bank, 117 Wn.2d 541, 552, 817
P.2d 1364 (1991). The statute’s purpose statement
concludes as follows:
[i]t is, however, the intent of the legislature
that this act shall not be construed to prohibit
acts or practices which are reasonable in
relation to the development and preservation

158a
of business or which are not injurious to the
public interest, nor be construed to authorize
those acts or practices which unreasonably
restrain trade or are unreasonable per se.
RCW 19.86.920 (italics added).
Actions for alleged violations of the CPA may be
commenced by an individual or individuals. RCW
19.86.093. Individual plaintiffs must establish the
following elements to prove their case: “(1) an unfair
or deceptive act or practice, (2) occurring in trade or
commerce, (3) affecting the public interest, (4) injury
to business or property, and (5) causation.” Panag v.
Farmers Ins. Co. of Wash., 166 Wn.2d 27, 37, 204 P.3d
885 (2009) (further citation omitted). While undefined
in the CPA, “[w]hether a particular act or practice is
‘unfair or deceptive’ is a question of law,” to be
determined by the Court. Panag v. Farmers Ins. Co.
of Wash., 166 Wn.2d at 47; see also State v. Schwab,
103 Wn.2d 542, 546, 693 P.2d 108 (1985). That said,
certain acts or practices have been declared by the
Legislature to be per se violations of the CPA, and
“private litigants are empowered to utilize the
remedies provided them by the act.” Schwab, 103
Wn.2d at 546-7.
Actions alleging violations of the CPA may also be
brought by the AG. RCW 19.86.080(1). The scope of
the AG’s authority to act under the statute is broad:
[t]he attorney general may bring an action in
the name of the state, or as parens patriae on
behalf of persons residing in the state,
against any person to restrain and prevent

159a
the doing of any act herein prohibited or
declared to be unlawful…
Id. (italics added). Unlike an individual plaintiff, the
AG must establish only three elements: “(1) an unfair
or deceptive act or practice, (2) occurring in trade or
commerce, and (3) public interest impact.” See RCW
19.86.080(1); see also State v. Kaiser, 161 Wn.App.
705, 719, 254 P.3d 850 (2011). In bringing actions
under the CPA, the AG’s role is different than that of
the private litigants:
[t]he Attorney General’s responsibility in
bringing cases of this kind is to protect the
public from the kinds of business practices
which are prohibited by the statute; it is not
to seek redress for private individuals.
Where relief is provided for private
individuals by way of restitution, it is only
incidental to and in aid of the relief asked on
behalf of the public.
Seaboard Surety Co. v. Ralph Williams’ NW Chrysler
Plymouth (hereinafter Ralph Williams’ (I)), 81 Wn.2d
740, 746, 504 P.2d 1139 (1973). The Legislature’s
declaration of per se violations of the CPA
“authorize[s]” the AG to bring actions under the CPA
for these acts or practices the Legislature declares as
per se unfair or deceptive. Schwab, 103 Wn.2d at 5467.

160a
B. The
Washington
Law
Discrimination (WLAD)

Against

The WLAD provides:
(1) [t]he right to be free from discrimination
because of race, creed, color, national
origin, sex, honorably discharged veteran
or military status, sexual orientation…is
recognized as and declared to be a civil
right. This right shall include, but not be
limited to:
…
(b)

The right to the full enjoyment of
any of the accommodations,
advantages, facilities, or privileges
of any place of public resort,
accommodation, assemblage, or
amusement…

RCW 49.60.030(1)(b) (italics added). The purpose
statement for the law states:
[the WLAD] is an exercise of the police power
of the state for the protection of the public
welfare, health, and peace of the people of
this state, in the fulfillment of the provisions
of the Constitution of this state concerning
civil rights. The legislature hereby finds and
declares that practices of discrimination
against any of its inhabitants because of
race, creed, color, national origin, families
with children, sex, marital status, sexual

161a
orientation…are a matter of state concern,
that such discrimination threatens not only
the rights and proper privileges of its
inhabitants but menaces the institutions and
foundations of a free democratic state….
RCW 49.60.010. As with the CPA, the Legislature has
directed this Court that “[t]he provisions of this
chapter shall be construed liberally for the
accomplishment of the purposes thereof.” RCW
49.60.020. The statute specifically prohibits
discrimination as follows:
(1) [i]t shall be an unfair practice for any
person or the person’s agent or employee to
commit an act which directly or indirectly
results in any distinction, restriction, or
discrimination…or
the
refusing
or
withholding from any person the
admission, patronage, custom, presence,
frequenting, staying, or lodging in any
place of public resort, accommodation,
assemblage, or amusement, except for
conditions and limitations established by
law and applicable to all persons,
regardless of race, creed, color, national
origin, sexual orientation…
RCW 49.60.215(1) (italics added).

162a
C. Violation Of The Washington Law
Against Discrimination (WLAD) As A Per
Se Violation of the Consumer Protection
Act (CPA)
The WLAD explicitly provides that a violation of
the WLAD is a per se violation of the CPA:
…any unfair practice prohibited by this
chapter which is committed in the course of
trade or commerce as defined in the
Consumer Protection Act, chapter 19.86
RCW, is, for the purpose of applying that
chapter, a matter affecting the public
interest, is not reasonable in relation to the
development and preservation of business,
and is an unfair or deceptive act in trade or
commerce.
RCW 49.60.030(3). Therefore, in addition to an
individual’s WLAD right of action, both the AG and
private individuals are authorized by the
Legislature’s designation of a WLAD violation as per
se violations of the CPA to file a CPA action. Schwab,
103 Wn.2d at 546-7 (listing “discriminatory practices”
under the WLAD (RCW 49.60.030(3)) as example of
violations of other statutes that constitute per se
violations of the CPA).

163a
D. United State Constitution, Amendment I
The Free Exercise Clause provides as follows:
Congress shall make no law respecting an
establishment of religion, or prohibiting the
free exercise thereof…
U.S. Const., amend. I. Free exercise is not, however,
without its limits. Religious motivation does not
excuse compliance with the law because:
[l]laws are made for the government of
actions, and while they cannot interfere with
mere religious beliefs and opinions, they may
with practices….Can a man excuse his
practices to the contrary because of his
religious belief? To permit this would be to
make the professed doctrines of religious
belief superior to the law of the land, and in
effect to permit every citizen to become a law
unto himself. Government could exist only in
name under such circumstances.
Reynolds v. United States, 98 U.S. 145, 166-167, 25 L.
Ed. 244 (1878) (prosecution under Utah Territory
bigamy law). Free exercise does not relieve an
individual from the obligation to comply with a valid
and neutral law of general applicability that forbids
conduct that a religion requires. Employment
Division, Department of Human Resources Of Oregon
v. Smith, 494 U.S. 872, 879, 110 S. Ct. 1595, 108 L.
Ed. 2d 876 (1990) (religious use of Peyote does not
entitle individual to exemption from state
unemployment laws which prohibit granting benefits

164a
to individual who is fired for drug use). Consistent
with the rationale of Reynolds, requiring any form of
justification for such a law greater than rationale
basis inquiry, when a law is challenged under free
exercise, “contradicts both constitutional tradition
and common sense.” Smith, 494 U.S. at 884-85.8 This
is the case because:
[t]he government’s ability to enforce
generally applicable prohibitions of socially
harmful conduct, like its ability to carry out
other aspects of public policy, “cannot depend
on measuring the effects of a governmental
action on a religious objector’s spiritual
development.”
Id. at 885 (further citation omitted).
In particular, with respect to participation in
commerce, the Supreme Court has stated:
[w]hen followers of a particular sect enter
into commercial activity as a matter of
choice, the limits they accept on their own
conduct as a matter of conscience and faith
are not to be superimposed on the statutory
schemes which are binding on others in that
activity. Granting an exemption…operates
to impose [the follower’s] religious faith on
Justice Scalia, writing for the majority, relied on Reynolds
to hold the “compelling governmental interest” balancing test in
Sherbert v. Verner, 384 U.S. 398 (1963) is inapplicable to a free
exercise challenge to an across-the-board criminal prohibition of
a particular form of conduct.
8

165a
the [person sought to be protected by the
law].
United States v. Lee, 455 U.S. 252, 261, 102 S. Ct.
1051, 71 L. Ed. 2d 127 (1982) (Amish employer must
collect social security tax for those in their employ).
E. Washington State Constitution, Article I,
Section 11
Article I, Section 11 of the Washington State
Constitution provides as follows:
[a]bsolute freedom of conscience in all
matters of religious sentiment, belief and
worship, shall be guaranteed to every
individual, and no one shall be molested or
disturbed in person or property on account
of religion; but the liberty of conscience
hereby secured shall not be so construed to
excuse acts of licentiousness or justify
practices inconsistent with the peace and
safety of the state.
Wash. Const. Article 1, Section 11. Article I, Section
11 provides “broader protection than the first
amendment to the federal constitution.” City of
Woodinville v. Northshore United Church of Christ,
166 Wn.2d 633, 642, 211 P.3d 406 (2009). A party
challenging government action under Article I,
Section 11 must show both a sincere belief and a
substantial burden upon free exercise as a result of
the government action. City of Woodinville, 166
Wn.2d at 642-43. Where a substantial burden exists,
the government must show that its action is “a narrow

166a
means for achieving a compelling goal.” Id. All
burdens are evaluated “in the context in which [they]
arise. Id. at 644. As the Court has indicated by way of
analogy, while healing the sick may be connected to
worship, “a church must still comply with reasonable
permitting process if it wants to operate a hospital or
clinic.” Id. This limitation is consistent with the final
clause of Article I, Section 11, providing that “the
liberty of conscience hereby secured shall not be so
construed to excuse acts of licentiousness or justify
practices inconsistent with the peace and safety of the
state.” In this regard, “the key question is not whether
a religious practice is inhibited, but whether a
religious tenet can still be observed.” State v.
Motherwell, 114 Wn.2d 353, 362-63, 788 P.2d 1066
(1990) (non-clergy counselors required to report
suspected child abuse).
The Legislature’s invocation of its police power to
prohibit conduct on grounds that a law is necessary to
protect Washington citizens from harm and to
promote public health and welfare has withstood
prior challenges based on Article I, section 11. State
v. Balzer, 91 Wn.App. 44, 60-61, 91 P.2d 931 (1998)
(Rainbow Tribe and Rastafarian beliefs with respect
to Marijuana did not prevent state from placing
Marijuana in Schedule I). When the legislature acts
under its police power and constrains individual
freedom, the Court should not substitute “[its]
judgment for that of the [L]egislature with respect to
the necessity of these constraints.” Balzer, 91
Wn.App. at 60-61 (citing State v. Smith, 93 Wn.2d
329, 338, 610 P.2d 869 (1980)).

167a
Article I, Section 11 is also not a bar to regulation
of commerce, such as where a physician objects on
religious grounds to being required to purchase
professional liability insurance as a condition of being
granted privileges at a hospital. Backlund v. Board Of
Commissioners Of King County Hospital District 2,
106 Wn.2d 632, 724 P.2d 981 (1986). As the Court
observed in the context of the hospital’s administrative action:
Dr. Backlund freely chose to enter the
profession of medicine. Those who enter into
a profession as a matter of choice, necessarily
face regulation as to their own conduct and
their
voluntarily
imposed
personal
limitations cannot override the regulatory
schemes which bind others in that activity.
Backlund, 106 Wn.2d at 648.
IV.

ANALYSIS

A. Defendants’ Motion For Summary
Judgment Based On Plaintiffs’ Lack Of
Standing
In both Benton County Cause Numbers 13-200871-5 and 13-2-00953-3 Defendants have moved for
summary judgment, asking this Court to dismiss all
claims brought against them by both the AG and the
Individual Plaintiffs as moot. Defendants argue that
the actual interaction that occurred on March 1, 2013
between Stutzman and Ingersoll was the result of a
misunderstanding. The misunderstanding resulted
from the fact that Ingersoll asked to speak with

168a
Stutzman personally and from the fact that Stutzman
normally designed and created custom flower
arrangements for Ingersoll. As a result, Stutzman
reasonably assumed that was what Ingersoll wanted
on this occasion. Had Stutzman known that Ingersoll
would have been satisfied with the provision of raw
materials for this wedding, she would have provided
them. But for the fact that Ingersoll and Freed are
now married, Defendants assert she would provide
them today. The only way the controversy could
reoccur, Defendants argue, would be if Ingersoll and
Freed were to divorce and remarry. Thus, an
injunction would serve no purpose. While the
Defendants acknowledge that injunctions are
appropriate for matters of continuing and substantial
public interest, they argue that what other
individuals may want from Defendants in the future
is purely speculative. Thus Defendants assert that
there is no live controversy. They argue that the
matter is moot, none of the Plaintiffs have standing,
and the matter should be dismissed on summary
judgment.
Either party may move for summary judgment.
Superior Court Civil Rule (hereinafter CR) 56(a-c).
Where there is a factual dispute that is material to
the resolution of the motion, the Court considers “all
facts submitted and all reasonable inferences from
the facts in the light most favorable to the nonmoving
party.” Ward v. Coldwell Banker/San Juan
Properties, Inc., 74 Wn.App.157, 161, 872 P.2d 69
(1994). Where there are no disputed facts, or the
factual dispute is not material and only issues of law
remain to be determined, summary judgment is
appropriate. See State Farm Ins. Co. v. Emerson, 102

169a
Wn.2d 477, 480, 687 P.2d 1139 (1984); see also
Clements v. Travelers Indemnity Co., 121 Wn.2d 243,
249, 850 P.2d 1298 (1993) (“A material fact is one
upon which the outcome of the litigation depends.”).
To the extent that there are disputes between the
parties, they are disputes as to which facts are to be
applied to decide the issue. The matter is appropriate
for summary judgment.
1.

Lack Of Standing On The Part of
Both Plaintiffs

The Defendants posit the case as one based on a
mistake of fact, or as they term it a
“misunderstanding.” As indicated above, they argue
that had Stutzman known that Ingersoll would have
been satisfied with something other than what she
customarily provided, that is to say arranged flowers,
she would not have immediately told him that she
couldn’t “do his wedding.” Defendants thus argue that
Plaintiffs are asking the Court to decide the case
based on what they term a “hypothetical
‘expectancy.’”
On March 1, 2013, Stutzman, who had provided
the service of flower arranging to Ingersoll in the past,
refused, albeit politely, to provide that service. She
did so because she believed Ingersoll wanted her to
create flower arrangements for his wedding. The
Defendants assert in their reply brief regarding the
motions that follow that Stutzman “could hardly
think otherwise” based on their lengthy prior
personal and commercial relationship. As a result,
Stutzman refused before Ingersoll could explain
precisely what he wanted.

170a
The hypothetical facts are those things that might
have, could have, or would have had happened, but
didn’t. The actual facts are the things that did
happen. While the Court is required for the purposes
of the motion to view “all facts submitted and all
reasonable inferences from the facts in the light most
favorable to the nonmoving party,” here the facts are
reasonably susceptible to only one construction, an
actual refusal to provide services on the part of
Stutzman. Ward, 74 Wn.App. at 161.
“One who is not adversely affected by a statute
may not question its validity.” Haberman v.
Washington Public Power Supply System, 109 Wn.2d
107, 138, 744 P.2d 1032 (1987), as amended by, 750
P.2d 254 (1988). The basic rule of standing “prohibits
a litigant…from asserting the legal rights of others,”
and requires that a party have a “real interest
therein.” Dean v. Lehman, 143 Wn.2d 12, 18-19, 18
P.3d 523 (2001) (internal citations and quotation
marks omitted).
In support of its position that it has standing in
its own right, the AG points to RCW 19.86.080(1),
which authorizes the AG under the CPA to:
bring an action in the name of the state, or as
parens patriae on behalf of persons residing
in the state, against any person to restrain
and prevent the doing of any act herein
prohibited or declared to be unlawful…”
RCW 19.86.080(1). Further, in support of the position
that it has a real interest, separate and apart from the

171a
Individual action under the CPA, there is Ralph
Williams’ (I), which provides:
[t]he Attorney General’s responsibility in
bringing cases of this kind is to protect the
public from the kinds of business practices
which are prohibited by the statute; it is not
to seek redress for private individuals.
Where relief is provided for private
individuals by way of restitution, it is only
incidental to and in aid of the relief asked on
behalf of the public.
Ralph Williams’ (I), 81 Wn.2d at 746. The AG is
correct. It has a real interest and meets the basic test
for standing. Any lingering doubt as to whether the
requirement of standing is subsumed within the
elements of the CPA action itself, as to both the AG
and Individual action, is removed by Panag, where
the Court, discussing the five-part test for individual
actions, states as follows:
[w]e will not adopt a sixth element, requiring
proof of a consumer transaction between the
parties, under the guise of a separate
standing inquiry.
Panag, 166 Wn.2d at 33. Individual CPA actions
establish standing through public interest impact and
injury: the AG proves it through public interest alone.
Id. at 38; see also RCW 19.86.080(1); and see State v.
Kaiser, 161 Wn.App. at 719.
Here, the WLAD, a violation of which is alleged in
the CPA action, carries with it its own “specific

172a
legislative declaration of public interest impact.”
Hangman Ridge Training Stables, Inc. v. Safeco Title
Insurance Company, 105 Wn.2d 778, 791, 719 P.2d
531 (1986). Further, public interest may be satisfied
by actions having a potential to injure others in the
course of a defendant’s business. Hangman Ridge,
105 Wn.2d at 790-91. Plaintiffs point out that
Defendants have an unwritten policy that they will
refuse to provide arranged flowers to the next samesex couple that requests this service of them. Also, as
indicated above, the Individual Plaintiffs have alleged
damages in mileage traveled to secure flowers from
another vendor. Both the AG and Individual Plaintiffs
have established standing in the first instance in
their respective CPA actions.
The Individual Plaintiffs, addressing standing in
their WLAD and CPA actions, make two points. First,
they point out that under the CPA, nominal economic
damages are sufficient to support standing. Smith v.
Stockdale, 166 Wn.App. 557, 565, 271 P.3d 917 (2012)
($5 claim of economic damages sufficient to support
claim of injury in CPA claim). Second, as to the WLAD
action, the Individual Plaintiffs note that courts have
“long recognized damage is inherent9 in a
discriminatory act.” Negron v. Snoqualmie Valley
Hospital, 86 Wn.App. 579, 587, 936 P.2d 55 (1997).
For a WLAD claim, nominal damages are established
“merely by showing a deprivation of a civil right.”
Minger v. Reinhard Distribution Company, Inc., 87
That said, the Individual Plaintiffs affirm that, outside of
the standing context, they are not asserting or seeking actual
damages with respect to non-economic harms.
9

173a
Wn.App.941, 947, 943 P.2d 400 (1997) (quotation
omitted).
Defendants have misapprehended what actually
happened on March 1, 2013. On that day, Stutzman
refused to provide to Ingersoll a service she provided
to others. While it is certainly true that a case is moot
if a court “cannot provide the basic relief originally
sought…or can no longer provide effective relief,” that
is not the case here. Darkenwald v. Employment
Security Department, 182 Wn.App. 157, 165, 328 P.3d
977 (2014) (internal citation omitted). Should all of
the elements of Plaintiff’s claims be proven, based on
this refusal to provide services, the Court may order
relief, including injunctive relief.10
As to the Defendants’ contention that the case is
moot because Ingersoll and Freed are now married,
both Plaintiffs counter that case law holds otherwise.
The idea that an individual plaintiff can only enjoin
future actions as to themselves is contrary to the
purpose of the CPA, which is preventing the practice
in the future. Hockley v. Hargitt, 82 Wn.2d 337, 350,
510 P.2d 1123 (1973) (“This broad public policy [the
purpose of the CPA] is best served by permitting an
injured individual to enjoin future violations of RCW
19.86, even if such violations would not directly affect
the individual’s own private rights.” (emphasis
added).
Defendants argue that these actions are not justiciable
under the Uniform Declaratory Judgment Act (hereinafter
UDJA), RCW 7.24. While both the AG and Individual Plaintiffs
make well-reasoned arguments to the contrary, as they point
out, these actions were not brought under the UDJA.
10

174a
The AG also points to Ralph Williams’ (III), where
the defendant car dealership, having been found to
have violated the CPA with respect to advertising and
sales practices, appealed the trial court’s granting of
broad injunctive relief preventing those practices,
appealed the trial court’s granting of broad injunctive
relief preventing those practices in the future. State
v. Ralph Williams’ North West Chrysler Plymouth Inc.
(Ralph Williams’ (III)), 87 Wn.2d 298, 553 P.2d 423
(1976). The defendant dealership argued that there
was no basis for injunctive relief. The business had
closed, thus any future violations were unlikely. It is
true that an injunction may be moot if a defendant
can demonstrate that “events make it absolutely clear
the allegedly wrongful behavior could not reasonably
be expected to recur.” Ralph Williams’ (III), 87 Wn.2d
at 312 (internal quotations omitted). That said,
“[c]ourts must beware efforts to defeat injunctive
relief by protestations of reform.” Id. In that case,
because the practices were discontinued only after
institution of the suit and the business was free to
reenter the market and continue its past practices, an
injunction was proper. Id. Here, the practice
complained of by Plaintiffs will be continued by way
of an unwritten but acknowledged policy of the
Defendants. If the past violation of a shuttered
business, not specifically disclaimed, supports a
finding of a danger of future violation to substantiate
an injunction in Ralph Williams’ (III), Defendants’
action, now made policy11 of Arlene’s Flowers, an
In point of fact, the totality of the current antidiscrimination policy of Arlene’s Flowers is internally
inconsistent. The written policy purports to comply with the
WLAD and CPA, by including within its prohibition, “any other
11

175a
active business, would support an injunction if the
Plaintiffs prove their CPA claim.
Defendants point to Orwick v. City of Seattle in
support of their position that the matter is moot,
arguing that the exception for mootness for “matters
of continuing and substantial public interest,” only
applies to “cases which became moot…after a hearing
on the merits of the claim,” i.e., when “the facts and
legal issues had been fully litigated by parties with a
state in the outcome of a live controversy.” Orwick v.
City of Seattle, 103 Wn.2d 249, 253 (1984) (en banc)
(quotations removed). Defendants state that there
has been no hearing on the merits, any inconvenience
to Ingersoll and Freed cannot be corrected, and thus
it is a waste of resources to continue to address as case
that has not been fully litigated.
As the Individual Plaintiffs note, Defendants
misread Orwick. A finding of a hearing on the merits
is not mandatory. It is a fourth, optional, factor in
determining whether the public importance exception
is to be applied.12 The reason it is optional, is made
status protected by applicable law.” The unwritten policy creates
an exception for same sex marriage. Defendants’ assertion that
the business is not doing weddings during the pendency of this
case, i.e. “voluntary cessation,” does not change the analysis
under Ralph Williams’ (III). Ralph Williams’ (III), 87 Wn.2d at
272.
The first three factors are: “(1) whether the issue is of a
public or private nature; (2) whether an authoritative
determination is desirable to provide future guidance to public
officers; and (3) whether the issue is likely to recur.” Westerman,
125 Wn.2d at 286 (quoting Hart, 111 Wn.2d at 448). As indicated
above, the Legislature has, in the purpose and statements
12

176a
clear in subsequent case law. A hearing on the merits
is shorthand for the Court’s concern regarding “the
level of genuine adverseness and the quality of the
advocacy of the issues.” Westerman v. Cary, 125
Wn.2d 277, 286, 892 P.2d 1067 (1994) (quoting Hart
v. Department of Social & Health Services, 111 Wn.2d
445, 448, 759 P.2d 1206 (1988). An issue not properly
developed and presented, even if it is of public
importance, cannot be properly decided.
Defendants’ own diligence and that of the AG and
Individual Plaintiffs works against Defendants on
this point. The briefing in this matter is voluminous,
thorough and of excellent quality. The briefing for this
summary judgment motion alone consists of 63 pages
of briefing by the parties, with 176 pages of
declarations and attachments thereto. The briefing
for the last six summary judgment motions in this
case total 443 pages of briefing by the parties, with
2,202 pages of declarations and attachments thereto.
The briefing does not lack for citation to authority.
The attachments include the depositions of the
parties, as well as declarations of the parties and
experts, and supporting source material. Oral
argument was had for a total of a full court day on the
motions, spread out over two days. These motions are
being resolved on summary judgment because only
issues of law remain, and the legal issues have been
regarding construction of the CPA and WLAD indicated that the
elimination of discrimination in trade or commerce is of public
importance. See e.g., RCW 49.60.010, “discrimination threatens
not only the rights and proper privileges of its inhabitants but
menaces the institutions and foundations of a free democratic
state....”

177a
well argued by zealous advocates representing
genuinely adverse parties. See Westerman, 125 Wn.2d
at 287 (reviewing bail issue where bail order had been
replaced by another order, in part because “the briefs
before this court are of good quality”).
Further, even if the Court were to find that the
matter was otherwise moot, a fifth optional factor
would weigh heavily in favor of the public importance
exception. The Court may consider “the likelihood
that the issue will escape review because the facts of
the controversy are short-lived.” See Id. at 286-87
(citing with approval Seattle v. State, 100 Wash.2d
232, 250, 668 P.2d 1266 (1983) (Rosellini, J.,
dissenting)). As the Court indicated above, the matter
is not moot in light of the basic rules of standing, the
nature of the causes of action themselves, the harms
alleged and remedies available, and the Court’s
injunctive power as made clear in Ralph Williams’
(III). But even if the case were otherwise moot,
Orwick is no bar to hearing the case in light of
Westerman and Hart, above.
Finally, common sense dictates that the
Defendants’ position, however analyzed, must be
rejected. Otherwise, a funeral parlor could counter
that any CPA or WLAD claim against it was moot, as
the deceased would presumably be interred or
cremated during the initial pleading of the case. This,
despite a policy, written or unwritten, that they would
repeat their conduct in the future.
Neither the CPA nor the WLAD actions are moot
and Plaintiffs have standing. Even if the matters
were moot, they are matters of important public

178a
interest that due to their nature would otherwise
escape review. The Defendants’ motion for summary
judgment on Plaintiffs’ standing is denied.
B. Plaintiff’s Motion For Partial Summary
Judgment On Liability And Constitutional Defenses (Considered With
Plaintiffs Ingersoll And Freed’s Motion
For Partial Summary Judgment)13
In Benton County Cause Number 13-2-00871-5,
the AG has moved for partial summary judgment,
arguing that Defendants have admitted acts that
constitute a violation of the WLAD in trade or
commerce, and thus constitute a per se violation of the
CPA as a matter of law. Further, the AG argues that
the Defendants’ four remaining constitutional
affirmative defenses in their Answer fail as a matter
of law. The Individual Plaintiffs, in Benton County
Cause Number 13-2-00953-3, have also moved for
partial summary judgment, also arguing that
Defendants have admitted acts that constitute a
violation of the WLAD in trade or commerce, and thus
constitute a per se violation of the CPA as a matter of
law, with the exception of the issue of damages.
Further, the Individual Plaintiffs join in the AG’s
arguments with respect to the aforementioned
constitutional affirmative defenses.

While the above motions were filed separately, they are
substantially similar in their arguments: so much so that
Defendants responded to the motions in a single filing. The
Court will consider and resolve the motions together.
13

179a
Either party may move for summary judgment.
CR 56(a-c). Where there is a factual dispute that is
material to the resolution of the motion, the Court
considers “all facts submitted and all reasonable
inferences from the facts in the light most favorable
to the nonmoving party.” Ward, 74 Wn.App. at 161
(1994). Where there are no disputed facts, or the
factual dispute is not material and only issues of law
remain to be determined, summary judgment is
appropriate. See Emerson, 102 Wn.2d at 480; see also
Clements, 121 Wn.2d at 249 (“A material fact is one
upon which the outcome of the litigation depends.”).
While the Defendants argue that there are material
factual disputes, the Court concludes otherwise. As
indicated above, the material facts are what actually
happened, not what would have happened. Further,
the distinction drawn by Defendants as to conduct
(same sex marriage) and status (being gay), as it
relates to what Defendants actually did on March 1,
2013, has been rejected by the Supreme Court of the
United States. As to why Defendants did what they
did, other than the extent to which religious
motivation may provide an affirmative defense,
Defendants’ motivation is irrelevant under both the
CPA and WLAD. Thus, the matter is appropriate for
summary judgment.

180a
1.

Violation Of The CPA And WLAD
As A Matter Of Law
a. Individual Plaintiffs’ WLAD
Claim Against Defendants

The WLAD specifically prohibits discrimination
as follows:
(1) [i]t shall be an unfair practice for any
person or the person’s agent or employee to
commit an act which directly or indirectly
results in any distinction, restriction, or
discrimination…or
the
refusing
or
withholding from any person the
admission, patronage, custom presence,
frequenting, staying, or lodging in any
place of public resort, accommodation,
assemblage, or amusement, except for
conditions and limitations established by
law and applicable to all persons,
regardless of race, creed, color, national
origin, sexual orientation…
RCW 49.60.215(1) (italics added). Defendants, in
their Answer, admit that Arlene’s Flowers is a “forprofit Washington corporation that sells goods and
services to the general public” and admit that
Stutzman is the “president, owner, and operator of
Arlene’s flowers.” Defendants’ Answer (13-2-00953-3),
pg. 2, paras. 2-3. As indicated in this Court’s prior
Order, both Arlene’s Flowers and Stutzman may be
held liable for the actions of Stutzman under the clear
meaning of the WLAD. See RCW 49.6.040(19)
(defining “person” to include individuals and

181a
corporations); see also Brown v. Scott Paper
Worldwide Co., 143 Wn.2d 349, 354-57, 20 P.3d 921
(2001) (individual supervisor and corporation liable
based on supervisor’s actions).
Defendants admit in their Answer and in
deposition testimony, that Stutzman denied14
services to Ingersoll on March 1, 2013, for religious
reasons. See Stutzman Deposition (…And I just put
my hands on his and told him because of my
relationship with Jesus Christ I couldn’t do that,
couldn’t do his wedding.).
Because Defendants have admitted to a prima
facie case15 of discrimination pre-trial, this motion is
controlled by Lewis v. Doll. Lewis, a young black man,
sued Doll, the owner of a 7-Eleven store, for
14 As the Court has indicated previously, while the
Defendants in their answer use the word “declined” in place of
“denied,” both in argument and in its Answer, for the purposes
of this motion, it is a distinction without a difference. See
Defendants’ Answer (13-2-00871-5), pg. 4, para. 5.4 (“....It is
ADMITTED that Arlene’s Flowers declined to design and create
floral arrangements to decorate and beautify Mr. Ingersoll’s
upcoming wedding.”).

While not specifically addressed by the parties, the
elements of the WLAD claim alleging discrimination against an
individual in a public accommodation are as follows: “l) the
plaintiff is a member of a protected class; 2) the defendant’s
establishment is a place of public accommodation; 3) the
defendant discriminated against plaintiff by not treating him in
a manner comparable to the treatment it provides to persons
outside that class; and 4) the protested status was a substantial
factor causing the discrimination.” Demelash v. Ross Stores, Inc.,
105 Wn.App. 508, 525, 20 P.3d 447 (2001).
15

182a
discrimination under the WLAD. Lewis v. Doll, 53
Wn.App. 203, 765 P.2d 1341 (1989). The testimony at
trial was that, upon orders of Doll, because of past
instances of shoplifting at the store attributed to
black patrons, Lewis was denied the ability to
purchase “a couple of [S]lurpees” by the store’s clerk.16
Lewis, 53 Wn.App. at 204. This occurred despite the
fact that Lewis was not identified as a suspected
shoplifter, and white patrons entered and were served
during this refusal. Id. at 205. Lewis’ motion for a
directed verdict at the close of the evidence was
denied, and the jury returned a verdict for the
defendant business owner, Doll. Id. at 204. The Court
reversed, granted the motion for a directed verdict in
favor of Lewis (finding a violation of the WLAD as a
matter of law), and remanded the matter for a trial on
damages only. Id.
The Court, citing with approval findings of
discrimination based on sexual orientation by another
state court,17 stated “[a]fter establishing a prima facie
The 7-Eleven clerk told Lewis at the time of the refusal,
“[n]o, we have a policy. Boss left strict orders not to serve any
blacks.” The clerk further indicated, “[w]e have been having
problems with blacks coming in shoplifting.” Id.
16

Those two cases are significant in that they sustained
findings of discrimination based on sexual orientation, and that
one of the cases upheld application of Minneapolis antidiscrimination ordinance against the club owner, a born-again
Christian’s, free exercise claim as the ordinance applied to his
religious freedom in the operation of his business. See Potter v.
LaSalle Sports & Health Club, 368 N.W.2d 413 (Minn.Ct.App.
1985), affirmed by, 384 N.W.2d 873 (Minn. 1986) (affirming Civil
Rights Commission finding of discrimination); see also Blanding
v. Sports & Health club, Inc., 373 N.W.2d 784, 789 (Minn.Ct.App.
17

183a
case [of discrimination under the WLAD] the burden
of going forward shifts to the defense which must
attempt to justify the alleged discriminatory policy.”
Id. at 208. The Court pointed out that only
discriminatory impact, not motivation, need be
shown, stating “[n]or is the fact Ms. Doll did not
intend a discriminatory effect relevant.” Id. at 210.
The Court found that this policy, denying service to
all black potential patrons did not constitute a
legitimate business policy, as allowed under RCW
49.60.215. Id. at 209-12. The Court concluded:
[t]hus, after viewing the evidence and all
reasonable inferences drawn therefrom in
favor of Ms. Doll, we conclude as a matter of
law, the defense raised was without a legal
foundation. The court erred when it
submitted the question of discrimination to
the jury.
Id. at 211-12. Defendants do not claim that their
refusal falls under the final clause of RCW 49.60.215,
which provides that “behavior or actions constituting
a risk to property or other persons can be grounds for
refusal and shall not constitute an unfair practice.”
Defendants admit that Ingersoll was denied the
right to purchase a service, and freely admit that their
unwritten policy will result in a future denial should
another gay or lesbian couple seek their services.
Defendants defend their action as one aimed at
1985), affirmed by, 389 N.W.2d 205 (Minn. 1986) (“...the
Minneapolis ordinance as applied does not impose a burden upon
the principals’ free exercise of religion.”)

184a
opposition to conduct (same sex-marriages), rather
than opposition to or discrimination against gay or
lesbian individuals generally (the status of sexual
orientation). As indicated above, a tenet of Stutzman’s
faith makes precisely this distinction. See Resolution
of SBC, “On ‘Same-Sex Marriage’ And Civil Rights
Rhetoric” New Orleans – 2012. The Individual
Plaintiffs do not accuse Stutzman of acting
inconsistently with this tenet of her faith, they
instead counter that this distinction between conduct
and status has previously been rejected in
discrimination claims. The Individual Plaintiffs are
correct.
The United States Supreme Court has long held
that discrimination based on conduct associated with
a protected characteristic constitutes discrimination
on the basis of that characteristic. Bob Jones
University v. United States, 461 U.S. 574, 605, 103 S.
Ct. 2017, 76 L. Ed. 2d 157 (1983) (Defendant could not
avoid result by allowing all races to enroll, subject to
conduct restrictions regarding interracial association
and marriage because “discrimination on the basis of
racial affiliation and association is a form of racial
discrimination”); see also Christian Legal Society
Chapter of the Univ. of Cal., hasting Coll. of the Law
v. Martinez, 561 U.S. 661, 689, 130 S. Ct. 2971, 177 L.
Ed. 2d 838 (2010) (University student group’s claim
that it did not prohibit gay members, only those who
engage in or support same-sex intimacy rejected
because prior decisions “have declined to distinguish
between status and conduct in this context.”).
Further, as the Individual Plaintiffs correctly
observed, there is no authority for the proposition
that substantial compliance with discrimination laws

185a
excuses any individual act of discrimination. See, e.g.,
Elane Photography, LLC v. Willock, 309 P.3d 53, 62
(N.M. 2013), cert. denied, __ U.S. __, 134 S. Ct. 1787,
188 L. Ed. 2d 757 (2014) (“For example, if a
restaurant offers a full menu to male customers, it
may not refuse to serve entrees to women even if it
will serve them appetizers.”). In fact, in Elane
Photography, under a cognate New Mexico antidiscrimination law, the Court held, “when a law
prohibits discrimination on the basis of sexual
orientation, that law similarly protects conduct [such
as marriage] that is inextricably tied to sexual
orientation.” Elane Photography, 309 P.3d at 62.
While Defendants at oral argument argued that
Elane Photography was wrongly decided, it is
consistent with existing case law and construes a
state statute that is not meaningfully different than
the WLAD. Id. at 61 (Construing provision of New
Mexico Human Rights Act (hereinafter NMHRA),
which, in relevant part, prohibits “any person in any
public accommodation to make a distinction, directly
or indirectly, in offering or refusing to offer its
services…because of…sexual orientation.”); compare,
WLAD, RCW 49.60.215 (1) (prohibiting “any
person…to commit an act which directly or indirectly
results in…the refusing or withholding from any
person…patronage…in
any
place
of
public
…accommodation…regardless of…sexual orientation
…”). Elane Photography did not allow a wedding
photographer to make Defendants’ conduct versus
status distinction on religious grounds with respect to
photographing a same sex marriage in the face of an
anti-discrimination law. Defendants have offered no
reason for a different result here. Defendants’

186a
additional arguments to the contrary, based on
examples of radio contests and movie plots, cannot be
seriously considered as a legal argument by the
Court. Defendants’ refusal to “do the flowers” for
Ingersoll and Freed’s wedding based on her religious
opposition to same sex marriage is, as a matter of law,
a refusal based on Ingersoll and Freed’s sexual
orientation in violation of the WLAD.18
In Lewis, it was error for the trial court to fail to
grant a directed verdict based on a trial record of an
act that constituted discrimination within the
meaning of the WLAD without valid excuse under the
statute. Defendants have similarly admitted to
conduct that constitutes a violation of the statute, and
provide no legally cognizable defense to their actions.
Lewis, 53 Wn.App at 212. While Lewis involved a
motion for a directed verdict (as well as a later motion
for a judgment notwithstanding the verdict), because
there are no disputed material facts, Individual
Plaintiffs are, consistent with Lewis, entitled to
summary judgment on liability. Actual damages are
not an element of a WLAD claim, and, as indicated
below, Defendants’ other affirmative defenses that
are the subject of this motion fail as a matter of law.
Because the Individual Plaintiffs have not sought
actual damages under the WLAD, the only remaining
matters are remedies to be determined by the Court:
A violation of the WLAD can additionally be shown by
“any distinction, restriction, or discrimination” based on a
protected class. RCW 49.60.215(1). The Individual Plaintiffs pled
this case as a “refusal.” See, e.g., Individual Plaintiffs’ Complaint
(13-2-00953-3), pg. 5, para. 26.
18

187a
nominal damages, injunctive relief,19 attorney’s fees,
and costs. Minger, 87 Wn.App. at 946-47.
b. Individual
Plaintiffs’
CPA
Claim Against Defendants
The Individual Plaintiffs point out that, having
established their WLAD action, little more is required
to establish their CPA action, because a violation of
the WLAD “committed in the course of trade or
commerce” is a per se violation of the CPA where the
violation causes injury to business or property. See
RCW 49.60.030(3); see also Panag, 166 Wn.2d at 37.
Both Stutzman and Arlene’s Flowers are liable under
the CPA, with Stutzman being personally liable in
both her individual and corporate capacity. See RCW
19.86.010(1) (“‘Person’ shall include, where applicable, natural persons, corporations…”); see also
Ralph Williams’ (III), 87 Wn.2d at 322 (“If a corporate
officer participates in the wrongful conduct, or with
Defendants assert that additional fact-finding is
necessary for the Court to fashion injunctive relief. Defendants
are mistaken. As the Individual Plaintiffs observe, an injunction
in this context would not prescribe or proscribe the nature of the
goods or services to be sold by a business (it would not order a
Kosher deli to stock bacon or not stock matzah), it would simply
require a business to offer its customarily provided services on a
non-discriminatory basis (it would require in practice that the
Kosher deli make all of the products or services that business
chose to sell available for purchase by everyone without
discrimination). While Defendants assert that there are
additional levels of involvement in weddings that Stutzman
finds fulfilling and religiously significant which create a factual
dispute, the issue in an injunctive context is simply whether the
involvement is a service provided for a fee, in which [case] it
must be offered on a non-discriminatory basis under the WLAD.
19

188a
knowledge approves of the conduct, then the officer,
as well as the corporation, is liable for the penalties.”).
The Individual Plaintiffs must establish five
elements: “(1) an unfair or deceptive act or practice,
(2) occurring in trade or commerce, (3) affecting the
public interest, (4) injury to business or property, and
(5) causation.” Id. (further citation omitted). The
uncontested material facts demonstrate that the
events of March 1, 2013 occurred in trade or
commerce, in particular inside the Arlene’s Flowers,
in Richland, Washington. See RCW 19.86.010(2)
(“‘Trade’ and ‘commerce’ shall include the sale of
assets or services, and any commerce directly or
indirectly affecting the people of the state of
Washington.”). This satisfies the second element of
their CPA claim. Because the Individual Plaintiffs
have demonstrated a violation of the WLAD in trade
or commerce, the violation is, for the purpose of
applying the CPA, “a matter affecting the public
interest, is not reasonable in relation to the
development and preservation of business, and is an
unfair or deceptive act in trade or commerce.” RCW
49.60.030(3). This satisfies the first and third
elements of the CPA claim.
As to the fourth and fifth element, the judicial
officer previously assigned to these matters addressed
this issue in a prior summary judgment motion by
Defendants. As part of that judicial officer’s ruling,
two orders were entered following a hearing on
October 4, 2013. Both orders make clear that the
Court was reviewing the facts, the Individual
Plaintiffs’ claimed mileage of $7.91 as economic
damages caused by Defendants’ refusal to provide

189a
services, in the light most favorable to the non-moving
party. The first Order, entered on October 7, 2013,
indicated that “this Court concludes that the fourth
and fifth elements as required by Hangman Ridge are
established.” The Amended Order, entered on
December 17, 2013, makes clear that the Court was
not making a finding as a matter of law regarding the
establishment of elements four and five. The
Amended Order removes the language above and
replaces it with the following: “this Court concludes
that the facts are sufficient to defeat Defendants’
Motion for Partial Summary Judgment.” It is
therefore clear that the prior judicial officer did not,
due to the nature of prior summary judgment (and
lack of a cross motion), make a determination
regarding the sufficiency of the claimed loss of $7.91
to establish the fourth and fifth elements of the
Individual Plaintiffs’ CPA claim as a matter of law.
While the supporting legal authority appears in
the footnote, and the Individual Plaintiffs indicate
that the “extent of Plaintiff’s damage will be
presented to the court at another time,” they indicate
they were injured by Defendants’ actions and that
they are seeking summary judgment on liability
under the CPA claim. Because a ruling on damage
and causation, the fourth and fifth element, are
necessary to resolve the issue of liability, the Court
will address these elements as well. Defendants do
not contest in their response the assertion by the
Individual Plaintiffs that they incurred costs of $7.91
in mileage, as a result of Defendants’ denial of
services (which they term declining and referring) in
securing alternate replacement services for the
wedding.
In
point
of
fact,
Defendants’

190a
characterization of Stutzman’s act as a declination
and referral impliedly admits that additional cost and
effort would be required to secure alternative
services. Under the CPA, nominal economic damages
are sufficient to support standing. Smith v. Stockdale,
166 Wn.App. at 565 ($5 entry fee sufficient to support
claim of injury to property in CPA claim); see also
Amback v. French, 167 Wn.2d 167, 171, 216 P.3d 405
(2009) (quoting Hangman Ridge for proposition that
injury does not need to be great or quantifiable).
Simply put, if a $5 entry fee is sufficient to satisfy the
element of injury to property, the greater (albeit only
slightly greater) amount of $7.91 in mileage must be
sufficient as a matter of law. Causation is not
contested, satisfying the fifth element. On their CPA
claim, Individual Plaintiffs are also entitled to
summary judgment on liability.
c.

AG’s
CPA
Defendants

Claim

Against

The AG is only required to prove three elements
in a CPA claim: “(1) an unfair or deceptive act or
practice, (2) occurring in trade or commerce, and (3)
public interest impact.” See RCW 19.86.080(1); see
also State v. Kaiser, 161 Wn.App. at 719. Defendants,
both in their Answer and in deposition testimony,
assert and/or admit a course of conduct on the part of
Stutzman that legally constitutes a refusal to provide
services to Ingersoll on March 1, 2013, for religious
reasons. See Defendants’ Answer (13-2-00871-5), pg.
3, para. 4.4 (“….Ms. Stutzman informed Robert
Ingersoll that her religious convictions precluded her
from designing and creating floral arrangements to
decorate a same-sex wedding”); see also Stutzman

191a
Deposition (….And I just put my hands on his and told
him because of my relationship with Jesus Christ I
couldn’t do that, couldn’t do his wedding.).
As indicated above, the uncontested material
facts establish a violation of the WLAD in trade or
commerce, and thus a per se violation of the CPA. See
RCW 49.60.030(3); RCW 19.86.010(2). Also, as
indicated above, both Stutzman and Arlene’s Flowers
are liable under the CPA, with Stutzman being
personally liable in bother individual and corporate
capacity. See RCW 19.86.010(1); see also Ralph
Williams’ (III), 87 Wn.2d at 322.
The AG makes one additional point with respect
to the conduct (same sex marriage) versus status
(being gay) distinction Defendants seek to make with
respect to Stutzman’s actions under the WLAD, which
provides the predicate for the per se CPA claim. This
is that, assuming for the purposes of argument that
the Courts have allowed such a distinction (and they
have not), it would make no difference regarding the
Defendants’ liability under the WLAD. This is
because the WLAD does not require the distinction,
restriction or discrimination to be the direct result of
Stutzman’s actions. See RCW 49.60.215 (“[i]t shall be
an unfair practice for any person or the person’s agent
or employee to commit an act which directly or
indirectly results in any distinction, restriction, or
discrimination…”). The indirect discriminatory result
flowing from Stutzman’s actions satisfies the WLAD
and constitutes a violation. On the per se CPA claim,
the AG is entitled to summary judgment on liability.

192a
This does not end the Court’s analysis. As
previously indicated, the AG pled its CPA claim in the
alternative: both as a per se CPA violation and as a
generic CPA violation. The AG moves for summary
judgment on the alternative generic CPA violation as
well. The elements remain the same: “(1) an unfair or
deceptive act or practice, (2) occurring in trade or
commerce, and (3) public interest impact.” See RCW
19.86.080(1); see also State v. Kaiser, 161 Wn.App. at
719. However, as opposed to satisfying all three
elements by showing a WLAD violation in trade or
commerce, each element must be satisfied
individually.20
As to the first element, while not defined in the
statute, “[w]hether a particular act or practice is
‘unfair or deceptive’ is a question of law,” to be
determined by the Court. Panag, 166 Wn.2d at 47.
The AG cites to Blake v. Federal Way Cycle Center
which established criteria for determining whether
an act or practice is “unfair” as follows:
(1) Whether the practice, without necessarily
having been previously considered unlawful,
offends public policy, as it has been
established by statutes, the common law, or
The Defendants describe these means of proof as
“coextensive,” to which the AG takes exception. Whatever
Defendants mean by “co-extensive,” it is clear that the three
elements of a CPA claim brought by the AG can be satisfied by
showing a per se violation of a qualifying predicate statute
occurring in trade or commerce, or by proving qualifying acts
independent of a per se violation of a qualifying predicate
statute.
20

193a
otherwise – whether, in other words, it is
within at least the penumbra of some
common-law, statutory, or other established
concept of unfairness; (2) is immoral,
unethical, oppressive, or unscrupulous, or
causes substantial injury to consumers…;
(3) whether it cause substantial injury to
consumers…
Blake v. Federal Way Cycle Center, 40 Wn.App. 302,
310, 698 P.2d 578 (1985) (further quotation omitted);
see, e.g., Demelash v. Ross Stores, Inc.,21 105 Wn.App.
508, 523-524, 20 P.3d 447 (2001) (reversing grant of
summary judgment for defendant, an Ethiopian
immigrant with limited English skills, where store
refused to return his coat and accused Plaintiff of
shoplifting even after he provided receipt, and holding
that plaintiff successfully established, among others,
first element of “unfair or deceptive act or practice” on
prima facie basis). Even in the absence of the WLAD’s
declaration, the Court finds that treating a customer
differently because of their membership in a protected
class is unfair as a matter of law pursuant to the first
listed criteria in Blake. Any other results would be
inconsistent with Washington law. See RCW
26.04.010(1) (defining marriage to include same-sex

Demelash comes close to resolving the issue, in that in
discussing the WLAD claim therein, it is clear that it is based on
race and national origin as the protective classes at issue. That
said, the discussion of the CPA claim makes no mention of the
protective class at issue in the CPA claim. Inferentially, they
have to have the same basis, but in an abundance of caution, the
Court does not rely on this inference.
21

194a
couples); see also, RCW 9A.36.07822 (legislative
finding in criminal malicious harassment statute).
The first element is satisfied.
Defendant’s argument that Stutzman was acting
within the bounds of public policy because she and
Arlene’s Flowers do or should fit within the exclusions
for ministers and religious organizations under RCW
26.04.010(4-6) is unconvincing. First, as the AG
rightly points out, the statutes address conduct, not
beliefs, so the fact that the law makes a distinction
between her actions in a public accommodation and
that of a minister or priest in a house of worship is in
no way unfair. Further, Stutzman is not a minister,
nor is Arlene’s Flowers a religious organization when
they sell flowers to the general public in trade or
22 The first full paragraph of the legislative finding reads as
follows: “The legislature finds that crimes and threats against
persons because of their race, color, religion, ancestry, national
origin, gender, sexual orientation, or mental, physical, or
sensory handicaps are serious and increasing. The legislature
also finds that crimes and threats are often directed against
interracial couples and their children or couples of mixed
religions, colors, ancestries, or national origins because of bias
and bigotry against the race, color, religion, ancestry, or national
origin of one person in the couple or family. The legislature finds
that the state interest in preventing crimes and threats
motivated by bigotry and bias goes beyond the state interest in
preventing other felonies or misdemeanors such as criminal
trespass, malicious mischief, assault, or other crimes that are
not motivated by hatred, bigotry, and bias, and that prosecution
of those other crimes inadequately protects citizens from crimes
and threats motivated by bigotry and bias. Therefore, the
legislature finds that protection of those citizens from threats of
harm due to bias and bigotry is a compelling state interest.”

195a
commerce from a public accommodation. See RCW
26.04.010(4). Defendants advance a construction by
which the exception defeats the purpose of the rule: it
also makes a trifle of the profound distinction between
the clergy and the laity. This must be considered an
absurd result. Lowy v. PeaceHealth, 174 Wn.2d 769,
778, 280 P.3d 1078 (2012) (court to avoid absurd
results in construing any statute).
The second element is also satisfied, as the
uncontested material facts demonstrate that the
events of March 1, 2013 occurred in trade or
commerce. See RCW 19.86.010(2) (defining “trade”
and “commerce”). As to the third element, public
interest impact, the Court believes the AG reads too
much in Lightfoot v. MacDonald, an individual CPA
action, when it asserts that the case clearly
establishes a presumption that the element is
established when the AG acts. Lightfoot v. McDonald,
86 Wn.2d 331, 335, 544 P.2d 88 (1976). The Court
reaches this conclusion based on the current briefing:
the AG has cited no case law subsequent to Lightfoot
that says this is what the case means. That said, the
uncontested material fact of the unwritten policy to
refuse to provide services to any future same-sex
wedding establishes the third element as it would in
an individual action, as the practice “has the capacity
to injure other persons.” RCW 19.86.093(3)I. On the
alternative generic CPA claim, the AG is also entitled
to summary judgment on liability.

196a
2.

Preemption Of CPA And WLAD As
Applied To Defendants’ Conduct
Under First Amendment To United
States Constitution

In both actions, Defendants assert the affirmative
defense of preemption under the United State
Constitution. In the Answer to the AG’s action, the
affirmative defense is listed as follows:
6.6 As applied preemption under the First
Amendment
to
the
United
States
Constitution.
Defendants’ Answer (13-2-00871-5) (AG Action), pg. 6,
para. 6.6. In the Individual Plaintiffs’ action, the same
affirmative defense is raised, but the defense is more
specifically delineated:
32. Preemption: As applied violation of the
Free Speech, Free Exercise and Free
Association
provisions
of
the
First
Amendment
to
the
United
States
Constitution.
Defendants’ Answer (13-2-00953-3) (Individual
Action), pg. 6, para. 32. While the Defendants have
vigorously contested all aspects of these actions, their
primary defense to both actions appears to be that a
central tenet of Stutzman’s firmly-held religious
belief is in direct conflict with the Laws of the State of
Washington, and that her religious beliefs should
prevail. Her beliefs include both a definition of
marriage that excludes same-sex marriage and an
explicit rejection of same-sex marriage as a civil right.

197a
See Resolution of SBC, “On ‘Same-Sex Marriage’ And
Civil Rights Rhetoric” New Orleans – 2012. The State
of Washington has declared discrimination against
individuals on the basis of sexual orientation to be a
menace to “the institutions and foundations of a free
democratic state,” and has included same-sex
marriage as one of the civil rights accorded to gay and
lesbian residents. See RCW 49.60.010 (purpose
statement of WLAD); see also RCW 26.04.010(1) (as
amended by Laws of Washington 2012, Ch. 3, § 1(1));
see also Referendum Measure 74, approved Nov. 6,
2012. Because Stutzman owns and operates a
Washington State corporation that provides arranged
flowers for weddings, the conflict between Stutzman’s
religiously motivated conduct in commerce and the
law is insoluble.
a. Free Speech
Defendants argue that the act of arranging
flowers is inherently artistic and expressive and thus
protected speech. Stutzman asserts that, after
consulting with her customers, she creates floral
arrangements that are designed to communicate the
couple’s vision or theme for the event. Defendants
have attached to their declaration materials in
support of this proposition, including reference
material explaining the religious significance of
flower arrangement dating back to the ancient
Egyptians and instructional material on flower
arranging. They argue that this artistic expression is
protected speech.23 See, e.g., Hurley v. Irish-American
Stutzman also claims that other aspects of her
involvement in weddings are speech, including singing, standing
23

198a
Gay, Lesbian And Bisexual Group of Boston, 515 U.S.
557, 569, 115 S. Ct. 2338, 132 L. Ed.2d 487 (1995)
(explaining that “a narrow, succinctly articulable
message is not a condition of constitutional
protection” and citing example of Jackson Pollock
painting). They therefore assert that Stutzman and
Arlene’s Flowers cannot be compelled to “speak”
through arranged flowers at a same-sex wedding.
The AG counters with Rumsfeld, which holds:
it has never been deemed an abridgment of
freedom of speech or press to make a course
of conduct illegal merely because the
conduct was in part initiated, evidenced, or
for the bride, clapping to celebrate the marriage, and in one
instance counseling the bride. Tellingly, Stutzman does not
claim that she was being paid to do any of these things. Said
another way, she does not claim that these are services that she
is providing for a fee to her customers such that they would be
covered by an injunction. The degree to which she voluntarily
involves herself in an event outside of the scope of services she
must provide to all customers on a non-discriminatory basis (if
she provides the service in the first instance) is not before the
Court. This is not to ignore Stutzman’s objection to involvement
through mere presence at an event and how that presence is seen
as an expressive act validating the event itself: the deposition
testimony makes clear that Stutzman and Arlene’s Flowers
customarily provided services include preparing wedding
flowers for pickup as well as delivering the flowers to the event,
including set up. This same objection was considered and
rejected in Elane Photography, where the argument of validation
through involvement on the part of a wedding photographer,
who must actively participate in the event to ply her trade, was
even stronger. Elane Photography, 309 P.3d at 63-72 (N.M. 2013)
(discussing Free Speech claim).

199a
carried out by means of language, either
spoken, written or printed.
Rumsfeld v. Forum For Academic & Instructional
Rights, Inc., 547 U.S. 47, 62, 126 S. Ct. 1297, 164 L.
Ed.2d 156 (2006) (Congress may require law schools
to provide equal access to military recruiters) (quoting
Giboney v. Empire Storage & Ice. Co, 336 U.S. 490,
502, 69 S. Ct. 684, 93 L. Ed.2d 834 (1949)). As the
Supreme Court further explained, Congress can
prohibit racial discrimination in employment and:
[t]he fact that this will require an employer
to take down a sign reading “White
Applicants Only” hardly means that the law
should be analyzed as one regulating the
employer’s speech rather than conduct.
Id. (italics added). Because anti-discrimination laws
by their nature require equal treatment, they cannot
be defeated by the claim that equal treatment
requires communication or expression of a message
with which the speaker disagrees. The Defendants
offer no persuasive authority in support of a free
speech exception (be it creative, artistic, or otherwise)
to anti-discrimination laws applied to public
accommodations. See Elane Photography, 309 P.3d at
72 (“Even if the services it offers are creative or
expressive, Elane Photography must offer its services
to
customers
without
regard
for…sexual
orientation…”) (no violation of Free Speech when
required to comply with NMHRA). The existing
jurisprudence on this issue, including the most recent

200a
and comparable case, Elane Photography,24 is soundly
against the Defendants.
b. Free Exercise
As indicated above, the Free Exercise Clause is
not without its limits. Religious motivation does not
excuse compliance with the law. Reynolds, 98 U.S. at
166-167 (prosecution under Utah Territory bigamy
law). An individual may be made to comply with a
valid and neutral law of general applicability that
forbids conduct that an individual’s religion requires.
Smith, 494 U.S. at 879 (religious use of Peyote). Such
laws are subject to a rational basis inquiry only,
because the government’s ability to prohibit socially
harmful conduct “cannot depend on measuring the
effects of a governmental action on a religious
objector’s spiritual development.” Id. at 884-85
(further citation omitted); see also Church of the
Lukumi Babalu Aye, Inc. v. City of Haialeah, 508 U.S.
520, 531, 113 S. Ct. 2217, 124 L. Ed.2d 472 (1993)
(Even where it burdens religious practice “a law that
is neutral and of general applicability need not be
justified by a compelling government interest.”). The
Supreme Court has clearly stated:

In Elane Photography, the Court addressed and
ultimately rejected in detail a Free Speech challenge including
sub- challenges that New Mexico’s anti-discrimination law (the
NMHRA) violated the right to refrain from speaking the
Government’s message and that the NMHRA compelled Elane
Photography to host or accommodate the message of another
speaker. Elane Photography, 309 P.3d at 63-72.
24

201a
[w]hen followers of a particular sect enter
into commercial activity as a matter of
choice, the limits they accept on their own
conduct as a matter of conscience and faith
are not to be superimposed on the statutory
schemes which are binding on others in that
activity. Granting an exemption…operates
to impose [the follower’s] religious faith on
the [person sought to be protected by the
law].
United States v. Lee, 455 U.S. at 261 (Amish employer
must collect social security tax for those in their
employ).
To pass constitutional muster against a free
exercise challenge, a law must be both neutral and
generally applicable. Because infringement or
restriction upon a religious motivated practice
(conduct) is implicit in the challenge, the focus when
addressing neutrality is as follows: “if the object of a
law is to infringe upon or restrict practices because of
their religious motivation, the law is not neutral.”
Lukumi, 508 U.S. at 433 (emphasis added). The
WLAD looks to discriminatory impact and the CPA
prohibits acts because of unfairness or capacity to
deceive a consumer. Lewis, 53 Wn.App. at 208 (WLAD
prohibits discriminatory impact and discriminatory
motivation is irrelevant); see also, Kaiser, 161
Wn.App. at 719 (“To prove that an act or practice is
deceptive, neither intent nor actual deception is
required. The question is whether the conduct has
“the capacity to deceive a substantial portion of the
public.”) (emphasis in original). The motivation for
discrimination or for unfair or deceptive conduct is

202a
limited only by the human condition, but is ultimately
irrelevant. Neither the WLAD nor the CPA restrict
conduct because of motivation, religious or otherwise.
“A law is not generally applicable when the
government, ‘in a selective manner[,] imposes[s]
burdens only on conduct motivated by religious
belief.” Stormans, Inc. v. Selecky, 586 F.3d 1109, 1134
(9th Cir. 2009) (quoting Lukumi, 508 U.S. at 543). For
the same reasons, because the WLAD and the CPA
apply to relevant conduct in reference to its effect, not
the motivation of the actor, both are generally
applicable. See RCW 49.60.010 (WLAD purpose
statement), see also Parker v. Hurley, 514 F.3d 87, 96
(1st Cir. 2008) (“The fact that a school promotes
tolerance of different sexual orientations and gay
marriage when such tolerance is anathema to some
religious groups does not constitute targeting” of the
religious groups), cert. denied, 555 U.S. 815 (2008).
The provisions of the WLAD and the CPA are clearly
rationally related to their goals of eliminating
discrimination and preventing unfair or deceptive
practices in commerce. Compare RCW 49.60.010
(WLAD purpose statement), with RCW 49.60.215(1)
(WLAD prohibitions creating right of action); and
compare RCW 19.86.920 (CPA purpose statement),
with RCW 19.86.020, 080(1) and .093 (CPA
prohibitions creating right of action for AG and
Individual Plaintiffs respectively). The argument to
the contrary is foreclosed by Burwell, where, Justice
Scalia, writing for the majority, found that the
interest of combatting discrimination in the area of
race to meet an even higher level of scrutiny as
follows:

203a
[t]he principal dissent raises the possibility
that discrimination in hiring, for example on
the basis of race, might be cloaked as
religious practice to escape legal sanction.
See post, at 2804-2805. Our decision today
provides no such shield. The Government has
a compelling interest in providing an equal
opportunity to participate in the workforce
without regard to race, and prohibitions on
racial discrimination are precisely tailored to
achieve that critical goal.
Burwell v. Hobby Lobby Stores, Inc., __ U.S. __, 134 S.
Ct. 2751, 2783, 189 L. Ed.2d 675 (2014) (italics
added). This is the latest in a long line of cases that
found the eradication of discrimination to be a
compelling state interest. Board of Directors of Rotary
International v. Rotary Club of Duarte, 481 U.S. 537,
549, 107 S. Ct. 1940, 95 L. Ed.2d 474 (1987) (finding
state public accommodation laws that combat gender
discrimination serve “compelling interest of the
highest order.”) (internal quotation and citation
omitted).
Defendants’ argument that the WLAD is not
neutral or generally applicable because it is “riddled”
with religious exemptions and because marriage laws
contain an exemption for ministers and religious
organizations with respect to same sex marriage is
unconvincing. RCW 26.04.010(4) and (5) simply say a
minister does not have perform a same sex wedding,
nor does a religious organization have to host one.
RCW 26.04.010(4) and (5). It does not say that
ministers or religious organizations are, if they get a
business license and run a public accommodation, are

204a
[sic] immune from the WLAD. The WLAD exempts a
“bone fide religious or sectarian institution” when it
runs an “educational facility,” but not a flower shop.
RCW 49.60.040(2). These exemptions for the clergy
and religious organizations are required, and the
WLAD remains neutral and generally applicable with
them. See Elane Photography, 309 P.3d at 74-75
(rejecting same argument); see also Hosanna-Tabor
Evangelical Lutheran Church and School v. E.E.O.C.,
565 U.S. __, 132 S. Ct. 694, 181 L. Ed.2d 650 (2012)
(Religious organizations exempt from some antidiscrimination laws so that they may choose own
leaders). The same is true of other exceptions, simply
by way of example, the fact that colleges may
designate dorms for members of one sex only do not
show hostility to or targeting of religiously motivate
conduct. See RCW 49.60.222(3); see also Elane
Photography, 309 P.3d at 74-75. Defendant again
mixes the distinction between belief and conduct,
clergy and laity, and the distinction between
accommodation and public accommodation, and as a
result cites to cases that are distinguishable on their
facts.
c.

Free Association

The result is no different if the asserted interest
is freedom of association. Even in private
organizations:
[i]nvidious private discrimination may be
characterized as a form of exercising freedom
of association protected by the First
Amendment, but it has never been accorded
affirmative constitutional protections.

205a
Hishon v. King & Spalding, 467 U.S. 69, 104 S. Ct.
2229, 81 L. Ed.2d 59 (1984) (quoting Norwood v.
Harrison, 413 U.S. 455, 470, 93 S. Ct. 2804, 37 L.
Ed.2d 723 (1973)).
d. Hybrid Right
Where a neutral and generally applicable law
applies not only to the Free Exercise Clause, but also
to other constitutional protections, such as freedom of
speech, a “hybrid rights” claim is presented, and any
such law must satisfy strict scrutiny. See Smith, 494
U.S. at 881 (citing Murdock v. Pennsylvania, 319 U.S.
105, 63 S. Ct. 870, 87 L. Ed.2d 1292 (1943)
(invalidating flat tax on solicitation as applied to the
dissemination of religious ideas)). Just as no such
claim was raised in Smith, there is no such claim
here. The WLAD in combination with the CPA does
not compel Stutzman or Arlene’s Flowers to offer any
goods or services, expressive or otherwise in trade or
commerce, it simply requires that any services
provided to one from a public accommodation be
provided to all. As the Court observed in Smith:
[o]ur cases do not at their farthest reach
support the proposition that a stance of
conscientious opposition relieves an objector
from any colliding duty fixed by a democratic
government.
Smith, 494 U.S. at 882 (quoting Gillette v. United
States, 401 U.S. 437, 461, 91 S. Ct. 828, 28 L. Ed.2d
168 (1971)). For a free exercise claim to be subject to
strict scrutiny on a “hybrid rights” claim, the
proponent must show “a likelihood…of success on the

206a
merits” of the free speech claim. San Jose Christian
College v. City of Morgan Hill, 360 F.3d 1024, 1032
(9th Cir. 2004). As indicated above, this the
Defendants have not done, the cases they cite are
distinguishable: they do not deal with public
accommodations or for the two public accommodation
(albeit
non-profit)
cases
cited,
they
are
distinguishable on their facts. See Boy Scouts of
America v. Dale, 530 U.S. 640, 120 S. Ct. 2446, 147 L.
Ed.2d 554 (2000) (New Jersey could not force group to
admit members they did not desire (gay members) to
join group); see also Hurley, 515 U.S. at 566 (State
could not force parade organizers to include gayrights organization in parade but could not prevent
gays or lesbians from marching in parade). Further,
both cases are distinguished by the later decided
cases of Rumsfeld25 and Martinez.26 However, as
indicated below, even if strict scrutiny applied to their
First Amendment claim, the WLAD and CPA would
survive. None of the claims in these two actions offend
free speech, free exercise or free association under the
First Amendment to the United States Constitution,
and thus the Defendants’ affirmative defense fails as
a matter of law.
See Rumsfeld, 547 U.S. at 69 (Holding that Congress may
require law schools to provide equal access to military recruiters
and distinguishing Dale as an instance where the State was
forcing Defendants “to accept members they did not desire.”)
25

Martinez, 561 U.S. at 689 (University student group’s
claim that it did not prohibit gay members, only those who
engaged in or supported same-sex intimacy rejected because
prior decisions “have declined to distinguish between status and
conduct in this context.”).
26

207a
3.

Violation Of Article I, Section 11
and Section 5 of Washington State
Constitution
As
Applied
To
Defendants’
Conduct
Through
Application of CPA And WLAD

Also both actions, Defendants assert as an
affirmative defense that the claims violate the
Washington Constitution. In the Answer to the AG’s
action, the affirmative defense is listed as follows:
6.7 As applied violation of Article I Section
11 of the Washington State Constitution.
Defendants’ Answer (13-2-00871-5) (AG Action), pg. 6,
para. 6.7. In the Individual Plaintiffs’ action, the
affirmative defense is raised, but the defense includes
two claims:
33. Justification: As applied violation of
Article I Section 11 and Article I, Section 5 of
the Washington State Constitution.
Defendants’ Answer (13-2-00953-3)
Action), pg. 6, para. 33.

(Individual

a. Free Exercise
While Article I, Section 11 provides broader
protection than the First Amendment, it also is not
without its limits. City of Woodinville, 166 Wn.2d at
642. As the AG and Individual Plaintiffs observe, the
distinction between freedom to believe, which is
absolute, and the freedom to act, which is not, is clear
in the text of the Washington State Constitution
itself:

208a
[a]bsolute freedom of conscience in all
matters of religious sentiment, belief and
worship, shall be guaranteed to every
individual, and no one shall be molested or
disturbed in person or property on account of
religion; but the liberty of conscience hereby
secured shall not be so construed to excuse
acts of licentiousness or justify practices
inconsistent with the peace and safety of the
state.
Wash. Const. Article 1, Section 11 (italics added).
Without explanation, the Defendants fail to include
the complete text, stopping at the word “worship.”
Unlike religious belief, religiously motivated action
(conduct) is subject to limitations when the state acts
pursuant to its police power. When the state acts
pursuant to its police power to prohibit conduct it
deems harmful to its citizens, the Court should not
substitute “[its] judgment for that of the [L]egislature
with respect to the necessity of these constraints.”27
Balzer, 91 Wn.App. at 60-61 (citing State v. Smith, 93
Wn.2d 329, 338, 610 P.2d 869 (1980)).
A party challenging government action must
show both a sincere belief and a substantial burden
upon free exercise as a result of the government
action. City of Woodinville, 166 Wn.2d at 642-43. The
AG and Individual Plaintiffs do not contest that
Stutzman has a sincerely-held religious belief, nor
The parties do not agree on the scope of the problem of
discrimination historically suffered by individuals as the result
of sexual orientation. But as Blazer makes clear, this is an issue
for the Legislative Branch.
27

209a
could they: the doctrinal statement of her church is
clearly delineated in the record, her actions are
entirely consistent therewith, and the Court should
not inquire further in the matter. See Backlund, 106
Wn.2d at 640 (“Courts have nothing to do with
determining the reasonableness of belief.”). They
argue in the alternative that the application of the
WLAD and CPA to her conduct does not constitute a
substantial burden on her exercise of religion, or if a
substantial burden exists, the WLAD and the CPA
are “a narrow means for achieving [Washington’s]
compelling goal” of eradicating discrimination in
public accommodations. City of Woodinville, 166
Wn.2d at 642-43.
All burdens are evaluated “in the context in which
[they arise]” which “necessarily encompasses impact
on others.” Id. at 6444 (healing the sick may be
connected to worship but “a church must still comply
with reasonable permitting process if it wants to
operate a hospital or clinic.”). “[T]he key question is
not whether a religious practice is inhibited, but
whether a religious tenet can still be observed.” State
v. Motherwell, 114 Wn.2d 353, 362-63, 788 P.2d 1066
(1990) (non-clergy counselors required to report
suspected child abuse); see also Backlund, 106 Wn.2d
632 (hospital may require physician to purchase
professional liability insurance despite his religious
objection). As the Court observed in Backlund:
Dr. Blacklund freely chose to enter the
profession of medicine. Those who enter into
a profession as a matter of choice, necessarily
face regulation as to their own conduct and
their
voluntarily
imposed
personal

210a
limitations cannot override the regulatory
schemes which bind others in that activity.
Backlund, 106 Wn.2d at 648 (italics added).
While the AG argues that neither the WLAD nor
the CPA constitute substantial burdens upon
Stutzman’s exercise of her religion, given that she
could simply have an employee perform the task, in
light of Burwell, which supports proposition that a
closely-held corporation can raise the free exercise
claim, and Backlund, which assumes that a
substantial burden exists when the exercise of a
licensed profession is contingent on compliance with
a rule requiring specific conduct, the Court will
assume for the purposes of analysis that a substantial
burden exists and the proposed alternative is not one
Stutzman must avail herself of because her closelyheld corporation may also advance her free exercise
rights. See Burwell, 134 S. Ct. at 2769-2772 (business
practices compelled or limited by tenets of a religious
doctrine fall within the understanding of the “free
exercise of religion” under Smith);28 see also

The AG points out that Article I, Section 11 guarantees
its protections to “every individual,” but not to corporations, and
that the Defendants have provided no Gunwall analysis in
support of an expansion of the right from the individual to the
closely-held corporation. State v. Gunwall, 106 Wn.2d 54, 720
P.2d 808 (1986). While true, Burwell states that the “lawful
purpose” which a corporation can pursue under a state’s
incorporation statues includes “pursuit of profit in conformity
with the owners’ religious principles.” Burwell, 134 S. Ct. at
2772. Like Hobby Lobby, Arlene’s Flowers is clearly a closelyheld corporation. Elane Photography, decided before Burwell,
28

211a
Backlund, 106 Wn.2d at 647 (“Further, the facts
demonstrate that the bylaw’s purpose could not be
achieved by any less drastic restriction of Dr.
Backlund’s First Amendment Rights.”).29 That said,
the AG and the Individual Plaintiffs make a
compelling case that the choice either to operate one’s
private business in a way inconsistent with one’s
religious beliefs, or forego 3% of gross profits is not the
sort of “gross financial burden” that violates free
exercise. First United Methodist Church of Seattle v.
Hearing
Examiner
for
Seattle
Landmarks
Preservation Board, 129 Wn.2d 238, 249, 916 P.2d 374
(1996) (historic landmark designation would reduce
value of church property by half). Without the
implication of a substantial burden in Backlund, the
AG and the Individual Plaintiffs would prevail on this
point, and Backlund is not without its challenges in
interpretation, given that First Amendment and
Article I, Section 11 are analyzed in the same manner
therein.
Even assuming a substantial burden, the AG and
the Individual Plaintiffs are correct that the
assumed without deciding that the corporation could exercise
first amendment rights. Elane Photography, 309 P.3d at 73.
The Court in Backlund applies both State and Federal
Constitutional protections of free exercise in the same manner,
noting in a footnote that the parties did not argue persuasively
for different applications, hence the reference to the First
Amendment. See Backlund, 106 Wn.2d at 639, FN 3. Here, the
parties have persuasively argued for different applications,
starting with City of Woodinville, 166 Wn.2d at 642 (Article I,
Section 11 provides “broader protection than the first
amendment to the federal constitution”).
29

212a
compelling interest test is met. Compelling interests
are “those government objectives based upon the
necessities of national or community life such as
threats to public health, peace, and welfare.” Balzer,
91 Wn.App. at 56 (citing Munns v. Martin, 131 Wn.2d
192, 200 (1997)). The Defendants’ claim that
“combatting discrimination” is too broad an interest
to be compelling. The Defendants are incorrect. The
State’s
compelling
interest
in
combatting
discrimination in public accommodations is well
settled. Rotary, 481 U.S. at 549 (finding this to be
“compelling interest of the highest order.”) (internal
quotation and citation omitted). The Supreme Court
stated over thirty years ago:
acts of invidious discrimination in the
distribution of publicly available goods,
services and other advantages causes unique
evils that government has a compelling
interest to prevent.
Roberts v. U.S. Jaycees, 468 U.S. 609, 628, 104 S. Ct.
3244, 82 L. Ed.2d 462 (1984). The Court found that
public accommodation laws protect a state’s citizens
from “a number of serious social and person harms,”
and characterized the injuries flowing therefrom as
“stigmatizing.” Roberts, 468 U.S. at 625; see also
Heckler v. Mathews, 465 U.S. 728, 739-40, 104 S. Ct.
1387, 79 L. Ed.2d 646 (1984)(discussing stigmatizing
injury as casting disfavored group as “innately
inferior.”) The language is consistent with that of
Rotary and Burwell, describing the goal of public
accommodation
laws
seeking
to
eradicate
discrimination as “plainly serv[ing] compelling
interests of the highest order.” Roberts, 468 U.S. at

213a
628. The WLAD, which gives rise to its own claim, and
the per se CPA claims here at issue, meets this test as
well:
[t]his court has held that the purpose of the
WLAD
–
to
deter
and
eradicate
discrimination in Washington – is a policy of
the highest order.
Fraternal Order of Eagles, Tenino Aerie No. 564 v.
Grand Aerie Fraternal Order of Eagles, 148 Wn.2d
224, 246, 59 P.3d 655 (2002).
All of the above cases, save Burwell, precede both
the 2006 amendment to the WLAD adding sexual
orientation as a protected class and Referendum
Measure 74 in 2012 approving same-sex marriage.
That said, the Court concludes there is no compelling
legal argument for a different result for the
Legislature’s decision to include the protected class of
sexual orientation. The Supreme Court struck down a
state’s attempt to remove protections from
discrimination based on sexual orientation as
violating equal protection almost 20 years ago. Romer
v. Evans, 517 U.S. 620, 629, 116 S. Ct. 1620, 134
L. Ed.2d 855 (1996) (“Amendment 2 bars homosexuals
from securing protections against the injuries that
these public accommodations laws address.”). Elane
Photography, 309 P.3d at 62. The case reached this
result under a cognate New Mexico antidiscrimination law, which, as indicated above, is not
meaningfully different that the WLAD.
The purpose statement of the WLAD invokes the
police power of the state when it declares the law’s

214a
purpose is to “protect the public welfare, health and
peace of the people of this state,” and further declares
that discrimination, including discrimination based
on sexual orientation “threatens not only the rights
and proper privileges of its inhabitants, but menaces
the institutions and foundations of a free democratic
state.” RCW 49.60.010. Free exercise expressly
excludes “practices inconsistent with the peace and
safety of the state.” Wash. Const. Article 1, Section 11.
In light of these legislative findings, “there is no
realistic or sensible less restrictive means” to end
discrimination in public accommodations than
prohibiting the discrimination itself, the Court should
not substitute “[its] judgment for that of the
[L]egislature with respect to the necessity of these
constraints.”30 Balzer, 91 Wn.App. at 65, 60-61 (citing
Smith, 93 Wn.2d at 338).
The Defendants claim that the WLAD is not
narrowly tailored because the State could achieve its
goals in other ways. Defendants propose an approach
to the issue of discrimination, where business would
be allowed to deny goods and services on the basis of
the sexual orientation, and such businesses would
simply refer that person to a non-discriminating
business. This rule would, of course, defeat the
purpose of combatting discrimination, and would
allow discrimination in public accommodations based
The parties do not agree on the scope of the problem of
discrimination historically suffered by individuals as the result
of sexual orientation. But as Blazer makes clear, this is an issue
for the Legislative Branch.
30

215a
on all protected classes, including race, and thereby
defeat the rule of Heart of Atlanta Motel, which
applied the Civil Rights Act of 1964 to public
accommodations under the Commerce Clause. Heart
of Atlanta Motel, Inc. v. United States, 379 U.S. 241,
250, 85 S. Ct. 348, 13 L. Ed.2d 258 (1964). Because
the Court is not to determine the reasonableness of
religious belief under Backlund, under Defendants’
argument the “Curse of Canaan” would stand as equal
justification31 for racial discrimination as does
Stutzman’s adherence to the Resolutions of the SBC
as a basis for refusing service to Ingersoll and Freed.
The Defendants during argument asked the Court not
to simply accept the “slippery slope” argument. But
Defendants’ own expert admits that their proposal
allows for religiously based racial discrimination in
public accommodations. Even without this admission,
there is no slope, much less a slippery one, where
“race” and “sexual orientation” are in the same
sentence of the statue, separated by only by three
terms: “creed, color, national origin…”. RCW
49.60.215. As the Court in Elane Photography
observed:
[s]uch an exemption would not be limited to
religious objections or to sexual orientation
discrimination; it would allow any business
in a creative or expressive field to refuse
The Court intends no disrespect and does not mean to
imply either that Stutzman possesses any racial animus, or that
she has conducted herself in any way inconsistently with
Resolutions of the SBC’s direction to condemn “any form of gaybashing, disrespectful attitudes, hateful rhetoric, or hate-incited
actions” toward gay men or women.
31

216a
service on any protected basis, including
race, national origin, religion, sex, or
disability.
Elane Photography, 309 P.3d at 72. The WLAD is
narrowly tailored to achieve its goals.
b. Free Speech
The Washington State Constitution provides as
follows:
Every person may freely speak, write and
publish on all subjects, being responsible for
the abuse of that right.
Wash. Const. Article 1, Section 5. While the Federal
and State Free Speech rights may be different in their
scope, the party wishing to argue for greater
protection under Article 1, Section 5 needs to make
that case. Bradburn v. North Central Regional
Library District, 168 Wn.2d 789 (2010). While it may
be true that greater protection is available under the
Washington State Constitution in some instance, “no
greater protection is afforded to obscenity, speech in
non-public forums, commercial speech, and false or
defamatory statements.” Bradburn, 168 Wn.2d at
800. Defendants have brought forward no argument
as to why the result here should not be the same as
that under the First Amendment, and thus the Court
makes the same ruling.
The AG and the Individual Plaintiffs are correct:
no Court has ever held that religiously motivated
conduct, expressive or otherwise, trumps state

217a
discrimination law in public accommodations. The
Defendants have provided no legal authority32 why it
should. The Defendants’ affirmative defense fails as a
matter of law.
4.

Violation of Equal Protection By
Selective Enforcement of CPA And
WLAD Upon Defendants’ Conduct

In the AG’s action only, the Defendants assert an
affirmative defense as follows:
6.8 Selective Enforcement in Violation of the
Fourteenth Amendment to the United States
Constitution.
Defendants’ Answer (13-2-00871-5) (AG Action), pg. 6,
para. 6.8. In a criminal context, a claim of selective
prosecution “asks a court to exercise judicial power
over a ‘special province’ of the executive.” United
States v. Armstrong, 517 U.S. 456, 464, 116 S. Ct.
1480, 134 L. Ed.2d 6787 (1996) (quoting Heckler v.
All of the parties have cited to various administrative
decisions addressing similar fact patterns, including the AG and
Individual Plaintiffs’ after-argument submission on February
12, 2015, of In Re Klein (d/b/a Sweetcakes), OR Bureau of Labor
and Industries, Case Nos. 44-14 and 45-14 (Interim Order –
Respondents’ Refiled Motion for Summary Judgment and
Agency’s Cross Motion for Summary Judgment, January 29,
2015 (available at http:/www.oregon.gov/boli/SiteAccess/pages/
press/BOLI%20Sweet%20Cakes%20In). Rather than listing all
such decisions cited by the parties, the Court would simply
observe that those administrative agencies passing upon the
merits of the claims ruled that violations of the applicable antidiscrimination laws had occurred and did not violate the rights
of the business owner.
32

218a
Chaney, 470 U.S. 821, 832, 105 S. Ct. 1649, 84 L.
Ed.2d 714 (1985)). The AG, by citing to this authority,
asserts [the] same is true here, where the AG is
authorized to act in the name of the people in a civil
context to prevent conduct. RCW 19.86.080(1) (AG
authority to act under the CPA). Defendants do not
assert otherwise in their response. A strong
presumption of regularity supports the AG’s actions
and “in the absence of clear evidence to the contrary,
courts presume that [the AG has] properly discharged
[his or her] official duties.” Armstrong, 517 U.S. at 464
(further quotation omitted).
Such a due process violation requires a defendant
to show “discriminatory effect and discriminatory
purpose.” State v. Terrovonia, 64 Wn.App. 417, 423,
824 P.2d 537 (1992) (defendant did not show prima
facie evidence of unconstitutional selective or
vindictive prosecution in for unlawful possession of
marijuana by a prisoner). Specifically, for selective
prosecution, a defendant must show “(1) disparate
treatment, i.e., failure to prosecute those similarly
situated, and (2) improper motivation of the
prosecution.” Terrovonia, 64 Wn.App. at 422 (quoting
Wayte v. United States, 470 U.S. 598, 602-03, 105 S.
Ct. 1524, 84 L. Ed.2d 547 (1985) (emphasis in
original)). Improper motive means “selection
deliberately based on ‘an unjustifiable standard such
as race, religion, or other arbitrary classification.’” Id.
(quoting State v. Judge, 100 Wn.2d 706, 713, 675 P.2d
219 (1984)). The Defendants simply cannot meet this
demanding standard. The first burden they face is
that, at the time of the filing of this action, the fact
pattern was novel: same-sex marriage had only been
the law, and thus part of the “bundle of rights” that

219a
related to sexual orientation, for approximately 4
months as of March 1, 2014. It is by definition difficult
to make a selective prosecution argument when you
allege that you are the “test case” for the application
of new law. Someone is always first and “selectivity”
in itself is not a constitutional violation: it is part of
the AG’s discretion to choose when to act. See, e.g.,
Terrovonia, 64 Wn.App. at 422 (quoting Oyler v.
Boles, 368 U.S. 448, 456, 82 S. Ct. 501, 7 L. Ed.2d 446
(1962)). As to improper motive for selection, it would
defeat the very purpose of statutes aimed at
combatting discrimination if the motivation behind
alleged discriminatory act supported a selective
prosecution claim. Everyone against whom the AG
institutes an action is “selected” in some sense, but
here no legally improper motive has been shown.
Defendants assert throughout their briefing that
they are only here because a then newly-elected
Attorney General saw an opportunity to make an
example out of Stutzman and Arlene’s Flowers by
pursuing this action. This is a political question, not
a question of fact material to the issue of selective
prosecution. Therefore, the Court finds that the
Defendants’ affirmative defense fails as a matter of
law, and that the AG is entitled to summary
judgment.

220a
5.

Application
of
Defense
of
Justification To Claims Under CPA
And
WLAD
As
Applied
To
Defendants’ Conduct

In both actions, Defendants assert an affirmative
defense titled “Justification.” The content is, however,
quite different between them. In the Answer to the
AG’s action, the affirmative defense is listed as follow:
6.9 Justification.
Defendants’ Answer (13-2-00871-5) (AG Action), pg. 6,
para. 6.9. In the Individual Plaintiff’s action,
additional context is provided:
33. Justification: As applied violation of
Article I Section 11 and Article 1, Section 5 of
the Washington State Constitution.
Defendants’ Answer (13-2-00953-3) (Individual
Action), pg. 6, para. 33. As the AG correctly observes
with respect to the proffered affirmative defense in its
action, the defense of justification is a general term
limited to criminal prosecutions, containing within it
the three justification defenses of self-defense, duress,
and necessity. See e.g., State v. Turner, 167 Wn.App.
871, 881, 275 P.2d 356 (2012) (self-defense); see also,
State v. Healy, 157 Wn.App. 502, 513, 237 P.3d 360
(2010) (duress); State v. Gallegos, 73 Wn.App. 644,
650, 871 P.2d 621 (1994) (necessity). In response,
Defendants do not provide any authority that the
defense of necessity has any application in a civil
context. Given the Defendants’ affirmative defense in
the individual action, where Defendants are

221a
represented by the same counsel, it appears that, by
justification, Defendants mean that their actions are
justified by the listed sections of the Washington
State Constitution. Therefore, the Court finds that
the Defendants’ affirmative defenses in both actions
fail as a matter of law, and that the AG and Individual
Plaintiffs are entitled to summary judgment because
either: 1) Justification [sic] is not an available defense
in a civil action; or 2) as applied to Defendant’s
conduct, this these actions do not violate either
Article I, Sections 11 or 5 of the Washington State
Constitution, as indicated above.
6.

Four Remaining Non-Constitutional Defenses In Individual
WLAD And CPA Actions

Many of the affirmative defenses pled by
Defendants were raised in both actions, using
substantially similar language. These actions having
been consolidated for pre-trial motion practice, both
Individual Plaintiffs and the AG are entitled to the
benefit of rulings. While not specifically addressed by
the parties, both parties in the Individual WLAD and
CPA claims appeared to assume the remainder of the
Defendants’ affirmative defenses are resolved by the
Court’s rulings in these and prior summary judgment
motions by the parties. For a total of four of these
affirmative defenses, it was not absolutely clear to the
Court as to whether this is the case. (Defendants’
Answer (13-2-00953-3), pg. 6, paras. 34-37 (listing
affirmative defenses of Failure to Mitigate Damages,
Estoppel, Waiver and Ratification, and Lack of
standing in regard to Curt Freed). Therefore, the
Court called for additional briefing from Defendants

222a
and the Individual Plaintiffs. Both parties have
responded.
The Individual Plaintiffs in their briefing agree
that neither party addressed either of the four
remaining affirmative defense in motion practice to
date. They argue, by analogy to Federal Civil Rule 56,
and case law interpreting it, that by moving for
summary judgment on liability, affirmative defenses
not specifically asserted by the Defendants are
thereby abandoned. Thus, as to the three affirmative
defenses not relating to a determination of damages
(“Failure to Mitigate Damages”) the Individual
Plaintiffs assert that they are entitled to summary
judgment. United States v. Mottolo, 26 F.3d 261, 263
(1st Cir. 1994) (citing United Mine Workers of America
1974 Pension v. Pittson Co., 984 F. 2d 469, 478 (D.C.
Cir. 1993)); Harper v. Del. Valley Broadcasters, Inc.,
743 F. Supp. 1076 (D. Del. 1990), affirmed by, 932
F.2d 959 (3rd Cir. 1991). Both parties agree that the
affirmative defense of “Failure to Mitigate Damages,”
is not before the Court, because the case has not yet
reached the damages phase. The Court agrees as well,
and will not address it. While the Individual Plaintiffs
make a compelling analogy to the federal rule, the
Court will nonetheless address the remaining three
affirmative defenses on the merits.
a. Estoppel
The affirmative defense includes additional
explanation:
35. Estoppel: Plaintiff’s [sic] actions and
omissions negate the relief requested.

223a
(Defendants’ Answer (13-2-00953-3), pg. 6, para. 35).
Defendants cite to an unpublished case, which this
Court may not consider. City of Cheney v. Bogle, 144
Wn.App. 1022 (2008) (unpublished). The Individual
Plaintiffs correctly list the elements of equitable
estoppel: (1) an admission, statement, or act
inconsistent with the claims afterwards asserted;
(2) action by the other party on the faith of such
admission, statement, or act; and (3) injury to such
other party resulting from allowing the first party to
contradict or repudiate such admission, statement, or
act. Dobrosky v. Farmers Insurance Company of
Washington, 84 Wn.App. 245, 256, 928 P.2d 1127
(1996). Defendants’ argument, without supporting
authority, seems to be that because Stutzman was
often asked to design arrangements for Ingersoll,
Ingersoll had an obligation to commit to asking for
only “sticks and twigs” at the outset of the request for
goods and services and communicate that specifically
up front, to prevent Stutzman from discriminating
against him. The Court believes that in this fact
pattern, the Individual Plaintiffs’ understanding of
collateral estoppel, that it would address the
consequences of an action taken by Ingersoll or Freed
after the refusal by Stutzman, is the more reasonable
interpretation. The Court finds this affirmative
defense fails as a matter of law, and grants summary
judgment in favor of the Individual Plaintiffs.
b. Waiver and Ratification
The affirmative defense is pled as it is in the
caption above:
36. Waiver and Ratification.

224a
(Defendants’ Answer (13-2-00953-3), pg. 6, para. 36).
The Defendants state they “no longer pursue this
defense.” Because it is in fact abandoned, the Court
grants summary judgment in favor of the Individual
Plaintiffs.
c.

Lack Of Standing In Regard To
Plaintiff Curt Freed

The affirmative defense is again pled as it is in
the caption above:
37. Lack of Standing in regard to Plaintiff
Curt Freed.
(Defendants’ Answer (13-2-00953-3), pg. 6, para. 37).
Defendants confirm that their arguments here are
those they made above: 1) that the case is the result
of a misunderstanding, and thus the refusal by
Stutzman should be discarded in favor of what she
might have done had she not immediately refused to
provide services for Ingersoll and Freed’s wedding,
and 2) that Ingersoll and Freed are not married, and
thus the case is moot. For the reasons listed above in
the Court’s discussion of Defendants’ Motion for
Summary Judgment Based On Plaintiffs’ Lack Of
Standing, the Court finds this affirmative defense
fails as a matter of law, and grants summary
judgment in favor of the Individual Plaintiffs.

225a
V. CONCLUSION
On the evening of November 5, 2012, there was
no conflict between the WLAD or the CPA and the
tenets of Barronelle Stutzman’s Southern Baptist
tradition. The following evening, after the passage of
Referendum 74, confirming the enactment of samesex marriage, there would eventually be a direct and
insoluble conflict between Stutzman’s religiously
motived conduct and the laws of the State of
Washington. Stutzman cannot comply with both the
law and her faith if she continues to provide flowers
for weddings as part of her duly-licensed business,
Arlene’s Flowers. While the percentage of her
business at issue is small, approximately three
percent, the AG and the Individual Plaintiffs do not
gainsay the fact of her religious convictions in relation
to these activities. The Defendants argue that these
causes of action on behalf of the Individual Plaintiffs
and the AG are novel and improper abridgements of
their right to free exercise of religion.
For over 135 years, the Supreme Court of the
United States has held that laws may prohibit
religiously motivated action, as opposed to belief. In
trade and commerce, and more particularly when
seeking to prevent discrimination in public
accommodations, the Courts have confirmed the
power of the Legislative Branch to prohibit conduct it
deems discriminatory, even where the motivation for
that conduct is grounded in religious belief. The
Washington Legislature properly invoked the police
power of the State in drafting the WLAD, a violation
of which is a per se violation of CPA in trade or
commerce. Article I, Section 11 of the Washington

226a
State Constitution expressly states that religiously
motivated conduct is limited by the police power of the
state. In so doing, the Legislature drafted a law that
does not violate either the United States Constitution
or the Washington State Constitution. Ingersoll and
Freed and the AG are entitled to rely upon these laws
passed by the Legislature of the State of Washington,
and confirmed through the vote of its citizens, to bring
their actions against the Defendants.
The Individual Plaintiffs and the AG have
standing to bring their actions based on the past
actions of the Defendants and the potential for future
violations. Defendants remaining affirmative defenses fail as a matter of law, and their admitted conduct
establishes their liability under the WLAD and CPA
as a matter of law. The Individual Plaintiffs and the
AG are therefore entitled to summary judgment on
their claims to the extent they have requested.
Accordingly, IT IS HEREBY ORDERED:
1.

Defendants’ Motion For Summary
Judgment Based On Plaintiff’s Lack Of
Standing is DENIED.

2.

Plaintiff State Of Washington’s Motion
For Partial Summary Judgment On
Liability And Constitutional Defenses is
GRANTED.

3.

Plaintiffs Ingersoll And Freed’s Motion
For Partial Summary Judgment is
GRANTED.

227a
4.

Summary Judgment in the remaining
Non-Constitutional Defenses in the
Individual WLAD and CPA actions are
GRANTED IN FAVOR OF PLAINTIFFS INGERSOLL AND FREED,
with the exception of the Affirmative
Defense of Failure to Mitigate Damages,
upon which RULING IS DEFERRED.

IT IS SO ORDERED.
DATED this 18th day of February, 2015.

ALEXANDER C. EKSTROM
Benton County Superior Court Judge

228a
IN THE SUPERIOR COURT OF THE STATE OF
WASHINGTON IN AND FOR THE COUNTY OF
BENTON
STATE OF
WASHINGTON,
Plaintiff,

No. 13-2-00871-5
(Consolidated with
13-2-00953-3

MEMORANDUM
DECISION AND
vs.
ORDER GRANTING
ARLENE’S FLOWERS, PLAINTIFF STATE OF
WASHINGTON’S
INC., d/b/a ARLENE’S
MOTION FOR PARTIAL
FLOWERS AND GIFTS,
SUMMARY
and BARRONELLE
JUDGMENT ON
STUTZMAN,
DEFENDANTS’ NONCONSTITUTIONAL
Defendants.
DEFENSES, DENYING
DEFENDANTS’ FIRST
ROBERT INGERSOLL
MOTION FOR
and CURT FREED,
SUMMARY
JUDGMENT AGAINST
Plaintiffs,
PLAINTIFF STATE OF
WASHINGTON, AND
vs.
DENYING IN PART
ARLENE’S FLOWERS, AND GRANTING IN
PART DEFENDANTS’
INC., d/b/a ARLENE’S
FLOWERS AND GIFTS, MOTION FOR PARTIAL
SUMMARY
and BARRONELLE
JUDGMENT ON
STUTZMAN,
PLAINTIFFS’ CLAIMS
Defendants. AGAINST
BARRONELLE
STUTZMAN IN HER
PERSONAL CAPACITY

229a
A motion hearing occurred in the above-captioned
matter on December 5, 2014, in Kennewick,
Washington. The Plaintiff, State of Washington, by
and through the Attorney General, was represented
through argument1 by Todd Bowers, Senior Counsel
and Kimberlee Gunning, Assistant Attorney General.
The Plaintiffs Robert Ingersoll and Curt Freed were
present, and were represented through argument by
Jake Ewart, of Hillis Clark Martin & Peterson, P.S.
The Defendants, Arlene’s Flowers, Inc., d/b/a/
Arlene’s Flowers and Gifts, and Barronelle Stutzman,
were present, represented by Alicia Berry, Liebler,
Connor, Berry & St. Hilaire, PS, through argument of
David Austin Robert Nimocks and Kristen Waggoner,
of Alliance Defending Freedom, appearing pro hac
vice.
Before the Court were three motions: 1) Plaintiff’s
(State of Washington’s) Motion For Partial Summary
Judgment On Defendants’ Non-Constitutional Defenses; 2) Defendants’ First Motion For Summary Judgment Against Plaintiff State of Washington; and
3) Defendants’ Motion For Partial Summary
Judgment on Plaintiff’s Claims Against Barronelle
Stutzman In Her Personal Capacity. At the motions
hearing, the Court heard argument from all parties
and took the motions under advisement. After further
consideration, the Court now grants, denies, and both
denies in part and grants in part these motions,
respectively.

Additional counsel assisted in preparation of the briefing
and declarations for both the Plaintiffs and Defendants.
1

230a
I. INTRODUCTION
A. Plaintiff’s Motion For Partial Summary
Judgment On Defendants’ Non-Constitutional Defenses
In Benton County Cause Number 13-2-00871-5,
the Attorney General (hereinafter AG), on behalf of
the Plaintiff State of Washington, has moved for
partial summary judgment, arguing that six of the
Defendants’ non-constitutional affirmative defenses
in their Answer2 fail as a matter of law, and must
therefore be dismissed. Those affirmative defenses
are as follows: 1) this Court has no subject matter
jurisdiction; 2) the AG has no standing to bring this
action on behalf of the State; 3) failure to state a claim
upon which relief can be granted; 4) the State has
failed to exhaust administrative remedies available
before the Human Rights Commission (hereinafter
HRC); 5) the bringing of this case frustrates the
purpose of the Washington Law Against
Discrimination (hereinafter WLAD); and 6) the HRC
is a necessary party to this case that the State failed
to join. Specifically, the AG alleges that these
defenses fail because they are contradicted by the
express language, structure and clear intent of the
The AG’s Complaint in Benton County Cause Number 132-00871-5 was filed on April 9, 2013. The Defendants’ Answer,
containing the affirmative defenses reference above, was filed on
May 16, 2013. A Complaint by the individual plaintiffs, Robert
Ingersoll and Curt Freed, in Benton County Cause Number 132-00953-3 was filed on April 18, 2013, to which the Defendants’
answered on May 20, 2013. These matters were previously
consolidated for consideration of these motions.
2

231a
WLAD and the Consumer Protection Act (hereinafter
CPA). The Defendants respond and allege that these
affirmative defenses are supported by the AG’s
practice of deferring to the HRC. The Defendants also
assert that there is clear legislative intent that the
HRC handle claims of discrimination in the first
instance. For the reasons set out below, the Court
concludes that the legislature intended to allow the
AG independent unfettered authority to bring this
action and therefore grants the AG’s motion.3
B. Defendants’ First Motion For Summary
Judgment Against Plaintiff State of
Washington
Also in Benton County Cause Number 13-200871-5, Defendants moved for summary judgment
alleging that, for the same reasons listed in their nonconstitutional defenses, the AG’s Complaint must be
dismissed. For the same reasons that the Court
grants the AG’s motion above, the Court denies the
Defendants’ motion.4

In reaching this conclusion, the Court reviewed and
considered the Plaintiff’s Motion For Partial Summary
Judgment On Defendant’s Non-Constitutional Defenses, filed
October 25, 2013, the Defendant’s Response To The State’s
Motion For Partial Summary Judgment On Defendants’ NonConstitutional Defenses, filed November 12, 2013 (along with
the Declaration of JD Bristol in support of the motion, filed the
same day), as well as Plaintiff’s Reply, filed December 1, 2014.
3

In reaching this conclusion, the Court reviewed and
considered the Defendants’ First Motion For Summary
Judgment Against Plaintiff State of Washington, filed October
25, 2013 (along with the Declaration of JD Bristol in support of
4

232a
C. Defendants’ Motion For Partial Summary Judgment On Plaintiff’s Claims
Against Barronelle Stutzman In Her
Personal Capacity
In both Benton County Cause Numbers 13-200871-5 and 13-2-00953-3 Defendants moved for
partial summary judgment, asking this Court to
dismiss both the AG and the Individual Plaintiffs’
claims against Barronelle Stutzman in her personal
capacity, as a corporate officer. Further, the
Defendants, in Benton County Cause Number 13-200953-3, ask the Court to rule that the Individual
Plaintiffs’ Second Case of Action, “aiding and
abetting” a violation of the WLAD, fails as a matter of
law. As to the first issue, both the AG and Individual
Plaintiffs respond that the plain language of both the
CPA and WLAD provide for both individual and
corporate liability, and that there is no need to “pierce
the corporate veil” to find individual liability for
Barronelle Stutzman in either matter. The Individual
Plaintiffs concede that one cannot aid and abet one’s
own actions, and that this cause of action should be
dismissed. For the reasons set out below, the Court
concludes5 that the Defendants’ reliance on theories
the motion, filed the same day), the State’s Response To
Defendants’ First Motion For Summary Judgment, filed
November 12, 2013 (along with the Declaration of Todd Bowers
in support of the motion, filed the same day), as well as the
Defendants’ Reply In Support of Defendants’ First Motion For
Summary Judgment Against Plaintiff, State of Washington,
filed December 1, 2014.
In reaching this conclusion, the Court reviewed and
considered the Defendants’ Motion For Partial Summary
Judgment On Plaintiffs’ Claims Against Barronelle Stutzman In
5

233a
of corporate officer liability in these matters is not
well founded, and that the clear language of the CPA
and WLAD supports both individual and corporate
liability in the first instance. The Court concludes
that the Defendants are correct that accomplice
liability is unavailable on these facts as a matter of
law, and therefore accepts the Individual Plaintiffs’
concession that the Second Cause of Action in Benton
County Cause Number 13-2-00953-3 must be
dismissed. The Court therefore denies in part and
grants in part the Defendants’ motion.
I. FACTUAL BACKGROUND
Defendant Barronelle Stutzman is the president,
owner and operator of Defendant Arlene’s Flowers,
Inc. d/b/a Arlene’s Flowers and Gifts. This closelyheld Washington for-profit corporation has Stutzman
and her husband as the sole corporate officers. From
its retail store in Richland, Washington, it advertises
and sells flowers and other goods to the public. The
Her Personal Capacity, filed October 25, 2013 (along with the
Declaration of Barronelle Stutzman and attachments thereto, as
well as the Declaration of Alicia Berry and attachments thereto),
Ingersoll and Freed’s Opposition To Defendant’s Motion For
Partial Summary Judgment On Plaintiffs’ Claims Against
Barronelle Stutzman In Her Personal Capacity, filed November
12, 2013, the State’s Response To Defendants’ Motion For
Partial Summary Judgment On Plaintiffs’ Claims Against
Barronelle Stutzman in Her Personal Capacity, filed November
12, 2013, Defendant’s Joint Reply Supporting Their Motion For
Partial Summary Judgment On Plaintiff’s Claims Against
Barronelle Stutzman In Her Personal Capacity, filed December
1, 2014, as well as Defendant’s Supplemental Brief Regarding
State v. Ralph Williams’ N.W. Chrysler Plymouth, Inc., 82
Wn.2d 265 (1973), filed December 18, 2014.

234a
company sells flowers for events including, among
others,
weddings.
The
company,
originally
incorporated in 1989, was previously owned and
operated by Stutzman’s mother, from whom she
purchased the corporation almost 13 years ago. The
corporation was and is licensed to do business in the
State of Washington.
Stutzman has a firmly-held religious belief, based
on her adherence to the principals of her Christian
faith, that marriage can only be between a man and a
woman. As a result, she believes that she cannot
participate in a same-sex wedding. Stutzman draws a
distinction between the provision of raw materials for
such an event (or even flower arrangements that she
received pre-made from wholesalers) and the
provision of flower arrangements that she has herself
arranged for the same event. Said more precisely,
Stutzman does not believe that she can, consistent
with tenants of her faith, use her professional skill to
make an arrangement of flowers and other materials
for use at a same-sex wedding. That which she
believes she cannot do directly she also believes she
cannot allow to occur on the premises of her company
with her knowledge. Therefore she believes she
cannot allow others in her employ to prepare such
arrangements in her company’s name. Stutzman
believes that such participation would constitute a
demonstration of approval for the wedding itself.
Plaintiff Robert Ingersoll is a gay man who was
an established customer of Arlene’s Flowers. During
the approximately nine years leading up to the
present action, Stutzman, on behalf of Arlene’s
Flowers, designed and created flower arrangements

235a
for Ingersoll. Stutzman prepared these arrangements
knowing both that Ingersoll was gay and that the
arrangements were for Ingersoll’s same-sex partner,
Curt Freed. On November 6, 2012, the voters
confirmed, through Referendum 74, the Legislature’s
earlier enactment of same-sex marriage. See Revised
Code of Washington (hereinafter RCW) 26.04.010(1)
(as amended by Laws of Washington 2012, Ch. 3, §
1(1)); see also, Referendum Measure 74, approved
Nov. 6, 2012. Shortly thereafter, Ingersoll and Freed
were engaged to be married.
On February 28, 2013, Ingersoll went to Arlene’s
Flowers to inquire about having Stutzman do the
flowers for his and Freed’s wedding. Stutzman was
not present, and an employee who spoke with
Ingersoll communicated the request to Stutzman.
After speaking with her husband, Stutzman decided
that she could not create arrangements for Ingersoll
and Freed’s wedding without violating her beliefs. On
March 1, 2013, Ingersoll returned to Alrene’s Flowers,
where Stutzman informed Ingersoll that because of
her beliefs, she could not do the flowers for his
wedding. Ingersoll left Arlene’s Flowers shortly
thereafter. This interaction effectively severed the
relationship between the parties and ultimately gave
rise to the present actions.6

The preceding is only a brief statement of the agreed facts
surrounding the interactions between Stutzman and Ingersoll in
March of 2013. A more detailed statement of these facts,
necessary to resolve the remaining motions of the parties heard
on December 19, 2014, will accompany that future Memorandum
Decision and Order.
6

236a
After efforts toward a negotiated resolution
between the AG and Defendants proved fruitless in
March and April of 2013, the AG commenced its
action in Benton County Cause Number 13-2-00871-5
by the filing of a Complaint on April 9, 2013. Therein,
the AG alleged a violation of the CPA, both under the
Act itself, and pursuant to the WLAD, a violation of
which is a per se violation of the CPA. Defendants’
Answer, containing the affirmative defenses that are
the subject of two of these pending motions, was filed
on May 16, 2013.
A Complaint by the Individual Plaintiffs, Robert
Ingersoll and Curt Freed, in Benton County Cause
Number 13-2-00953-3 was filed nine days later, on
April 18, 2013. The Individual Plaintiffs alleged three
causes of action: 1) Violation of the WLAD; 2) Aiding
and abetting a violation of the WLAD; and 3)
Violation of the CPA. Defendants answered on May
20, 2013. The cases were consolidated for
consideration of these motions by the previously
assigned judicial officer.
II. LEGAL BACKGROUND
A. The Consumer Protection Act (CPA)
The CPA provides:
[u]nfair methods of competition and unfair or
deceptive acts or practices in the conduct of
any trade or commerce are hereby declared
unlawful.

237a
RCW 19.86.010. The CPA, “on its face, shows a
carefully drafted attempt to bring within its reaches
every person who conducts unfair or deceptive acts or
practices in any trade or commerce.” Short v.
Demopolis, 103 Wn.2d 52, 61, 691 P.2d 163 (1984)
(italics in original).
In enacting the CPA, the Legislature sought “to
protect the public and foster fair and honest
competition.” RCW 19.86.920. Consistent with its
purpose, the Legislature has directed that the CPA
“shall be liberally construed that its beneficial
purposes may be served.” Id. This statement from the
Legislature “is a command that the coverage of [the
CPA’s] provision in fact be liberally construed and
that its exceptions be narrowly confined.” Vogt v.
Seattle-First National Bank, 117 Wn.2d 541, 552, 817
P.2d 1364 (1991). The statute’s purpose statement
concludes as follows:
[i]t is, however, the intent of the legislature
that this act shall not be construed to prohibit
acts or practices which are reasonable in
relation to the development and preservation
of business or which are not injurious to the
public interest, nor be construed to authorize
those acts or practices which unreasonably
restrain trade or are unreasonable per se.
RCW 19.86.920 (italics added).
Actions for alleged violations of the CPA may be
commenced by an individual or individuals. RCW
19.86.093. Individual plaintiffs must establish the
following elements to prove their case: “(1) an unfair

238a
or deceptive act or practice, (2) occurring in trade or
commerce, (3) affecting the public interest, (4) injury
to business or property, and (5) causation.” Panag v.
Farmers Ins. Co. of Wash., 166 Wn.2d 27, 37, 204 P.3d
885 (2009) (further citation omitted). While undefined
in the CPA, “[w]hether a particular act or practice is
‘unfair or deceptive’ is a question of law,” to be
determined by the Court. Panag, 166 Wn.2d at 47; see
also, State v. Schwab, 103 Wn.2d 542, 546, 693 P.2d
108 (1985). That said, certain acts or practices have
been declared by the Legislature to be per se
violations of the CPA, and “private litigants are
empowered to utilize the remedies provided them by
the act.” Schwab, 103 Wn.2d at 546-7.
Actions alleging violations of the CPA may also be
brought by the AG. RCW 19.86.080(1). The scope of
the AG’s authority to act under the statute is broad:
[t]he attorney general may bring an action in
the name of the state, or as parens patriae on
behalf of persons residing in the state,
against any person to restrain and prevent
the doing of any act herein prohibited or
declared to be unlawful…
Id. (italics added). Unlike an individual plaintiff, the
AG must establish only three elements: “(1) an unfair
or deceptive act or practice, (2) occurring in trade or
commerce, and (3) public interest impact.” See RCW
19.86.080(1); see also, State v. Kaiser, 161 Wn.App.
705, 719, 254 P.3d 850 (2011). In bringing actions
under the CPA, the AG’s role is different than that of
the private litigants:

239a
[t]he Attorney General’s responsibility in
bringing cases of this kind is to protect the
public from the kinds of business practices
which are prohibited by the statute; it is not
to seek redress or private individuals.
Where relief is provided for private
individuals by way of restitution, it is only
incidental to and in aid of the relief asked on
behalf of the public.
Seaboard Surety Co. v. Ralph Williams’ NW Chrysler
Plymouth (hereinafter Ralph Williams’ (I), 81 Wn.2d
740, 746, 504 P.2d 1139 (1973). The Legislature’s
declaration of per se violations of the CPA
“authorize[s]” the AG to bring actions under the CPA
for these acts or practices the Legislature declares as
per se unfair or deceptive. Schwab, 103 Wn.2d at 5467.7
B. The
Washington
Law
Discrimination (WLAD)

Against

The WLAD provides:
(1) [t]he right to be free from discrimination
because of race, creed, color, national
origin, sex, honorably discharged veteran
or military status, sexual orientation…is
recognized as and declared to be a civil

The Defendant objects that Schwab is dicta as to the interplay
of the CPA and WLAD, particularly on the issue of exhaustion.
As indicated below, the Court analyzes the exhaustion defense
under a different case.

7

240a
right. This right shall include, but not be
limited to:
…
(b)

The right to the full enjoyment of
any of the accommodations,
advantages, facilities, or privileges
of any place of public resort,
accommodation, assemblage, or
amusement…

RCW 49.60.030(1)(b) (italics added). The purpose
statement for the law states:
[the WLAD] is an exercise of the police power
of the state for the protection of the public
welfare, health, and peace of the people of
this state, in the fulfillment of the provisions
of the Constitution of this state concerning
civil rights. The legislature hereby finds and
declares that practices of discrimination
against any of its inhabitants because of
race, creed, color, national origin, families
with children, sex, marital status, sexual
orientation…are a matter of state concern,
that such discrimination threatens not only
the rights and proper privileges of its
inhabitants but menaces the institutions and
foundations of a free democratic state….
RCW 49.60.010. As with the CPA, the Legislature has
directed this Court that “[t]he provisions of this
chapter shall be construed liberally for the
accomplishment of the purposes thereof.” RCW

241a
49.60.020. The statute
discrimination as follows:

specifically

prohibits

(1) [i]t shall be an unfair practice for any
person or the person’s agent or employee to
commit an act which directly or indirectly
results in any distinction, restriction, or
discrimination…or
the
refusing
or
withholding from any person the
admission, patronage, custom, presence,
frequenting, staying, or lodging in any
place of public resort, accommodation,
assemblage, or amusement, except for
conditions and limitations established by
law and applicable to all persons,
regardless of race, creed, color, national
origin, sexual orientation…
RCW 49.60.215(1) (italics added).
The WLAD also created the Washington State
Human Rights Commission (HRC), which is
empowered, among other functions, to investigate
and pursue violations of the WLAD. See RCW
49.60.010 & .050 (creating the HRC); see also, RCW
49.60.120 (powers and duties of HRC). “Any person”
who claims a violation of the WLAD may file, either
in person or through an attorney, a complaint with
the commission. See RCW 49.60.230(1) (stating who
may file a complaint); see also, RCW 49.60.040(19)
(definition of “person”). The HRC may also issue a
complaint whenever it has reason to believe any
person is violating the WLAD. RCW 49.60.230(2).

242a
A person need not file a complaint with the HRC
before filing a separate action. Galbraith v. TAPCO
Credit Union, 88 Wn.App. 939, 948 n. 6, 946 P.2d 1242
(1997) (“The parties do not contend and we see
nothing in the statue that requires exhaustion of
administrative remedies with the Human Rights
Commission (HRC) prerequisite to filing a lawsuit
under the statute.”). Further, a person who files a
complaint with the HRC does not thereby lose their
right to file a separate action. See RCW 49.60.020
(“Nor shall anything herein contained be construed to
deny the right of any person to institute any action or
pursue any civil or criminal remedy based upon an
alleged violation of his or her civil rights.”); see also,
RCW 49.60.030(2) (providing right to seek injunction,
actual damages, attorneys’ fees, and “any other
appropriate remedy” authorized by WLAD). In fact,
the statute and the rules promulgated by the HRC
thereunder contemplate a person or the AG pursuing
a civil remedy and initiating or maintaining
proceedings before the HRC. The HRC’s rule
regarding concurrent remedies, promulgated under
the authority given to it by the Legislature, clearly
contemplates a stay of proceedings when any action is
filed that litigates the claim. See RCW 49.60.120(3)
(HRC authority to promulgate rules); and see,
Washington Administrative Code (hereinafter WAC)
162-08-062. The rule provides:
A complaint of an unfair practice other than
in real estate transactions will be held in
abeyance during the pendency of a case in
federal or state court litigating the same
claim, whether under the law of
discrimination or a similar law, unless the

243a
executive director of the commissioners
direct that the complaint continue to be
processed….
WAC 162-08-062(2) (Abeyance – General Rule). The
rule differentiates between the deference given to
cases filed in federal or state court, where the default
position is that HRC proceedings will be stayed, and
other administrative proceedings, where they will
not. Id. It does not distinguish between private actions and cases instituted by the AG.
C. Violation Of The Washington Law
Against Discrimination (WLAD) As A
Per Se Violation of the Consumer
protection Act (CPA)
The WLAD explicitly provides that a violation of
the WLAD is a per se violation of the CPA:
…any unfair practice prohibited by this
chapter which is committed in the course of
trade or commerce as defined in the
Consumer Protection Act, chapter 19.86
RCW, is, for the purpose of applying that
chapter, a matter affecting the public
interest, is not reasonable in relation to the
development and preservation of business,
and is an unfair or deceptive act in trade or
commerce.
RCW 49.60.030(3). Therefore, in addition to an
individual’s WLAD right of action,8 both the AG and
The AG has disclaimed a right of action under the WLAD
(including a right to file a complaint with the HRC in the first
8

244a
private individuals are authorized by the
Legislature’s designation of a WLAD violation as per
se violations of the CPA to file a CPA action. Schwab,
103 Wn2d at 546-7 (listing “discriminatory practices”
under the WLAD (RCW 49.60.030(3)) as example of
violations of other statutes that constitute per se
violations of the CPA).
III. ANALYSIS
A. Plaintiff’s (State of Washington’s)
Motion For Partial Summary Judgment
On Defendants’ Non-Constitutional
Defenses
In Benton County Cause Number 13-2-00871-5,
the AG has moved for partial summary judgment,
arguing that six of the Defendants’ non-constitutional
affirmative defenses in their Answer fail as a matter
of law, and must therefore be dismissed. Either party
may move for summary judgment upon their
assertion, supported by record, that there is “no
genuine issue as to any material fact and that the
moving party is entitled to judgment as a matter of
law.” Superior Court Civil Rule (hereinafter CR) 56(ac). Where there is a factual dispute that is material to
the resolution of the motion, the Court considers “all
facts submitted and all reasonable inferences from
the facts in the light most favorable to the nonmoving
instance). The AG has consistently asserted the CPA as its
source of authority to bring this action. The Defendants, at
argument, did not commit to the position that the AG has such
a right, rather arguing that the answer to that question is not
necessary for the Court to rule their favor.

245a
party.” Ward v. Coldwell Banker/San Juan
Properties, Inc., 74 Wn.App. 157, 161, 872 P.2d 69
(1994). Where there are no disputed facts, or the
factual dispute is not material and only issues of law
remain to be determined, summary judgment is
appropriate. See State Farm Ins. Co. v. Emerson, 102
Wn.2d 477, 480, 687 P.2d 1139 (1984); see also,
Clements v. Travelers Indemnity Co., 121 Wn.2d 243,
249, 850 P.2d 1298 (1993) (“A material fact is one
upon which the outcome of the litigation depends.”).
The Court concludes that this matter is appropriate
for summary judgment, as only questions of law
remain.
A court’s “‘fundamental’ objective when
interpreting a statute is ‘to discern and implement the
intent of the legislature.’” Estate of Bunch v. McGraw
Residential Center, 174 Wn.2d 425, 432, 275 P.3d
1119 (2012) (further citation omitted). When
interpreting a statute, courts “look first to the
statute’s plain meaning.” Carlsen v. Global Client
Solutions, LLC, 171 Wn.2d 486, 494, 256 P.3d 321
(2011). “Where the plain language of a statute is
unambiguous and legislative intent is apparent, [the
court] will not construe the statute otherwise.” Lowy
v. PeaceHealth, 174 Wn.2d 769, 778-79, 280 P.3d 1078
(2012). Plain meaning may be gleaned “from all that
the Legislature has said in the statute and related
statutes which disclose legislative intent about the
provisions in question.” Lowy, 174 Wn.2d at 778
(further citation omitted). It is “fundamental that in
construing any statute [the Court] avoid[s] absurd
results.” Id.

246a
Courts are to “give effect to each word in a statute
and will not adopt an interpretation that renders
words useless, superfluous, or ineffectual.” BD
Roofing, Inc. v. State of Wash. Dept. of L & I, 139
Wn.App. 98, 108, 161 P. 3d 189 (2007) (further
citation omitted). As indicated above, both the CPA
and the WLAD are to be construed liberally. See RCW
19.86.920 (CPA “shall be liberally construed that its
beneficial purposes may be served.”); see also, RCW
49.60.020 (“[t]he provisions of this chapter shall be
construed liberally for the accomplishment of the
purposes thereof.”). “Ultimately, in resolving a
question of statutory construction, [the] court will
adopt the interpretation which best advances the
legislative purpose.” Bennett v. Hardy, 113 Wn.2d
912, 928, 784 P.2d 1258 (1990); see also, Burnside v.
Simpson Paper Co., 123 Wn.2d 93, 99, 864 P.2d 937
(1994) (Court’s expansive interpretation of word
“inhabitant” in WLAD upheld because it “comport[ed]
with the purpose underlying the statute, to deter
discrimination.”).
1.

Subject Matter Jurisdiction Of The
Court To Hear The Case

The Defendants in their answer, assert their first
affirmative defense as follows:
6.1 Lack
of
Subject
Matter
Jurisdiction: The Superior Court does not
have a statutory grant of original jurisdiction
to hear complaints filed under RCW 49.60,
with specific limited exceptions that do not
apply to this case. Washington’s law against
discrimination under RCW 49.60.215 allows

247a
only (a) a private right of action in Superior
court, or (b) an administrative action brought
by the Washington Human Rights Commission.
Defendants’ Answer (13-2-00871-5), pg. 5, para. 6.1.
“Jurisdiction over the subject matter of an action
is an elementary prerequisite to the exercise of
judicial power.” In re Adoption of Buehl, 87 Wn.2d
649, 655, 555 P.2d 1334 (1976). Subject matter
jurisdiction “is the authority of the court to hear and
determine the class of actions to which the case
belongs.” Buehl, 87 Wn.2d at 655. The Washington
Constitution grants this Court broad authority to
hear all cases in equity and law for which jurisdiction
had not been vested exclusively in some other court.
Wash. Const. art IV, §6; see also, Ullery v. Fulleton,
162 Wn.App. 596, 603-4, 256 P.3d 406 (2011)
(contrasting jurisdiction of state superior courts with
federal courts). As the Defendants correctly indicate
in their affirmative defense, the WLAD allows only a
private right of action in this Court, or an
administrative action (brought by a person or the
HRC sua sponte), which can ultimately come to this
Court. See RCW 49.60.020 (individual right of action);
see also, e.g., RCW 49.60 (right of appeal from
administrative law judge’s order as part of HRC
procedure). The Defendants argue that this case was
brought under the WLAD, the AG has no right to
bring it, and thus this Court has no power to hear it.

248a
The AG responds that the Defendants are
mistaken as to the statute under which their case was
pled, pointing to the first paragraph of the AG’s
Complaint, which reads:
1.1 This Complaint is filed and these
proceedings are instituted under the
provisions of the Unfair Business PracticesConsumer Protection Act, 19.86.
AG’s Complaint (13-2-00871-5), pg. 1, para. 1.1. While
it is true that violation of the WLAD is a means of
proving some of the necessary elements of a CPA
claim, and thus must be pled, the Defendants have
provided no authority that a CPA claim is somehow
converted into another action when a per se violation
of another statute is pled as part of the CPA claim.
To hold as the Defendants suggest would
frustrate the purpose of both the CPA and the WLAD:
it would completely deny the AG, the sole government
agency entitled to enforce the CPA, the ability to
vindicate
the
public’s
interest
in
ending
discrimination declared by the Legislature to be a per
se unfair practice when committed “in the course of
trade or commerce.” RCW 49.60.030(3). Therefore, the
express language, structure and clear intent of both
the CPA and WLAD, leads to the conclusion that this
is and remains a CPA action. RCW 19.86.920
(Purpose statement and instruction that the CPA
“shall be liberally construed that its beneficial
purposes may be served.”); see also, RCW 49.60.010
(purpose statement); and see, RCW 49.60.020 (“[t]he
provisions of this chapter shall be construed liberally
for the accomplishment of the purposes thereof.”).

249a
Because this case is brought under the CPA, the AG
has the authority to bring the action, and thus the
Court has subject matter jurisdiction to hear the case.
See Ralph Williams’ (I), 81 Wn.2d at 744 (confirming
AG’s authority under RCW 19.86.080 and 19.86.140
to bring CPA action).
Existing case law supports this result. In
Tacoma-Pierce County MLS v. State, several boards of
realtors argued that the AG’s CPA complaint violated
the doctrine of exhaustion of remedies and the
doctrine of primary jurisdiction. Tacoma-Pierce
County MLS v. State, 95 Wn.2d 280, 622 P.2d 1190
(1980). The defendant’s argued that, because the
unfair practices alleged were subject to regulation by
the Real Estate Commission and the Department of
Licensing, those administrative bodies must first
have the opportunity to render decisions before the
AG could act. Tacoma-Pierce Co. MLS, 95 Wn.2d at
284. The Court there disposed of the exhaustion
argument, and began as follows:
[w]e disagree. This is an action under RCW
19.86 and involves violations of the
Consumer Protection Act.
Id. at 284. While the case involved a claim of failure
to exhaust and did not involve a per se violation of
another statute, the rational is equally applicable: an
action plead under RCW 19.86 is a CPA action, no
matter its underlying subject matter. Furthermore,
the AG has pled this case in the alternative, both as a
per se violation of the WLAD and as a generic
violation of the CPA. See AG’s Complaint (13-2-008715), pg. 4, para. 5.8. Thus, even if Court were

250a
persuaded by the Defendants’ argument as to the per
se claim, the generic CPA claim would survive. The
Defendants’ affirmative defense as to the per se
violation of the CPA fails as a matter of law.9
2.

Standing Of The AG To Bring The
Case

The Defendants’ next affirmative defense reads:
6.2 Lack of Standing: Standing
under RCW 19.86 cannot be used by the
State to apply to an alleged violation of RCW
49.60, without undermining the intent of the
legislature’s grant of enforcement power to
the Washington State Human Rights
Commission. While adjudication of a
violation under RCW 49.60 becomes a per se
violation of RCW 19.86 once proved, it is
improper for the State to prosecute a
violation of RCW 49.60 claiming standing
under RCW 19.86, without doing an “end
run” around the enforcement provision of
The AG argues in the alternative that, even if this were a
WLAD claim, the Court would have subject-matter jurisdiction,
citing Burnside v. Simpson Paper Co., 123 Wn.2d 93, 98-99, 864
P.2d 937 (1990). This solves one problem while creating another,
because the AG disclaims a right to file a complaint before the
HRC. The next question would then be how the AG would have
the right to bring its own WLAD claim on these facts. See, e.g.,
RCW 49.60.230(1) (stating who may file a complaint), RCW
49.60.020 (reservation of civil and criminal rights of a person),
and see RCW 49.60.040(19) (definition of “person”). As indicated
above, the Court concludes this is not a WLAD claim, but rather
a per se CPA claim.
9

251a
RCW 49.60. Moreover, Defendants allege
that the Washington Attorney General’s
Office does not have police power with
respect to either RCW 49.60, or RCW 19.86.
Therefore,
the
Washington
Attorney
General’s Office has no authority to act on
behalf of the State in any civil capacity
absent a complaint having been filed with
the Attorney General’s Office, or some other
State agency. Upon information and belief,
no complaint was ever filed in this case, with
any agency of the State of Washington,
including the Attorney General’s Office. For
these reasons, Plaintiff lacks standing to
bring this action.
Defendants’ Answer, pgs. 5-6, para. 6.2. The AG
asserts that the Defendants have mislabeled the
defense as one of standing, and that the Defendants
are in fact arguing 1) that the AG’s action undermines
the enforcement provision of the HRC, and 2) the AG
cannot bring this action under the CPA without the
filing of a consumer complaint. Before addressing
these two arguments, it is clear the AG has standing
to bring CPA actions, either as generic action or per
se action alleging a violation of the WLAD. See City of
Seattle v. State, 103 Wn.2d 663, 668, 694 P.2d 641
(1985) (basic test for standing “whether the interest
sought to be protected by the complainant is arguably
within the zone of interested to be protected or
regulated by the statute”); see also, Ralph Williams
(I), 81 Wn.2d at 744 (confirming AG’s authority under
RCW 19.86.080 and 19.86.140 to bring CPA action);
and see RCW 49.60.030(3) (violation of WLAD in
trade or commerce is per se violation of CPA).

252a
As to the first argument, that the AG’s action here
undermines the enforcement provisions of the HRC,
the AG properly points out the Legislature drafted the
WLAD to have multiple avenues to address
discrimination and is to be liberally construed. See
RCW 49.60.010, .020, and 030(3). As indicated above,
an individual may see redress through the
commission, an action under the WLAD, or a CPA10
action alleging a per se violation of the CPA due to a
violation of the WLAD. This CPA action by the AG,
based on a violation of the WLAD, which has as its
purpose the elimination of discrimination in trade or
commerce, is consistent with and furthers the intent
of both statutes.
The AG points out that both the elements of a
CPA action, and the potential remedies, are different
from those available under a WLAD action and a HRC
enforcement action. Compare RCW 19.86.080(1), with
both, RCW 49.60.030(3), and, RCW 49.60.250(3). The
AG is correct. The Court further concludes that if
RCW 49.60.020 (confirming the absolute right of an
individual to see criminal or civil remedies in lieu of
resort to the HRC) does not undermine the
enforcement provisions of the HRC, it is difficult to
see how the AG’s action here undermines the HRC
either.
As to the portion of the affirmative defense
alleging that the AG lacks standing or authority to file
its CPA action in the absence of a consumer
While the AG also filed a generic CPA action, the
Individual Plaintiffs appear to have relied on the per se violation
of the WLAD in their CPA action.
10

253a
complaint, because it lacks police power under the
statues in the first instance, both assertions fail as a
matter of law. First, both statutes make clear that
they are an exercise of police power. See RCW
49.60.010 (WLAD is an “exercise of the police power
of the state), see also, RCW 49.60.030(3) (violation of
WLAD in trade or commerce is per se violation of
CPA), and see RCW 19.86.090 (unfair or deceptive
acts or practices declared unlawful). Second, there is
no language within the CPA conditioning the AG’s
ability to prosecute upon the presence or absence of a
consumer complaint. To hold as Defendants suggest,
particularly in the absence of any such language in
the statute, would be to construe the statute against
its purpose without any basis. Burnside, 123 Wn.2d
at 99 (purpose of WLAD is “to deter discrimination.”).
The Defendants’ affirmative defense fails as a matter
of law.
3.

Failure To State A Claim Upon
Which Relief May Be Granted

The Defendants next assert as follows:
6.3 Failure to State a Claim Upon which
Relief can be Granted: For the reasons
articulated in paragraphs 6.1 and 6.2 above,
Plaintiff’s complaint fails to state a claim
upon which relief can be granted and should
be dismissed under Civil Rule 12(b)(6).
Defendants’ Answer, pg. 6, para. 6.3. Defendants
accurately cite the rule. CR 12(b)(6). That said, the
AG correctly points out that this affirmative defense
is, by its express terms, derivative of the first two

254a
affirmative defenses. Because the Court concludes the
first two affirmative defenses fail as a matter of law,
this affirmative defense must fail as well.
4.

Exhaustion Of Remedies By AG

The Defendant’s fourth affirmative defense
alleges:
6.4 Failure to Exhaust (or even initiate)
Administrative Remedies.
Defendants’ Answer, pg. 6, para. 6.4. As indicated
above, this is an action under the CPA, not the
WLAD. Tacoma-Pierce Co. MLS, 95 Wn.2d at 284. For
an alleged violation of the CPA, the Court need not
address exhaustion, because alleged violations of the
CPA are matters for the courts, not administrative
bodies. Id. (declining to address the elements of
exhaustion because “[v]iolations of the [CPA] are not
cognizable by either the Department of Licensing or
the Real Estate Commission, but rather by the
courts”).
The Defendants’ construction of the case is based
on the assumption that the AG’s CPA action is a
WLAD action, which Tacoma-Pierce Co. MLS flatly
rejects. Defendants contend that by pleading the CPA
by way of a per se violation of the WLAD, there is a
preliminary requirement to have fact finding done by
the HRC before the AG can pursue an action in court.
The Defendants reach this conclusion because the AG
is not specifically mentioned in RCW 49.60.030(2) as
a person with a retained right of a private action.

255a
The answer to the Defendants’ observation is that
the Legislature only clarifies that a conciliatory
remedy (here, resort to the HRC) does not limit other
rights when it provides that conciliatory remedy in
the first instance. The logical construction of the
statute is that the AG is not mentioned because the
remedy of the HRC as a complainant is not available
to the AG in the first instance. This is the case
because the AG has independent authority to bring
this action under the CPA, not as a private action but
rather on behalf of the public. See Ralph Williams (I),
81 Wn.2d at 746. As with the discussion of standing
above, to do as the Defendants suggest would be to
construe the statutes against their purpose of
deterring discrimination in trade or commerce,
without any textual support. Burnside, 123 Wn.2d at
99 (purpose of WLAD is “to deter discrimination.”).
Furthermore, it makes no sense to require such a
step when, for both the AG and the Individual
Plaintiffs, this Court is to determine as a matter of
law, based on the facts before it, “[w]hether a
particular act or practice is ‘unfair or deceptive’”.
Panag, 166 Wn.2d at 47. Creating such a
cumbersome,
delay-inducing
and
ultimately
irrelevant predicate fact-finding requirement for the
HRC from statutory silence would again be contrary
to the purpose statements and directions for the
construction to be given to the CPA and the WLAD.
It bears repeating: Defendants’ assertion that the
Legislature expressed concern that the AG might
subvert the HRC appears nowhere in either statute.
Restaurant Development, Inc. v. Cananwill, Inc., 150
Wn.2d 674, 682, 80 P.3d 598 (2003) (“…a court must

256a
not add words where the legislature has chosen not to
include them.”). The HRC’s own rulemaking belies
such a concern, deferring broadly to all matters filed
in court addressing an issue before it. See WAC 16208-062(2) (Abeyance – General Rule). Surely, even if
the Legislature had failed to express such a concern,
the HRC could and would have done so in their own
rules. The Defendants’ citations to other portions of
the WLAD, such as RCW 49.60.350, in which the AG
assists the HRC in its mission, do not compel the
conclusion that the AG has a dependent or secondary
role to the HRC. It simply confirms, given the purpose
of the statute, that the AG has multiple roles to play.
By the same token, Defendants’ citation to the portion
of the WLAD that grants authority to the HRC cannot
be read to strip the AG of its power to pursue this per
se violation: both in light of the delineation of those
functions, powers and duties in RCW 49.60.120 and
elsewhere in the WLAD, and again remaining
consistent with the purpose and liberal construction
to be given both statutes.
Even assuming, for the purposes of argument,
that the elements of exhaustion should be addressed
(perhaps because Tacoma-Pierce Co. MLS did not
involve a per se CPA claim), the result is the same.
The test for the application of the doctrine, requiring
a party to exhaust administrative remedies before a
court will intervene, is as follows:
(1) “when a claim is cognizable in the first
instance by an agency alone”; (2) when the
agency’s authority “‘establishes clearly
defined machinery for the submission,
evaluation and resolution of complaints by

257a
aggrieved parties’”; and (3) when the “relief
sought…can be obtained by resort to an
exclusive or adequate administrative
remedy”.
Tacoma-Pierce Co. MLS, 95 Wn.2d at 284 (further
citation omitted). Here, the first part of the test is not
satisfied, as the AG’s CPA11 claim is not cognizable in
any agency at all, much less the HRC in the first
instance or alone12. Because this is the case, the
second part of the test is not satisfied either. As to the
third part of the test, as the AG points out, civil
penalties are not available under the WLAD, thus the
third part of the test is not satisfied either. See RCW
49.60.250(5) (remedies available upon Administrative
Law Judge finding of violation of WLAD). Failure to
satisfy any part of the test prohibits application of the
doctrine of exhaustion. The primary case relied upon
by the Defendants in their argument is
The AG argues in the alternative that if this matter is
cognizable under the WLAD, there is no requirement for
exhaustion under that statute, either, citing to Cloer. Cloer v.
United Food & Commercial Workers Int’l Union, C05-1526JLR,
2007 WL 601426, at *3 (W.D. Wash., Feb. 22, 2007). As the
Defendants rightly point out, even assuming that this case is
properly considered at all by the Court, it deals only with
exhaustion of individual plaintiffs. Further, it is a Federal
District Court ruling, and would have no precedential value
upon other Federal District Courts on this issue. By analogy, it
would be as if the AG cited another Superior Court’s
Memorandum Order to this Court. As indicated earlier, the
Court concludes this is a CPA action.
11

Even WLAD claims are not “cognizable in the first
instance by [the HRC] alone” due to the individual right of
action.
12

258a
distinguishable in that it discusses administrative
remedies available through the City of Lakewood in
the context of a dispute regarding taxes paid by a
corporation, not an action under the CPA or WLAD.
Cost Management Services, Inc. v. City of Lakewood,
178 Wn.2d 635, 310 P.3d 804 (2013).
The Defendants’ attempt to invoke the doctrine of
“primary jurisdiction,” is similarly unavailing. First,
the Defendants did not plead it in their affirmative
defenses. Second, as will be discussed in the
Defendants’ First Motion below, they fail to meet this
test. See Tacoma-Pierce Co. MLS, 95 Wn.2d at 285
(discussing three-part test); and see, e.g., Washington
State Communication Access Project v. Regal
Cinemas, Inc., 173 Wn.App. 174, 202, 293 P.3d 413
(2013) (“no reason for lower court to apply the primary
jurisdiction doctrine and defer to the [HRC]” in
individual WLAD action).
Finally, the Defendants produced correspondence
that purports to be an admission by the AG that it
lacks the power to institute this action. Many of these
statements are clearly taken out of context (such as
when speakers or writers were discussing the WLAD
not the CPA). One item was a letter by a non-lawyer
member of the AG’s Office, which was modified from
the approved form without permission. These items
are not material facts. This is because “agencies do
not have the power to amend unambiguous statutory
language.” Caritas Services, Inc. v. Department of
Social and Health Services, 123 Wn.2d 391, 415, 869
P.2d 28 (1994). Said another way, the AG himself
could not defeat the existence of a legislatively

259a
granted power by denying its existence publicly. This
affirmative defense fails as a matter of law.
5.

AG’s Frustration Of Purpose Of
HRC By Bringing The Case

The Defendants’ fifth affirmative defense states:
6.5 Frustration of the Purpose of the enforcement provisions of RCW 49.60.
Defendants’ Answer, pg. 6, para. 6.5. As addressed in
discussion of the Defendants’ second affirmative
defense above, given the purpose statements of the
CPA and WLAD, it is difficult to see how the AG’s
action here undermines the HRC, when an
individual’s election to “bypasses” the HRC is made
part of the law itself. Statutes designed to combat a
legislatively declared harm are furthered, not
frustrated in their purpose, by allowing more avenues
for more parties to address and combat that harm.
The affirmative defense fails as a matter of law.
6.

Failure To Join HRC
Indispensable Party

As

An

The final non-constitutional affirmative defense
addressed in this motion is the last one listed by
Defendants:
6.10 Failure to Join Indispensable Party:
The only grant of original jurisdiction to the
Superior court for violation of RCW 49.60,
although inapplicable here, articulates that
a claim may be brought in Superior Court by
the Washington Human Rights Commission

260a
via the State Attorney General as counsel.
Therefore, it seems appropriate that any
action brought by the State Attorney General
to enforce the provision of RCW 49.60 should
be brought on behalf of the Washington
Human Right Commission.
Defendants’ Answer, pg. 7, para. 6.10 (italics in
original). CR 19 requires that:
(a) Persons to Be Joined if Feasible. A
person who is subject to service of process
and whose joinder will not deprive the court
of jurisdiction over the subject matter of the
action shall be joined as a part in the action
if (1) in his absence complete relief cannot be
accorded among those already parties….
CR 19(a). Again, because the Court finds that this is
an action brought under the CPA in which the HRC
plays no role, the HRC is not an indispensable party
under the rule. The presence or absence of the HRC
in no way limits this Court’s ability to provide relief
pursuant to the statute. See RCW 19.86.080
(discussing available relief upon finding of violation of
the statute). The rule further provides that a party is
indispensable when their absence prevents them from
protecting their interest in the subject matter, or
creates a risk of multiple or inconsistent obligations
as a result of proceeding without them. CR 19(a).
Here, the HRC remains free to initiate or pursue an
action. Further, the HRC has developed its own broad
rule reflecting a policy of deference to the filing of a
claim such as this by suspending HRC proceedings.
See WAC 162-08-062(2) (Abeyance – General Rule)

261a
(HRC proceedings “will be held in abeyance during
the pendency of a case in federal or state court
litigating the same claim, whether under the law of
discrimination or a similar law…”). Again, any
arguments as to the danger of inconsistent decisions
between the AG and the HRC are belied by the HRC’s
rule and the fact that this “danger” was clearly
embraced by the Legislature as to the Individual
Plaintiffs. This final affirmative defense fails as a
matter of law.
B. Defendants’ First Motion For Summary
Judgment Against Plaintiff State of
Washington
Also in Benton County Cause Number 13-200871-5, the Defendants have moved for summary
judgment alleging that, for the same reasons listed in
two of their non-constitutional defenses, the AG’s
Complaint must be dismissed. Again, either party
may move for summary judgment. CR 56(a). Where
there is a factual dispute that is material to the
resolution of the motion, the Court considers “all facts
submitted and all reasonable inferences from the
facts in the light most favorable to the nonmoving
party.” Ward v. Coldwell Banker/San Juan
Properties, Inc., 74 Wn.App. at 161 (1994). Where
there are no disputed facts, or the factual dispute is
not material and only issues of law remain to be
determined, summary judgment is appropriate. See
State Farm Ins. Co. v. Emerson, 102 Wn.2d at 249 (“A
material fact is one upon which the outcome of the
litigation depends.”). The Court concludes that this
matter is appropriate for summary judgment. To the
extent that there are disputes regarding the effect of

262a
the AG’s actions and written documents upon its
authority to bring this action, they are not material
factual disputes in light of existing case law, and only
questions of law remain.
This Court must interpret the relevant statutes
“to discern and implement the intent of the
legislature.” Estate of Bunch v. McGraw Residential
Center, 174 Wn.2d at 432. When interpreting a
statute, courts “look first to the statute’s plain
meaning.” Carlsen v. Global Client Solutions, LLC,
171 Wn.2d 486, 494, 256 P.3d 321. “Where the plain
language of a statute is unambiguous and legislative
intent is apparent, [the court] will not construe the
statute otherwise.” Lowy v. PeaceHealth, 174 Wn.2d
at 778-79. The Legislature has directed that both the
CPA and the WLAD are to be construed liberally. See
RCW 19.86.920. (the CPA “shall be liberally
construed that its beneficial purposes may be
served.”); see also, RCW 49.60.020 (“[t]he provisions
of this chapter shall be construed liberally for the
accomplishment of the purposes thereof.”). This Court
is to “adopt the interpretation which best advances
the legislative purpose.” Bennett, 113 Wn.2d at 928.
Here, as is the case in the motion above, rather than
addressing all six of the affirmative defenses in its
answer to the AG’s complaint, the Defendants
address two of the six, and raise a third.
1.

Standing Of The AG To Bring The
Case

The Defendants assert that the AG has, for over
30 years, “refused to address discrimination
complaints,” and has instead deferred to the HRC.

263a
The Defendants further assert that this deference is
required by the WLAD. As to the assertion that the
AG has never filed a CPA action premised on a per se
violation of the WLAD, the AG concedes the point.
However, as the AG correctly points out, the fact that
this is the first such action filed by the AG is not a bar
to the present action. Whether the argument is that
the failure to exercise a power results in it being lost,
or that that failure leads those who may be in
violation of the law to believe the law will not be
enforced, the results is the same: the power remains.
In Longview Fibre, that company made just such an
argument, saying this long history of operating
scrubbers with holes “lulled” them into believing that
they were “satisfying [their] legal obligation.”
Longview Fibre Co. v. Department of Ecology, 89
Wn.App. 627, 636, 949 P.2d 851 (1998). The Court
then stated:
[b]ut the holes that DOE had discovered
earlier were substantially smaller than those
at issue here, and Longview Fibre had
promptly repaired them. Further, an
administrative agency’s acquiescence at an
earlier time does not estop it from enforcing
the law at a later date.
Longview Fibre Co., 89 Wn.App. at 636-37 (italics
added); see also, Good v. Associated Students Of
University Of Washington, 86 Wn.2d 94, 765-66, 542
P.2d 762 (1975) (“Failure to exercise a power which is
statutorily vested in a body…does not mean that the
power does not exist.”). Were this not the rule the acts
(or non-action) of one AG could defeat the intent of the
Legislature to grant of authority to that AG as well as

264a
to his or her successor. The rationale is the same as
not allowing a legislative granted power to be
destroyed by the statements of the holder of that
power. Caritas Services, Inc., 123 Wn.2d at 415.
Further, as the AG observes, this enforcement
authority delegated to it by the Legislature is given
great deference in when and where it is exercised. See,
e.g., State v. Lewis, 115 Wn.2d 294, 299, 797 P.2d 1141
(1990) (discussing prosecutorial discretion). Said
another way, the fact that this is the first such CPA
action, when the AG has declined to take action on
other similar complaints since sexual orientation
discrimination was added to the WLAD in 200613 has
no legal significance: the AG gets to pick when and if
to file based on the AG’s determination of the public
interest and the AG’s assessment of the strength of
each case.
The Defendants cite to four AG opinions from
prior AGs, ranging from 1975 to 2002, asserting that
they demonstrate the AG’s deference to the HRC’s
role in defining and determining what constitutes
discrimination under the WLAD. When read in
context, none of the opinions support such a

While the failure of past AGs to file this type of action are
not legally significant, it is worthy of note that the current AG
assumed office on January 16, 2013. While sexual orientation
has been part of the WLAD since 2006, same-sex marriage was
approved on November 2, 2012, so this particular cause of action
was only factually available for approximately five months
before these charges were filed. In fact, the Defendants employ
the recent change in the state of the law in their argument
regarding personal liability for Stutzman, below.
13

265a
conclusion.14 But assuming for the purposes of
argument that they did, this would still not raise an
issue of material fact, because the holder of a
legislative grant of power cannot destroy it through
his or her own statements. Caritas Services, Inc., 123
Wn.2d at 415.
The Defendants also assert that the AG is
required to defer to the HRC in a per se CPA action
where discrimination is alleged. The Defendants cite
to RCW 49.60.120(4), for the proposition that the
Legislature has “established the WHRC to review and
pass upon a discrimination claim on behalf of the
State as an ‘unfair act or practice’ as defined in the
WLAD.” RCW 49.60.120(4) (stating among HRC
powers “[t]o receive, impartially investigate, and pass
upon complaints alleging unfair practices as defined
in this chapter.”). As indicated above, the Defendants
read the HRC’s separate conciliatory role as defeating
the AG’s independent enforcement role, and in this
the Defendants are mistaken. The AG has independent authority to bring an action under the CPA
based on a per se violation of the WLAD, consistent
with the required liberal constructions of both
statutes to achieve their purpose of deterring discrimination in trade or commerce. RCW 19.86.080(1) gives
the AG authority to file the CPA action, while RCW
Further, as the AG notes, the language in one of the cases
cited therein, Loveland v. Leslie, 21 Wn.App. 84, 88, 583 P.2d 664
(1978) doesn’t stand for the proposition that the HRC’s
“reconciliatory efforts” are jurisdictional, preventing the AG
from acting. Rather, it holds that the HRC itself needs to follow
its own rules requiring good faith efforts at reconciliation and
those rules are jurisdictional as to the HRC’s own decisions.
14

266a
49.60.030(3) declares discrimination in trade or
commerce a per se violation of the CPA. As the AG
points out, had the Legislature wanted the WLAD to
limit the AG’s authority in what it had announced
was “a matter of state concern,” surely it could and
would have done so in RCW 49.60.030(3). Clearly it
did not.
The cases cited by the Defendants do not hold
otherwise. Hegwine v. Longview Fibre Co., is limited
in pointing out the degree of deference that is given
by this Court to regulations (WACs) created by the
HRC. Hegwine v. Longview Fibre Co., 162 Wn.2d 340,
349, 172 P.3d 688 (2007). There deference is given
only when the HRC’s interpretations do not conflict
with the Legislature’s intent in enacting the WLAD.
Hegwine, 162 Wn.2d at 349 (“Moreover, so long as the
Commission’s interpretations do not conflict with the
legislative intent underlying the WLAD, this court
will often give ‘great weight’ to those interpretations.”). The case says nothing about restricting the
AG. The WLAD grants general jurisdiction to the
HRC, but does not grant it exclusive jurisdiction, with
powers, but not the sole power to combat
discrimination. See RCW 49.60.010. The Legislature’s
scope of powers granted to the HRC are consistent
with that of an administrative body charged with,
among other powers, investigation, mandatory efforts
toward conciliation, administrative fact finding and
administrative remedies. See RCW 49.60.050 et. seq.
Nowhere therein is there any indication express or
implied, that the HRC gets to order the AG to do
anything, particularly when it acts under its CPA
authority. By way of example, the Defendants cite to
RCW 49.60.340(1) and (2), as an example of how the

267a
AG’s role is to validate the HRC’s action. Therein, an
aggrieved individual in a real estate transaction,
where the HRC has found “reasonable cause” for
discrimination may institute a civil action by
providing notice to the HRC. The Defendants make
much of the fact that, upon election by the aggrieved
person, the AG “shall” commence a civil action on that
person’s behalf. See RCW 49.60.340(2). The
Defendants fail to recite that the HRC also “shall” act
upon notice by the aggrieved person, and authorize
the action within 30 days. See RCW 49.60.340(2). No
timeframe is given for the AG to act. Id. These
provisions simply stand for the proposition that when
an individual has gone through the HRC’s process in
a real estate matter, and has a finding in their favor,
that person can require both the HRC and the AG to
institute an action in court.
The HRC has no independent authority to file a
case in court. It is dependent upon the AG to get it
there, and it only gets to go to court where the
Legislature had deemed it necessary. Nothing in this
structure of the WLAD implies that the HRC controls
the AGs actions when the AG brings a CPA case with
an allegation of discrimination. The Defendants make
the AG’s point when they observe the “[n]othing about
this conciliatory administrative process, which the
Legislature entrusted to the WHRC, is even remotely
similar to the general prosecutorial function that the
Legislature assigned to the Attorney General under
the CPA.” For these reasons, and those relating to the
purpose and construction of both statutes indicated
above, the Defendants’ affirmative defense fails as a
matter of law.

268a
2.

Exhaustion Of Remedies By AG

As indicated above, this is an action under the
CPA, not the WLAD, and thus the doctrine of
exhaustion of remedies is inapplicable. TacomaPierce Co. MLS, 95 Wn.2d at 284. The Defendants
next attempt to invoke the doctrine of “primary
jurisdiction.” There are two barriers to applying this
doctrine in this case.
First, the Defendants did not plead primary
jurisdiction in their affirmative defenses. See
Defendants’ Answer (13-2-00871-5), pgs. 5-7, paras.
6.1-6.10. Second, they fail to meet this three-part test.
To apply the doctrine the court must find:
(1) The administrative agency has the
authority to resolve the issues that would be
referred to it by the court. In the case of
antitrust actions, the statutory authority of
the agency in some [w]ay must limit the
applicability of the antitrust laws;
(2) The
agency
must
have
special
competence over all or some part of the
controversy which renders the agency better
able than the court to resolve the issues; and
(3) The claim before the court must involve
issues that fall within the scope of a
pervasive regulatory scheme so that a danger
exists that judicial action would conflict with
the regulatory scheme.
Tacoma-Pierce Co. MLS, 95 Wn.2d at 285 (citations
omitted). Again, as with the discussion of exhaustion,
the HRC has no authority to resolve a CPA claim and

269a
only the AG is empowered to act. For the same reason,
the second and third parts of the test are not satisfied
either. Finally, even if this were a WLAD action,
primary jurisdiction would be unavailable. See, e.g.,
Washington State Communication Access Project v.
Regal Cinemas, Inc., 173 Wn.App. 174, 202, 293 P.3d
413 (2013) (“no reason for lower court to apply the
primary jurisdiction doctrine and defer to the [HRC]”
in individual WLAD action).
It makes no sense to have the AG’s exercise of
police power dependent upon the HRC’s distinctly
different conciliation process. At argument,
Defendants did not commit to whether the AG had
independent power to access this HRC fact-finding
process and did not describe how the AG would get
approval from the HRC to institute an action. Their
argument that the existence of the HRC completely
vindicates the State’s interest in this area is belied by
the purpose and construction of both the CPA and the
WLAD.
C. Defendants’
Motion
For
Partial
Summary Judgment On Plaintiffs’
Claims Against Barronelle Stutzman In
Her Personal Capacity
Where there are no disputed facts and only issues
of law remain to be determined, summary judgment
is appropriate. See Emerson, 102 Wn.2d at 480; see
also, Clements, 121 Wn.2d at 249. In both Benton
County Cause Numbers 13-2-00871-5 and 13-200953-3, claims are made against Defendant
Barronelle Stutzman in her personal capacity. In
Benton County Cause Number 13-2-00953-3,

270a
Individual Plaintiffs’ Second Cause of Action, alleges
“aiding and abetting” a violation of the WLAD. As to
both claims addressed in this motion, the parties
agree that summary judgment is appropriate. The
parties agree that Defendant Barronelle Stutzman is
the president, owner and operator of Defendant
Arlene’s Flowers, Inc. d/b/a Arlene’s Flowers and
Gifts. The parties also agree that Ms. Stutzman and
her husband are the sole corporate officers and that
the company was and is licensed to do business in the
State of Washington. Further, the parties agree that
Stutzman has maintained the corporate form.
Finally, the parties also agree that, on March 1, 2013,
it was Stutzman who informed Ingersoll that because
of her beliefs, she could not do the flowers for his
wedding. There are no material factual disputes and
only questions of law remain.
The duty of this Court remains the same: “to
discern and implement the intent of the legislature.’”
Estate of Bunch, 174 Wn.2d at 432. The legislature
has directed that both the CPA and the WLAD are to
be construed liberally to fulfill their purposes. See
RCW 19.86.920; see also, RCW 49.60.020.
1.

Personal Liability of Defendant
Barronelle Suzan

The Defendants observe that Washington law
provides broad protection for corporate officers in
their personal capacity, honoring the corporate form
and prohibiting suits against corporate officers absent
exceptional circumstances, such as when a corporate
officer
knowingly
engages
in
fraud,
misrepresentation, or theft. Because there is no such

271a
claim on behalf of the AG or the Individual Plaintiffs,
Defendants argue that Stutzman cannot be found
personally liable as a corporate officer of Arlene’s
Flowers as a matter of law. Therefore, Defendants’
argue that, while the claim against Arlene’s Flowers
survives, the claim against Stutzman herself must be
dismissed.
The rule regarding respect for the corporate form
is well-settled:
[w]hen the shareholders of a corporation,
who are also the corporation’s officers and
directors, conscientiously keep the affairs of
the corporation separate from their personal
affairs, and no fraud or manifest injustice is
perpetrated upon third-persons who deal
with the corporation, the corporation’s
separate entity should be respected.
Grayson v. Nordic Construction Co., 92 Wn.2d 548,
552-53 (1979). Further, as the Court in Grayson
observed, “a corporation’s separate legal identity is
not lost merely because all of its stock is held by
members of a single family or by one person.”
Grayson, 92 Wn.2d at 552. The corporate form will be
disregarded, and the court will “pierce the corporate
veil,” in several instances: when the corporate form is
disregarded, such that it can be said that the
corporation ceases to exist (the “alter ego” theory), or
the above mentioned manifest injustice/fraud
exception. Id. at 552-53. The Defendants argue that,
because there is no “fraud, misrepresentation, or
some form of manipulation of the corporation,” the
corporate form should be respected. Meisel v. M&N

272a
Modern Hydraulic Press Co., 97 Wn.2d 403, 410
(1982). Defendants argue that, because the AG and
the Individual Plaintiffs cannot show that Stutzman
knowingly violated the law (in part because same-sex
marriage was only approved by Measure 74 on Nov.
6, 2012, less than four months before these events)
personal liability is improper.
Both the AG and the Individual Plaintiffs respond
that this argument misses the point: “piercing the
corporate veil” is unnecessary, because the relevant
statutes impose liability based on Stutzman’s
participation in the conduct. They both observe that
the Defendants’ own case, Grayson, makes this point:
[a]lthough the trial court improperly pierced
Nordic’s corporate veil on the alter ego
theory, we nonetheless find that personal
liability was properly imposed on Bergstrom
under the rule enunciated in State v. Ralph
Williams’ North West Chrysler Plymouth Inc.
[Ralph Williams’ III], 87 Wash.2d 298, 553
P.2d 423 (1976). If a corporate officer
participates in wrongful conduct or with
knowledge approves of the conduct, then the
officer, was well as the corporation, is liable
for the penalties. State v. Ralph Williams’
North West Chrysler Plymouth Inc., supra;
Johnson v. Harrigan-Peach Land Dev. Co.,
79 Wash.2d 745, 489 P.2d 923 (1971). In
Ralph Williams, this court considered a
deceptive practice in violation of the
Consumer Protection Act to be a type of
wrongful conduct which justified imposing

273a
personal liability
corporate officer.

on

a

participating

Grayson, 92 Wn.2d at 553-4. Both in Ralph Williams’
(III) and in Grayson, piercing the corporate veil was
unnecessary to find individual liability. This is the
case because of the structure of the CPA, which by
definition imposes liability upon the corporation and
the individual as alleged in these actions. The WLAD
is also similarly broad in scope.
The CPA includes both individuals and corporations within its reach. See RCW 19.86.080 (AG may
bring action “against any person”); see also, RCW
19.86.010(1) (“‘Person’ shall include, where
applicable, natural persons, corporations….”). The
scope of liability in the WLAD is also broad. See RCW
49.60.040(19) (defining “person” to include “one or
more individuals…corporations…it includes any
owner, lessee, proprietor, manager, agent or
employee…”)
(italics
added);
see
also,
RCW49.60.215(1) (“It shall be an unfair practice for
any person or the person’s agent or employee to commit
an act which directly or indirectly results in any
distinction, restriction, or discrimination…” (italics
added). The liberal construction to be given these
terms to eliminate all forms of discrimination is
driven home by case law: as where the term
“employer” was broadly construed to include “both the
individual supervisor who discriminates and the
employer for whom he or she works.” Brown v. Scott
Paper Worldwide Co., 143 Wn.2d 349, 354-57, 20 P.3d
921 (2001) (holding individual supervisor liable under
WLAD).

274a
Further, both Plaintiffs respond that knowing or
intentional discrimination is not necessary for
liability under either statute. Plaintiffs are correct.
See Wine v. Theodoratus, 19 Wn.App.700, 706, 577
P2d 612 (1978) (CPA “does not require a finding of an
intent to deceive or defraud,” and “good faith on the
part of the [violator] is immaterial”); see also Lewis v.
Doll, 53 Wn.App. 203, 210, 765 P.2d 1341 (1989) (“Nor
is the fact that [defendant] did not intend a
discriminatory effect relevant.”) (WLAD cause of
action). Finally, as admitted by Stutzman, she not
only participated in the conduct alleged, her own
personal actions (in defining corporate policy and in
her interaction with Ingersoll) constitute the sum
total of the conduct complained of by Plaintiffs. The
Defendants’ motion for partial summary judgment is
denied in part as to Plaintiffs’ claims against
Barronelle Stutzman in her personal capacity.
2.

Aiding and Abetting Liability of
Defendant Barronelle Stutzman

As to Benton County Cause Number 13-2-009533, Defendants contest the validity of the Individual
Plaintiffs’ Second Cause of Action, which alleges
“aiding and abetting” an act in violation of the WLAD.
As Defendants observe, the only act alleged therein is
the refusal15 to sell flowers to the Individual Plaintiffs
by Stutzman:

The Defendants characterize this as “declining” to
provide services. While each party is free to choose its own
descriptors, legally this is a distinction without a difference: the
focus is on the actual conduct of the parties.
15

275a
27. Because she refused to sell flowers to
Mr. Ingersoll and Mr. Freed for their
wedding, defendant Barronelle Stutzman
aided Arlene’s Flowers in violating the
Washington Law Against Discrimination by
discriminating against the Plaintiffs on the
basis of their sexual orientation.
Individual Plaintiffs Complaint, pg. 5, para. 27.
Defendants respond that RCW the references in
49.60.220:
to “aid, abet, encourage, or incite” and to
“prevent any other person from complying”
show that the statue applies only where the
actor is attempting to or has involved a third
person in conduct that would violate the
WLAD.
Jenkins v. Palmer, 116 Wn.App. 671, 675-76, 66 P.3d
1119 (2003). The WLAD’s aiding and abetting
language does not apply to an individual “acting
alone.” Jenkins, 116 Wn.App. at 676. The Individual
Plaintiffs concede the point, as they must. The
Defendants’ motion for partial summary judgment is
granted in part as to the Individual Plaintiffs’ Second
Cause of Action.
IV. CONCLUSION
The Defendants’ non-constitutional affirmative
defenses, and their motion to dismiss the claims
against Barronelle Stutzman in her personal capacity
fail because they ask for less: less liability on behalf
of Stutzman and Arlene’s Flowers. The Legislature,

276a
through its purpose statements and directions for
construction of the WLAD and the CPA clearly
demands more: more avenues to address claims of
discrimination in trade or commerce through allowing
both individuals and the AG to institute the present
actions, and more liability through a broad definitions
extending liability to both corporations and
individuals. Because the Defendants’ affirmative
defenses and motions to limit personal liability run
contrary to the express intention of the Legislature as
well as the Legislature’s direction of how these
statutes are to be constructed, they must fail as a
matter of law.
Accordingly, IT IS HEREBY ORDERED:
1.

Plaintiff’s (State of Washington’s)
Motion For Partial Summary Judgment
On Defendants’ Non-Constitutional
Defenses is GRANTED.

2.

Defendants’ First Motion For Summary
Judgment Against Plaintiff State of
Washington is DENIED.

3.

Defendant’s
Motion
For
Partial
Summary Judgment On Plaintiffs’
Claims Against Barronelle Stutzman In
Her Personal Capacity is DENIED IN
PART and GRANTED IN PART.

277a
IT IS SO ORDERED.
DATED this 7th day of January, 2015.

ALEXANDER C. EKSTROM
Benton County Superior Court Judge

278a
U.S. CONST. AMEND. I
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech,
or of the press; or the right of the people peaceably to
assemble, and to petition the Government for a
redress of grievances.
U.S. CONST. AMEND. XIV, § 1
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State wherein
they reside. No State shall make or enforce any law
which shall abridge the privileges or immunities of
citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.

279a
Excerpts of RCW 49.60.030
Freedom from discrimination—
Declaration of Civil Rights
(1) The right to be free from discrimination
because of race, creed, color, national origin, sex,
honorably discharged veteran or military status,
sexual orientation, or the presence of any sensory,
mental, or physical disability or the use of a trained
dog guide or service animal by a person with a
disability is recognized as and declared to be a civil
right. This right shall include, but not be limited to:
....
(b) The right to the full enjoyment of any of the
accommodations, advantages, facilities, or privileges
of any place of public resort, accommodation,
assemblage, or amusement[.]

280a
Excerpts of RCW 49.60.040
Definitions
The definitions in this section apply throughout
this chapter unless the context clearly requires
otherwise.
....
(2) “Any place of public resort, accommodation,
assemblage, or amusement” includes, but is not
limited to, any place, licensed or unlicensed, kept for
gain, hire, or reward, or where charges are made for
admission, service, occupancy, or use of any property
or
facilities,
whether
conducted
for
the
entertainment, housing, or lodging of transient
guests, or for the benefit, use, or accommodation of
those seeking health, recreation, or rest, or for the
burial or other disposition of human remains, or for
the sale of goods, merchandise, services, or personal
property, or for the rendering of personal services, or
for public conveyance or transportation on land,
water, or in the air, including the stations and
terminals thereof and the garaging of vehicles, or
where food or beverages of any kind are sold for
consumption on the premises, or where public
amusement, entertainment, sports, or recreation of
any kind is offered with or without charge, or where
medical service or care is made available, or where
the public gathers, congregates, or assembles for
amusement, recreation, or public purposes, or public
halls, public elevators, and public washrooms of
buildings and structures occupied by two or more
tenants, or by the owner and one or more tenants, or
any public library or educational institution, or

281a
schools of special instruction, or nursery schools, or
day care centers or children’s camps: PROVIDED,
That nothing contained in this definition shall be
construed to include or apply to any institute, bona
fide club, or place of accommodation, which is by its
nature distinctly private, including fraternal
organizations, though where public use is permitted
that use shall be covered by this chapter; nor shall
anything contained in this definition apply to any
educational facility, columbarium, crematory,
mausoleum, or cemetery operated or maintained by a
bona fide religious or sectarian institution.

282a
Excerpts of RCW 49.60.215
Unfair practices of places of public resort,
accommodation, assemblage, amusement—
Trained dog guides and service animals
(1) It shall be an unfair practice for any person or
the person’s agent or employee to commit an act
which directly or indirectly results in any distinction,
restriction, or discrimination, or the requiring of any
person to pay a larger sum than the uniform rates
charged other persons, or the refusing or withholding
from any person the admission, patronage, custom,
presence, frequenting, dwelling, staying, or lodging
in any place of public resort, accommodation,
assemblage, or amusement, except for conditions and
limitations established by law and applicable to all
persons, regardless of race, creed, color, national
origin, sexual orientation, sex, honorably discharged
veteran or military status, status as a mother
breastfeeding her child, the presence of any sensory,
mental, or physical disability, or the use of a trained
dog guide or service animal by a person with a
disability: PROVIDED, That this section shall not be
construed
to
require
structural
changes,
modifications, or additions to make any place
accessible to a person with a disability except as
otherwise required by law: PROVIDED, That
behavior or actions constituting a risk to property or
other persons can be grounds for refusal and shall not
constitute an unfair practice.

283a
(2) This section does not apply to food
establishments, as defined in RCW 49.60.218, with
respect to the use of a trained dog guide or service
animal by a person with a disability. Food
establishments are subject to RCW 49.60.218 with
respect to trained dog guides and service animals.

284a
Excerpts from Brief of Appellants filed in
Washington Supreme Court, Case No. 91615-2,
on November 13, 2018
*****
I.

INTRODUCTION

Appellant Barronelle Stutzman, owner of
Appellant Arlene’s Flowers, Inc. (Arlene’s), is a
Christian artist who imagines and creates floral
designs. Mrs. Stutzman serves everyone, but she
cannot personally participate in, or create art that
celebrates, sacred events that violate her religious
beliefs.1 Her faith teaches her that marriage is a
divine relationship between a man and a woman—
symbolic of God’s relationship with his people—and
that all wedding ceremonies are religious events. Due
to those beliefs, Mrs. Stutzman cannot personally
participate in same-sex weddings or create custom
floral arrangements that celebrate those events.
Mrs. Stutzman had a nearly decade-long
relationship with Respondent Robert Ingersoll.
During that time, she designed dozens of anniversary,
Valentine’s Day, and other arrangements for Mr.
Ingersoll and his partner, Respondent Curt Freed.
Only once did she decline a request from them—when
Mr. Ingersoll asked her to “do” the flowers for his
same-sex wedding. For that exercise of her faith, the
State has prosecuted her in her personal capacity
under the Washington Law Against Discrimination
(WLAD) and the Consumer Protection Act (CPA). She
Unless otherwise indicated, references to Mrs. Stutzman
include Arlene’s.

1

285a
now faces financial devastation under a judgment
demanding that she pay the individual Respondents’
attorney fees.
What the State has done to Mrs. Stutzman
violates the First Amendment in three ways. First,
disregarding her free-exercise rights, the Attorney
General has targeted her because of, and exhibited
hostility toward, her religious beliefs about marriage.
He devised an admittedly unprecedented use of the
CPA to punish Mrs. Stutzman, while refusing to
pursue a Seattle coffee-shop owner who viciously
berated and expelled Christian customers because of
their religious beliefs. This unequal treatment,
combined with the Attorney General’s dismissive and
derisive comments about Mrs. Stutzman’s faith,
leaves no doubt that he has targeted her because of
his animus toward her religious beliefs.
Second, the Superior Court’s ruling infringes
Mrs. Stutzman’s free-exercise rights by compelling
her to physically attend and participate in same-sex
wedding ceremonies, which she regards as religious
events. As part of the full wedding support she
provides, Mrs. Stutzman decorates the venue with
her floral art, attends the ceremony, ensures the
flowers are beautiful during the event, and
participates in wedding rituals. Forcing her to attend
and personally participate in a same-sex wedding in
these ways contravenes the core of what religious
freedom protects.
Third, the State violates Mrs. Stutzman’s freespeech rights by punishing her for declining to create
custom floral art celebrating same-sex weddings. Mrs.
Stutzman’s wedding arrangements, much like

286a
paintings or sculptures, are artistic expression
shielded by the First Amendment. Through those
custom creations, she expresses celebration for
weddings and marriage. But the State can no more
force Mrs. Stutzman to express such celebratory
messages through her art than to speak them with
her lips.
The First Amendment’s free-exercise and freespeech guarantees unite in a common purpose—to
ensure “freedom of conscience” for all. Lee v. Weisman,
505 U.S. 577, 591, 112 S. Ct. 2649, 120 L. Ed. 2d 467
(1992). Yet the State has no regard for Mrs.
Stutzman’s conscience, demanding that she violate it
by pouring her heart into creating art that conflicts
with her faith and by physically participating in
inherently religious ceremonies. The State, in other
words, has been “neither tolerant nor respectful of
[Mrs. Stutzman’s] religious beliefs.” Masterpiece
Cakeshop, Ltd. v. Colo. Civil Rights Comm’n, 138 S.
Ct. 1719, 1731, 201 L. Ed. 2d 35 (2018).
But there is a better resolution to this case—
one that prohibits businesses from refusing to serve
customers simply because of who they are, but that
protects the conscience rights of people like Mrs.
Stutzman who respectfully object to creating custom
art for, or personally participating in, ceremonies that
violate their religious beliefs. This path is the only one
that preserves First Amendment freedoms and
protects people with politically unpopular beliefs
about important topics like marriage. The Superior
Court’s judgment should be reversed.
*****

287a
IV.

STATEMENT OF THE CASE
*****

H.

Enjoining Mrs. Stutzman’s Policy on SameSex Marriage and Full Wedding Support
*****

The State then requested a broad injunction
requiring, among other things, that “[a]ll goods,
merchandise and services offered or sold to opposite
sex couples shall be offered or sold on the same terms
to same-sex couples, including but not limited to
goods, merchandise and services for weddings and
commitment ceremonies.” CP 2401. Mrs. Stutzman
objected that this sweeping language apparently
covers her “full wedding support services” and thus
mandates that she “physically appear at” and
participate in same-sex wedding ceremonies. CP
2395.
The Superior Court nonetheless included that
language in its injunction, thereby compelling Mrs.
Stutzman to personally attend and participate in
same-sex wedding ceremonies if she continues her
wedding business. CP 2419-20.
*****

288a
V.
A.

ARGUMENT

Targeting Mrs. Stutzman because of the
State’s hostility toward her religious
beliefs and requiring her to physically
attend and participate in same-sex
weddings violate her free exercise of
religion.

The State violates Mrs. Stutzman’s freeexercise rights in two ways.3 First, the Attorney
General has targeted her because of, and shown
hostility toward, her religious beliefs about
marriage—beliefs that the U.S. Supreme Court has
described as “decent and honorable” and held “in good
faith by reasonable and sincere people.” Obergefell v.
Hodges, 135 S. Ct. 2584, 2594, 2602, 192 L. Ed. 2d 609
(2015). Second, the Superior Court’s order requires
Mrs. Stutzman to physically attend and participate in
wedding ceremonies—events she considers sacred—
that violate her faith.
*****

Arlene’s free-exercise rights are synonymous with Mrs.
Stutzman’s. See Burwell v. Hobby Lobby Stores, Inc., 134 S. Ct.
2751, 2768, 189 L. Ed. 2d 675 (2014) (“[P]rotecting the freeexercise rights of [closely held] corporations . . . protects the
religious liberty of the humans who own and control those
companies.”); Masterpiece, 138 S. Ct. at 1732 (ruling in favor of
a free-exercise claim brought by a small business and its owner).
3

289a
2.

Requiring
Mrs.
Stutzman
to
physically attend and personally
participate in same-sex weddings
violates her free exercise of
religion.

The Superior Court’s injunction requires Mrs.
Stutzman either to personally attend and participate
in same-sex weddings or to exit the wedding industry
and abandon work with deep religious significance to
her. Forcing her to make that choice violates the Free
Exercise Clause. Masterpiece itself identified personal
attendance at a wedding as a factor impacting a freeexercise claim like Mrs. Stutzman’s. 138 S. Ct. at
1723. It did so for good reason: no U.S. Supreme Court
authority suggests that the State may require
attendance at and participation in sacred ceremonies.
Marriage and weddings, in the eyes of many,
have deep “spiritual significance,” Turner v. Safley,
482 U.S. 78, 96, 107 S. Ct. 2254, 96 L. Ed. 2d 64
(1987), to the point of being “sacred,” Obergefell, 135
S. Ct. at 2594. Mrs. Stutzman is among the many
people of faith who believe that marriage and
weddings are innately religious. CP 539, 606-07.
Regardless of whether her customers have overtly
religious weddings presided over by clergy, like the
individual Respondents did, CP 1488, 1803-04, she
views all weddings as religious in nature, CP 606-07.
The religious significance that she ascribes to
marriage is the reason why her wedding work is so
meaningful to her and why she cannot defy her faith
by celebrating same-sex unions.
Mrs. Stutzman is an active participant in her
clients’ weddings. She meets with the couple to learn

290a
their vision for the wedding and to develop design
ideas—a process that personally invests her in, and
connects her to, “the wedding ceremony itself.” CP
540, 654, 1577-79. Next, she creates with her own
hands the custom floral designs that celebrate the
wedding. CP 540-41. Then she and a driver deliver the
flowers in an Arlene’s van. CP 541. Once there, she
provides full wedding support by decorating the
venue, attending the ceremony, ensuring that “all
flowers are beautiful,” and “participat[ing] in rituals,”
including standing for the processional, clapping for
the couple, and joining in the officiant’s prayer. Id.
Mrs. Stutzman’s full wedding support is
squarely at issue in this case, as demonstrated by four
facts. First, Mrs. Stutzman understood that Mr.
Ingersoll was seeking—like her longtime customers
often do—full wedding support at the ceremony, and
that is what she intended to decline. CP 542, 544.
Second, the State challenged Mrs. Stutzman’s samesex-marriage policy, which precludes her from
providing full wedding support for those events. CP
370-71, 546-47. Third, the Superior Court explicitly
held that any wedding “service” Mrs. Stutzman
“provide[s] for a fee”—such as her full wedding
support—“must be offered” for same-sex weddings.
CP 2630-31 n.19. Fourth, the injunction’s expansive
language encompasses Mrs. Stutzman’s full wedding
support, thereby requiring her to personally attend
and participate in same-sex wedding ceremonies as
she does for other weddings. CP 2419-20.
But
the
First
Amendment
prohibits
government action that “force[s] . . . a person to go to”
a religious event “against [her] will,” Everson v. Bd. of
Educ. of Ewing Twp., 330 U.S. 1, 15, 67 S. Ct. 504, 91

291a
L. Ed. 711 (1947), or that “in effect require[s]
participation in a religious exercise,” Lee, 505 U.S. at
594. Both the Free Exercise and Establishment
Clauses promise this basic liberty. See id. (discussing
Establishment Clause); Masterpiece, 138 S. Ct. at
1727 (compelling clergy to perform same-sex wedding
ceremony would deny their “right to the free exercise
of religion”). When the State violates this
fundamental guarantee, it “disavows its own duty to
guard and respect that sphere of inviolable conscience
and belief which is the mark of a free people.” Lee, 505
U.S. at 592.
Compelling attendance at and participation in
religious events is so odious that the U.S. Supreme
Court has adopted broad standards to ensure that it
will not happen. Litigants need not show an “official
decree” demanding their presence at the event. Id. at
595. The First Amendment forbids the State from
“requir[ing] one of its citizens to forfeit his or her
rights and benefits”—even “intangible benefits”—as
the price of declining to attend a ceremony with
religious meaning. Id. at 595-96; see also Trinity
Lutheran Church of Columbia, Inc. v. Comer, 137 S.
Ct. 2012, 2022, 198 L. Ed. 2d 551 (2017) (First
Amendment protects against “indirect coercion or
penalties on the free exercise of religion”).
The State demands that Mrs. Stutzman give up
her wedding business as the cost of adhering to her
faith. But her wedding work is crucially important to
her. CP 539. From a religious perspective, it holds
deep spiritual significance and meaning. Id. And from
a business perspective, it generates vital customer
referrals and marketing. Id. The State cannot force

292a
her to abandon that faith-inspired work to protect her
conscience. That is an unconstitutional demand.
Nor do First Amendment violations require
formal participation in an official religious exercise,
like reciting a prayer or bowing before a statue. Just
as “the act of standing or [respectfully] remaining
silent [is] an expression of participation in [a
graduation] prayer,” Lee, 505 U.S. at 593, Mrs.
Stutzman’s acts of standing when the officiant offers
a prayer, clapping for the couple, and rising during
the wedding party’s processional constitute
participation. But that is not all she does. She also
participates by personally investing in the ceremony
through
design
consultations,
hand-crafting
arrangements, and adorning the event with art that
celebrates the couple’s union. Taken together, these
acts easily qualify as participation in a wedding
ceremony of the kind that the government cannot
compel.
History confirms that the First Amendment
outlaws compelled participation in ceremonies with
religious significance. Objection to such government
coercion was “well known to the framers of the Bill of
Rights.” W. Va. State Bd. of Educ. v. Barnette, 319
U.S. 624, 633, 63 S. Ct. 1178, 87 L. Ed. 1628 (1943).
In England, when many colonists fled, the law
compelled attendance at religious services.10 But the
Framers repudiated that practice, and the U.S.
Supreme Court’s precedents stand firm against it.

Michael W. McConnell, Establishment and Disestablishment
at the Founding, Part I: Establishment of Religion, 44 Wm. &
Mary L. Rev. 2105, 2144 (2003).

10

293a
E.g., Lee, 505 U.S. at 587; Masterpiece, 138 S. Ct. at
1727.
As discussed above, Mrs. Stutzman’s only
alternative is to abandon her wedding art. But like
compelled participation in religious ceremonies,
forcing individuals to choose between their profession
and adherence to their conscience is a historic means
of religious persecution that the Framers rejected.
They lived under British laws that excluded Catholics
and others who did not take communion in the
Church of England from holding civil, military,
academic, or municipal office.11 So “abhorrent” did the
Framers consider this practice, Torcaso v. Watkins,
367 U.S. 488, 491, 81 S. Ct. 1680, 6 L. Ed. 2d 982
(1961), that they adopted the Religious Test Clause,
see U.S. Const. art. VI, cl. 3.
Employment Division v. Smith, 494 U.S. 872,
110 S. Ct. 1595, 108 L. Ed. 2d 876 (1990), does not bar
Mrs. Stutzman’s free-exercise claim, for at least three
reasons. First, practices clearly at odds with our
Nation’s history and traditions are not subject to
Smith’s neutrality and general-applicability rule. See
Hosanna-Tabor Evangelical Lutheran Church & Sch.
v. EEOC, 565 U.S. 171, 190, 132 S. Ct. 694, 181 L. Ed.
2d 650 (2012) (“The contention that Smith forecloses
recognition of” well-established historical precepts
“rooted in the Religion Clauses has no merit”); Trinity
Lutheran, 137 S. Ct. at 2021 n.2 (refuting the notion
“that any application of a valid and neutral law of
general applicability is necessarily constitutional
Br. of Christian Legal Soc’y et al. as Amici Curiae in Supp. of
Pet’rs at 32-33, Masterpiece Cakeshop, Ltd. v. Colo. Civil Rights
Comm’n, 138 S. Ct. 1719 (2018) (No. 16-111), 2017 WL 4005662.
11

294a
under the Free Exercise Clause”); Masterpiece, 138 S.
Ct. at 1727 (noting that clergy cannot “be compelled
to perform [a same-sex wedding] ceremony without
denial of his or her right to the free exercise of
religion”).12 That includes state action requiring
attendance at and participation in a sacred event.
Because the State demands that here, Smith’s rule
does not govern.
Nor does Smith’s rule control when
governments “impose special disabilities on the basis
of religious views.” Smith, 494 U.S. at 877; accord
Trinity Lutheran, 137 S. Ct. at 2021. The State
uniquely
disadvantages
religious
wedding
professionals who believe that marriage is an
opposite-sex union and who are unable to participate
in sacred events contradicting that belief. Unlike
others, they are unwelcome in, and categorically
driven from, the custom-wedding-art industry. As a
result, Smith doesn’t apply.
*****
C.

Forcing Mrs. Stutzman to create custom
floral arrangements celebrating a samesex wedding and to personally participate
in that event does not satisfy strict
scrutiny.

Strict scrutiny requires the State to show that
forcing Mrs. Stutzman to create custom wedding
arrangements celebrating same-sex weddings and to
Cf. Town of Greece, N.Y. v. Galloway, 572 U.S. 565, 576, 134
S. Ct. 1811, 188 L. Ed. 2d 835 (2014) (“[T]he Establishment
Clause must be interpreted by reference to historical practices
and understandings.”) (quotation marks omitted).
12

295a
personally participate in those ceremonies “furthers a
compelling interest and is narrowly tailored to
achieve that interest.” Reed, 135 S. Ct. at 2231
(quotation marks omitted). Governments that have
applied public-accommodation laws to infringe First
Amendment liberties have repeatedly been unable to
satisfy heightened forms of constitutional scrutiny.
See, e.g., Hurley, 515 U.S. at 578-79; Dale, 530 U.S. at
659. Here, the State—which must justify a sweeping
injunction that mandates physical attendance at and
participation in sacred events—fares no better in this
case.
*****

296a
Excerpts from Petition for a Writ of Certiorari
filed by Arlene’s Flowers, Inc. and Barronelle
Stutzman in United States Supreme Court,
Case No. 17-108, on July 14, 2017
*****
STATEMENT OF THE CASE
II. Factual Background
*****
Barronelle also regularly provides full wedding
support to large weddings and long-time clients,
which involves attending and facilitating the
ceremony and reception, ensuring the flowers remain
pristine throughout, and assisting with clean-up and
removal thereafter. App.316-18a; 351-356a. That
service is what Barronelle believed Robert would
expect. App.319-20a. Barronelle determined that she
could not attend and participate in a same-sex
wedding ceremony without seriously violating her
religious beliefs. App.319-21a.
*****
III. The Washington Supreme Court’s Ruling
Expands a Circuit Conflict Regarding the
Scope of the Free Exercise Clause.
*****
A Free Exercise Clause that does not preclude the
state from compelling Barronelle to attend, facilitate,
and create art celebrating a religious wedding
ceremony that her faith teaches is wrong “based on
decent and honorable religious … premises” is not

297a
worth the paper it is written on. Obergefell, 135 S. Ct.
at 2602. In short, if Smith allows the state to order
Barronelle “to go to” and facilitate a sacred same-sex
wedding service conducted by an ordained minister
“against her will,” it should be overruled. Everson v.
Bd. of Educ. of Ewing Twp., 330 U.S. 1, 15 (1947);
App.423a.
*****

298a
Excerpts from Brief of Appellants filed in
Washington Supreme Court, Case No. 91615-2,
on October 16, 2015
*****
III.

ISSUES PERTAINING TO
ASSIGNMENTS OF ERROR
*****

3. Whether applying state law to force a florist to
create artistic expression for and to participate in a
marriage that directly contradicts her sincerely held
religious beliefs violates her right to the free exercise
of religion under the Washington and United States
Constitutions?
*****
E.

Mrs. Stutzman Referred Long-Time
Customer Mr. Ingersoll To Nearby
Florists For His Same-Sex Wedding.

Arlene’s Flowers provides a range of wedding
related services. CP 539-43 & 653-59. Not only do
these services include floral design and delivery, but
also full wedding support before, during, and after the
wedding ceremony and reception. At the wedding
venue, the floral designers ensure all flowers appear
beautiful, perform touch-ups and changes, attend the
ceremony, and clean-up afterwards. They also offer
help the bridal party throughout the day. CP541-542;
656-657.
*****

299a
C.

The Superior Court Violated Mrs.
Stutzman’s
State
And
Federal
Constitutional Rights To The Free
Exercise Of Religion By Forcing Her To
Create Floral Designs That Are Contrary
To Her Religious Beliefs.

The state and federal constitutions protect the
free exercise of religion.23 This protection does not
vary with the outcome of elections, Barnette, 319 U.S.
at 638, and serves the vital purpose of ensuring the
widest possible toleration of conflicting views. United
States v. Ballard, 322 U.S. 78, 87 (1944). Here,
neither the lower court nor Mr. Ingersoll or Mr. Freed
questioned the sincerity of Mrs. Stutzman’s religious
beliefs. CP 1764, 2134, 2355. Rather, the only
question is whether the government violates the free
exercise of religion by requiring Mrs. Stutzman not
only to design wedding arrangements in violation of
her religious beliefs, but also provide services that
include her presence at, and direct support of, a
ceremony completely at odds with those beliefs.24
*****
Third, requiring Mrs. Stutzman to attend
same-sex marriage ceremonies, which is a part of the
services she offers, would impermissibly force her to
participate in a religious ceremony she views as
23

See Wash. Const., art. I, § 11; U.S. Const. amend. I.

Arlene’s Flower’s free exercise rights are synonymous with
Mrs. Stutzman’s. Burwell v. Hobby Lobby, 134 S. Ct. 2751, 2768
(2014) (“protecting the free-exercise rights of [closely-held]
corporations … protects the religious liberty of the humans who
own and control those companies.”).
24

300a
theologically incorrect and spiritually harmful. CP
606-09. Mrs. Stutzman’s view is that “wedding
ceremonies [are] religious events where worship takes
place.” CP 539. At overtly religious weddings, like Mr.
Ingersoll’s and Mr. Freed’s, where a minister
officiates and the parties exchange rings, this factor
becomes equally apparent. CP 1776, 1799, 1803-04.
Significantly, Mrs. Stutzman has an
established practice of providing superior customer
service, which includes actively facilitating and
participating in a variety of ways at the ceremony and
reception. CP 542. As one of Mrs. Stutzman’s
customer’s explained, Mrs. Stutzman goes “above and
beyond by talking to the guests, helping them feel
comfortable, and even calming nervous parents.” CP
657. The superior court’s orders commanding Mrs.
Stutzman to provide all of these “services … on the
same terms to same-sex couples,” CP 2420, and to
participate in their marriages to the same degree—
severely burdens her free exercise of religion.27
*****

If this case cannot be resolved on non-constitutional grounds,
then the Court is obligated to address issues arising under the
state constitution before addressing issues arising under the
federal constitution. See State v. Johnson, 128 Wn. 2d 431, 443
& n.45, 909 P.2d 293 (1996). If the Court determines that the
WLAD is ambiguous, then the constitutional analysis can serve
as an interpretive aid. See Davis v. Cox, 183 Wn. 2d 269, 280,
351 P.3d 862 (2015).
27

301a
No. 91615-2
IN THE SUPREME COURT OF THE STATE OF
WASHINGTON
STATE OF WASHINGTON,
v.

Respondent,

ARLENE’S FLOWERS, INC., d/b/a/ ARLENE’S
FLOWERS AND GIFTS, and BARRONELLE
STUTZMAN,
Appellants.
ROBERT INGERSOLL and CURT FREED,
Respondents,
v.
ARLENE’S FLOWERS, INC., d/b/a/ ARLENE’S
FLOWERS AND GIFTS, and BARRONELLE
STUTZMAN,
Appellants.
STATEMENT OF GROUNDS FOR DIRECT
REVIEW

302a
Kristen K. Waggoner
WSBA no. 27790
ALLIANCE DEFENDING
FREEDOM
15100 N. 90th Street
Scottsdale, AZ 85260
kwaggoner@telladf.org

George Ahrend
WSBA no. 25160
AHREND LAW FIRM PLLC
16 Basin St. S.W.
Ephrata, WA 98823
gahrend@ahrendlaw.com

John R. Connelly
WSBA no. 12183
CONNELLY LAW
OFFICES
2301 N. 30th St.
Tacoma, WA 98403
jconnelly@connellylaw.com

Alicia M. Berry
WSBA no. 28849
LIEBLER, CONNOR, BERRY
& ST. HILAIRE, PS
1411 N. Edison St.,
Ste. C
Kennewick, WA 99336
aberry@licbs.com

I. INTRODUCTION
This appeal concerns a fundamental question:
May the State compel a person to use her artistic
skills to celebrate a same-sex wedding when she has
long-served the requesting customer and doing so
would violate her religious belief that marriage is
between a man and a woman?
Appellant Barronelle Stutzman, a 70-year-old
grandmother, owns and operates Arlene’s Flowers,
Inc. (“Arlene’s”), in Richland, Washington.1
Barronelle Stutzman and Arlene’s Flowers are at times
referenced collectively as “Barronelle” because the lower court’s
ruling did not legally distinguish between the two.
1

303a
Barronelle has regularly employed gay, lesbian, and
bisexual employees and serves all members of the
public. For nearly a decade, she has enjoyed creating
artistic floral arrangements for Respondent Robert
Ingersoll, including arrangements for Robert’s
partner, Curt Freed, for birthdays, anniversaries,
and Valentine’s Days. Barronelle considered Robert
a friend.
A few months after Washington began
recognizing same-sex marriage, Robert asked
Barronelle about floral design work for his wedding.
This was Barronelle’s first same-sex marriage
request. Barronelle could not fulfill Robert’s request
because her faith teaches that God created marriage
between one man and one woman, and that she
cannot participate in or use her artistic abilities to
celebrate wedding ceremonies that conflict with her
religious beliefs. Given their longstanding business
relationship and friendship, Barronelle felt she had
to personally tell Robert why she could not
participate in this particular event. She also referred
him to three other floral shops.
When the Attorney General learned of
Barronelle’s actions, he sued Arlene’s and Barronelle
under the Consumer Protection Act (“CPA”) and
WLAD. Robert and his partner, now spouse, Curt
Freed later filed an additional suit under the CPA
and WLAD, which this Court consolidated with the
State’s action for purposes of appeal.
Dismissing statutory, free exercise, free speech,
and free association defenses, the Superior Court
ruled for the State and private plaintiffs on summary

304a
judgment. RA 259.2 It then issued a final judgment
for the State and private plaintiffs ordering Arlene’s
and Barronelle (1) to pay an as yet undetermined
amount of damages, attorneys’ fees, and costs to the
private plaintiffs once all appeals are exhausted, (2)
to pay $1,000 in fines and $1.00 in attorneys’ fees and
costs to the State, and (3) to create artistic floral
arrangements for same-sex ceremonies and provide
full wedding support if she continues to create and
provide support for weddings between one man and
one woman, and enjoining her from referring such
requests to florists who have no objection. See Notices
of Appeal (judgments attached thereto).
Direct review is warranted because the Superior
Court’s ruling has broad import, misconstrues the
WLAD, and impairs the exercise of state and federal
constitutional rights. The Court held that the State
may force Barronelle to choose between engaging in
compelled expression celebrating an event that
violates her religious faith or foregoing the wedding
design work she has loved for forty years. The Court
also found that she faces personal liability for her
decision. Such rulings present “fundamental and
urgent issue[s] of broad public import which require[]
prompt and ultimate determination” by this Court.
RAP 4.2(a)(4).

The Superior Court’s opinion and other key parts of the
lower court record are reproduced in a separate and
contemporaneously filed Record Appendix (“RA”). In addition,
the full text of the statutes and constitutional provisions cited in
this Statement of Grounds for Direct Review are reproduced in
the Appendix to this brief.
2

305a
II. NATURE OF THE CASE AND DECISION
Barronelle began working in Arlene’s Flowers,
originally owned by her mother, nearly 40 years ago.
Since then, Barronelle has honed her artistic
creativity and skill as a florist, purchasing the
business from her mother in 1996. Robert was one of
Barronelle’s
favorite
clients
because
he
commissioned unique and challenging pieces and
they got along well together. When he was in the
shop, Barronelle chatted with Robert about Curt. In
March 2013, Robert came into the ship [sic] to talk
with Barronelle about floral arrangements for his
same-sex wedding ceremony.
When Barronelle designs arrangements for
weddings, she invests significant creative thought
and time and often provides full-wedding support for
long-time customers, including set-up at the
ceremony and assisting the wedding party at the
event. She did not wish to offend Robert and would
gladly provide fresh cut flowers, floral supplies, and
pre-made arrangements for any event. But fulfilling
Robert’s request would have required Barronelle to
violate her religious beliefs, which teach that God
ordained marriage between a man and a woman and
prevent her from using her artistic talents to
celebrate any marriage defined differently.
Barronelle understood Robert wanted her to use
her artistic talents and imagination to create custom
arrangements and provide wedding support.3 Robert
The discussion was preliminary, so that the parties did not
discuss the specific details for the arrangements. However, the
3

306a
had already come into the store and told an employee
he wanted to speak with Barronelle about his
wedding. RA 11. When he returned, Barronelle met
him in a corner of the store. After he brought up the
wedding, Barronelle took his hand, and gently and
respectfully told him that she could not “do his
wedding” because of her relationship with Christ. RA
13. They continued to chat about his wedding plans.
She referred him to other shops that she knew would
provide beautiful work, one of which ended up
arranging flowers for the wedding. Robert and
Barronelle hugged and he left.
The Attorney General and later the private
plaintiffs filed suit, alleging that Arlene’s and
Barronelle committed discrimination based on sexual
orientation in a place of public accommodation in
violation of RCW 49.60.030 and 49.60.215 and RCW
19.86.
The Superior Court granted summary judgment
for the State and private plaintiffs, concluding that
Barronelle’s decision not to use her artistic ability to
celebrate Robert’s marriage ceremony constituted
sexual orientation discrimination under the WLAD.
RA 228-30. Although it recognized that Barronelle is
in the business of providing “artistic expression,” RA
238, the Court rejected any distinction between her
Superior Court found no legal distinction between forcing
Barronelle to provide full wedding support (custom design work
and physical presence and personal assistance at the ceremony)
and selling raw, unarranged product. RA 207-08; see also RA 11.
The Court held it could order her to provide full wedding
support. RA 230-31 n.19.

307a
objection to being compelled to create expression
related to a particular event and discrimination
based on a person’s sexual orientation, RA 230-31
n.19. The court ruled that even if such a distinction
were valid, Barronelle nonetheless caused an
“indirect discriminatory result” that violated the
WLAD and CPA. RA 234.
The Superior Court observed an “insoluble”
conflict between Barronelle’s “religiously motivated
conduct” and state public accommodations law. RA
238. But it rejected her state free exercise defense,
holding that the substantial burden the State is
imposing on her religious exercise satisfies strict
scrutiny. It also rejected Barronelle’s federal free
exercise defense, holding the WLAD and CPA neutral
and
generally
applicable,
despite
existing
exemptions, and denying her hybrid rights defense,
RA 244.
The Superior Court rejected Barronelle’s free
speech defense as well, ruling that there can never be
a “free speech exception (be it creative, artistic, or
otherwise) to . . . public accommodation[]” laws,
regardless of whether they require the “expression of
a message with which the speaker disagrees.” RA
239. The Superior Court’s rejection of the free
association defense was equally categorical. RA 243.
III. ISSUES PRESENTED FOR REVIEW
1.
Whether gladly providing custom floral
designs for a client for nearly a decade and only
referring the client for one event, a same-sex
wedding, because of one’s religious beliefs constitutes

308a
sexual orientation discrimination in violation of the
WLAD and CPA?
2.
Whether the application of state public
accommodation laws in this case violates Appellants’
right to the free exercise of religion under article 1,
section 11 of the Washington State Constitution and
the First Amendment to the United States
Constitution?
3.
Whether the application of state public
accommodation laws in this case violates Appellants’
right to freedom of speech under article 1, section 5
of the Washington State Constitution and the First
Amendment to the United States Constitution?
4.
Whether the application of state public
accommodation laws in this case violates Appellants’
right to freedom of association under the First
Amendment to the United States Constitution and
article 1, section 5 of the Washington State
Constitution?
5.
Whether Barronelle should be subject to
personal liability under the WLAD and CPA?
IV.

GROUNDS FOR DIRECT REVIEW

This case implicates several issues of first
impression following the State’s recent recognition of
same-sex
marriage,
including
the
proper
interpretation and application of the State’s public
accommodation laws and Barronelle’s constitutional
rights to the free exercise of religion, free speech, and
free association. These fundamental issues warrant

309a
prompt and ultimate determination by this Court.
See RAP 4.2(a)(4).
A. This Court Should Determine Whether
Barronelle’s
Religious
Objection
To
Creating Artistic Floral Design Work And
Providing Full-Wedding Support For A
Long-Standing
Customer’s
Marriage
Ceremony That Violates Her Religious
Beliefs Constitutes Sexual Orientation
Discrimination.
The WLAD prohibits discrimination in places of
public accommodation based on sexual orientation,
RCW 49.60.215(1), and deems violations of the
WLAD to be per se violations of the CPA, RCW
49.60.030(3). See also RCW 49.60.030(1)(b) (banning
“discrimination … because of . . . sexual orientation”).
But this Court has never determined that
prohibition’s scope. See RCW 49.60.020 (providing
WLAD “shall not be construed to endorse any specific
belief, . . . or orientation”).
Barronelle regularly serves gay and lesbian
clients, and will continue to do so. She gladly served
Robert for nearly a decade. Her only objection is to
using her artistic abilities to create artistic custom
arrangements celebrating a particular event, i.e., a
marriage ceremony that her religion teaches is
contrary to God’s plan and spiritually harmful to her.
This religious objection extends to any marriage that
is not between a man and a woman, not just those
involving two persons of the same sex.

310a
Nevertheless, the Superior Court, primarily
relying on an opinion by the New Mexico Supreme
Court, see Elane Photography, LLC v. Willock, 309
P.3d 53 (N.M. 2013), ruled that religious objections to
expressing a celebratory message about, and
participating in, same-sex marriages constitutes
sexual orientation discrimination, despite Barronelle
having served gay and lesbian customers for years.
RA 229-30, 234. And it did so despite the WLAD’s
clear language stating that it “shall not be construed
to endorse any specific belief, practice, behavior, or
orientation,” RCW 49.60.020, and without taking into
account that RCW 49.60.030(1) also establishes
Barronelle’s right to be free of religious
discrimination, which is equally implicated here, as
a broad “civil right” to be protected in more than just
the statutorily enumerated contexts. See Kumar v.
Gate Gourmet Inc., 180 Wn. 2d 481, 489 (2014)
(“creed” in the WLAD has long been equated with
“religion”). Such important matters of state law, with
evident impact on constitutional freedoms, should be
determined by this Court.
B. This Court Should Determine Whether
Barronelle’s State And Federal Free
Exercise Rights Are Violated By The
Application Of The WLAD And CPA To
Compel Her To Create Custom Floral Work
Celebrating Marriages That Are Not
Between One Man and One Woman.
Under the Washington Constitution, religious
freedom is a “paramount right” with a scope “more
expansive than [that] conferred by the Federal
Constitution.” First Covenant Church of Seattle v.

311a
City of Seattle, 120 Wn.2d 203, 224 (1992) (quotation
omitted). Article 1, section 11 “focuses both on belief
and on conduct” and makes clear that courts’ “most
important duty” is to safeguard “religious liberty, and
to see [it is] not narrowed or restricted because of
some supposed emergent situation.” Id. at 225
(quotation and alteration omitted).
Thus, Art. I, § 11 subjects all laws to strict
scrutiny if they substantially burden a sincerely held
religious belief. City of Woodinville v. Northshore
United Church of Christ, 166 Wn. 2d 633, 642 (2009).
There is no dispute that Barronelle’s objection to
creating custom floral designs celebrating marriages
that do not include one man and one woman is based
on a sincerely held religious belief. RA 246. And the
Superior Court rightly assumed that the WLAD
imposes a substantial burden on Appellants’ exercise
of religion.4 RA 247. Indeed, it is clearly a substantial
burden to coerce Barronelle—under threat of
personal and professional liability for fines and
ruinous attorneys’ fees awards—to use her heart,
mind, and artistic abilities to design and create
artistic expression—or otherwise participate in a
wedding ceremony—when that event violates her
sincerely held religious beliefs.
The Superior Court also rejected Barronelle’s
First Amendment free exercise defense because it
regarded the WLAD and CPA as neutral and
This burden is not limited to the wedding revenue itself.
Weddings generate lifetime referrals. Moreover, the Court’s
order forces Barronelle to forego all weddings, the pinnacle of a
florist’s work, or surrender her religious beliefs. RA 6-10.
4

312a
generally applicable laws and her hybrid rights claim
as lacking a viable free speech or free association
foundation. RA 244. But existing religious and
secular exemptions to the WLAD and CPA for others,
see, e.g., RCW 26.04.010, 49.60.040, & 49.60.222,
raise significant questions as to their neutrality and
generally applicability. See Church of the Lukumi
Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520, 536
(1993) (noting the “differential treatment of two
religions” may be “an independent constitutional
violation”); Fraternal Order of Police v. City of
Newark, 170 F.3d 359, 365 (3d Cir. 1999) (Alito, J.)
(providing secular exemptions “while refusing
religious exemptions . . . trigger[s] heightened
scrutiny”). And significant free speech and free
association case law substantiates her hybrid rights
claim. See infra pp. 11-15.
Direct review is warranted to determine if
applying the State’s public accommodation laws to
force Barronelle to create and design floral
arrangements and provide full-wedding support for
marriages that conflict with her religious beliefs
violates her free exercise rights. The Superior Court
wrongly concluded that the State had a compelling
interest to force her to violate her sincerely held
religious beliefs in this way. RA 248-50. But it failed
to “look beyond broadly formulated interests” in
promoting non-discrimination and “scrutinize the
asserted harm of granting specific exemptions to
particular religious claimants.”5 Burwell v. Hobby
Between 2006 and 2013, only seventy complaints of
sexual-orientation discrimination by a public accommodation
were made to the Washington Human Rights Commission, none
5

313a
Lobby Stores, Inc., 134 S. Ct. 2751, 2779 (2014)
(quotation and alterations omitted). Nor did the
Superior Court consider whether other means of
furthering this goal exist “without imposing a
substantial burden on [Appellants’] exercise of
religion.” Id. at 2780. Both questions are worthy of
this Court’s prompt resolution.
C. This Court Should Determine Whether
Barronelle’s State And Federal Free Speech
Rights Are Violated By Applying The WLAD
And CPA To Coerce Her Artistic Expression.
The Superior Court recognized that Barronelle
engages in “artistic expression.” RA 238.
Nonetheless, it held that no potential free “speech
exception (be it creative, artistic, or otherwise)” exists
to state public accommodation laws even if they
“require[] communication or expression of a message
with which the speaker disagrees.” RA 239. Not only
does this categorical ruling address a question of
broad public import, it conflicts with longstanding
compelled-speech precedent.
As this Court has explained, “[f]ree speech is a
fundamental right on its own as well as a keystone
right enabling us to preserve all other rights.” Nelson
v. McClatchy Newspapers, Inc., 131 Wn.2d 523, 536
(1997). “Freedom of speech includes the freedom not
to speak or to have one’s [resources] used to advocate
ideas one opposes.” State v. Wash. Educ. Ass’n, 156
of which were substantiated. RA 138-165. Accommodating
Barronelle’s sincerely-held religious beliefs thus poses no threat
to the State’s interests.

314a
Wn.2d 543, 557 (2006), overruled on other grounds by
Davenport v. Wash. Educ. Ass’n, 551 U.S. 177 (2007).
Free speech protections for artistic expression are
“particularly strong” when the state compels
expression, “for then the law’s . . . reluctance to force
private citizens to act augments its constitutionally
based concern for the integrity of the artist.”
Redgrave v. Bos. Symphony Orchestra, Inc., 855 F.2d
888, 905 (1st Cir. 1988) (internal citation omitted).
Barronelle provided expert testimony confirming
that her work is artistic expression. See RA 122-130.
Yet the Superior Court found the artistic nature of
her speech to be irrelevant here.
The Superior Court also disregarded controlling
precedent applying the compelled speech doctrine in
the public-accommodations context. Describing the
application of public accommodation laws to
expressive activities as “peculiar,” the U.S. Supreme
Court has explained that such laws may not “be used
to produce thoughts and statements acceptable to
some groups” because the freedom of speech “has no
more certain antithesis.” Hurley v. Irish-Am. Gay,
Lesbian & Bisexual Grp. of Bos., 515 U.S. 557, 572,
579 (1995).
Free speech protections bar the government from
attempting to “produce speakers free of . . . biases,
whose expressive conduct [are] at least neutral
toward . . . particular [protected] classes.” Id. at 579;
see Ino Ino, Inc. v. City of Bellevue, 132 Wn.2d 103,
115 (1997) (Washington Constitution “more
protective” of free speech than the First
Amendment). Yet the Superior Court treated the

315a
State’s effort to produce speakers who are not only
“neutral” toward non-traditional marriages, but
supportive, as binding. This Court should resolve the
conflict between Barronelle’s free speech rights and
the Superior Court’s injunction requiring her to
express a message about non-traditional marriages
with which she disagrees.
D. This Court Should Determine Whether
Barronelle’s
Freedom
of
Expressive
Association Is Violated By Applying the
WLAD and CPA To Force Her To Associate
With Unwanted Views.
Implicit in the right of free speech is “a
corresponding right to associate with others in
pursuit of . . . political, social, economic, educational,
religious, and cultural ends.” Boy Scouts of Am. v.
Dale, 530 U.S. 640, 647 (2000) (quotations omitted).
This freedom of expressive association protects
individuals’ right to join together “to express those
views, and only those views, that [they] intend[] to
express.” Id. at 648. Consequently, it “presupposes a
freedom not to associate” with those advocating
different opinions or viewpoints. Id.
The freedom of expressive association applies
when government commands an individual or group
to associate with another who would “affect[] in a
significant way [its] ability to advocate public or
private viewpoints.” Id. It “is crucial in preventing
the majority from imposing its views on [individuals]
or groups that would rather express other, perhaps
unpopular, ideas.” Id. at 647-48. The Superior Court
ruled that free association did not apply here because

316a
Barronelle’s views in favor of traditional marriage
are “[i]nvidious private discrimination.” RA 243.
But constitutional protection has always been
extended “to speech and conduct that society at large
views as . . . politically incorrect.” State v. Williams,
144 Wn.2d 197, 209 (2001). That some may deem
associating only with couples celebrating marriages
between a man and woman “invidious” is not a reason
to force Barronelle to associate with those communicating other views. See Dale, 530 U.S. at 660.
The U.S. Supreme Court has ruled that public
accommodations laws must give way when their
enforcement would “materially interfere with the
ideas” that an individual seeks to express. Dale, 530
U.S. at 657. Resolving the conflict between this
binding caselaw and the Superior Court’s ruling is
worthy of this Court’s direct review.
E. The Personal Liability Question Merits
Direct Review.
The Superior Court imposed personal liability on
Barronelle for actions she took as a corporate owner
and officer despite the fact that the parties agreed
she “maintained the corporate form,” RA 196, and no
evidence of fraud, misrepresentation, or intentional
misconduct exists. See Grayson v. Nordic Constr. Co.,
92 Wn.2d 548, 552-53 (1979) (holding that when the
“affairs of the corporation [are] separate . . . and no
fraud or manifest injustice [exists,] the corporation’s
separate entity should be respected”). And Brown v.
Scott Paper Worldwide Co, 143 Wn.2d 349, 361 (2001)
does not require personal liability because this case

317a
has nothing to do with employment discrimination
and employer liability. This unprecedented ruling of
broad public import warrants prompt review.
V.

Conclusion

For these reasons, Arlene’s Flowers and
Barronelle Stutzman respectfully request that this
Court grant direct review.
Respectfully submitted this the 1st day of June,
2015.
Kristen K. Waggoner
WSBA no. 27790
ALLIANCE DEFENDING FREEDOM
15100 N. 90th Street
Scottsdale, AZ 85260
kwaggoner@telladf.org

318a
Excerpts from Defendants’ Objections to
Plaintiffs’ Proposed Judgment filed in State of
Washington, Benton County Superior Court,
Case No. 13-2-00871-5, on March 23, 2015
*****
Defendants object to the following terms and
language in Plaintiffs’ proposed judgments:
*****
o “…are permanently enjoined and restrained
from directly or indirectly violating the
Washington Law Against Discrimination,
RCW ch. 49.60, and the Consumer
Protection Act, RCW ch. 19.86, by
discriminating against any person because
of their sexual orientation. The terms of this
permanent injunction include but are not
limited to a prohibition against any
disparate treatment in the offering or sale
of goods, merchandise, or services to any
person because of their sexual orientation,
including but not limited to the offering or
sale of goods, merchandise, or services to
same-sex couples. All goods, merchandise,
and services offered or sold by Defendants
shall be offered and sold on the same terms
to all customers without regard to sexual
orientation. All goods, merchandise, and
services offered and sold to opposite sex
couples shall be offered and sold on the
same terms to same-sex couples.”
*****

319a


The proposed language also fails to
give
Defendants
fair
notice.
Defendants offer a wide range of
goods and services to the public.
Without more specificity about what
goods and services Defendants must
provide
to
same-sex
couples,
Defendants will not know what
services they must provide to
customers. For example, Defendants
offer their full wedding support
services for a fee, and these services
include attending a wedding service
and assisting the bride and groom at
the service and reception. If the
Court intends to include these
services in its injunction, it should so
specify. The Court should also clarify
if
the
order
would
require
Defendants to physically appear at a
same-sex wedding ceremony and
assist same-sex couples at the
ceremony to wed because requiring
these activities strikes at the heart of
the free exercise of religion and
compelled speech.
*****

320a

STATE OF WASHINGTON
BENTON COUNTY SUPERIOR COURT
STATE OF
WASHINGTON,

NO. 13-2-00871-5

Plaintiff,
v.
ARLENE’S FLOWERS,
INC., d/b/a ARLENE’S
FLOWERS AND
GIFTS, and
BARRONELLE
STUTZMAN,
Defendants.

ARLENE’S FLOWERS,
INC., d/b/a ARLENE’S
FLOWERS AND
GIFTS, and
BARRONELLE
STUTZMAN,
Third-Party
Plaintiffs

ANSWER,
AFFIRMATIVE
DEFENSES, AND
THIRD-PARTY
COMPLAINT

321a
v.
ROBERT W.
FERGUSON, in his
official capacity as
ATTORNEY GENERAL
for the STATE OF
WASHINGTON,
Third-Party
Defendant.
Defendants, Arlene’s Flowers, Inc., d/b/a Arlene’s
Flowers and Gifts, (“Arlene’s Flowers”) and
Barronelle Stutzman hereby answer the State’s
complaint filed herein and assert Affirmative
Defenses and as follows:
ANSWER
1.1
Paragraph 1.1 of Plaintiff’s Complaint is
DENIED.
1.2
Paragraph 1.2 of Plaintiff’s Complaint is
DENIED.
1.3
Paragraph 1.3 of Plaintiff’s Complaint is
DENIED as it relates to Defendant Barronelle
Stutzman, individually. Defendants ADMIT that the
facts stated in Plaintiff’s Complaint took place in
Benton County, Washington. All other inferences
related to Paragraph 1.3 of Plaintiff’s Complaint are
DENIED.

322a
1.4
Paragraph 1.4 of Plaintiff’s Complaint is
ADMITTED.
2.1
Paragraph 2.1 of Plaintiff’s Complaint is
ADMITTED.
2.2
Paragraph 2.2 of Plaintiff’s Complaint is
ADMITTED.
2.3
Paragraph 2.3 of Plaintiff’s Complaint is
not a statement of fact and, therefore, requires no
response.
3.1
Paragraph 3.1 of Plaintiff’s Complaint is
DENIED as it relates to Barronelle Stutzman,
individually. Otherwise, Paragraph 3.1 of Plaintiff’s
Complaint is ADMITTED.
3.2
Paragraph 3.2 of Plaintiff’s Complaint is
DENIED as it relates to Barronelle Stutzman,
individually. Otherwise, Paragraph 3.2 of Plaintiff’s
Complaint is ADMITTED.
3.3
Paragraph 3.3 of Plaintiff’s Complaint is
DENIED as it relates to Barronelle Stutzman,
individually. Otherwise, Paragraph 3.3 of Plaintiff’s
Complaint is ADMITTED.
4.1
Paragraph 4.1 of Plaintiff’s Complaint is
DENIED. Robert Ingersoll did not intend to simply
purchase flowers. Robert Ingersoll intended to hire
Arlene’s Flowers to design and create floral
arrangements to decorate and beautify his upcoming
wedding.

323a
4.2
Paragraph 4.2 of Plaintiff’s Complaint is
DENIED as it relates to Barronelle Stutzman,
individually. Otherwise, Paragraph 4.2 of Plaintiff’s
Complaint is ADMITTED.
4.3
Paragraph 4.3 of Plaintiff’s Complaint is
DENIED. Robert Ingersoll did not state that he
intended to simply purchase flowers. Robert Ingersoll
intended to hire Arlene’s Flowers to design and create
floral arrangements to decorate and beautify his
upcoming wedding.
4.4
Paragraph 4.4 of Plaintiff’s Complaint is
DENIED. Ms. Stutzman did not refuse to sell Mr.
Ingersoll flowers. Ms. Stutzman informed Robert
Ingersoll that her religious convictions precluded her
from designing and creating floral arrangements to
decorate a same-sex wedding.
4.5
Paragraph 4.5 of Plaintiff’s Complaint is
ADMITTED.
4.6
Paragraph 4.6 of Plaintiff’s Complaint is
DENIED to the extent that it alleges either
Defendant refused to sell Mr. Ingersoll flowers. See
answer to Plaintiff’s Complaint at Paragraph 4.1.
Otherwise, Paragraph 4.6 of Plaintiff’s Complaint is
ADMITTED.
5.1
Defendants admit and deny paragraphs 1.1
through 4.6 of Plaintiff’s Complaint as indicated
above.
5.2
Paragraph 5.2 of Plaintiff’s Complaint is
DENIED as it relates to Barronelle Stutzman,

324a
individually. Otherwise, Paragraph 5.2 of Plaintiff’s
Complaint is ADMITTED.
5.3
Paragraph 5.3 of Plaintiff’s Complaint is
DENIED as it relates to Barronelle Stutzman,
individually. Otherwise, Paragraph 5.3 of Plaintiff’s
Complaint is ADMITTED.
5.4
Paragraph 5.4 of Plaintiff’s Complaint is
DENIED to the extent that it alleges either
Defendant refused to sell Mr. Ingersoll flowers.
Paragraph 5.4 of Plaintiff’s Complaint is also
DENIED to the extent that the allegation relates to
Barronelle Stutzman, individually. It is ADMITTED
that Arlene’s Flowers declined to design and create
floral arrangements to decorate and beautify Mr.
Ingersoll’s upcoming wedding.
5.5
Paragraph 5.5 of Plaintiff’s Complaint is
DENIED. It is ADMITTED only that Arlene’s Flowers
declined to design and create floral arrangements to
decorate and beautify a same-sex wedding, on the
basis of the sincerely held religious convictions of the
owners of Arlene’s Flowers, concerning the meaning
and significance of the institution of marriage.
5.6
Paragraph 5.6 of Plaintiff’s Complaint is
DENIED.
5.7
To the extent that Paragraph 5.7 of
Plaintiff’s Complaint calls for a legal conclusion, the
allegation is neither admitted or denied. The statutes
referenced in Paragraph 5.7 of Plaintiff’s Complaint
speak for themselves. Otherwise, Paragraph 5.7 of
Plaintiff’s Complaint is DENIED.

325a
5.8
To the extent that Paragraph 5.8 of
Plaintiff’s Complaint calls for a legal conclusion, the
allegation is neither admitted or denied. The statutes
referenced in Paragraph 5.8 of Plaintiff’s Complaint
speak for themselves. Otherwise, Paragraph 5.8 of
Plaintiff’s Complaint is DENIED.
AFFIRMATIVE DEFENSES
6.1
Lack of Subject Matter Jurisdiction: The
Superior Court does not have a statutory grant of
original jurisdiction to hear complaints filed under
RCW 49.60, with specific limited exceptions that do
not apply in this case. Washington’s law against
discrimination under RCW 49.60.215 allows only (a)
a private right of action in Superior Court, or (b) an
administrative action brought by the Washington
Human Rights Commission.
6.2
Lack of Standing: Standing under RCW
19.86 cannot be used by the State to apply to an
alleged violation of RCW 49.60, without undermining
the intent of the legislature’s grant of enforcement
power to the Washington Human Rights Commission.
While adjudication of a violation under RCW 49.60
becomes a per se violation of RCW 19.86 once proved,
it is improper for the State to prosecute a violation of
RCW 49.60 claiming standing under RCW 19.86,
without doing an “end run” around the enforcement
provisions of RCW 49.60. Moreover, Defendants
allege that the Washington Attorney General’s Office
does not have police power with respect to either RCW
49.60, or RCW 19.86. Therefore, the Washington
Attorney General’s Office has no authority to act on
behalf of the State in any civil capacity absent a

326a
complaint having been filed with the Attorney
General’s Office, or some other State agency. Upon
information and belief, no complaint was ever filed in
this case, with any agency of the State of Washington,
including the Attorney General’s Office. For these
reasons, Plaintiff lacks standing to bring this action.
6.3
Failure to State a Claim Upon which Relief
can be Granted: For the reasons articulated in
paragraphs 6.1 and 6.2, above, Plaintiff’s complaint
fails to state a claim upon which relief can be granted
and should be dismissed under Civil Rule 12(b)(6).
6.4
Failure to Exhaust (or even initiate)
Administrative Remedies.
6.5
Frustration of the Purpose
enforcement provisions of RCW 49.60.

of

the

6.6
As applied preemption under the First
Amendment to the United States Constitution.
6.7
As applied violation of Article I Section 11
of the Washington State Constitution.
6.8
Selective Enforcement in Violation of the
Fourteenth Amendment to the United States
Constitution.
6.9

Justification.

6.10 Failure to Join Indispensable Party: The
only grant of original jurisdiction to the Superior
Court for violation of RCW 49.60, although
inapplicable here, articulates that a claim may be
brought in Superior Court by the Washington Human

327a
Rights Commission via the State Attorney General as
counsel Therefore, it seems appropriate that any
action brought by the State Attorney General to
enforce the provisions of RCW 49.60 should be
brought on behalf of the Washington Human Rights
Commission.
THIRD-PARTY COMPLAINT
COME NOW Defendants and Third-Party
Plaintiffs, and allege the following as claims against
Third-Party Defendant, Robert W. Ferguson, in his
official capacity as Attorney General for the State of
Washington:
I.

INTRODUCTION

Arlene’s Flowers and its owner Barronelle
Stutzman have long enjoyed warm relationships with
the company’s gay and lesbian patrons and
employees, including the customer at issue in this
case, Robert Ingersoll. Arlene’s Flowers has never
refused to sell flowers to someone simply because of
sexual orientation. But because of Barronelle Stutzman’s Christian faith, she cannot as a matter of
conscience participate in or facilitate a same-sex
wedding by using her creative skills to personally
craft floral arrangements to decorate the wedding.
The Attorney General’s attempt to use state law to
compel her and Arlene’s Flowers to do so violates the
state and federal constitutions.

328a
II.

PARTIES

7.1
Arlene’s Flowers is a Washington
corporation in good standing and licensed to do
business in the State of Washington.
7.2
Barronelle Stutzman has been a floral
designer in the Tri-Cities for 35 years. Ms. Stutzman
was trained in floral design and artistry by respected
designers, and she is recognized in her community for
her skill in creating unique and expressive floral
arrangements. She has owned Arlene’s Flowers, Inc.,
d/b/a Arlene’s Flowers and Gifts, for 16 years.
7.3
Robert W. Ferguson is the Washington
State Attorney General. Attorney General Ferguson
claims authority to pursue an action against
individuals and businesses, including Arlene’s
Flowers and Barronelle Stutzman, for alleged
violations of the WLAD, via the CPA. Attorney
General Ferguson has made it clear in public
statements that he will pursue litigation against all
individuals and businesses that cannot, as a matter of
conscience, facilitate, promote, or participate in samesex weddings.
III.

JURISDICTION AND VENUE

8.1
The Superior Court has jurisdiction under
RCW 7.24.010 to issue declaratory relief.
8.2
The Superior Court has jurisdiction under
RCW 7.40.010 to issue restraining orders and
injunctions.

329a
8.3
The Superior Court has concurrent
jurisdiction to adjudicate violations of 42 U.S.C. §
1983.
8.4
Venue is appropriate in the Benton County
Superior Court under RCW 4.12.020.
IV.

STATEMENT OF FACTS

9.1
Barronelle Stutzman has been designing
and creating floral arrangements for 35 years.
9.2
After initially working as a delivery person
for a local flower shop, Barronelle realized that she
had the artistic talent to become a floral designer. She
trained under experienced floral designers to develop
her natural skill. She also attended training
programs and trade shows to further develop her
creative skills in floral design and artistry.
9.3
With years of experience and natural
artistic skills, Barronelle finds the greatest joy in her
job by personally crafting unique floral designs that
express her own creativity and style.
9.4
Barronelle has owned and operated
Arlene’s Flowers for 16 years. In that time, she has
gained a reputation for being skilled in personally
crafting distinct and expressive floral arrangements.
9.5
Some of the floral arrangements Barronelle
creates for weddings include the bridal and attendant
bouquets, pew markers, table centerpieces, topiaries,
floral and foliage garlands, and corsages and
boutonnieres.

330a
9.6
Barronelle’s floral arrangements for
weddings are creative and unique expressions,
personally designed specifically to celebrate each
wedding.
9.7
Before designing floral arrangements for a
wedding, Barronelle meets with the client for detailed
discussions about the types of designs the couple is
looking for. Together they review sample arrangements and talk about the particular details of the
wedding and its venue. Barronelle then takes the
information from the client to determine a plan for
custom-designed floral arrangements for the
wedding.
9.8
In her capacity as the owner and primary
floral designer for Arlene’s Flowers, Barronelle has
been creating floral arrangements for Robert
Ingersoll for nearly nine years. Barronelle enjoys the
warm and cordial relationship that she has developed
with Mr. Ingersoll. She also enjoys creating the
challenging and unique floral arrangements Mr.
Ingersoll requests.
9.10 Arlene’s Flowers has sold Robert Ingersoll
a variety of flowers and arrangements for a variety of
occasions and sentiments throughout the past nineyears. Such occasions include, but are not limited to,
birthdays, anniversaries, mother’s day, Valentine’s
day, and private parties.
9.11 Barronelle has known that Robert
Ingersoll identifies himself as gay throughout most of
their nine year relationship. That fact never made

331a
any difference in the way Mr. Ingersoll was treated as
a customer.
9.12 Arlene’s Flowers routinely designs floral
arrangements for other gay and lesbian clientele.
Arlene’s Flowers has also had openly gay employees.
9.13 Washington only recently adopted a bill to
alter the state’s definition of marriage to include
same-sex couples, in 2012. In her 35 years of personally crafting floral designs and arrangements for
weddings, this is the first time that Barronelle has
been asked to craft floral designs and arrangements
for a same-sex wedding.
9.14 Approximately one week before March 1,
2013, an employee of Arlene’s Flowers told Barronelle
that Robert Ingersoll had come by the store to
announce that he had become engaged. He also told
the employee at the store that he intended for Arlene’s
Flowers to create the floral arrangements for his
wedding, and that he would come back the next week
to discuss the matter with Barronelle.
9.15 When Barronelle was given the message by
her employee, she was distraught because she knew
that this posed an insurmountable burden for her
religious convictions. Barronelle voted against the
passage of the same-sex marriage bill (R-74) in
Washington. She spent time praying and discussing
with her husband about how to kindly explain to Mr.
Ingersoll that her convictions would not allow her to
be involved in decorating a same-sex wedding.

332a
9.16 In accord with her understanding of
traditional Christian and Biblical values, Barronelle
believes that marriage has religious significance
apart from any civil significance, and that its religious
significance is inherent in the institution of marriage.
Barronelle believes, as the Bible teaches, that
marriage is defined by God as a union of man and
woman.
9.17 Barronelle knew that creating floral
arrangements for Mr. Ingersoll’s wedding would be
contrary to her sincerely held religious convictions.
She believed that doing so would compel her to
express a message with her creativity that violates
God’s commands. She also believed that her creation
of the floral arrangements would be perceived as an
endorsement and celebration of same-sex marriage.
9.18 On or about March I, 2013, Robert Ingersoll
came back to Arlene’s Flowers as promised to ask
Barronelle if she would create the designs and floral
arrangements for his wedding. Emotional about her
convictions and her decision to decline, Barronelle
touched Robert’s hand and kindly told him that she
could not create the floral arrangements for his
wedding because of her Christian faith. Robert
Ingersoll noted that he was disappointed, but he said
that he understood.
9.19 Before leaving, Mr. Ingersoll asked
Barronelle for referrals to other florists, which
Barronelle gladly gave. She gave him names of other
local florists that he could use. After chatting for
awhile, Barronelle and Mr. Ingersoll hugged each
other, and he left the store.

333a
9.20 Robert Ingersoll has received several offers
from other florists to create the arrangements for his
upcoming wedding.
9.21 A few weeks after Robert Ingersoll left
Arlene’s Flowers, Barronelle received a letter from
the Attorney General’s office, threatening legal
sanctions for alleged violation of the WLAD and CPA.
9.22 The Attorney General originally learned
about the situation between Arlene’s Flowers and
Robert Ingersoll, from social media, including
Facebook.
9.23 Prior to the Attorney General’s initial
demand as stated in paragraph 9.21, above, neither
Robert Ingersoll, nor his partner Curt Freed had ever
filed a complaint with the Attorney General’s office,
or otherwise requested that the Attorney General
intervene.
9.24 Upon information and belief, this case is
the first time the Attorney General’s office has
attempted to use the CPA to pursue a purported
violation of WLAD, absent action initiated by the
Washington Human Rights Commission. The state
agency established by law to enforce the WLAD is the
Washington Human Rights Commission.
9.25 The Attorney General has filed suit against
Arlene’s Flowers and Barronelle and has indicated
that he intends to continue to pursue what he believes
to be violations of WLAD via the CPA.

334a
9.26 Barronelle is being sued, and she fears
future suits by the Attorney General, for following her
conscience in her work, which has resulted in a
chilling effect in the exercise of her constitutional
rights and a chill in the exercise of constitutional
rights by other small business owners in Washington.
9.27 If this Court fails to issue declaratory and
injunctive relief, the Attorney General’s action in this
case will inevitably result in a chilling effect for the
exercise of constitutional rights by other, similarly
situated businesses in Washington.
V.

CAUSES OF ACTION

10.1 The claims stated below arise under the
Washington Constitution, the First and Fourteenth
Amendments to the United States Constitution, the
federal Civil Rights Act (42 U.S.C. § 1983), RCW 7.24,
and RCW 7.40.
10.2 The Attorney General pursues actions
under the color of state law. This lawsuit and his
threat to pursue legal action against future exercises
of conscience and expression has chilled the exercise
of Barronelle’s constitutional rights to act according
to her conscience and religious belief and has
similarly chilled the exercise of constitutional rights
by other individuals and businesses in Washington.
10.3 The Attorney General, in his official
capacity, is a person for purposes of 42 U.S.C. § 1983
in this suit for prospective injunctive and declaratory
relief.

335a
10.4 The Attorney General sued Barronelle and
Arlene’s Flowers for the purpose of sending a message
to other similarly-situated business owners who have
religious and conscience reasons for not participating
in or facilitating a same-sex wedding.
10.5 The Attorney General is constitutionally
precluded from compelling Barronelle to use her
artistic skill to personally craft expressive floral
arrangements for a same-sex wedding when it
violates her religious beliefs and her conscience to do
so, particularly when there are many other florists
willing, ready, and able to create floral arrangements
for same-sex weddings.
First Claim: Violation of Article 1, Section 11
of the State Constitution
11.1 The Washington State Constitution, in
Article 1, Section 11, absolutely protects “freedom of
conscience in all matters of religious sentiment,
belief, and worship” and guarantees that “no one shall
be molested or disturbed in person or property on
account of religion.”
11.2 The state constitution has broader
protections for conscience and religious exercise than
the federal constitution. A law that has a direct or
indirect burden on the free exercise of religion must
be justified by a compelling government interest. The
state must also show that the means used to achieve
the compelling interest are both necessary and the
least restrictive available.

336a
11.3 Barronelle has a sincere religious belief,
which is shared with many other citizens of
Washington State, that marriage is uniquely defined
by God as a union of a man and a woman and that it
would be a serious violation of God’s precepts and her
conscience to use her creative skill to personally
decorate and thereby personally express a message in
support of a wedding between two persons of the same
sex.
11.4 The Attorney General’s actions and public
statements in this case are a use state power to
coercively ban an important practice of religion by
Barronelle and her business, Arlene’s Flowers.
11.5 The state’s effort here, via the Attorney
General, to coerce participation in and facilitation of
a same-sex wedding in violation of Barronelle’s
sincerely held religious convictions is subject to strict
scrutiny by the Court. The Attorney General’s actions
and public statements use state power to coercively
ban an important practice of religion by Barronelle
and Arlene’s Flowers.
11.6 The state has no compelling interest in
forcing Barronelle to violate her conscience and act
contrary to her faith by crafting personalized floral
arrangements in support of a same-sex wedding.
11.7 In addition to the fact that the state has no
compelling interest in this context, the means that the
state has chosen to pursue its interest is not necessary
or the least restrictive available to achieve the desired
end.

337a
11.8 The Attorney General’s actions violate the
rights of Barronelle and Arlene’s Flowers under
Article I, Section 11 of the Washington State
Constitution.
Second Claim: Violation of the Free Exercise
Clause of the First Amendment to the
United States Constitution
12.1 Arlene’s Flowers and Barronelle Stutzman
have sincerely held religious beliefs that marriage is
a union between a man and a woman, and that to
participate in, decorate, or facilitate a same-sex
wedding is a violation of her conscience and a
violation of her religious belief and right to freely
exercise her religious beliefs. The Attorney General’s
actions substantially burden the free exercise of
religion by Barronelle and Arlene’s Flowers.
12.2 The state’s CPA and WLAD are not neutral
or generally applicable because, among other things,
they have exceptions that undermine the purposes of
those Acts, and they are therefore subject to strict
scrutiny.
12.3 Because the rights implicated in this case
involve the free exercise of religion as well as free
speech and free association, this case presents a
hybrid claim that also requires application of strict
scrutiny.
12.4 The state is selectively enforcing the CPA
to enforce the WLAD against religious belief and
practice, in violation of the First and Fourteenth

338a
Amendments to the US Constitution, which also
subjects the law’s application to strict scrutiny.
12.5 The state does not have a compelling
interest in forcing Barronelle and/or Arlene’s Flowers
to participate in, or to decorate a same-sex wedding.
12.6 In addition to the fact that the state has no
compelling interest in this context, the means that the
state has chosen to pursue its interest is not necessary
or the least restrictive available to achieve the desired
end.
12.7 The Attorney General’s actions violate the
rights of Barronelle and Arlene’s Flowers under the
Free Exercise Clause of the First Amendment to the
United States Constitution.
Third Claim: Free Speech and Free Association
Under the State and Federal
Constitutions
13.1 Barronelle’s creation of wedding floral
arrangements and design artistry is expression.
13.2 The First Amendment to the federal
constitution and Article I, Section 5 of the state
constitution protect the right to speak, as well as the
right not to speak.
13.3 The First Amendment and Article 1,
Section 5 protect citizens from being compelled to
speak or endorse messages with which they disagree.
13.4 The First Amendment and Article I,
Section 5 also protect citizens from being compelled to

339a
associate with activities and social, political, and
ideological messages with which they disagree.
13.5 Requiring Arlene’s Flowers and Barronelle
to participate in or facilitate a same-sex wedding is
subject to strict scrutiny under the First Amendment
to the United States Constitution and Article 1,
Section 5 of the Washington Constitution.
13.6 The state does not have a compelling
interest in requiring Barronelle and Arlene’s Flowers
to use their artistic talent and expressive skills to
promote a message with which they disagree, or to
endorse a message with which they do not want to
associate.
13.7 The Attorney General’s actions violate the
rights of Barronelle and Arlene’s Flowers as
guaranteed by the free speech and free association
protections under the state and federal constitutions.
PRAYER FOR RELIEF
Arlene’s Flowers and Barronelle
respectfully request that the Court:

Stutzman

14.1 Dismiss Plaintiffs Complaint in its
entirety, and each cause of action therein, with
prejudice.
14.2 Declare that it is unlawful for the Attorney
General to compel Third-Party Plaintiffs and those
similarly situated to participate in, or otherwise
facilitate same-sex weddings, on the basis of
conscience and/or freedom of speech.

340a
14.3 Enjoin the Attorney General from
compelling Third-Party Plaintiffs to create floral
arrangements for a same-sex wedding.
14.4 Award reasonable attorneys’ fees and
litigation costs to Third-Party Plaintiffs, as allowed
by statute, court rule, or in equity, as applicable.
14.5 Award such other relief that the Court
deems just and equitable.
RESPECTFULLY SUBMITTED this 14th day of
May, 2013.
GOURLEY | BRISTOL | HEMBREE

JD Bristol, WSBA no. 29820
jdb@snocolaw.com
Dale Schowengerdt, pro hac vice
Alliance Defending Freedom
15100 N. 90th Street
Scottsdale, AZ 85260
(480) 444-0020
dale@alliancedefendingfreedom.org
Attorneys for Defendants
and Third-Party Plaintiffs

341a

STATE OF WASHINGTON
BENTON COUNTY SUPERIOR COURT
ROBERT INGERSOLL
and CURT FREED,

NO. 13-2-00953-3

Plaintiffs,
v.
ARLENE’S FLOWERS,
INC., d/b/a ARLENE’S
FLOWERS AND
GIFTS, and
BARRONELLE
STUTZMAN,

ANSWER AND
AFFIRMATIVE
DEFENSES

Defendants.
Defendants, Arlene’s Inc., d/b/a Arlene’s Flowers
and Gifts, (“Arlene’s Flowers”) and Barronelle
Stutzman hereby answer Plaintiffs’ complaint and
assert Affirmative Defenses and as follows:

342a
PARTIES
1.
Defendants were aware that Robert
Ingersoll identified as gay and that he was in a
relationship. As for the remainder of the
corresponding paragraph, Defendants lack information and knowledge sufficient to form a belief as to
the truth of the allegations, and therefore deny.
2.
Defendants admit the allegations in the
corresponding paragraph.
3.
Defendants admit the allegations in the
corresponding paragraph.
JURISDICTION AND VENUE
4.
Defendants admit that the events
underlying the lawsuit occurred at the Arlene’s
Flowers store in Richland, Washington. Defendants
deny the remaining allegations in the corresponding
paragraph.
5.
Defendants admit
corresponding paragraph.

the

allegation

in

6.
Defendants admit the allegation in the
corresponding paragraph.
7.
Defendants admit
corresponding paragraph.

allegation

in

the

343a
FACTS
8.
Defendants
lack
information
and
knowledge sufficient to form a belief as to the truth of
the allegations in the corresponding paragraph, and
therefore deny.
9.
Defendants
lack
information
and
knowledge sufficient to form a belief as to the truth of
the allegations in the corresponding paragraph, and
therefore deny.
10.
Defendants
lack
information
and
knowledge sufficient to form a belief as to the truth of
the allegations in the corresponding paragraph, and
therefore deny.
11.
Defendants admit that Mr. Ingersoll has
been a customer of Arlene’s Flowers for many years.
Defendants lack information and knowledge
sufficient to form a belief as to the truth of the
remaining allegations in the corresponding
paragraph, and therefore deny.
12.
Defendants admit that Arlene’s Flowers
sold Robert Ingersoll flowers for a variety of occasions,
including those listed in the corresponding
paragraph. Defendants lack information and
knowledge sufficient to form a belief as to the truth of
the allegations concerning the amount of money
spent, and whether Mr. Freed also purchased flowers
at Arlene’s, and therefore deny those allegations.
13.
Defendants admit that Robert Ingersoll
became engaged. Defendants lack information and

344a
knowledge sufficient to form a belief as to the truth of
the remaining allegations in the corresponding
paragraph, and therefore deny.
14.
Defendants deny that Plaintiffs simply
planned to buy flowers. Defendants admit that Mr.
Ingersoll asked Arlene’s Flowers to create floral
arrangements for his wedding, and that Arlene’s
Flowers advertises and sells flowers for a variety of
occasions, including weddings. Defendants admit that
Arlene’s Flowers advertises on the Internet and
maintains a web page. The phrase “large portion of
the general public” is too vague for Defendants to
admit or deny and Defendants therefore deny.
Defendants admit the remainder of the allegations in
the corresponding paragraph.
15.
Defendants admit that Mr. Ingersoll went
to Arlene’s Flowers on March 1, 2013, where he asked
Barronelle Stutzman if Arlene’s Flowers would create
the floral arrangements for his wedding. Ms.
Stutzman knew that Mr. Ingersoll identified himself
as gay and that he was in a relationship. Defendants
lack information and knowledge sufficient to form a
belief as to the truth of the remaining allegations in
the corresponding paragraph, and therefore deny.
16.
Defendants deny the allegations in the
corresponding paragraph.
17.
Defendants deny the allegation of the
corresponding paragraph in that Arlene’s Flowers
does not generally just sell flowers for weddings,
absent
designing
and
creating
the
floral

345a
arrangements for weddings. Defendants deny any
other interpretation of the corresponding paragraph.
18.
Defendants
lack
information
and
knowledge sufficient to form a belief as to the truth of
the allegations in the corresponding paragraph, and
therefore deny.
FIRST CAUSE OF ACTION
19.
To the extent that the corresponding
paragraph calls for a legal conclusion, the allegation
is neither admitted nor denied. The statute
referenced speaks for itself. Otherwise, Defendants
deny the allegations in the corresponding paragraph.
20.
To the extent that the corresponding
paragraph calls for a legal conclusion, the allegation
is neither admitted nor denied. The statutes
referenced speak for themselves. Otherwise,
Defendants deny the allegations in the corresponding
paragraph.
21.
The phrase “providing all the supplies
necessary for wedding floral arrangements” is too
vague for Defendants to admit or deny. Otherwise,
Defendants admit the allegation in the corresponding
paragraph.
22.
The allegation in the corresponding
paragraph calls for a legal conclusion, which is
neither admitted nor denied. Washington’s law
against discrimination speaks for itself. All other
interpretations of the corresponding paragraph are
denied.

346a
23.
The allegation in the corresponding
paragraph calls for a legal conclusion, which is
neither admitted nor denied. Washington’s law
against discrimination speaks for itself. All other
interpretations of the corresponding paragraph are
denied.
24.
Defendants deny the allegations in the
corresponding paragraph.
25.
To the extent that the corresponding
paragraph calls for a legal conclusion, the allegation
is neither admitted nor denied. Otherwise,
Defendants deny the allegations in the corresponding
paragraph.
26.
Defendants deny the allegations in the
corresponding paragraph.
SECOND CAUSE OF ACTION
27.
Defendants deny the allegations in the
corresponding paragraph.
28.
Defendants deny the allegations in the
corresponding paragraph.
THIRD CAUSE OF ACTION
29.
To the extent that the corresponding
paragraph calls for a legal conclusion, the allegation
is neither admitted nor denied. The statutes
referenced speak for themselves. Otherwise,
Defendants deny the allegations in the corresponding
paragraph.

347a
30.
Defendants deny the allegations in the
corresponding paragraph.
AFFIRMATIVE DEFENSES
31.
Failure to State a Claim Upon which Relief
can be Granted: Plaintiff’s complaint fails to state a
claim upon which relief can be granted and should be
dismissed under Civil Rule 12(b)(6).
32.
Preemption: As applied violation of the Free
Speech, Free Exercise, and Free Association
provisions of the First Amendment to the United
States Constitution.
33.
Justification: As applied violation of Article
I Section 11 and Article 1, Section 5 of the Washington
State Constitution.
34.

Failure to Mitigate Damages.

35.
Estoppel: Plaintiff’s actions and omission
negate the relief requested.
36.
37.
Freed.

Waiver and Ratification.
Lack of Standing in regard to Plaintiff Curt

38.
Frustration of Purpose in regard to
application
of
Washington
Law
Against
Discrimination and Consumer Protection Act.
39.
Prior pending action. Washington law
against discrimination is designed to be enforced by
state agency or, alternatively, provide a private right

348a
of action. The intent of the statute is frustrated by
allowing more than one set of statutory penalties to
apply to a single alleged statutory violation. The
intent of the statute at issue is to exact penalties as
stated within the statute, and not as a compound
penalty and compound remedy for multiple parties.
40.
Lack of Causation and Damages:
Defendant’s alleged actions and omissions did not
result in Plaintiff’s alleged damages, if any. Plaintiffs
have not suffered any damages.
41.
No Statutory Violation: Defendants’ alleged
acts and omissions did not violate any statute.
Defendants did not discriminate in the provision of
goods or services on the basis of any customer’s sexual
orientation. Rather, Defendant Arlene’s Flowers
declined to provide goods and services for a particular
type of event, based on a religious objection to
participation in the event, and the subject matter
thereof.
PRAYER FOR RELIEF
42.
Defendants
request
that
Plaintiffs’
Complaint be dismissed in its entirety, with
prejudice.
43.
Defendants request an award of reasonable
attorney fees and litigation costs as allowed by
statute, court rule, or in equity, as appropriate.
44.
Defendants request any other and further
relief the court deems just and equitable.

349a
RESPECTFULLY SUBMITTED this 17th day of
May, 2013.

JD Bristol, WSBA no. 29820
jdb@snocolaw.com
Dale Schowengerdt, pro hac vice
Alliance Defending Freedom
15100 N. 90th Street
Scottsdale, AZ 85260
(480) 444-0020
dale@alliancedefendingfreedom.org
Attorneys for Defendants
and Third-Party Plaintiffs

350a

STATE OF WASHINGTON
BENTON COUNTY SUPERIOR COURT
STATE OF
WASHINGTON,
Plaintiff
v.
ARLENE’S FLOWERS,
INC., d/b/a ARLENE’S
FLOWERS AND
GIFTS, and
BARRONELLE
STUTZMAN,

NO.
COMPLAINT FOR
INJUNCTIVE AND
OTHER RELIEF
UNDER THE
CONSUMER
PROTECTION ACT

Defendants.
The Plaintiff, State of Washington, by and through
its attorneys Robert W. Ferguson, Attorney General,
and Sarah A. Shifley, Assistant Attorney General,
brings this action against the Defendants named
below. The State alleges the following on information
and belief:

351a
I.

JURISDICTION AND VENUE

1.1
This Complaint is filed and these
proceedings are instituted under the provisions of the
Unfair Business Practices—Consumer Protection
Act, RCW 19.86.
1.2
The Attorney General is authorized to
commence this action pursuant to RCW 19.86.080 and
RCW 19.86.140.
1.3
The violations alleged in this Complaint
were committed in whole or in part in Benton County,
Washington, by the Defendants named herein.
1.4
Venue is proper m Benton County
pursuant to RCW 4.12.020 and RCW 4.12.025.
II.

DEFENDANTS

2.1
Defendant Arlene’s Flowers, Inc., d/b/a
Arlene’s Flowers and Gifts (“Arlene’s Flowers”) is a
Washington for-profit corporation engaged in the sale
of goods and services, including flowers for weddings.
2.2
Defendant Barronelle Stutzman is the
president, owner, and operator of Arlene’s Flowers.
2.3
Defendants
Arlene’s
Flowers
and
Barronelle Stutzman are collectively referred to as
“Defendants.”

352a
III.

NATURE OF TRADE AND COMMERCE

3.1
Defendants sell goods and services through
a retail store located at 1177 Lee Blvd, Richland, WA
99352 and have been at all times relevant to this
action in competition with others engaged in similar
activities in the state of Washington.
3.2
The goods and services sold by the
Defendants include flowers for weddings and various
related goods and services, including: wedding
consultation, on-sight decorating and decorations,
and rental of Candelabras, Topiaries, Columns,
Arches, etc.
3.3
Defendants advertise their goods and
services, including flowers for weddings, to the
general public through various media including:
signage outside of their retail store, websites, and a
Facebook page.
IV.

FACTS

4.1
On Friday, March 1, 2013, during regular
business hours, Robert Ingersoll entered Defendants’
retail store with the intention of purchasing flowers
for his upcoming wedding.
4.2
Mr. Ingersoll had previously purchased
goods and services from Defendants.
4.3
Mr. Ingersoll informed Ms. Stutzman that
he wanted to purchase flowers for his wedding.
4.4
In response, Ms. Stutzman stated to Mr.
Ingersoll that she could not provide flowers for his

353a
wedding ‘‘because of [her] relationship with Jesus
Christ.” Ms. Stutzman refused to sell flowers to Mr.
Ingersoll.
4.5
At the time, Ms. Stutzman was aware that
Mr. Ingersoll is gay and that his upcoming wedding
for which he was seeking to purchase flowers would
be to another man.
4.6
After Ms. Stutzman refused to sell him
flowers, Mr. Ingersoll left the store. Mr. Ingersoll did
not make any other purchases.
V.

CAUSE OF ACTION

5.1
Plaintiff realleges paragraphs 1.1 through
4.6 and incorporates them herein as if set forth in full.
5.2
Defendants’ retail business is a facility,
open to the public, for the sale of goods and services.
Defendants advertise their goods and services,
including flowers for weddings, to the general public.
5.3
Defendants customarily sell flowers for
weddings.
5.4
On March 1, 2013, Defendants refused to
sell flowers to Mr. Ingersoll for his wedding.
5.5
The fact that Mr. Ingersoll, a gay man, was
seeking to purchase flowers for his wedding to
another man was a substantial factor in Defendants’
refusal to sell him flowers.

354a
5.6
Defendants discriminated against Mr.
Ingersoll based on his sexual orientation by refusing
to sell him flowers for his wedding.
5.7
Pursuant to RCW 49.60.030(3), violations
of Washington’s Law Against Discrimination are per
se violations of the Consumer Protection Act, RCW
19.86. The conduct described herein constitutes
discrimination on the basis of sexual orientation in a
place of public accommodation in violation of RCW
49.60.215 and therefore constitutes a violation of the
Consumer Protection Act, RCW 19.86.
5.8
Notwithstanding RCW 49.60.030(3), the
conduct described herein constitutes an unfair
practice in trade or commerce and an unfair method
of competition that is contrary to the public interest
and therefore violates RCW 19.86.020 of the
Consumer Protection Act.
VI. PRAYER FOR RELIEF
WHEREFORE, Plaintiff, State of Washington, prays
for relief as follows:
6.1
That the Court adjudge and decree that
Defendants have engaged in the conduct complained
of herein.
6.2
That the Court adjudge and decree that the
conduct complained of in paragraphs 4.1 through 5.8
constitutes an unfair or deceptive act or practice in
trade or commerce in violation of the Consumer
Protection Act, RCW 19.86.

355a
6.3
That the Court issue a permanent
injunction enjoining and restraining Defendants, and
their representatives, successors, assigns, officers,
agents, servants, employees, and all other persons
acting or claiming to act for, on behalf of, or in active
concert or participation with Defendants, from
continuing or engaging in the unlawful conduct
complained of herein.
6.4
That the Court assess penalties, pursuant
to RCW 19.86.140, of two-thousand dollars ($2,000)
per violation against Defendants for each and every
violation of RCW 19.86.020 caused by the conduct
complained of herein.
6.5
That the Court make such orders pursuant
to RCW 19.86.080 to provide that plaintiff, State of
Washington, have and recover from Defendants the
costs of this action, including reasonable attorney’s
fees.
///
///
///

356a
6.6
For such other relief as the Court may
deem just and proper.
DATED this 9th day of April, 2013.

357a

IN THE SUPERIOR COURT OF WASHINGTON
FOR BENTON COUNTY
ROBERT INGERSOLL
and CURT FREED,
Plaintiffs,
v.

No.
COMPLAINT

ARLENE’S FLOWERS,
INC., d/b/a ARLENE’S
FLOWERS AND
GIFTS; and
BARRONELLE
STUTZMAN,
Defendants.
Washington law prohibits business owners
operating places of public accommodation from
discriminating against customers based on factors
such as race, religion, sex, and sexual orientation. The
law prohibits such discrimination because it
“threatens not only the rights” of Washington residents, “but menaces the institutions and foundation
of a free democratic state.” RCW 49.60.010. This is a
case about protecting people in Washington from

358a
unlawful discrimination on the basis of sexual
orientation.
Plaintiffs Robert Ingersoll and Curt Freed, for
their causes of action against Defendant, allege as
follows:
I.

PARTIES

1.
Plaintiffs Robert Ingersoll and Curt Freed
are gay men. They have been in a romantic
relationship since 2004 and are engaged to marry
each other. Plaintiffs reside together in Kennewick,
Washington.
2.
Defendant Arlene’s Flowers, Inc., d/b/a
Arlene’s Flowers and Gifts (“Arlene’s Flowers”) is a
for-profit Washington corporation that sells goods and
services to the general public from its retail store at
1177 Lee Boulevard, Richland, Washington.
3.
Defendant Barronelle Stutzman is the
president, owner, and operator of Arlene’s Flowers.
On information and belief, Ms. Stutzman resides in
Eltopia, Washington.
II.

JURISDICTION AND VENUE

4.
This action arises from Ms. Stutzman’s
refusal, as owner of Arlene’s Flowers, to sell flowers
to Plaintiffs on the basis of their sexual orientation.
The incident occurred at the Arlene’s Flowers store in
Richland, Washington.
5.
This Court has personal jurisdiction over all
parties.

359a
6.
This Court has subject matter jurisdiction
over all causes of action.
7.
action.

Benton County is the proper venue for this
III.

FACTS

8.
Mr. Freed was born and raised in the TriCities. He has been on the faculty of Columbia Basin
College since 1994 and is currently Vice President of
Instruction.
9.
Mr. Ingersoll was raised in Colorado and
New Mexico. He moved to Washington in the late
1990s. Mr. Ingersoll currently works as the
Operations Manager at Goodwill Industries in
Richland, Washington.
10.
Mr. Freed and Mr. Ingersoll met in
September 2004. They hiked through the Yakima
area for their first several dates, and they began to
fall in love. The two men have been a couple ever
since.
11.
Mr. Freed has been a customer of Arlene’s
Flowers his entire adult life. Mr. Ingersoll also
became a customer after he met Mr. Freed.
12.
Mr. Freed and Mr. Ingersoll estimate that
they have spent thousands of dollars at Arlene’s
Flowers. Among other purchases, they frequently
bought flowers for each other for birthdays,
anniversaries, and Valentine’s Days. They have also
purchased flowers for family members and friends,
and recently for their housewarming party.

360a
13.
After sharing their lives with each other for
eight years, Mr. Freed proposed to Mr. Ingersoll in
December 2012 and they plan to marry in September
2013.
14.
Mr. Freed and Mr. Ingersoll planned to buy
flowers for their wedding from Arlene’s Flowers,
which regularly advertises and sells flowers for all
occasions, including weddings. Arlene’s Flowers
advertises on the Internet and maintains a web page.
Arlene’s Flowers serves a large portion of the general
public, delivering flowers and gifts to customers
located in Richland, Kennewick, Pasco, Finley,
Burbank, and Benton City. Arlene’s Flowers also
serves funeral homes, hospitals, churches, and
nursing homes in the Tri-Cities.
15.
Mr. Ingersoll went to Arlene’s Flowers on
March 1, 2013, where he spoke with Ms. Stutzman
about placing an order for the event. Ms. Stutzman
knew at that time that Mr. Ingersoll is gay and is in
a long-term, romantic, and committed relationship
with Mr. Freed.
16.
Ms. Stutzman refused to sell flowers to Mr.
Ingersoll and Mr. Freed for their wedding because
they are a gay couple.
17.
Arlene’s Flowers has sold, and continues to
sell, wedding flowers to heterosexual couples.
18.
Mr. Freed and Mr. Ingersoll have not
secured a florist for their wedding.

361a
IV.
FIRST CAUSE OF ACTION:
UNLAWFUL DISCRIMINATION
19.
The
Washington
Law
Against
Discrimination prohibits discrimination based on
sexual orientation and preserves “[t]he right to be free
from discrimination.” RCW 49.60.030(1).
20.
“The right to be free from discrimination”
includes “[t]he right to the full enjoyment of any of the
accommodations, advantages, facilities, or privileges
of any place of public resort, accommodation,
assemblage, or amusement.” Id.; accord RCW
49.60.215. The statute applies to any person or entity
who offers “the sale of goods, merchandise, services,
or personal property, or for the rendering of personal
services….” RCW 49.60.040(2).
21.
Arlene’s Flowers sells goods, merchandise,
services, and renders personal services – including
providing all the supplies and services necessary for
wedding floral arrangements.
22.
Arlene’s Flowers’ commercial practices are
subject to the Washington Law Against Discrimination.
23.
Arlene’s Flowers is a place of public
accommodation under the Washington Law Against
Discrimination.
24.
On March 1, 2013, the Defendants refused
to sell flowers to Mr. Ingersoll and Mr. Freed for their
wedding solely on the basis of their sexual
orientation.

362a
25.
The Defendants have deprived the plaintiffs
of the “accommodations, advantages, facilities, or
privileges of [a] place of public resort, accommodation,
assemblage, or amusement,” in violation of RCW
49.60.030(1)(b) and RCW 49.60.215.
26.
Pursuant to RCW 49.60.030 and RCW
49.60.215, the Defendants’ refusal to sell goods and
services constitutes unlawful discrimination against
the Plaintiffs on the basis of their sexual orientation.
V.

SECOND CAUSE OF ACTION: AIDING A
VIOLATION OF THE WASHINGTON LAW
AGAINST DISCRIMINATION

27.
Because she refused to sell flowers to Mr.
Ingersoll and Mr. Freed for their wedding, defendant
Barronelle Stutzman aided Arlene’s Flowers in
violating
the
Washington
Law
Against
Discrimination by discriminating against the
Plaintiffs on the basis of their sexual orientation.
28.
Ms. Stutzman violated RCW 49.60.220 by
so aiding Arlene’s Flowers.
VI.

THIRD CAUSE OF ACTION: VIOLATION
OF THE CONSUMER PROTECTION ACT

29.
Unfair acts or practices in the conduct of
trade or commerce are unlawful violations of the
Washington Consumer Protection Act. RCW
19.86.020. Violations of Washington’s Law Against
Discrimination are per se violations of the Consumer
Protection Act. RCW 49.60.030(3)

363a
30.
The defendants’ actions constitute an unfair
act or practice in trade or commerce and an unfair
method of competition that runs contrary to the public
interest of Washington State. The defendants’ actions
injured the plaintiffs, and the defendants are
therefore liable under the Washington Consumer
Protection Act.
VII.

PRAYER FOR RELIEF

THEREFORE, Plaintiffs demand:
1.
That the Defendants and all other persons
acting or claiming to act for, on behalf of, or in active
concert or participation with the Defendants, be
enjoined from engaging in the unlawful discriminatory conduct described above, which violates
RCW ch. 49.60 and RCW ch. 19.86;
2.
A judgment against the Defendants, jointly
and severally, pursuant to RCW 49.60.030(2) and
RCW 19.86.090, for damages in an amount to be
proved at trial, including trebling as permitted by
statute.
3.
An award of reasonable attorneys’ fees and
costs that the plaintiffs incur in connection with this
action; and
4.
Such other relief as the Court deems just
and proper.
DATED this 18th day of April, 2013.
HILLIS CLARK MARTIN &PETERSON P.S.

364a
By
Michael R. Scott, WSBA #12822
Amit D. Ranade, WSBA #34778
Jake Ewart, WSBA #38655
Hillis Clark Martin & Peterson P.S.
1221 Second Avenue, Suite 500
Seattle WA 98101-2925
Telephone: (206) 623-1745
Email: mrs@hcmp.com;
adr@hcmp.com; mje@hcmp.com
AMERICAN CIVIL LIBERTIES UNION OF
WASHINGTON FOUNDATION
Sarah A. Dunne, WSBA #34869
American Civil Liberties Union of
Washington
901 Fifth Avenue, Suite 630
Seattle, WA 98164
Telephone: (206) 624-2184
Email: dunne@aclu-wa.org;
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
Elizabeth Gill (Application to Appear
pro hac vice Pending)
ACLU Foundation
LGBT & AIDS Project
39 Drumm Street
San Francisco, CA 94111
Telephone: (415) 621-2493
Email: egill@aclunc.org
Attorneys for Plaintiffs
Robert Ingersoll and Curt Freed

365a

Bob Ferguson
ATTORNEY GENERAL OF WASHINGTON
Consumer Protection Division
800 Fifth Avenue • Suite 2000• MS TB 14 • Seattle
WA 98104-3188
(206) 464-7745
March 28, 2013
VIA FEDERAL EXPRESS
Barronelle Stutzman
Arlene’s Flowers, Inc.
1177 Lee Blvd.
Richland, WA 99352
Re: Violation of the Consumer Protection Act
Dear Ms. Stutzman:
I am an Assistant Attorney General in the Washington State Attorney General’s Office. It has come to
the attention of our Office that on or about March 1,
2013, you refused to sell floral arrangements to a
same-sex couple for their wedding because of the
couple’s sexual orientation. Refusing to provide goods
or services on the basis of a consumer’s or consumers’
sexual orientation is an unfair practice under Washington’s Law Against Discrimination, RCW 49.60,
and therefore violates the Washington Consumer

366a
Protection Act, RCW 19.86. Our Office is charged with
enforcing the Consumer Protection Act.
In an effort to resolve this matter and to avoid further
action by our Office, up to and including the filing of
a lawsuit, we would like to provide you the
opportunity to agree that, in the future, you will not
discriminate against consumers based on their sexual
orientation. This means that as a seller of goods or
services, you will not refuse to sell floral arrangements for same-sex weddings if you sell floral
arrangements for opposite-sex weddings.
I have enclosed an Assurance of Discontinuance
(AOD) reflecting such an agreement for your review.
If you agree to enter into this AOD, you agree not to
discriminate against consumers based on their sexual
orientation in the future. Please note that the AOD is
not an admission by you that you violated the law and
it does not include monetary payments or attorneys’
fees, both of which are provided for under the
Consumer Protection Act. However, if you fail to abide
by the terms of the AOD after signing it, you could be
subject to potential legal action including injunctions,
civil penalties of up to $2000 per violation, and
attorneys’ fees and costs.
It is our preference to resolve this matter in a fair,
measured, and appropriate manner. We believe that
the enclosed AOD does this. I would appreciate
hearing from you no later than close of business, April
8, 2013, regarding your willingness to sign the AOD.
I would also be happy to discuss this matter with you
further, either in person or by telephone; if this is
something you would like to do, please let me know

367a
and I will find a convenient time that works for both
of us. However, if you do not respond or if you are not
willing to sign the AOD, we will be required to pursue
more formal options to address this matter.
You, or your counsel, may reach me by email at
sarah.shifley@atg.wa.gov, or by telephone at the
number listed below. Thank you in advance for your
prompt attention to this letter.
Sincerely,

SAS:lra
Enclosure

368a
STATE OF WASHINGTON
BENTON COUNTY SUPERIOR COURT
In the matter of:

NO.

ARLENE’S FLOWERS,
INC., d/b/a ARLENE’S
FLOWERS AND GIFTS,
and BARRONELLE
STUTZMAN

ASSURANCE OF
DISCONTINUANCE

Respondents.
The State of Washington, by and through its
attorneys, Robert W. Ferguson, Attorney General,
and Sarah A. Shifley, Assistant Attorney General,
files this Assurance of Discontinuance pursuant to
RCW 19.86.100.
I.

INVESTIGATION

1.1
The Attorney General initiated an
investigation into the business practices of Arlene’s
Flowers, Inc., d/b/a Arlene’s Flowers and Gifts, and its
president, owner, and operator, Barronelle Stutzman
(collectively, “Respondents”).
1.2
Respondents are engaged in the sale of
goods or services in the state of Washington, including
the sale of floral arrangements for weddings and
other occasions, through a retail store located at 1177
Lee Blvd., Richland, WA 99352.

369a
1.3
On or about March I, 2013, Respondents
refused to sell floral arrangements to a same-sex
couple for their wedding because of the couple’s sexual
orientation.
II.

ASSURANCE OF DISCONTINUANCE

2.1
The Attorney General deems and the
Respondents acknowledge that the following
constitutes an unfair or deceptive act or practice in
violation of the Consumer Protection Act, RCW 19.86:
Discriminating against any person by directly
or indirectly refusing to sell or provide any
goods or services – including flowers, floral
arrangements, or other floral services for a
wedding – because of the person’s sexual
orientation in violation of Washington’s Law
Against Discrimination, RCW 49.60.
2.2
Respondents agree that they will not
engage in the above-identified unfair or deceptive act
or practice. Respondents further agree that they will
not permit their agents, employees, or any other
people acting on their behalf, to engage in the aboveidentified act or practice.
2.3
This Assurance of Discontinuance shall not
be considered an admission of violation for any
purposes. However, failure to comply with this
Assurance of Discontinuance shall be prima facie
evidence of a violation of RCW 19.86.020 and may
result in imposition by the Court of injunctions and
civil penalties of up to $2,000 per violation, attorneys’

370a
fees and costs, and any other relief that the Court may
order pursuant to RCW 19.86.
2.4
Nothing
in
this
Assurance
of
Discontinuance shall be construed so as to limit or bar
any other person or entity from pursuing available
legal remedies against the Respondents.
DATED this ____ day of _______________, 2013.
Approved for entry:
_________________________________
JUDGE/COURT COMMISSIONER
Presented by:
ROBERT W.
FERGUSON
Attorney General
______________________
SARAH A. SHIFLEY,
WSBA #39394
Assistant Attorney
General
Attorneys for State of
Washington

Agreed to, Approved for
Entry, Notice of
Presentation Waived:
______________________
BARRONELLE
STUTZMAN
Respondent
______________________
ARLENE’S FLOWERS,
INC.
By: ___________________
Respondent

371a

SUPERIOR COURT OF WASHINGTON
COUNTY OF BENTON
STATE OF
WASHINGTON,

)
)
)
Plaintiffs,
)
v.
)
)
ARLENE’S FLOWERS,
)
INC., d/b/a ARLENE’S
FLOWERS AND GIFTS, )
)
and BARRONELLE
)
STUTZMAN,
)
Defendants.
)
________________________ )
)
ROBERT INGERSOLL
)
and CURT FREED,
)
)
Plaintiffs,
)
v.
)
ARLENE’S FLOWERS,
)
INC., d/b/a ARLENE’S
)
FLOWERS AND GIFTS; )
and BARRONELLE
)
STUTZMAN,
)
)
Defendants.

No. 13-2-00871-5
(Consolidated with
13-2-00953-3)
DECLARATION
OF BARRONELLE
STUTZMAN IN
SUPPORT OF
MOTION FOR
PARTIAL
SUMMARY
JUDGMENT ON
PERSONAL
CAPACITY
CLAIMS

372a
1.
My name is Barronelle Stutzman, and I am
one of the named Defendants in this case. I am also
the President of Arlene’s Flowers, Inc. (DBA Arlene’s
Flowers and Gifts), the other named Defendant in this
case.
2.
I am over the age of eighteen, competent to
testify, and have personal knowledge of the
information contained within this affidavit.
3.
My mother, Dorothy (“Dotty”) Ryan,
incorporated Arlene’s Flowers, Inc., in 1989. Attached
as Exhibit A is a true and correct copy of the
Certificate of Incorporation.
4.
I bought Arlene’s Flowers, Inc., from my
mother in 2000. Attached as Exhibit B is a true and
correct copy of the stock purchase agreement.
5.
Arlene’s Flowers, Inc., is a closely held
company. I am the president of Arlene’s Flowers, Inc.,
and my husband, Darold Stutzman, is the Secretary
and Treasurer. Attached as Exhibit C are the Bylaws
of Arelene’s Flowers, Inc, as well as the corporate
minutes for the previous year.
6.
We have always strived to comply with
Washington law in maintaining our corporate status,
and we have a corporate attorney who has assisted us
in ensuring that we followed state requirements and
best practices.
7.
As I have previously testified, Robert
Ingersoll has been one of my customers for
approximately nine years, during which time I

373a
designed and created floral arrangements for him for
many different occasions.
8.
I have enjoyed a warm and friendly
relationship with Robert, knowing that he identified
as gay and was in a relationship with Curt Freed.
9.
The fact that Robert identifies as gay and
was in a same-sex relationship never lessened his
dignity or worth in my eyes, or the respect I gave to
him as a longtime customer and friend.
10.
In March 2012, Robert came to my shop to
see if I would design the flowers for his wedding to
Curt.
11.
I had designed and created flowers for
Robert and Curt in the past, but I believe that doing
the flowers for any same-sex wedding would give the
impression that I endorsed same-sex marriage
12.
My deeply held religious belief is that God
defines marriage as a spiritual union between one
man and one woman.
13.
As a matter of faith, I cannot go against
God’s definition of marriage or assist others in doing
so.
14.
I believe that participation in same-sex
ceremonies and using my artistic talent to design and
create the floral arrangements that are an important
component of weddings would go against God’s
definition of marriage.

374a
15.
Agreeing to do flowers for any marriage
ceremony not between one man and one woman would
violate my conscience and my deeply held religious
beliefs. When I told Robert that I could not do his
flowers, I never imagined that the state could
consider that sexual orientation discrimination in
violation of the law. As noted, I have always served
gay and lesbian customers without any problem.
16.
The reason I could not create floral arrangements for Robert’s wedding ceremony to Curt freed
was because of my biblical belief that marriage is a
union of a man and a woman. I was declining
participation in an event. I did not decline because of
Robert and Curt’s sexual orientation.
I declare under the penalty of perjury that the
foregoing answers to Plaintiffs’ discovery requests are
true and correct to the best of my knowledge.
Executed October 25, 2013.

Barronelle Stutzman

375a

STATE OF WASHINGTON
BENTON COUNTY SUPERIOR COURT
STATE OF
WASHINGTON,
Plaintiff,

No. 13-2-00871-5
(consolidated with
13-2-00953-3)

v.
ARLENE’S FLOWERS,
INC., d/b/a ARLENE’S
FLOWERS AND GIFTS,
and BARRONELLE
STUTZMAN,
Defendants.

ROBERT INGERSOLL
and CURT FREED,
Plaintiffs,
v.
ARLENE’S FLOWERS,
INC., d/b/a ARLENE’S
FLOWERS AND GIFTS,
and BARRONELLE
STUTZMAN,
Defendants.

DECLARATION OF
BARRONELLE
STUTZMAN

376a
I, Barronelle Stutzman, declare the following
under oath and penalty of perjury of the laws of the
State of Washington.
I.

BACKGROUND

1.
My name is Barronelle Stutzman, and I am
one of the named Plaintiffs in this case. I am also the
sole owner and operator of Arlene’s Flowers, Inc., the
other named Plaintiff in this case.
2.
I am over the age of eighteen, competent to
testify, and have personal knowledge of the
information contained within this declaration.
3.
I am a Christian and I ascribe to the
teaching on Biblical principles provided by the
Southern Baptist tradition.
4.
My faith is a part of every aspect of my life.
I believe that God requires me to apply my faith in all
that I do whether that is in my personal life or my
business.
5.
I have been involved in the floral industry
for approximately 37 years and have been sharpening
my floral design skills ever since I started in this
industry.
6.
In the mid-1970s, I began learning the art
of floral design and creation at my mother’s floral
shop in Connell. I also began practicing the art of
floral design and developed my own individual floral
design style. I have continued to hone my skills ever
since.

377a
7.
Early in my floral design career, my mom
and several other floral design artists who worked for
my mother trained me in the artistic and creative
components of floral design and creation, for which I
had a natural aptitude.
8.
In 1982, I became the manager of Arlene’s
Flowers, which was owned by my mother. In 1989, my
mom was diagnosed with Alzheimer’s. So I purchased
the business from my mom in 1996 and became the
owner of Arlene’s Flowers, where continue to design
floral arrangements, Pictures of Arlene’s Flowers’
storefront and one of its vans are attached to this
declaration as Exhibit 2.
II.

FLORAL DESIGN

9.
Floral design is an art of precision as well
as creativity. Floral design requires the skills to take
raw material – such as flowers, plants, containers,
adornments (“baby’s breath”) and other elements –
and then arrange them in an artistic fashion until the
arrangement conveys the right message and mood for
the customer or for the occasion. I try to use these
artistic skills and my floral design business, which I
view as gifts from God, to honor God.
10.
As floral artists, we often incorporate and
harmonize the meaning and symbolism of flowers, a
particular color, or specific element or adornment in a
floral arrangement to assign with conveying the
intended message.

378a
11.
In addition to the experience and
observation of my mother and of other floral design
artists, I also took various classes to hone these skills.
12.
I enjoy teaching the art of floral design and
creation to others. Photographs of some floral
arrangements that I have designed and arranged are
attached at Exhibit 1. This exhibit contains pictures
of just raw flowers (pages 1, 3-6, 10-11, 15-17) and
also of arrangements I have created (the other pages).
13.
Over the last 40 years, I have further
developed my own design style and sharpened my
skills to execute my designs.
14.
All floral design artists have their own
unique style. However, all of the designers at Arlene’s
Flowers use a style and form consistent with mine so
that there is a consistent quality in the arrangements
that we produce. This consistency is intentional. I
supervise the design and creation of most floral
arrangements, and view most of them before they
leave the store.
15.
Clients who want custom designed
arrangements almost always give me discretion and
allow me to exercise my artistic judgment to
determine how to fit their needs and how to convey a
mood and message through the requested arrangements.

379a
A.

Customer Relationships and Floral
Design

16.
My religious beliefs require that I love and
respect my neighbor, which includes my customers
and my employees regardless of race, religion, sex, or
sexual orientation. According to my religious beliefs,
I am no better than anyone else. I believe that I
cannot judge anyone but everyone, including me, has
sinned and needs the forgiveness God offers in his
son, Jesus.
17.
While working under my mother and other
florists, I learned that it is important to develop close
relationships with clients. It is part of our business
goal to be our customers’ “personal florist for life”, not
just a florist for one occasion. This goal is reflected in
the written policies of Arlene’s Flowers. A true and
correct copy of one of Arlene’s business policies is
attached as Exhibit 12 to the declaration of Kristen
Waggoner, Bates page 43.
18.
I have developed close relationships with
many of my customers, especially my regular
customers, which I very much enjoy. We have some
customers that we have served as long as 30 years.
These regular customers have allowed us to serve
them by creating flowers for and participating in their
significant life events like Valentine’s Day, Easter,
Mother’s Day, engagements, anniversaries, birthdays, weddings, baptisms, births, proms, work promotions, and relative’s funerals. These customers also
allow Arlene’s to create arrangements to share in
expressing simple, everyday thoughts like I love you.

380a
I enjoy serving these costumers as well as the children
and grandchildren of these customers.
19.
Many of these customers are very different
from each other and very different from me. I am
proud to serve customers and develop relationships
with customers of all different backgrounds and
beliefs.
20.
Indeed, I have loved and respected these
customers and my employees regardless of their race,
religion sex, or sexual orientation.
21.
For example, I knew one of my former
employees named David Mulkey was gay. And we
always got along, frequently chitchatting at work
about various topics. Just as I enjoy interacting with
others to convey God’s love, I enjoyed interacting with
David in a loving and respectful way.
22.
I design my arrangements so that they
convey an expressive message, especially if it is for an
event like a wedding ceremony. The close relationships I have with clients allow me to better design an
arrangement and convey a message through flowers
that meets their needs for the occasion.
B.

Wedding Floral Design

23.
Designing arrangements for weddings is
one of the most rewarding aspects of my job because I
enjoy celebrating the marriage with the couple. There
is no greater delight than to see a bride cry with joy
the first time she encounters the beauty of her
wedding flowers. I also enjoy the great challenge of

381a
designing arrangements for weddings, a process
which requires a level of training, artistic skill, and
experience not required by other arrangements and
events. In addition, I view wedding ceremonies as
religious events where worship takes place. So
weddings carry religious significance for me.
24.
In addition to the personal reward, I also
receive referrals to my business from guests who see
Arlene’s work at weddings they attend. These
wedding guests admire the style and design of floral
arrangements Arlene’s creates, ask who designed the
arrangements, and are told Arlene’s did. Many of
these referred customers want the same type of
beautiful and creative arrangements they saw at the
wedding they attended.
25.
It is also very satisfying to work on
weddings because it gives me an opportunity to
participate in marriage, which I believe God designed.
My religious beliefs about marriage are an important
component of my faith.
26.
Few other projects require me to pour
myself so completely into a project as wedding flower
design and creation. I love using my artistic skill in
floral design and creation to celebrate and commemorate important events in the lives of my customers.
27.
It is also very rewarding to get to know an
engaged couple, celebrate their marriage with them,
and share my creations with them, their friends, and
their family. Because designing and creating wedding
arrangements requires such an intense personal
investment, I feel very connected to the wedding

382a
ceremony itself, especially since my creations adorn
the ceremony and often define the style and colors of
the wedding.
28.
As long as the client is available and willing,
I typically like to meet with my wedding clients
several times. In those meetings, I spend a great deal
of time (sometimes hours) getting to know the couple,
their background, their aspirations, and their
personal tastes. One of the great joys of my job is
learning about the engaged couple and celebrating
with them. My goal is to bring elements of their
relationship and personalities into the floral designs
for their wedding.
29.
I have books with pictures of wedding
designs in my consultation room, which I share with
wedding customers as a conversation starter. It is
very rare that a customer picks arrangements as they
appear in the wedding books. And even if they select
an arrangement from a picture, the arrangements
never look exactly the same as I add my personal style
and creativity as a floral artist.
30.
In designing the plan for the wedding, I
must consider what flowers are in season, the location
of the wedding, the colors or other elements chosen by
the couple, and the overall mood and feeling that will
be expressed. I must do this with the personalities of
the couple in mind, and within their budget.
31.
After I learn about the couple and their
ceremony, I begin designing the arrangements for the
wedding ceremony and reception. This typically
includes a wide variety of arrangements, including

383a
boutonnieres and corsages, pew markers, altar
arrangements, window and other adornments, table
center pieces, and of course the bridal bouquet. Part
of the challenge of weddings is designing the different
arrangements, each requiring different elements, in a
way that compliments to the overall floral design, the
engaged couple’s personality, the wedding location,
and the mood desired for the wedding. Wedding
arrangements typically contain multiple elements,
like different flowers or accompanying adornments.
32.
Almost every customer who requests
wedding flowers from Arlene’s wants me or one of the
other Arlene’s floral designers to custom arrange
these flowers into an arrangement designed specifically for them and their wedding.
33.
In addition to designing the arrangements,
Arlene’s will also deliver flowers to the wedding venue
in Arlene’s vans and offer to provide full wedding
support. When offering to provide full wedding
support, Arlene’s floral designers offer to help before,
during, and after the wedding ceremony to ensure
that all flowers are beautiful throughout the
ceremony and reception. Often this might require
touching up an arrangements, changing out flowers if
needed, attending the ceremony, and assisting with
the clean-up and removal of floral arrangements
afterwards.
34.
When I attend wedding ceremonies for
Arlene’s, I also participate in rituals that occur at the
wedding. For example, l have frequently stood for the
bride, clapped in appreciation of the married couple,

384a
and prayed along with the officiant as the officiant
leads the wedding attendees.
35.
Arlene’s often provides its full wedding
support for large weddings or for long-time customers
that we have developed relationships with at the
shop.
36.
When providing full wedding support, my
employees and I are at the disposal of the Bride and
we want to help any way that we can. I have greeted
guests as they arrived to the ceremony, helped with
entertaining children as the wedding party prepared
for the ceremony, styled hair for the wedding party,
and even assisted with cleaning the wedding party’s
attire. Because my floral business depends on
personal relationships and participation in customers’ significant life events, I want my customers’
weddings to run as smoothly as possible and for
customers to enjoy their weddings as much as
possible. When my customers enjoy their weddings,
they enjoy what Arlene’s provided for their weddings.
So Arlene’s floral designers do whatever it takes to
make the entire ceremony an enjoyable and
successful event.
37.
When providing full wedding support, I also
help the wedding party and encourage them as they
prepare and meet their needs in any way that I can.
For example, one bride confided in me that she was
experiencing some doubts about getting married and
I was able to counsel her and offer my advice, which
included some of my personal beliefs about marriage.
I was honored that she trusted me with her feelings,

385a
and it made watching her take her vows even more
special.
38.
Because of the emotional investment
required by most weddings, I enjoy forming a unique
personal bond with my clients, and feel very
connected to their wedding ceremony. That
connection to the ceremony is heightened because of
my religious beliefs about the importance of marriage,
and the significance it has in Scripture. It is so
significant, that the Bible compares marriage to the
relationship between Jesus and His Church.
III.

ROBERT INGERSOLL

39.
Rob was my customer for over nine years. I
had a particular fondness for him, and we developed
a very warm friendship. We would often chat as he
browsed the shop and placed orders. And as a natural
outgrowth of my religious beliefs to love and respect
my neighbors and customers, I loved and respected
Rob. I genuinely like Rob and that has not changed.
40.
Not only do I enjoy Rob personally, I also
enjoy the way he challenges me to design and create
arrangements that are unique and expressive. Rob
would always ask for me when he came into the shop
for various occasions. Rob and I would typically pick
out a vase together, and then he would hand me the
vase and tell me to “do my thing.” He was particularly
fond of unusual and creative arrangements. His
requests for arrangements always challenged me to
do my best work, utilizing the artistic skill that I’ve
spent honing. I loved working with Rob. I learned Rob
identified as gay because we would frequently talk

386a
about his relationship to his partner, Curt Freed,
when Rob came into the store. I tried to show interest
in Rob’s relationship to Curt, just as I try to show
interest in the lives of my other customers. But my
knowledge that Rob was gay made no difference in
how I viewed him as a friend and a customer.
41.
I have had several gay, lesbian, and
bisexual employees and customers over the years, and
that fact made no difference in how I viewed them as
employees, customers, and friends.
42.
Sometime in the last week of February
2012, I learned from one of my employees that Rob
had come to the store and asked to see me to talk
about wedding flowers for his upcoming wedding to
Curt. I wasn’t at the store at the time Rob came in.
43.
Upon learning this information from my
employee, I believed Rob wanted me to provide full
wedding support for his wedding because he always
requested complex and intricate work from me, we
were friends, and he was a long time customer, the
type of customer who typically asks Arlene’s for full
wedding support. As a result, I believed Rob was
asking me to provide each of the following: to custom
design his floral arrangements, to deliver these
arrangements in Arlene’s delivery vans to his
wedding, to attend his wedding ceremony and
participate in the rituals at this ceremony, to perform
touch-ups to the flowers at the ceremony, to clean up
after the ceremony, and to potentially provide other
assistance at the ceremony like I often do, such as
greeting guests, encouraging the bride and groom,
helping organize other elements of the ceremony, and

387a
working with the wedding party. Rob never told me
anything to contradict my belief. For example, Rob
never told me he wanted to purchase raw sticks and
twigs for his wedding.
44.
In all my years of working in the floral
industry, I had never received a request to participate
in a same-sex wedding ceremony. And to my knowledge, Rob’s request was the first of its kind for
Arlene’s Flowers or for me.
45.
I believe that God created two distinct
genders, male and female, in His image and the Bible
defines marriage as a union of one man and one
woman as ordained by God. This is also the doctrine
of my Southern Baptist faith.
46.
My faith requires that I not participate in
events that are dishonoring to God, including using
my artistic talents and my business to participate in
such events.
47.
Participating in a same-sex wedding ceremony in the way Rob requested would violate my
conscience, and I would be held accountable to the
Lord for this.
48.
I also believe that if I participated in a
same-sex wedding ceremony in the way Rob
requested, others would see my actions as an
endorsement of the ceremony.
49.
After consulting with my husband, I
decided that I could not in good conscience participate

388a
in Rob’s wedding due to my religious beliefs about
marriage.
50.
This decision was not made because of Rob’s
sexual orientation, but based solely on my beliefs
about marriage as a union between a man and a
woman. For this reason, Arlene’s and I will decline to
participate in any wedding ceremony not between one
man and one woman, regardless of the sexual
orientation to those marrying. Likewise, Arlene’s and
I will participate in a wedding ceremony between one
man and one woman, regardless of the sexual
orientation of those marrying.
51.
I struggled with what to say to Rob and how
to explain that I would not be able to participate in
Rob’s wedding as I did not want to hurt my friend’s
feelings.
52.
When Rob returned to the store to speak
with me, we initially chitchatted a bit about various
subjects. Rob then said he was getting married and he
wanted me to create arrangements for his wedding. I
tried to respond in the most sensitive way I knew how.
I gently took his hand, looked him in the eye, and told
him that I could not do his wedding because of my
relationship with Jesus Christ. I also happily gave
him the names of three other florists in town who
might be able to participate in his ceremony. I hoped
Rob would be able to find a florist who could do what
I could not in good conscience do.
53.
When I referred Rob to the other florists, I
thought I was declining to have Arlene’s provide its
full wedding support for Rob’s wedding.

389a
54.
Rob said he understood, and we went on to
talk about his plans for the wedding. We hugged, and
he left the store. Based on our conversation, it was my
belief and hope that he would remain my friend and
customer.
55.
I understand from my attorneys and several
court documents that Rob and Curt have indicated
that they only wanted the raw materials such as
twigs, branches, or vases to design their own
arrangements. The request for raw materials was not
something Rob and I discussed. If Rob had requested
the raw materials, I would have gladly provided them.
56.
After coming to the decision that I would not
be able to participate in Rob’s same-sex ceremony, I
realized that other customers may ask Arlene’s to
participate in same-sex weddings like Rob did. So I
determined that Arlene’s policy going forward would
be not to take same-sex weddings, meaning Arlene’s
would not provide full wedding support for same-sex
wedding ceremonies and would refer such requests to
other florists.
57.
Rob’s request is the only same-sex wedding
request Arlene’s received before this lawsuit began.
And Rob’s request is the only same-sex wedding
request Arlene’s declined before this lawsuit began.
As a result, between the time of Rob’s request and the
initiation of this lawsuit, I did not have to decline a
request to participate in a same-sex wedding
ceremony different from Rob’s request. So during that
time and before, I did not have to confront the issue
whether Arlene’s would provide any services for

390a
same-sex wedding ceremonies except a request for
Arlene’s full wedding support.
58.
But Arlene’s will sell flowers and create
custom arrangements for homosexual and bisexual
customers just as it always has. Arlene’s will also sell
flowers for same-sex wedding ceremonies as well. But
neither I nor my employees under my direction will
use our imagination and artistic skill to intimately
participate in a same-sex wedding ceremony because
of my religious beliefs.
59.
After Rob’s partner posted his thoughts
concerning my decision on Facebook, our store began
to receive many hate-filled phone calls, emails, and
Facebook messages. Some of these messages contained explicit threats against our safety, including a
threat to burn down the shop. I did not respond to any
of these negative messages or engage in any way with
those making threats. Because of these, we used the
help of a private security firm to keep my employees
and me safe. A few of those emails are attached as
Exhibit 10 to the declaration of Kristen Waggoner.
60.
Shortly after the news media publicized my
decision to refer Rob to another florist because of my
religious beliefs, the Attorney General’s office sent me
a letter, demanding that I agree to participate in
same-sex ceremonies or face court action and
penalties and sign an assurance stating the same.
Because of my faith, I could not agree to the Attorney
General’s demands and did not sign the assurance.
61.
I cannot participate in same-sex wedding
ceremonies without violating my religious beliefs, and

391a
I cannot allow my business and employees to
participate in same-sex wedding ceremonies on
Arlene’s behalf without violating my religious beliefs.
This is true even if I am fined or ordered to do so.
62.
If necessary, I would close my business and
stop participating in all weddings before violating my
religious beliefs.
63.
Indeed, after this lawsuit against me and
my business began, Arlene’s instituted a policy of
turning down requests to provide service or support
for any wedding, except weddings for my immediate
family members. Arlene’s will not provide any floral
wedding services or support for any customers besides
my immediate family until this case ends.
64.
After this lawsuit began, Arlene’s has
received requests to provide services and support for
same-sex wedding ceremonies and opposite-sex
wedding ceremonies. But Arlene’s declined all these
requests, including the requests about same-sex
wedding ceremonies, because of Arlene’s interim
policy – initiated because of and after this lawsuit –
to decline wedding requests from anyone besides my
immediate family.
I declare under the penalty of perjury that the
foregoing is true and correct to the best of my
knowledge.

392a
Executed on

393a

STATE OF WASHINGTON
BENTON COUNTY SUPERIOR COURT
STATE OF
WASHINGTON,

No. 13-2-00871-5
(consolidated with 13-200953-3)

Plaintiff,
v.
ARLENE’S FLOWERS,
INC., d/b/a ARLENE’S
FLOWERS AND GIFTS,
and BARRONELLE
STUTZMAN,
Defendants.

EXPERT
DECLARATION OF
JENNIFER ROBBINS

394a
ROBERT INGERSOLL
and CURT FREED,
Plaintiffs,
v.
ARLENE’S FLOWERS,
INC., d/b/a ARLENE’S
FLOWERS AND GIFTS,
and BARRONELLE
STUTZMAN,
Defendants.
I, JENNIFER ROBBINS, am over the age of 18
and competent to testify, and declare the following
under oath and penalty of perjury of the laws of the
State of Washington that:
I. BACKGROUND
1. I am a floral design artist and have served
as the owner/operator of J Robbins Florist, a floral
design studio located in Tacoma, Washington, for
nearly twenty years. I am trained and educated in
floristry. Part of my floral education included the
history of floral arrangements. My educational and
professional experience is summarized on the
curriculum vitae attached to this declaration. See
Exhibit 1.

395a
2. Over the last nineteen years, I have
designed and created flowers for over 1,500 weddings
and other events of all budgets and types.
3. One of the primary focuses of my business
is designing and creating floral arrangements for
wedding ceremonies in the Seattle area.
4. I also collaborate with local floral design
artists to design and create floral arrangements for
large-scale weddings in Napa, California.
5. On November 18, 2013, I visited Mrs.
Barronelle Stutzman at her business, Arlene’s
Flowers and Gifts, in Richland, Washington.
6. I spoke with Ms. Stutzman about the
process she uses in designing and creating flower
arrangements for wedding ceremonies, including her
initial meeting with clients, cost estimates,
subsequent client meetings, floral design and
creation, and the process used to fulfill orders and
place arrangements for a wedding ceremony.
7. I also viewed pictures of floral
arrangements designed and created by Ms. Stutzman,
which are attached as Exhibit 1 to the Declaration of
Barronelle Stutzman.
8. In addition, I reviewed Ms. Stutzman’s
deposition testimony in (1) State of Washington vs.
Arlene’s Flowers, Inc., d/b/a Arlene’s Flowers and
Gifts, and Barronelle Stutzman, Superior Court of the
State of Washington for Benton County, Cause No.
13-2-00871-5; and (2) Robert Ingersoll and Curt Freed

396a
vs. Arlene’s Flowers, Inc., d/b/a Arlene’s Flowers and
Gifts; and Barronelle Stutzman, Superior Court of the
State of Washington for Benton County, Cause No.
13-2-00953-3.
II. ASSUMPTIONS
For purposes of rendering my opinions, I have
assumed the following facts to be true:
9. Barronelle Stutzman is a Christian in the
Southern Baptist tradition.
10. Ms. Stutzman is a florist, and she owns and
works at a florist shop that she operates as a business
for profit.
11. The florist shop is separately incorporated
as Arlene’s Flowers, Inc.
12. The shop has had other florist-employees
who do not necessarily share Ms. Stutzman’s faith,
some of whom have been openly gay.
13. Robert Ingersoll and Curt Freed have been
customers of the shop for some period of time.
14. Ms. Stuzman arranged flowers for Messrs.
Ingersoll and Freed knowing that they identified as
gay.
15. On March 1, 2013, Mr. Ingersoll went to
the shop for the purpose of asking Ms. Stutzman to
design and create floral arrangements for a same-sex
marriage ceremony between him and Mr. Freed. Ms.

397a
Stutzman told him that she could not do it because of
her relationship with Jesus Christ.
16. Ms. Stutzman declined to create the floral
arrangements for the ceremony, based on her
religious belief that marriage should only be between
one man and one woman.
17. Ms. Stutzman and her shop design and
create floral arrangements without regard for the
religious or philosophical beliefs of wedding
participants, as long as the marriage is between one
man and one woman.
18. Ms. Stutzman is willing merely to sell
flowers off the shelf to anyone, even with the
knowledge that the flowers would be used for a samesex marriage ceremony. However, she cannot design
and create floral arrangements for a same-sex
marriage ceremony because she believes that would
be contributing her creative and artistic talents to
support something she believes to be a sin against
God.
19. As of 2006, the law of the State of
Washington prohibits discrimination in public
accommodations based on sexual orientation. As of
2012, the law of the State of Washington defines
marriage as a civil contract between any two persons,
who have each attained the age of eighteen years, and
who are otherwise capable, without regard for their
sex. The State of Washington and private plaintiffs
contend that a florist shop is a public accommodation,
and that declining to create floral arrangements for
use at a same-sex marriage ceremony violates the

398a
legal prohibition of discrimination based on sexual
orientation.
III. SUMMARY OF OPINIONS
20. Floral design artists must include many
creative, artistic and expressive components when
creating floral arrangements. The artist must focus
on a variety of components including, but not limited
to, design, harmony, unity, balance, proportion, scale,
focal point, rhythm, line, form, color, space, depth,
texture, and fragrance. See Exhibit 2, pp. 30-97;
Exhibit 3, pp. 20-37. The artist also often incorporates
the meaning and symbolism of particular flowers in
the arrangements that she creates, which is
especially
the
case
with
wedding
flower
arrangements. The artist harmonizes all of these
components when creating a beautiful custom
arrangement. See Exhibit 4. No floral design artist
will balance these components in precisely the same
manner and clients leave these components largely to
the discretion of the floral design artist.
21. While some florists may not approach their
work as art, a floral design artist like Barronelle
Stutzman strives to incorporate artistic creativity,
originality, custom tailoring, and attention to detail
in designing and creating floral arrangements.
Formal study and training is not necessary to design
such original and expressive work. A floral design
artist displays a high level of talent, emotional and
intellectual investment, and skill. Based on my
experience and observations, Mrs. Stutzman
demonstrates this level of commitment, intention,
and skill when she designs arrangements.

399a
22. As with most artistic mediums, each floral
designer has his or her own style, which expresses
itself in the final creation. Not only does Mrs.
Stutzman express her own unique artistic style, but
Arlene’s Flowers does as well. The shop strives for a
consistency of design and high level of quality. Mrs.
Stutzman confirms that either she or the store
manager review completed wedding floral arrangements to ensure they meet her expectations. This
unique style is evident from my observations and
review of the shop’s work.
23. Florists like Mrs. Stutzman approach their
work as an art form. The art of floral design and
arrangement dates back to ancient times. See Exhibit
5. Floral artists incorporate components of previous
eras and cultures. These components offer a great
variety of creativity and expression thanks to the
evolution of floral design from other cultures.
Similarly, floral design artists like Mrs. Stutzman use
fabrics, pictures, and a variety of other objects to
generate ideas and inspire them to create
arrangements.
24. Wedding floral arrangements require floral
design artists to become even more personally
involved in the creative process and final design. A
floral design artist often forms a personal bond with
clients. This typically occurs through several personal
meetings which results in a floral designer’s feeling
emotionally invested not only in the final floral
creation, but the ceremony. To serve the clients well,
the artist must learn about the couple’s individual
and shared history, their desires, and the particular
wedding dreams and details. The florist attempts to

400a
create a mood or feeling consistent with the
personalities of the couple and to create
arrangements that express the unity of the couple.
While the designer may use books or pictures as a
conversation starter with the couple, she uses their
preferences only as a guide. Ultimately, the
arrangements not only reflect the mood and look
desired by the couple, but also the personal style and
creativity of the artist. The florist’s personal style and
creativity is recognizable from the designs and
arrangements that she creates, and it is common for
those who view the arrangements, especially wedding
arrangements, to ask who created them.
25. The artist’s emotional and creative
investment in the wedding arrangements has nothing
to do with the size or number of the arrangements.
What many clients perceive as the simplest of
arrangements, with very few elements, usually
requires the artist to engage in even more intricate
planning and creativity than larger arrangements.
Regardless of size, weddings require an artist to
meaningfully engage in the creative process. The
floral design artist makes hundreds of decisions that
factor in shapes, shades, colors, stem height,
geometry, flower and foliage availability, physical
location of the arrangements, and the overall
presentation of every vase, flower, and filler, and how
all separate arrangements – from the boutonnieres,
pew markers, table centers, and bouquet – express
their unique elements appropriate for their purpose.
26. Based on my conversations with and
observations of Mrs. Stutzman, I concluded that Mrs.
Stutzman brings intention, passion, and creativity to

401a
the arrangements she creates as a floral design artist,
that she approaches weddings arrangements as an
artist with a particular sense of responsibility and joy
because of the important role she has in helping to
beautify and formalize the wedding ceremony, and
that any custom design wedding arrangement created
by Mrs. Stutzman necessarily requires her to become
emotionally and creatively invested in that
arrangement and ceremony and the final creation
reflects Mrs. Stutzman’s style and expression.
IV. EXHIBITS
The following documents are attached as
exhibits to this declaration:
Exhibit 1

Curriculum
Robbins

Vitae of

Jennifer

Exhibit 2

Norah T. Hunters, THE ART OF
FLORAL DESIGN (Delmar, 2nd ed.
2000)

Exhibit 3

Gary L. McDaniel, FLORAL
DESIGN
&
ARRANGEMENT
(Prentice Hall, 3rd. Ed. 1996).

Exhibit 4

THE LANGUAGE OF POETRY OF
FLOWERS (DeWolfe, Fiske & Co.)

Exhibit 5

Julie Berrall, A HISTORY OF
FLOWER ARRANGEMENT
(The
Saint Austin Press, 1978).

402a
I declare under the penalty of perjury that the
foregoing is true and correct to the best of my
knowledge.
Executed on December 8, 2014.

403a

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WASHINGTON
ARLENE’S FLOWERS,
INC., d/b/a ARLENE’S
FLOWERS AND GIFTS,
and BARRONELLE
STUTZMAN,
Plaintiff,

DECLARATION OF
DAVID MULKEY

v.
ROBERT W. FERGUSON,
in his official capacity as
ATTORNEY GENERAL for
the STATE OF
WASHINGTON,
Defendant.
DECLARATION OF DAVID MULKEY
I, DAVID MULKEY, declare the following
under oath and penalty of perjury of the laws of the
State of Washington.

404a
I. BACKGROUND
1.1
I am a floral design artist and have
served in the floral industry for 6 years.
1.2
I have designed and created flowers for
thousands of customers and for all budgets and types.
I have worked in large and small floral shops.
1.3
I worked as a floral design artist at
Arlene’s Flowers from approximately April 2012 to
August 2012. I now live in San Francisco, California,
where I am a floral design artist. The primary focus
of my business is designing and creating floral
arrangements for high-end clientele and events.
1.4
Because I have family and friends in the
Tri-Cities area, I have returned to the area periodically since then. When I’m in the area for an extended
period, Arlene’s Flowers has asked me to work in the
store particularly during holiday seasons. Most
recently, I worked at Arlene’s for about five months in
the summer of 2012.
1.5
While I disagree with Barronelle
Stutzman’s position on same-sex marriage and I wish
she had not referred the same-sex wedding to another
shop, I had a very positive experience working at
Arlene’s Flowers. It was a pleasant, friendly work
environment. She was a great boss and I enjoyed my
time there. I never witnessed her make unkind,
demeaning, derogatory, rude, or insulting comments
to any employees or customers. Nor did I hear other
employees or customers make those kind of comments
in the shop. I never felt like Barronelle treated me

405a
differently because of my sexual orientation even
though she was very religious. She made no secret of
the fact that she believed her shop was “God’s
business” and that she kept the shop closed on
Sundays because it was “God’s day.” Regardless of her
religious views (or perhaps because of them),
Barronelle is a very kind woman. In fact, she’s one of
the nicest women I’ve ever met.
1.6
Arlene’s Flowers is a fairly standard
shop for a small town. Many of the orders require the
floral designer to follow the FTD instructions and do
not involve custom design work. For standard work,
FTD provides pictures and instructions detailing
what kind and how many flowers to use. Arlene’s
Flowers did receive some custom design orders while
I was there.
1.7
Custom design floral work is truly an art
form, requiring originality and experience. One
cannot create something beautiful without becoming
personally invested in it. That’s true for floral design
as much as any other form of creative expression. The
artist attempts to create a mood or look that will not
only complement other aspects of the event, but also
pleases the customer and the designer. A well-done
custom arrangement requires artistic creativity and
the designer becomes personally invested in the
process. Although the customer pays for the product,
the final floral design is the personal creation and
expression of the artist. While artists who work on
large-scale events may in some cases have more
training or experience, custom design work can occur
at small floral shops, too. What matters is whether

406a
the artist approaches the project with the intention
and commitment to create an original floral design.
Signed at San Francisco, California, this 13 day of
March, 2014.

407a

Kristen K. Waggoner
Rory Gray
Alliance Defending Freedom
15100 North 90th Street
Scottsdale, AZ 85260
(480) 444-0028
Dale Schowengerdt
Alliance Defending Freedom
15192 Rosewood Street
Leawood, KS 66224
(913) 685-8000
Alicia M. Berry
Liebler Connor Berry & St. Hilaire
1141 N. Edison Suite C
P.O. Box 6125
Kennewick, WA 99336
(509) 735-3581
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
WASHINGTON
AT SPOKANE
ARLENE’S FLOWERS,
INC. d/b/a ARLENE’S
FLOWERS AND GIFTS,
and BARRONELLE
STUTZMAN,
Plaintiffs,

Declaration of
Nickole Perry in
support of Motion

408a
v.
ROBERT W. FERGUSON,
in his official capacity as
ATTORNEY GENERAL
for the STATE OF
WASHINGTON,

for Summary
Judgment

Defendant.
DECLARATION OF NICKOLE PERRY
I, NICKOLE PERRY, declare the following
under oath and penalty of perjury of the laws of the
State of Washington.
I. BACKGROUND
1.1
In January 2007, I hired Barronelle
Stutzman and Arlene’s Flowers to arrange the flowers
and floral decorations for my June 1, 2007 wedding.
We later changed the wedding date to September 26,
2008.
1.2
I met Barronelle Stutzman in January
2007 and kept in contact with her until September
2008, when my wedding occurred. Throughout this
time we had periodic meetings where she explained
her communications with vendors and we talked
about various flower arrangement options and prices.
1.3
I grew up in the Tri-Cities area and had
used Arlene’s Flowers for a variety of floral design
projects. I liked Barronelle’s style specifically and

409a
knew I would use her for my to design my wedding
floral arrangements.
1.4
From about January 2007 until
September 2008, I kept in contact with Barronelle
about the wedding arrangements. We met several
times and spoke by phone. The first time we met,
Barronelle asked my fiancé and me a lot of questions
about how we met, our likes an dislikes, things we
appreciated about each other, and unique aspect of
our relationship and personalities. I had the sense
that Barronelle felt it was important to get to know
us well so that she could design arrangements that
celebrated our marriage. Honestly, I was surprised at
how many questions she asked and how engaged she
was in learning about us a couple and our wedding
plans. When we left, there was no question that
Barronelle was really partnering with us to create a
beautiful occasion.
1.5
When I came to Arlene’s Flowers, I saw
a beautiful bridal bouquet in a picture in the wedding
room, and I knew I wanted something similar. I loved
the distinctive look Arlene’s Flowers had created for
the bride in the picture, and I knew I was in good
hands asking Barronelle to use her skills and creativity to arrange the flowers for my wedding.
1.6
In that first meeting, I told Barronelle
that my wedding colors were dark wine, green, and
cream, and she recommended flower options to go
along with these. When I inspected the flowers the
day before my wedding, I loved every bit of
Barronelle’s work. She had listened to all of my
requests and had creatively and beautifully designed

410a
all of the flower arrangements, from my bouquet, to
Aunt Kel’s corsage, to the tall floral centerpieces on
the reception tables.
1.7
For the ceremony alone, Barronelle
came up with thirteen different bouquets, boutonnieres, and corsages to outfit thirty-two people. From
the flower girl to the minister, everyone’s flowers were
beautiful and exactly what I wanted.
1.8
For the reception, Barronelle created
twenty tall table centerpieces, cake table flower
arrangements, large flower arrangements to sit at the
base of a gazebo, and another bouquet for me to throw.
She also acquired accent ferns and pillars and placed
them around the large reception venue. Everything
was put together beautifully, and Barronelle made
sure all of the flowers were set up properly at the
venue.
1. 9 Barronelle was prepared for her role on
my wedding day. She had come to the church with the
delivery trucks to set up the flowers two hours before
the ceremony. She also set up all of the flowers at the
reception venue. Before the wedding, she helped all of
the bridesmaids and groomsmen to get their flowers
pinned and ready, and she was prepared for a floral
mishap too. When my little brother destroyed his
boutonniere before the wedding even started, Barronelle was ready with another one.
1.10 Barronelle was a fantastic florist, but
she was more than that to me on my wedding day. She
was a calming presence. She helped my bridesmaids
and me to relax and laugh a little before we got in line

411a
to enter the church sanctuary. Somehow I had a stain
on my wedding dress, and Barronelle even helped me
clean it off just before I walked down the aisle. She
kept everything running on time, too. Throughout the
day, Barronelle was available to check on all of the
flowers on tables, as I would expect a florist to do. She
went above and beyond by talking to the guests,
helping them feel comfortable, and even calming my
nervous parents! Barronelle also helped at the
reception.
1.11 I don’t know what I would have done
without Barronelle on my wedding day. We received
many questions about who arranged the flowers at
the ceremony and reception. I suspected that selecting my florist was an important decision, but I had no
idea the important role Barronelle would play in
making the day beautiful and run smoothly, and I
know she worked hard to make sure I experienced
love and happiness that day. She truly invested
herself and her artistic skills in designing the floral
arrangements, but also in ensuring the wedding was
a successful celebration of our union as man and wife.
//

I declare under the penalty of perjury that the
foregoing is true and correct to the best of my
knowledge. Executed August 26, 2014.

